<html>
<title> - UNITED STATES MIDDLE EAST POLICY</title>
<body><pre>[Senate Hearing 114-350]
[From the U.S. Government Publishing Office]


                                                    S. Hrg. 114-350

     UNITED STATES POLICY AND MILITARY STRATEGY IN THE MIDDLE EAST

=======================================================================

                                HEARINGS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                MARCH 24; SEPTEMBER 22; OCTOBER 27, 2015

                               __________

         Printed for the use of the Committee on Armed Services
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


        Available via the World Wide Web: http://www.fdsys.gov/
        
        
                                __________
                                
                                
                      U.S. GOVERNMENT PUBLISHING OFFICE
21-401 PDF                     WASHINGTON : 2016                      
______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7f180f103f1c0a0c0b171a130f511c101251">[email&#160;protected]</a>  




  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                               __________

                             march 24, 2015

                                                                   Page

United States Middle East Policy.................................     1

Takeyh, Dr. Ray, Senior Fellow for Middle Eastern Studies, 
  Council on Foreign Relations...................................     4
Pollack, Dr. Kenneth M., Senior Fellow, Foreign Policy, Center 
  for Middle East Policy, The Brookings Institution..............     9
Harvey, Colonel Derek J., USA, Retired, Director, Global 
  Initiative for Civil Society and Conflict, University of South 
  Florida........................................................    21
Rand, Dr. Dafna H., Deputy Director of Studies and Leon E. 
  Panetta Fellow, Center for a New American Security.............    23

                           september 22, 2015

United States Middle East Policy.................................    61

Petraeus, General David H. USA (Ret.), Former Director of the 
  Central Intelligence Agency; Commander, International Security 
  Assistance Force; Commander, United States Forces Afghanistan; 
  Commander, United States Central Command; and Commander, Multi-
  National Forces-Iraq...........................................    66

                            october 27, 2015

United States Military Strategy in the Middle East...............   119

Carter, Hon. Ashton B., Secretary of Defense.....................   123
Dunford, General Joseph F., Jr., USMC, Chairman of Other Joint 
  Chiefs of Staff................................................   127

Questions for the Record.........................................   179

                                 (iii)


.                    
                    UNITED STATES MIDDLE EAST POLICY

                              ----------                              


                        TUESDAY, MARCH 24, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
SH-216, Hart Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Cotton, Rounds, Ernst, Tillis, 
Graham, Reed, Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, 
and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. I thank all the witnesses 
for being here this morning.
    The committee meets today to receive testimony on United 
States policy in the Middle East. This hearing could not be 
more timely, and I want to thank each of our expert witnesses 
for appearing before us today on this critical and complex 
topic: Dr. Ray Takeyh, Senior Fellow for Middle Eastern Studies 
at the Council on Foreign Relations; Dr. Kenneth M. Pollack, 
Senior Fellow for Foreign Policy, Center for Middle East Policy 
at the Brookings Institution; Colonel Derek J. Harvey, U.S. 
Army, retired, Director of the Global Initiative for Civil 
Society and Conflict at the University of South Florida; Dr. 
Dafna H. Rand, Deputy Director of Studies and Leon E. Panetta 
Fellow at the Center for a New American Security.
    Last month, the Director of National Intelligence, James 
Clapper, testified before this committee, ``in my 50-plus years 
in the intelligence business, I don't know of a time that has 
been more beset by challenges and crises around the world.'' 
Nowhere is that truer than in the Middle East.
    From Libya and Yemen, to Iraq and Syria, the old order in 
the Middle East, both the regional balance among states and the 
social order within states, is collapsing and no new vision has 
emerged to take its place. This underlying dynamic is made 
worse by the failure of U.S. strategy and leadership to shape 
events in this vital part of the world for the better. Instead, 
unfortunately, we have too often confused our friends, 
encouraged our enemies, and created a vacuum for hostile states 
such as Iran and Russia and vicious non-state actors such as 
al-Qaeda and ISIL.
    The President stated our goal is, ``degrading and 
ultimately destroying ISIL.'' However, I fear our effort in 
Iraq may be exacerbating the conditions that gave rise to ISIL 
in the first place by overly relying on brutal Iranian-backed 
Shia militias and insufficiently empowering Sunni Iraqis. The 
situation is far worse in Syria.
    The administration has defined its policy in Syria more by 
what it will not do rather than by what end state we aim to 
achieve. The President repeatedly stresses that he will not put 
boots on the ground and that we will not go after Assad. But we 
still do not know whether we will defend the Syrian opposition 
we are training against Assad's barrel bombs. And the 
administration still believes somehow that Assad will negotiate 
his own removal from power, even though conditions on the 
ground do not support it. Our partners are not assured of U.S. 
resolve by statements of what we will not do. And hope in Syria 
or anywhere else is not a strategy.
    Likewise, nuclear negotiations with Iran are clearly 
reaching the end game and we should recall how much we have 
conceded. As Dr. Henry Kissinger testified in January before 
this committee, an international effort supported by six U.N. 
Security Council resolutions to deny Iran a nuclear weapon 
capability has become an essentially bilateral negotiation over 
the scope of that capability. As Dr. Kissinger put it, ``The 
impact of this approach will be to move from preventing 
proliferation to managing it.''
    What has been obscured and possibly downplayed in our focus 
on the nuclear negotiations is the reality that Iran is not 
simply an arms control challenge. It is a geopolitical 
challenge, as we have seen more clearly than ever today.
    In Iraq, the same Iranian-backed Shia militias that killed 
hundreds of American soldiers and marines are dictating the 
battle plans of the Iraqi Government and exacerbating the 
sectarian tensions that first led to the rise of ISIL.
    In Syria, the Iranian-backed Assad regime, together with 
Iranian proxies like Hezbollah, continue the slaughter that has 
killed more than 200,000 Syrians and displaced 10 million more.
    In Yemen, only 6 months after President Obama held it up as 
a successful model of United States counterterrorism, the 
takeover by Iranian-backed Houthis has pushed the country to 
the brink of a failed state and a sectarian civil war, 
strengthening the hand of both al-Qaeda in the Arabian 
Peninsula and Iran.
    And yet, while Iran is increasing the scope and pace of its 
malign activities in the region, there is a dangerous delusion 
that somehow Iran can be a force for good in the region, 
aligning with the United States in the fight against ISIL. For 
example, Secretary Kerry recently said of the Iranian military 
action in Iraq, ``the net effect is positive.'' Similarly, the 
Chairman of the Joint Chiefs, General Dempsey, said, ``As long 
as the Iraqi Government remains committed to inclusivity of all 
of the various groups inside the country, then I think Iranian 
influence will be positive.''
    General David Petraeus gave a realistic picture in a recent 
interview, which is worth quoting in full: ``The current 
Iranian regime is not our ally in the Middle East. It is 
ultimately part of the problem, not the solution. The more the 
Iranians are seen to be dominating the region, the more it is 
going to inflame Sunni radicalism and fuel the rise of groups 
like the Islamic State. While the United States and Iran may 
have convergent interests in the defeat of Daesh, our interests 
generally diverge. The Iranian response to the open hand 
offered by the United States has not been encouraging. Iranian 
power in the Middle East is thus a double problem. It is 
foremost problematic because it is deeply hostile to us and our 
friends. But it is also dangerous because the more it is felt, 
the more it sets off reactions that are also harmful to our 
interests--Sunni radicalism and, if we are not careful, the 
prospect of nuclear proliferation as well.''
    This is a perilous moment in history for a region of 
enormous importance to American national interests. It is clear 
that we are engaged in a generational fight against brutal 
enemies and that defeating these enemies will require clear 
thinking, setting priorities, and a strategy funded by adequate 
resources.
    I look forward to hearing from our witnesses today on these 
important questions.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman, and good 
morning. Let me join Senator McCain in welcoming our witnesses 
and let me thank the chairman for arranging this hearing in the 
lead-up to Thursday's sessions with our combatant commanders 
responsible for Africa and the Middle East. The timing is 
absolutely superb. Both regions are facing critical security 
challenges that will continue to demand our time and 
consideration for the foreseeable future and beyond, and 
hearing from experts outside of our Government is an important 
input into our process.
    Among the most significant issues in the Middle East today 
is whether there will be any nuclear framework agreement 
reached between the P5 + 1 and Iran. The end of March is fast 
approaching and, deal or no deal, the outcome of these 
negotiations will undoubtedly have an impact, not only on the 
international community's relations with Iran, but also 
reverberating across the region, indeed across the world.
    In Iraq and Syria, despite the setbacks that extremist 
fighters have suffered, ISIS remains capable militarily and 
continues to consolidate its power in the region, including 
through the coercion of local populations. Coalition airstrikes 
have enabled Kurdish Peshmerga in northern Iraq and Iraq 
security forces, operating with militia forces north of Baghdad 
and most recently in Tikrit, to begin to retain ground from 
ISIS. But significant concerns remain about the growing 
influence of Shia-dominated militias, many with close ties to 
the Quds Force, and if, when, and how those forces will be 
integrated into the Iraqi security forces or disbanded.
    In addition, increasing reports of human right abuses and 
brutal violence by Shia militias in Sunni communities retaken 
from ISIS control, as has been recently reported in Amerli, 
threaten to exacerbate the sectarian divide in Iraq and 
undermine efforts by the Abadi government to govern more 
inclusively.
    Also of concern is when Iraqi security forces will be ready 
to launch a counteroffensive to retake Mosul and how Iran will 
wield their growing influence inside Iraq.
    In Syria, coalition airstrikes have enabled Syrian Kurdish 
fighters to regain control of Kobani and expand outward, but 
ISIS remains a formidable force. General Nagata will begin 
training the moderate Syrian opposition in the coming month 
and, if successful, over time these forces could further roll 
back ISIS gains and assist the coalition to promote the 
conditions for a political settlement with Assad. I am 
interested in the views of our witnesses on the potential of 
the Syrian training initiative to achieve its objectives and 
the challenges it will face confronting ISIS. I am also 
interested in your assessment as to whether Iran or Russia 
could help facilitate an Assad departure.
    In North Africa, the deadly events in Tunisia last week are 
a reminder that ISIS is bent on expanding its power and 
influence and, despite setbacks, it continues to draw fighters 
to its self-declared caliphate. While we must continue to apply 
pressure on ISIS in Iraq and Syria, I believe it will also be 
critical for the coalition to use diplomatic and other tools of 
statecraft to more strategically counter ISIS's narrative and 
undermine their appeal globally. Over the past week, the world 
has watched the Houthis gain additional territory in southern 
Yemen, and all indications today are that the country of Yemen 
is headed towards a protracted civil war. Given United States 
counterterrorism interests in Yemen, these developments are of 
deep concern and how the United States will adjust our posture 
to ensure our CT operations can continue is an issue to monitor 
closely.
    Thank you again for appearing today, and I look forward to 
hearing from you on these and many other important issues.
    Chairman McCain. Thank you.
    We will begin with Dr. Takeyh. Doctor, thank you.

 STATEMENT OF DR. RAY TAKEYH, SENIOR FELLOW FOR MIDDLE EASTERN 
             STUDIES, COUNCIL ON FOREIGN RELATIONS

    Dr. Takeyh. Thank you, Senator McCain and Senator Reed, for 
having me here today. It is always a pleasure to appear with my 
friends.
    I was asked to try to situate Iran's role in the region as 
the region goes through vulnerable and violent transitions.
    I think it is fair to say--and I am not exaggerating--that 
the Middle East is a region that perennially divides against 
itself. In the past monarchies and radical republics, secular 
ideologues battled for influence. Today, another more durable 
cold war is descending on the Middle East, this time 
underpinned by sectarian identities. Syria and Iraq are a heart 
of this new conflict, pitting Iran and the Shia militants 
against Saudi Arabia and the Sunni sects. The region cannot 
regain its footing unless these civil wars somehow subside.
    More than any country, Iran has always perceived itself as 
the natural hegemon of the region. For the leadership of the 
Islamic Republic, the Arab Awakenings have shaken the 
foundations of the Middle East, making the region more 
susceptible to their inroads. In the Iranian leaders telling, 
America is a crestfallen, imperialist state hastily retreating 
from the region. Today, Tehran does see the United States as 
unable to impose a solution on the recalcitrant regional 
problems. Whatever compunction Tehran may have had about 
American power has greatly diminished over the past years with 
the hesitations in Syria and Iraq. Today, too often our 
redlines are erased as carelessly as they are drawn.
    The fear gripping Arab capitals is that arms control 
agreement with Iran will lead to a detente between the United 
States and Iran. This concern has some justification in fact 
and in history. During the heydays of arms limitation talks 
between the United States and the Soviet Union, nuclear accords 
were often followed by commerce and diplomatic recognition. 
Washington has often been seduced by the notion that a nuclear 
agreement can pave the way for other areas of cooperation. At 
least for now, Iran's leaders abjure such gestures of 
reconciliation, focusing on exploiting opportunities that have 
suddenly appeared and pressing their case in various contested 
areas.
    The Islamic Republic's approach to Iran has undergone, in 
my view, subtle and disturbing changes. The threat from ISIL 
has led Iran to become more transparent and more aggressive in 
its approach to Iraq. Iran has stepped into the many vacuums of 
Iraq organizing its forces, directly defending its key cities, 
and providing indispensable assistance in a timely manner. 
Iranian officers, as was mentioned, are embedded with Iraqi 
units and are leading the campaign against ISIL strongholds. In 
the process, Iran has been instrumental in stemming ISIL 
assaults and may account for the shrinkage of its frontiers. 
However, these successes have come at a terrible cost that 
could endanger the stability of the region and independence of 
Iraq itself.
    Iran's reliance on the Shia militias as opposed to the 
Iraqi army has done much to disquiet the Sunni community, 
further accentuating the sectarian cleavages that divide the 
country. The rise of ISIL has much to do with the Sunni 
community's grievances regarding its marginalization in Iraq 
and elsewhere, such a brazen attempt to empower Shia militias 
at the expense of Iraqi national institutions further threatens 
the cohesion of that country. Although the Iraqi Government led 
by Prime Minister Abadi is concerned about the scope and scale 
of Iran's interventions, it has limited options given the 
forces arrayed against it. The Iranian claim that their 
intervention as opposed to the passivity of the United States 
and Turkey has saved the day does seem to resonate with some 
members of Shia and Kurdish communities.
    Syria has similarly emerged as a centerpiece of Iran's 
regional strategy. Syria's divided ethnicities, a central role 
in Iran's assault on the prevailing Arab order, mean that Assad 
had many more cards up his sleeves. Washington proclaimed a 
goal but failed to plan for the actual removal of Assad. It is 
difficult to predict with any precision how civil wars unfold 
and how they essentially come to an end. By their very nature, 
civil wars are unpredictable phenomena, susceptible to sudden 
shifts and changing fortunes. However, it is not too premature 
to suggest that the morale of Assad forces at this point is 
high while the fragmented opposition is suffering not just from 
lack of arms but also from the absence of international 
patronage. The infusion of Russian arms, Iranian funds, 
Hezbollah troops will ensure that Assad may be well maintained.
    The Islamic Republic's calculations always differed in 
Syria than those of the United States. They were confident that 
Assad could turn back the tide of history if suitably 
supported. To check Iran's power in the Levant, the United 
States has to be a more active player in Syria, as was 
mentioned, and maybe that is going to happen. The challenge 
becomes more difficult every day given the scope and scale of 
the casualties and fatalities.
    The success of United States policy in the Middle East, I 
will finally say, and toward Iran hinges to some extent on the 
nature of the United States-Israeli alliance. Simply put, Iran 
today dismisses the possibility of U.S. military retaliation 
irrespective of its provocations. It is entirely possible that 
Iranians are once more miscalculating and misjudging America's 
predilections. Nonetheless, while the American military option 
has somewhat receded in the Iranian imagination, Israel still 
somewhat looms larger. Fulminations aside, Iranian leaders have 
taken Israeli threats more seriously and are at pains to assert 
their retaliatory options. It is here that the shape and tone 
of Israeli-American alliance matters most. Should the Iranian 
regime see divisions in that alliance, they can assure 
themselves that a beleaguered Israel cannot possibly strike 
Iran while at odds with its superpower patron. Such perceptions 
cheapen Israeli deterrence, diminish the potency of Western 
remaining sticks, and make obtaining a suitable arms control 
agreement even more difficult.
    Thank you.
    [The prepared statement of Dr. Takeyh follows:]

                    Prepared Statement by Ray Takeyh
    More than any other nation, Iran has always perceived itself as the 
natural hegemon of its neighborhood. Iranians across generations are 
infused with a unique sense of their history, the splendor of their 
civilization, and the power of their celebrated empires. A perception 
of superiority over one's neighbors defines the core of the Persian 
cosmology. The empire shrank over the centuries, and the embrace of 
Persian culture faded with the arrival of the more alluring western 
mores, but an exaggerated view of Iran has remained largely intact. By 
dint of their history and the power of their civilization, Iranians 
believe that their nation should establish its regional predominance.
    However, to ascribe Iran's foreign policy strictly to its sense of 
nationalism and historical aspirations is to ignore the doctrinal 
foundations of the theocratic regime. The Islamic revolution of 1979 
left a permanent imprint on Iran's foreign policy orientation. 
Ayatollah Ruhollah Khomeini bequeathed his successors an 
internationalist vision that divides the world between the oppressed 
and the oppressor. Such a view is consistent with Shia political 
traditions where a minority sect struggled under Sunni Arab rulers that 
were often repressive and harsh. Thus, the notion of tyranny and 
suffering has a powerful symbolic aspect as well as practical 
importance. Iran is not merely a nation seeking independence and 
autonomy within the prevailing order. The Islamic revolution was a 
struggle between good and evil, a battle waged for moral redemption and 
genuine emancipation from the cultural and political tentacles of a 
profane and iniquitous West. Irrespective of changing nature of its 
presidents, Iran will persist with its revolutionary and populist 
approach to regional politics.
    For much of the past 3 decades, the Islamic Republic's inflammatory 
rhetoric and aggressive posture concealed the reality of its strategic 
loneliness. Iran is, after all, a Persian nation surrounded by Arab 
states who were suspicious of its revolution and its proclaimed 
objectives. The Gulf sheikdoms arrayed themselves behind the American 
shield, Iraq sustained its animosity toward Iran long after the end of 
its war, and the incumbent Sunni republics maintained a steady 
belligerence. Iran nurtured its lethal Hezbollah protege and aided 
Palestinian rejectionist groups but appeared hemmed in by the wall of 
Arab hostility. All this changed when Iraq was reclaimed by the Shias 
and the Arab Spring shook the foundations of the Sunni order. Today, 
the Guardians of the Islamic Republic see a unique opportunity to 
project their power in a region beset by unpredictable transitions.
    For the Supreme Leader Ali Khamenei Arab Spring means ``a people 
have emerged who are not dependent on America.'' Whatever confidence-
building measures his diplomats might be negotiating in Europe, the 
Supreme Leader insists that Iran is ``challenging the influence of 
America in the region and it is extending its own influence.'' In 
Khamenei's depiction, America is a crestfallen imperial state hastily 
retreating from the region. Today Tehran sees an America unable to 
impose a solution on a recalcitrant Middle East. Whatever compunctions 
Tehran may have had about American power greatly diminished with the 
spectacle over Syria where Washington's redlines were erased with the 
same carelessness that they were initially drawn.
    The key actors defining Iran's regional policy are not its urbane 
diplomats mingling with their Western counterparts in Europe, but the 
Revolutionary Guards, particularly the famed Quds Brigade. For the 
commander of the Quds Brigade, General Qassim Soleimani the struggle to 
evict America from the region began in Iraq. ``After the fall of 
Saddam, there was talk by various individuals that they should manage 
Iraq, but with Iraq's religious leaders and Iran's influence, America 
could not reach that goal,'' proclaimed Soliemani. The struggle moved 
on and today ``Syria is the front-line of resistance.'' For the 
hardliners, the Sunni states attempt to dislodge Assad is really a 
means of weakening Iran. The survival and success of the Assad Dynasty 
is now a central element of Iran's foreign policy.
    The fear gripping Arab capitals is that an arms control agreement 
will inevitably lead to detente with Iran. This concern has some 
justification in history. During the heydays of arms limitation talks 
between the United States and the Soviet Union, nuclear accords were 
often followed by commerce and diplomatic normalization. Washington has 
often been seduced by the notion that a nuclear agreement can pave the 
way for other areas of cooperation. The challenge for the United States 
is to defy its own history. America must find a way to impose limits on 
Iran's nuclear ambitions through negotiations while restraining its 
regional ambitions through pressure. This will require rehabilitation 
of America's battered alliance system in the Middle East. Strategic 
dialogues and military sales can only go so far. Washington's cannot 
reclaim its allies' confidence without being an active player in the 
Syria and Iraq. So long as America exempts itself from these conflicts 
then its other pledges ring hollow to a skeptical Arab audience.

                       iraq: iran's new frontier

    The Islamic Republic's approach to Iraq has undergone a subtle and 
important change. For much of the period in the aftermath of the U.S. 
invasion, Tehran's overriding objective had been to prevent Iraq from 
emerging as the dominant power in the Persian Gulf contesting Iranian 
quest for hegemony. Thus, it was crucial for the theocratic regime to 
ensure the Shia political primacy. However, Iran also guarded against 
any spillover from the enraging civil war that was threatening Iraq's 
cohesion. Dismemberment of Iraq into three fledgling states at odds 
with each other would present Iran with more instability in its 
immediate neighborhood. To pursue its competing goals, Iran embarked on 
a contradictory policy of pushing for elections and accommodating 
responsible Sunni elements while at the same time subsidizing Shia 
militias who are bend on violence and disorder.
    The threat emerging from the Islamic State of Iraq and the Levant 
(ISIL) has led Iran to become much more transparent and aggressive in 
its approach to Iraq. Iran has stepped into the many vacuums of Iraq: 
organizing its forces, directly defending its key cities and providing 
indispensable assistance in a timely manner. Iranian officers are 
embedded with Iraqi units and are leading campaigns against ISIL 
strongholds. In the process, Iran has been instrumental in stemming 
ISIL's assaults and may account for shrinkage of its frontiers. 
However, these successes have come at costs that could endanger the 
stability of the region and the independence of Iraq itself.
    Iran's reliance on the Shia militias as opposed to the Iraqi army 
has done much to disquiet the Sunni community, further accentuating the 
sectarian cleavages that divide that hapless country. Given that the 
rise of ISIL has much to do with the grievances of the Sunni community 
regarding its marginalization in Iraq, such a brazen attempt to empower 
the Shia militias at the expense of Iraqi national institutions further 
threatens the cohesion of that country. Although the Iraqi Government 
of Prime Minister Abadi is concerned about the scope and scale of 
Iranian intervention, it has limited options given the forces arrayed 
against it. Iran's claim that its intervention as opposed to the 
passivity of the United States and Turkey has saved the day does seem 
to resonate with both the Shias and the Kurds.
    To be sure, Iran has even begun reaching out to a segment of the 
Sunni community with its offer of arms and aid. The message of 
assistance is buttressed by the claim that the international community 
and the United States are indifferent to the plight of Iraq. It is best 
for the Sunni community to come to terms with Iraq's new benefactor, 
the Islamic Republic of Iran. This message has thus far not been well-
received by the Sunni leadership. As the result of ISIL's assault and 
Iranian response, Iraq today once more stands divided against itself.
    Yet another disturbing aspect of Iran's machinations in Iraq is its 
plans for the Shia militias potentially beyond Iraq. Iran's model of 
operation in Iraq is drawn from its experiences in Lebanon in the early 
1980s. At that time, Iran amalgamated a variety of Shia parties into 
the lethal Hezbollah. In recent years, Hezbollah has emerged as not 
just Iran's most reliable terrorist ally but an Iranian proxy in 
variety of the region's conflicts. The Hezbollah shock troops have 
appeared not just in Lebanon but also in Syria and Iraq. The purpose of 
Iran's military dispatches and its organization of the Shia militias 
may have been limited to Iraq but as the region further descends into a 
sectarian conflict, these forces may yet serve as an instrument of 
Iranian power throughout the Middle East.

              syria: the epicenter of the new middle east

    The Arab Spring and its promises of peaceful democratic change 
grounded to a halt in Syria. Bashar Assad followed the grisly footsteps 
of his father in massacring his countrymen. The civil war in Syria is 
not just tearing up that country but it is defining the future of the 
region. The Middle East is a region that perennially divides against 
itself. The late Malcom Kerr, one the preeminent historians of the 
region, once described the 1960s as a time of an Arab cold war with the 
monarchies and radical republics struggling against each other. Power 
more so than ideology defined that cold war, thus allowing it to 
gradually fade. Today, a different and a more durable cold war is 
descending on the Middle East, this time underpinned by sectarian 
identities. Syria is at the heart of this conflict, pitting Iran and 
the Shia militants against Saudi Arabia and the Sunni sector. The 
region cannot regain its footing unless the Syrian civil war somehow 
ends.
    In the heady days of the Arab Spring, despots were collapsing with 
alacrity that heartened even the most cynical observers of the Middle 
East. A region known for authoritarian stability was suddenly faced 
with mass protests and calls for democratization that were proving 
successful. ``Assad must go'' was proclaimed from the seat of Western 
chancelleries. How could he not go when the more formidable House of 
Mubarak collapsed with such ease? And how could the president of the 
United States not call for the departure of an adversary after he had 
called for the eviction of America's most trusted ally when he faced a 
popular revolt.
    Still, Syria proved different. Its divided ethnicities, its central 
role in Iran's assault on the prevailing Arab order, mean that Assad 
had many more cards up his sleeves. Washington proclaimed a goal but 
failed to plan for the actual removal of Assad. It is difficult to 
predict with precision how a civil war unfolds. By their very nature, 
civil wars are unpredictable phenomena, subject to sudden shifts and 
changing fortunes. However, it is not too premature to suggest that the 
morale of Assad forces is high while the fragmented opposition is 
suffering not just from lack of arms but also the absence of 
international patronage. The infusion of Russian arms, Iranian funds 
and Hezbollah troops will ensure that Assad is well-maintained. The 
opposition can add to this misfortune the image of Syria's tyrant begin 
accredited by the United Nations for dismantling chemical weapons he 
was not supposed to have, much less use.
    The Islamic Republic's calculations always differed from those of 
the United States. The mullahs were confident that Assad could turn 
back the forces of history. To check Iran's power in the Levant, the 
United States has to an active player in Syria. Through provision of 
arms to reliable rebels, taking a firm stand against Russian and 
Iranian mischief, it is still possible to dislodge Assad from power. 
The challenge becomes more difficult every day. Too many lives have 
already been lost and too much advantage has already been ceded to 
Assad and the Ayatollahs. To reverse this trend will prove a 
formidable, but ultimately, an indispensable task.

                             america's role

    Although the United States has been effective in estranging Iran 
from its European allies and its traditional Russian protector, we have 
played a limited role in affecting Iran's position in the Middle East. 
Beyond arms sales to Arab state and attempts to assuage Israeli 
concerns, we have not undertaken a systematic effort to isolate Iran in 
its immediate neighborhood. Under the rubric of a policy of coercion, 
all of Iran's seeming regional assets have to be contested. From the 
Shia slums of Baghdad to the luxurious palaces of the Gulf, Iran has to 
find a new, inhospitable reality as it searches for partners and 
collaborators.
    The success of America's Iran policy to some extent hinges on the 
nature of United States-Israeli alliance. Simply put, Iran today 
pointedly dismisses the possibility of United States military 
retaliation irrespective of its provocations. It is entirely possible 
that Iranians are once more misjudging America's predilections. 
Nonetheless, while America's military option has receded in the Iranian 
imagination, Israel still looms large. Fulminations aside, Iranian 
leaders take Israeli threats seriously and are at pains to assert their 
retaliatory options. It is here that the shape and tone of United 
States-Israeli alliance matters most. Should the clerical regime sense 
divisions in that alliance, they can assure themselves that a 
beleaguered Israel cannot possibly strike Iran while at odds with its 
superpower patron. Such perceptions cheapen Israeli deterrence and 
diminish the potency of the west's remaining sticks.
    All this is not to suggest that Washington cannot criticize Israeli 
policies, even publicly and forcefully. The ebbs and flows of the peace 
process will cause disagreements and even tensions between the two 
allies. But, as it plots strategies for resuming dialogue between 
Israel and its neighbors, the administration would be wise to 
vociferously insist that the dynamics of Israeli-Palestinian 
negotiations will not affect Washington's cooperation with Israel on 
Iran.
    Despite all professions of common interests and subtle and indirect 
hints of cooperation to come, the Islamic Republic will only alter the 
dimensions of its foreign relations if it is confronted with a dramatic 
threat. As in 2003, Khamenei will be prone to pay a high price for his 
survival. Should we gain sufficient coercive leverage then we will be 
in a position to alter Iran's policies. Under these circumstances, we 
would strive for restricting Iran's nuclear program as opposed to the 
highly problematic task of conditioning its enrichment activities. Iran 
would be asked to cease subverting its neighbors and limit its support 
to Hezbollah and Hamas to political advocacy. Human rights would have 
to assume a high place in our negotiations--Iran must be pressed to 
honor international norms on treatment of its citizens. In the end, it 
is important to stress that the confrontation between the United States 
and Iran is a conflict between a superpower and a third-rate autocracy. 
We should not settle for trading carrots and sticks and hoping for 
signs of elusive moderation from truculent theocrats. A determined 
policy of pressure can still ensure that the Islamic Republic will be a 
crestfallen, endangered and therefore a constructive interlocutor.

    Chairman McCain. Thank you.
    Dr. Pollack?

  STATEMENT OF DR. KENNETH M. POLLACK, SENIOR FELLOW, FOREIGN 
     POLICY, CENTER FOR MIDDLE EAST POLICY, THE BROOKINGS 
                          INSTITUTION

    Dr. Pollack. Thank you very much, Mr. Chairman, Senator 
Reed, distinguished Senators. It is always a great pleasure to 
address this committee, and I thank you for having me back.
    Mr. Chairman, I have prepared written testimony, and I 
would ask that it be entered into the permanent record.
    Chairman McCain. Without objection.
    Dr. Pollack. Thank you.
    With that in mind, I am going to emphasize just four points 
from my written remarks that I think are worth putting on the 
table as part of this conversation.
    The first of them is, of course, the problems Middle East 
were long in the making, and therefore they are unlikely to be 
quick in solving. They reflect, as Senator McCain mentioned in 
his opening remarks, the breakdown of the post-war political 
order. They are a result of the slow failure of the states of 
the Muslim Middle East over the past 20 to 30 years, coupled 
with rather volatile swings in United States policy over the 
last 15 years and most recently a significant American 
disengagement from the region. We need to recognize, as we 
consider how best to reshape our policy toward the region, that 
it is going to take a similarly long-term approach to deal with 
the many problems of the region.
    And here I think it important to note that one of the 
greatest problems that the United States has had when dealing 
with the problems of the Middle East over the past 40 to 50 
years has been that we have consistently and unfortunately 
prioritized short-term political expediency over our long-term 
strategic interests. This is one--not the only, but an 
important element of the chaos and turbulence that we now face 
in the region. And if we are going to be serious about trying 
to guide the region to a better place, one where our interests 
are less threatened and better protected, we are going to have 
to start prioritizing those long-term strategic interests over 
the short-term political considerations.
    Second, al-Qaeda and ISIS and the growth in Iranian 
influence across the region are significant threats to American 
interests, but they are not the core problems of the region. 
They are, in fact, symptoms of the deeper problems of the 
region. As a result of the state failures and American missteps 
in the region, we have seen security vacuums in failed states 
open up in a number of key states. The Iranians and al-Qaeda 
have filled those vacuums. That is what they do. They creep in 
wherever they are able.
    The proper way to fight them, as we should have learned 
from our long experience in this respect, is to fill the 
security vacuums and deal with the failed states. You cannot 
defeat terrorism simply by killing terrorists. It does not 
work. We have to address the underlying grievances that give 
rise to the terrorist problems to begin with, and similarly, we 
need to remember that Iran is itself an alien force in the Arab 
world, which the Arabs will reject if given the opportunity to 
do so.
    I think the best example that this is both the right answer 
and the plausible solution to our problems is provided by our 
experience in Iraq from 2007 to 2009. In 2006, Iraq was in a 
state of complete civil war. The state had broken down. Al 
Qaeda dominated part of it and the Iranians another part of it. 
But finally in 2007, after of litany of mistakes, which the 
members of this committee rightly and regularly criticized, the 
United States finally adopted the right set of policies in 
Iraq. We secured the populace. We forged a new power sharing 
agreement among the warring factions. We brought the alienated 
Sunni community back into Iraq's political system, and as a 
result, we ended the civil war and stabilized the country.
    And the result was that the Iraqis, with considerable 
American assistance, but with them largely in the lead--the 
Iraqis drove out al-Qaeda in Iraq, which had already declared 
itself the Islamic State of Iraq, the precursor of today's 
ISIS. And not only did they drive out AQI, they also drove out 
Iran. In Operation Charge of the Knights and the subsequent 
military operations that followed, Prime Minister Nouri al-
Maliki had a brief moment of real nationalism, and he and his 
people, united, drove out both the terrorists and the Iranians. 
This is the right solution to the problems of al-Qaeda, of 
ISIS, and of expanding Iranian influence in the region.
    Third point. For this reason, the civil wars of the region 
in Iraq, in Syria, in Libya and Yemen, with the threat of civil 
wars breaking out elsewhere, in Jordan, conceivably in Egypt or 
Bahrain, these have to be our first focus. They have become the 
engines of instability in the Middle East. I will say that I 
think that the policy articulated by the President in September 
of 2014 and later elaborated on by Chairman Dempsey before this 
committee several days later is largely the right approach. I 
would agree that that strategy must encompass the termination 
of the Assad regime as well, but broadly speaking, the policy 
articulated by the President and the Chairman are the right 
approaches to dealing with the civil wars, at least in Iraq and 
Syria, which are the two most important of the civil wars we 
face.
    The key question is whether these efforts will be properly 
resourced and implemented by the entirety of the U.S. 
Government. If they are, there is every reason to believe that 
they can work. However, I fear that we are making the same 
mistake that we made in 2001 when we intervened in Afghanistan, 
in 2003 when we intervened in Iraq, in 2011 when we intervened 
in Libya, and again in 2011 when we withdrew from Iraq. And 
that is, we made a major military move unaccompanied by 
concomitant political, diplomatic, and economic measures 
designed to translate military operations into meaningful 
foreign policy achievements.
    We need to remember that the problem of ISIS is bigger than 
just the problems of Iraq and Syria, but so too the problems of 
Iraq and Syria are also bigger than just the problem of ISIS. 
If all we do is defeat ISIS in Iraq and degrade it in Syria, we 
will probably accomplish nothing. It will be back. The civil 
wars there will rage on and new terrorist groups just like them 
will be generated by those conflicts.
    Finally, I think it important to recognize and count in our 
foreign for the fact that we have almost certainly not seen the 
last of the Arab Spring. Unless there is meaningful change, 
political, economic, and social, in the Muslim Middle East, the 
unrest will be back. We do not know when. We do not know how. 
We do not know in what form. But it is highly likely that it 
will return and possibly in more virulent form. This time 
around this wave of unrest left us with four failed states that 
turned into civil wars and a host of even more repressive 
governments and even more vicious terrorist groups than we 
faced before. We cannot know what a next wave will produce.
    But I would simply say in closing that the smartest answer 
that the United States could adopt to that question, to that 
uncertainty is to not run that social science experiment at 
all, but instead to press and to enable the Arab states to 
engage in a process of reform that is the only meaningful 
alternative to repression followed by revolution.
    Thank you, Senator.
    [The prepared statement of Dr. Pollack follows:]

                Prepared Statement by Kenneth M. Pollack
    Mr. Chairman and distinguished Senators, I am honored to be able to 
appear before you to discuss United States policy toward the Middle 
East.
    I came to Washington and began work on the Middle East in the 
United States Government at the end of the Iran-Iraq War. During that 
period, the Middle East has rarely ever seemed ``good'' and only 
briefly ever hopeful, but I have never seen its problems as bad as they 
are now. The region's current dreadful, dangerous situation demands 
that we reassess American policy toward the Middle East to ask how best 
we can secure our interests today, and perhaps help guide the region--
or key parts of it--toward a better future.
    The United States continues to have vital interests in the Middle 
East, and our actions (and inactions) have been an important 
contribution to its present dismal state. The United States was not 
wholly culpable for the current situation in the region, but we were 
also hardly blameless. Many of its problems might have been averted or 
mitigated by different American policies at various points over the 
past 30-40 years. Had we wanted to move the region in a better 
direction, we had many chances to do so. Unfortunately, successive 
American administrations have prioritized short-term expediency over 
long-term strategic benefit, and we missed those opportunities time and 
again.
    To my mind, a concomitant point is that the problems of the region 
did not happen overnight, even if some of their symptoms caught us by 
surprise over the past five years. All of them were long in the making, 
and thus none of them lend themselves to quick fixes. Again, it has 
been the American predilection for quick fixes--for slapping a 
figurative Band-Aid on the latest Middle East conflagration and then 
trying to ignore it--that has brought us to the current state of 
affairs. The problems of the Middle East have become too deep and too 
wide to be treated in such fashion.

                      some historical perspective

    Mr. Chairman, it is of critical importance that we recognize the 
historical forces at work that have brought us to the current 
circumstances in the region. Not as an excuse for an inaction, but 
rather to understand how we got to where we are so that we can better 
understand what will likely be necessary to reach a better future.
    At root, what is going on in the Middle East is the break down of 
the post-World War II order. That, not the borders drawn after World 
War I, is the real source of the problems. After the Second World War, 
the colonial powers of France and Britain were slowly forced to give up 
their control over the states of the region. They were replaced, across 
the Arab world and Iran, by autocracies of two kinds: monarchies or 
secular dictatorships (which we euphemistically referred to as 
``republics''). None of these governments had much legitimacy, even the 
monarchies which generally took power during the inter-war period and 
so had little claim to tradition or longevity.
    Nevertheless, they proved more or less functional for the first 
several decades after the war. All of them developed modest economies 
fueled largely by oil, either directly from their own oilfields or 
indirectly via remittances and aid transfers. All of them featured top-
heavy and deeply corrupt bureaucracies responsible for employing a 
disproportionate share of their workforces. All of them indulged highly 
dysfunctional educational systems that eventually failed to produce the 
kind of innovative labor pool necessary for information-age economies. 
All of them built repressive security institutions that instilled fear 
in their populations and convinced all but the most desperate or 
reckless from protesting against the systems. From the 1940s through 
the 1990s, these regimes clunked along, providing the bare minimum of 
goods and services to their population, often excusing their 
performance by blaming external conspiracies focused on Israel, the 
United States or the West more broadly.
    Beginning in the 1990s, these systems began to come under pressure 
and to fail. Out of control demographics begat workforces too big to be 
employed by the public sector. For a great many Arabs (and Iranians), 
the corruption, incompetence and callousness of the regimes that had 
seemed like bearable problems when times were better, suddenly became 
unbearable as times got harder. The rapid advance of information 
technology enabled economies in East Asia and Latin America to surge 
ahead of the Muslim states, while the proliferation of that technology 
brought home to more and more people in the Muslim Middle East the 
revelation that they were falling behind. In the vast majority of 
cases, the regimes responded by becoming more repressive, crushing any 
who proposed an alternative way of organizing their societies. The 
regimes clung to power, but the repression only intensified the 
unhappiness of their citizens.
    An ``expectations gap'' opened up across the Arab world and Iran, 
between the circumstances that the people found themselves and where 
they believed they ought to be. As it has everywhere else around the 
world and across time, that expectations gap created large-scale 
internal unrest. By the late 1990s, it had already produced attempted 
(but failed) revolutions, insurgencies and terrorism. In the region and 
in the West, many began to call for political, economic and social 
reform in the Muslim Middle East--reform as the only realistic 
alternative to revolution or repression. But those calls were not 
heeded and in 2009 in Iran and 2011 across the Arab world, these 
problems finally exploded in what we call the Green Revolution and the 
Arab Spring.
    Those revolts produced two very different, but equally dangerous 
outcomes. In Libya, Syria and Yemen, the unrest was adequate to destroy 
the control of the old regime. However, because the regimes had 
successfully prevented any alternative conceptions of organization from 
emerging, there was nothing to take their place. They became failed 
states, enabling power vacuums to emerge, which in turn produced civil 
wars among various sub-state identity groups who fought for power, to 
avenge past wrongs, and out of fear that failure to do so would bring 
about their destruction by extremists among the other groups.
    In virtually all of the other Arab states and Iran, the regimes 
were able to stamp out the unrest before it could snowball into 
revolution, but only at the price of even greater repression. In so 
doing, they capitalized on widespread fears that unrest would produce 
chaos and civil war as in Libya, Syria and Yemen. Tolerance for 
repression has some other sources as well. In Morocco and Jordan, the 
monarchs have promised far-reaching (and popular) reforms but have so 
far under-delivered on those promises, while in Lebanon and Algeria, 
the memory of their own previous civil wars has dampened enthusiasm for 
protest.
    But renewed repression inevitably has its price. In places like 
Bahrain and Egypt, it has produced festering discontent and terrorism. 
Many of the other states of the region remain fragile to say the least. 
In Algeria and Jordan, public unhappiness lurks just below the surface 
of public discourse. In Saudi Arabia, the new king, Salman, felt it 
necessary to disburse cash to buy acceptance for his accession in a 
manner reminiscent of Caligula and Nero. Ultimately, repression and 
fear of civil war can only produce a (false) stability for so long. If 
there is not reform, there will eventually be more revolutions, failed 
states, civil wars, insurgencies and terrorism.

                         american disengagement

    There is one last piece of the historical puzzle that needs to be 
put on the table before we can begin to discuss how the United States 
might begin to help the Middle East dig it's way out of it's current 
situation. That is the role of the United States itself.
    Even after the British finally surrendered their colonies in the 
1940s and `50s, London continued to serve as the great power guarantor 
and mediator across the Middle East. In the Persian Gulf, Britain 
protected Saudi Arabia and the small Emirates as they grew into 
important oil producers. London backed the Jordanian monarchy and 
checked the designs of radical regimes from Egypt's efforts in Yemen to 
Iraq's designs on Kuwait.
    Americans did not always like the way that the British oversaw the 
Middle East. The Truman Administration prevented Great Britain from 
overthrowing the Mossadeq government. While the Eisenhower 
Administration turned around and embraced that project, it later 
blocked Britain and France from ousting Gamal `Abd al-Nasser in 1956. 
In part for that reason, when the British announced that they were 
withdrawing from ``East of Suez'' in 1971, the United States was 
reluctant to their place.
    Nevertheless, circumstances forced us to do so. Initially, we tried 
to empower regional proxies--first Israel, then Iran, and then Saudi 
Arabia--to protect American (and Western) interests in the region 
instead. But the Israelis were hated by the Arabs, the Saudis lacked 
the will or the capacity to act decisively, and then the Shah of Iran 
was overthrown in 1979. Indeed, the Iranian revolution proved to be a 
watershed. Our strongest regional ally was replaced by our most 
strident and charismatic foe, Ayatollah Ruhollah Khomeini. The threat 
his revolutionary Iranian state posed to American allies across the 
region forced the United States to become militarily involved in the 
Persian Gulf for the first time, a commitment expanded when Iran's 
defeat (with American assistance) in the Iran-Iraq War created the 
opportunity for Saddam Husayn to invade Kuwait and pose a different, 
but equally dangerous threat to the region's vital oil exports.
    And so Washington, finally shouldered the burden once borne by 
London. The United States became the ultimate guardian of the region's 
oil flows, the mediator of many of its disputes, the deterrent to its 
worst threats. The true hegemon of the Middle East. As part of that 
evolution, American policy-makers increasingly were forced to accept 
that the region's internal politics were important to American 
interests because internal problems could affect regional stability and 
its oil exports.
    Of course, in the aftermath of the 9/11 attacks, the Bush '43 
Administration attempted to eradicate some of the region's problems 
permanently by military force. Their invasions of Iraq and Afghanistan 
may have been well-intentioned (or not, as historians will ultimately 
decide) but they could not have been more poorly executed. The result 
was two long and painful wars that created a public desire to diminish 
America's role in the Middle East, if not end it altogether.
    The Obama Administration took office determined to make that wish 
reality to the maximum extent possible. The United States disengaged 
from Iraq pell-mell, quickly undoing much of the progress painstakingly 
achieved in 2007-2009. Elsewhere across the region, the United States 
absented itself from myriad other events. Washington stopped pressing 
for political and economic reform among the Arab states, turned its 
back on the Arab-Israeli peace process, and allowed civil wars to erupt 
and spread unchecked. When the Green Revolution broke out in Tehran and 
the Arab Spring spread across the region, Washington offered thin 
rhetorical support but nothing of substance.
    Ultimately, however, the Da'ish (or ISIS or ISIL or Islamic State) 
offensive of June 2014 that overran Mosul and much of northern Iraq 
forced the United States to recognize that it had swung the pendulum of 
American involvement with the Middle East too far in the opposite 
direction from the militarized interventions of the Bush '43 era, 
toward an equally dangerous isolation from the region. President 
Obama's decision to re-intervene militarily in August and his shift in 
strategy declared in September 2014 were critically important steps in 
the right direction, although there is still a great deal to be done to 
turn his statements into concrete programs in both Iraq and Syria.
    Ultimately then, the problems of the Middle East can be traced back 
to a combination of the breakdown of the internal order of the region 
as the semi-functional autocracies established after World War II have 
slowly grown ever more dysfunctional, coupled with the withdrawal of 
its traditional great power hegemon. Stabilizing the region will mean 
dealing with both of these problems, although neither lends itself to a 
simple turning back of the clock. However, even before these major 
tasks can be contemplated, there is a more immediate priority: dealing 
with the failed states/civil wars that have become the key drivers of 
instability in the Middle East.

               dealing with the civil wars of the region

    Today, the principal source of the turbulence and violence 
threatening the Middle East are the four civil wars currently raging in 
Iraq, Syria, Yemen and Libya. Before the United States can start to 
address the deeper problems of the failure of the Muslim Middle Eastern 
state system, it first needs to help mitigate or eliminate these 
engines of instability.
    Some of these civil wars threaten U.S. interests directly. In 
particular, Iraq and Libya are important oil producers. All of them 
threaten U.S. interests indirectly, by breeding vicious terrorist 
groups, generating millions of refugees that threaten to overwhelm 
neighboring states, radicalizing regional populations and potentially 
sucking their neighbors into interventions they cannot win. Indeed, 
historically, civil wars have had a bad habit of causing civil wars in 
neighboring states as well as metastasizing into regional conflicts.
    Moreover, civil wars have proven historically difficult to contain. 
I think it worth noting that the Obama Administration, despite all its 
rhetoric to the contrary, pursued a determined policy of containment 
toward the Syrian civil war until spillover from that civil war (in the 
form of Da'ish) helped push Iraq back into civil war. At that point, 
the Administration rightly recognized that containment of the Syrian 
civil war had failed and the United States would have to adopt a more 
pro-active policy to try to bring about an end to the conflict--and to 
the renewed civil war in Iraq it helped rekindle.
    It is an unfortunate reality that it is widely believed that it is 
impossible to do anything about ``somebody else's civil war.'' A well-
developed body of historical scholarship on civil wars demonstrates 
that while it is not simple or straightforward for a third party to end 
a civil war peacefully, it is hardly impossible. Indeed, the policies 
articulated by President Obama on Iraq and Syria in September 2014 
conform nicely to the lessons of this history, and therefore should 
give us some confidence that they are feasible, if properly resourced 
and executed.
    Iraq.  In Iraq, as I and others have reported, the narrow military 
effort to defeat Da'ish is going quite well. The real problems, 
including with the military piece, are largely political. As is well 
understood at this point, Iranian-backed Shiite militias are playing an 
outsized role in Iraq's military victory, frightening the Sunni 
populace they are meant to liberate with the specter of ethnic 
cleansing. The militias need to be corralled by Iraqi Army formations, 
preferably guided by American advisors accompanying them in the field. 
That will require further development of Iraq's security forces and 
additional American advisors.
    Of equal or greater importance is to forge a new power-sharing 
arrangement between the Sunni and Shiite Arab communities as the United 
States did in 2007-2008. Too often, the Obama Administration has 
dismissed this as a luxury, an academic nicety rather than a practical 
necessity. They are wrong. Without such a new power-sharing 
arrangement, Iraq's Sunni Arabs will have no sense of the Iraq they are 
being asked to fight for. They have no intention of going back to 2011, 
when a Shiite prime minister manipulated Iraq's existing political 
structure to repress their community. Without such a power-sharing 
agreement, Iraq's Sunnis are likely to resist the central government by 
force, and in doing so will open the door once again to Da'ish.
    Although I could make many additional points about what is needed 
to translate battlefield victories into meaningful political 
achievements in Iraq, I will add just one more. This is the need for a 
thoroughgoing reform of the Iraqi Security Forces to turn them back 
into the apolitical and largely professional force they had become by 
2009--before former Prime Minister Maliki politicized the officer corps 
and turned the army into an incompetent, sectarian tool for his own 
narrow political agenda. Doing so will require retaining an American 
training and advisory presence--along with all of their support 
forces--for a decade or more. But it is absolutely critical to ensure 
that Iraq has a reasonably strong and independent military that can be 
counted to protect all of its minorities and see that the terms of the 
new power-sharing arrangement is honored by all sides.
    Syria.  Addressing the problems of the Syrian civil war is even 
harder. Unlike in Iraq, the Asad regime is deeply unpopular with the 
majority of the population but the opposition is badly fragmented and 
dominated by Sunni extremists. In these circumstances, the Obama 
Administration's stated policy is arguably the only course of action 
that makes sense given the unique history of Syria and the general 
history of civil wars. The United States should not want to see either 
the Asad regime or the Sunni extremists prevail because they can only 
do so by mass slaughter and the victory of either would then create new 
threats to U.S. allies. However, the current moderate Syrian opposition 
is too weak, too fractious and too vilified to serve as the foundation 
for a viable third force. Consequently, the United States will have to 
build a new Syrian opposition army--something we have done with success 
elsewhere. \1\ Moreover, we will have to provide it with extensive 
training, a full panoply of weaponry (including some armor and 
artillery), and the backing of a major United States air campaign as we 
did for other indigenous opposition armies in Kosovo, Afghanistan and 
Libya.
---------------------------------------------------------------------------
    \1\ For a more extensive explanation of this strategy and why it 
could succeed in accomplishing American objectives in Syria, see 
Kenneth M. Pollack, ``An Army to Defeat Assad: How to Turn Syria's 
Opposition Into a Real Fighting Force,'' Foreign Affairs, Vol. 93, No. 
5 (September/October 2014), pp. 110-124.
---------------------------------------------------------------------------
    While this strategy certainly can succeed in ending the fighting 
and compelling a new power-sharing agreement that would stabilize the 
country, it is not going to be easy. It will take a long time and will 
require a sustained American commitment throughout. And this is the 
great question mark hanging over the Administration's approach to 
Syria. The military program to recruit, train and equip a new Syrian 
opposition army has proceeded painfully slowly. The process of creating 
a corresponding political framework is even further behind. Indeed, it 
is virtually non-existent. Finally, while there is an argument to be 
made that progress in Syria can and should follow progress in Iraq, 
waiting too long there will make the Syrian effort far more difficult 
when the United States finally gets around to it, and risks the impact 
of spillover into Jordan, Lebanon, Turkey and back into Iraq--which is 
unlikely to enjoy any post-Da'ish stability if Da'ish continues to have 
a sanctuary next door.
    Libya.  Libya will require an approach much like Syria. It too 
needs a new military, one that is apolitical and professional, capable 
of defeating all of the partisan forces and then serving as the kind of 
strong, institution around which a new political system could be 
organized and enforced. Libya will also require the same kind of power-
sharing arrangement to provide an equitable distribution of power and 
resources among its warring factions (which are primarily geographic--
Cyrenaica vs. Tripolitania, Misrata vs. Zintan--although a secular-
religious divide is being overlaid on these longer-standing divisions).
    Both efforts will require a great deal of external support to 
succeed. The challenge with Libya is that while it is strategically far 
more important than the attention it has so far received, it is not as 
important to American interests as Iraq (and by association, Syria). 
Given the extent of the actual or proposed American commitments to Iraq 
and Syria, it seems unlikely that the United States would make a 
similar effort in Libya.
    That means that Libya must largely be a European undertaking. 
Europe is far more directly affected by the loss of Libyan oil and 
trade and the increase in Libyan refugees. The problem, which this 
Committee understands only too well, is that the Europeans have allowed 
their militaries to atrophy to virtual impotence, and they have shown 
little willingness or ability to harness their economic and diplomatic 
resources for difficult, protracted missions like stabilizing and 
rebuilding Libya. Even though the Europeans would need to furnish the 
bulk of the combat aircraft, trainers, advisors, weaponry, economic 
assistance and diplomatic muscle to stabilize Libya, it will invariably 
require the United States to convince them and enable them to do so. We 
will probably have to provide political leadership, logistical 
assistance, military command and control, and possibly some advisors as 
well if we are to move them to do what is ultimately in their own best 
interest as well as ours.
    Yemen.  Yemen is the hardest of all. It is the home of one of the 
most dangerous al-Qa'ida franchises in the Middle East and the civil 
war has badly disrupted the current American system of suppressing that 
threat. But we cannot wish away the ongoing civil war and ultimately, 
eliminating the threat of al-Qa'ida in the Arabian Peninsula (AQAP) 
will require an end to the civil war itself. The last piece of our 
Yemeni dilemma is that, as dangerous as AQAP may be, it is not so 
dangerous that the American people will countenance an invasion and 
occupation of the country. Nor is Yemen so important as to justify the 
kind of American effort that the Obama Administration has committed to 
in Iraq and Syria. Indeed, given how parsimoniously the Administration 
has resourced its commitments in Iraq and Syria, it seems especially 
unlikely that they will make a simultaneous effort in Yemen.
    Given these difficult realities, America's best recourse in Yemen 
may be to relocate our counterterror assets across the Red Sea to the 
Horn of Africa and try as best we can to contain the Yemeni civil war. 
I recognize that I wrote above that it is very difficult to contain the 
spillover from a civil war, but I simply see no alternative in the case 
of Yemen. The only country willing to intervene in Yemen is Saudi 
Arabia, which probably lacks the capacity to do so effectively. Indeed, 
the greatest danger stemming from the Yemeni civil war may be the 
Kingdom's determination to intervene there to try to stave off 
spillover from the civil war.
    For over fifty years, the Saudis have feared that internal conflict 
in Yemen will infect the Kingdom and spawn a civil war there as well. 
Despite the fact that Yemen has been wracked by internal conflict for 
nearly that entire period and it never has caused internal instability 
in the Kingdom, this has not kept the Saudis from worrying that it 
someday will. These fears have been exacerbated by (exaggerated) 
Iranian support for Yemen's Houthi rebels. Now Riyadh fears that Iran 
is taking over the state on its southern border, to match what the 
Saudis see as an Iranian ``takeover'' of Iraq, the country on their 
northern border.
    There is a real risk that the Saudis will keep doubling down in 
Yemen and in so doing will overstrain themselves--politically, 
militarily and even economically. The Kingdom cannot afford to get 
dragged deeper into a Yemeni quagmire it cannot stabilize on its own. 
This is especially true given the challenges the Kingdom is likely to 
face from historically low oil prices and exorbitant new financial 
commitments in an effort to stave off the Arab Spring. The great danger 
is that the Kingdom could find itself bankrupted and torn apart by an 
endless commitment to a Yemeni quagmire, as Pakistan has been by its 
intervention in the Afghan civil wars.
    The Kurds.  Although the Kurds of Iraq are not in a state of civil 
war themselves, they deserve a special place in our consideration of 
how to deal with the civil wars of the region. In a turbulent part of 
the world, where there are few stable regions and where the United 
States has few friends, the Kurds of Iraq stand out. Although their 
security has been compromised by the Da'ish threat, with American air 
power, weapons and training, they have restored their borders and are 
taking the fight to the enemy. Their economy remains hobbled by graft 
and low oil prices, but they remain relatively better off than most of 
their neighbors--and well ahead of either Syria or the rest of Iraq. 
And while their political system still has a long way to go, there is 
the potential for meaningful progress there and some intelligent and 
enlightened leaders who could show the way if given the tools to do so.
    All of this should make the United States particularly well 
disposed to the Kurds of northern Iraq as we try to stabilize this 
region and prevent the chaos any farther. It would be best--for the 
Kurds, for Iraq and for the United States--if Iraqi Kurdistan were an 
independent nation, but that prospect is at least several years off. In 
the meantime, America's interests argue for expanding a strategic 
partnership with the Kurds to include additional military, diplomatic 
and economic aid. As long as Kurdistan remains a formal part of Iraq 
and as long as the Iraqi government is one that the United States will 
want to continue to back, doing so will require constant diplomatic 
balancing with the sovereign Iraqi government. However, we should think 
creatively and lean forward in assisting the Kurdistan Regional 
Government with its priorities, even as we also push them to move in 
the directions critical for our own interests.

                 the twin challenges of da'ish and iran

    One of the worst mistakes that the United States appears to be 
making in its policies toward the Middle East is to focus them on the 
twin threats of Da'ish and Iran. There is no question that both seek to 
harm American interests, and quite possibly the American people 
themselves. Neither has our best interests at heart and both have shown 
the willingness to attack Americans whenever it suits their purposes.
    But it would be disastrous to make them the centerpiece of our 
Middle East policy. Both Da'ish and the spread of Iranian influence are 
symptoms of the problems of the region, NOT the problem itself. As my 
friend Vance Serchuk--once a staffer to this committee--recently put 
it, wherever the United States has allowed a security vacuum to open up 
in the Middle East, that vacuum has been filled by Iran and al-Qaeda. 
That has proven true in Iraq, in Syria, in Yemen and partially in Libya 
(where Iran has not yet found a foothold.) That same competition is 
also threatening fragile states like Lebanon and Bahrain.
    It is distressing to see the United States endlessly repeat the 
same mistakes. In 2001, the Bush Administration foolishly declared a 
``War on Terrorism.'' After 14 years, that war has failed to eradicate 
terrorism and even failed to eradicate al-Qaeda, the principal target 
of that effort. That is not surprising. You cannot fight terrorism 
simply by killing terrorists. One hundred years of history has made 
that abundantly clear. And yet, in 2014, the Obama Administration 
declared war on Da'ish (or ISIL as it prefers to call the group). The 
war on Da'ish is just as misguided as the Bush Administration's War on 
Terrorism.
    Terrorist groups are nothing but violent revolutionaries. Killing 
terrorists, while often a necessary component of any strategy is also 
insufficient to eradicate the problem of terrorism. Only by eliminating 
the underlying grievances that feed the movement is it possible to do 
so. That is why the only place where the United States ever 
successfully ``eradicated'' al-Qaeda (and then only temporarily) was in 
Iraq in 2007-2010. We did so by addressing the basic problems of the 
country: securing the populace, forging an equitable power-sharing 
arrangement and division of economic resources, bringing Iraq's 
alienated Sunni community back into the fold, and building a largely 
apolitical military. The group once known as al-Qaeda in Iraq (which 
had already declared itself the Islamic State of Iraq, or ISI) was only 
saved from oblivion by the civil war breaking out in neighboring Syria.
    The United States government needs to recognize that the problem of 
Da'ish is bigger than just the problems of Iraq and Syria, but so too 
the problems of Iraq and Syria are bigger than just the problem of 
Da'ish. The United States must fashion a policy to heal the civil wars 
in Iraq and Syria to drive Da'ish out of these countries. That is the 
ONLY way to do so. Even if we inflict a catastrophic military defeat on 
Da'ish in both countries, if we do not address the problems of their 
civil wars, Da'ish--or something just like it--will be back within a 
year or two. However, as we should have learned in Iraq, if we end the 
civil war, the terrorists will be forced out. While they will doubtless 
find homes in other regional civil wars, failed states and failing 
states, removing them from Iraq and Syria would be an important step in 
the right direction.
    The same logic applies to Iran's expanding influence as well. Too 
often, Americans portray the Middle East as a chess match between 
Washington and Tehran--with all of the other countries and players 
reduced to pieces on the board. That is a dangerously misguided 
analogy. Iran is not controlling events in the region and is mostly 
reacting to them. It has undoubtedly made very significant gains over 
the past 2-4 years. Today, Iran wields more influence in Iraq than at 
any time since the Ottoman conquest of Mesopotamia. Its allies hold 
sway in Lebanon, are the strongest force in Yemen, and are making a 
modest come back in Syria.
    However, it is absolutely critical to recognize that these Iranian 
gains have all come as a result of failed states and civil wars which 
the Iranians took advantage of exactly as al-Qaida and Da'ish have. 
Once again, the best way to diminish and eliminate Iranian influence in 
these places is to end the civil wars. Once again, Iraq furnishes the 
best example. In 2008-2009, it was the Iraqis who drove Iran from Iraq 
just as they effectively drove out AQI. Once the United States finally 
established security and forged a new power-sharing agreement among 
Sunni and Shiite Arabs, it was the Iraqis (with considerable American 
assistance) that drove Iran's principal remaining ally, Muqtada as-
Sadr's Jaysh al-Mahdi militia, first from Basra, then Qurnah, Amarah, 
Kut and Sadr City itself. By the beginning of 2010, Iran had virtually 
no influence in Iraq because Iraqis felt strong and united in a new 
sense of nationalism. (Unfortunately, that would collapse after the 
2010 elections when the United States failed to enforce the rules of 
the democratic system, which then allowed Iranian influence back in).
    Both Da'ish (and al-Qaeda) and the spread of Iranian influence are 
threats to American interests because these groups continue to define 
themselves as enemies of the United States. But we make two disastrous 
mistakes in thinking that they are the sources of our problems in the 
region and that the best way to address them is to attack them 
directly. History has demonstrated that it is possible to fight 
terrorism and roll back Iranian influence. But the best and only 
realistic way to do so is to heal the hurts of the region, rebuild its 
failed states and end its civil wars. Those are the open spaces that 
both AQ/Da'ish and Iran exploit. Protect those spaces, and neither will 
find the soil to grow or spread.

                          resurrecting reform

    Beyond ending the civil wars currently roiling the region, the 
United States must also push forward policies that will help avoid the 
creation of new failed states and new civil wars--recognizing that both 
the Sunni terrorists and the Iranians will be doing the opposite in 
hopes of creating new hosts to infect. This means embracing the cause 
of political, economic and social reform in the Muslim Middle East that 
the United States has toyed with for decades, but never made more than 
a half-hearted commitment.
    The political, economic and social grievances that gave rise to the 
Green Revolution and the Arab Spring have not gone away. They have been 
temporarily suppressed. They will be back. We don't know when and we 
don't know in what form, but they will undoubtedly be back. And a 
critical goal of American policy moving forward must be to guard 
against that day heading it off as best we can by pushing the states of 
the region to adopt reform, not repression, as the only viable long-
term solution.
    The United States should not avoid the need for political reform 
simply because it is hard to accomplish. The Middle East is in such bad 
shape because it is at the beginning, not the end, of a regional 
movement demanding political change. The more stridently governments 
resist reform, the more violence there will be. We can try to put off 
the inevitable but ignoring the need for real change will mean that 
change, when it inevitably comes, will be violent, producing new 
revolutions, failed states, civil wars and other problems for the 
United States and its allies. We cannot avoid the wider set of 
underlying economic, political and social problems that were the 
ultimate cause of the Arab Spring and the civil wars it inadvertently 
produced. If we are to avoid worse, reform is the only path out.
    That is a simple statement and unquestionably the right answer for 
the states of the region to avoid further civil wars and internal 
unrest. But it is wicked hard in practice. Having come through the 
searing events of 2011, many of the Arab regimes that survived have 
concluded that any reform would only encourage greater demands for 
change that could easily escalate out of control--producing the 
revolts, state collapse and civil war that they (and we) fear. They 
aren't entirely wrong. Reform that is handled badly--too fast, too 
slow, too narrow, too wide--can produce exactly that dynamic. No reform 
at all, however, is a recipe for disaster.
    As a final point on the issue of the importance of reform, it is 
worth noting the exception to the regional rule. Alone among the states 
of the Muslim Middle East, Tunisia has embraced dramatic reform and 
begun a difficult process of real democratization. It has already 
survived multiple crises where it might easily have veered back toward 
dictatorship and repression (as Egypt unfortunately has). If its 
transition is successful, it could prove to be a useful example for 
other states to follow--the first Arab democracy.
    That is a potentially transformative role, one that the United 
States should nurture. The opposite is also true: were Tunisia to fail, 
it would be taken by many as a sign that political pluralism and free-
market economics are impossible in the Muslim Middle East, thus 
generating renewed support for repression as the only alternative. For 
both of these reasons, the United States, and the West more broadly, 
have a huge stake in the success of Tunisia. Even in an era of 
shrinking foreign aid budgets, Tunisia is a wise investment and 
potentially our best bet.
    Moreover, other small states with the potential to move further 
down the path of reform--like Morocco and Jordan--could be usefully 
persuaded to do so with the promise of more generous aid. Again, these 
are exactly the kind of investments in the future of the Middle East 
that can only pay off in the long run, but are in fact the only 
potential solutions for the deep-seated problems of the region that 
simply cannot be solved by quick fixes.

                   reaching out to other great powers

    Although the United States can and should swing the pendulum of 
American involvement in the region back toward the center, as the Obama 
Administration has already begun to do, this cannot be the only answer 
to our problems. Ending the civil wars of the region and pushing the 
Arab states to embrace the long process of meaningful political, 
economic and social reform is not going to be easy. Executing and 
enabling such policies will require real resources, and a commitment 
maintained over years if not decades. While public opinion polls 
indicate considerable willingness on the part of the American people to 
commit resources to the problems of the Middle East, it seems unlikely 
that this nation will make another massive commitment to the Middle 
East, say on a par with the commitment it made to Iraq in 2003-2011, 
anytime soon.
    If the United States is no longer able or no longer willing to bear 
such costs alone, we are going to need to find others to share the 
burden. Certainly, the Europeans can provide some assistance, 
especially in the economic realm. But the Europeans now punch well 
below their weight in all policy spheres and we should not count on too 
much from them. Some regional states can contribute economic resources 
and political clout to certain specific projects, like ending the civil 
war in Syria, but gone are the days when the Saudis would back any 
American project no matter how disconnected from their own immediate 
security concerns. Moreover, even though the Saudis embraced (gradual) 
reform at home under King Abdullah, at the same time they ardently 
pursued counter-revolutionary policies that stifled reform abroad. 
Consequently, we should not assume that the region can do this on its 
own, even with advice, encouragement and pressure from the United 
States.
    For all of these reasons, the United States may have to begin to 
look to new players on the Middle Eastern scene to help advance these 
ambitious, but essential, policy objectives. The two obvious candidates 
are China and India.
    At first blush, this idea may seem ludicrous. The Chinese often see 
themselves as our ultimate rival for global dominance or at least local 
dominance in East Asia. They often ally with odious Middle Eastern 
regimes out of venal self-interest. They try to avoid getting involved 
in the internal affairs of other countries whenever possible and are 
often unmoved by aggressive behavior by anyone other than the United 
States. For its part, India has massive internal issues of its own to 
sort out, has little military capacity, and is locked in a sixty-year 
old struggle with Muslim Pakistan.
    Yet there are other factors that argue entirely in the opposite 
direction. China and India are two of the fastest industrializing 
countries in the world, and are increasingly dependent on Middle 
Eastern oil (far more so than the United States). Their political 
systems require continued economic growth and that economic growth is 
threatened by instability in the oil markets (or just high prices) that 
can be triggered by instability in the Middle East. Thus, the primary 
interest of both India and China in the Middle East is the same as 
America's primary interest there. Moreover, both are developing power 
projection capabilities and increasingly looking to protect their 
interests abroad.
    The trick will be to persuade the Chinese and Indians that while 
they may not care about the internal affairs of the states of the 
Middle East today, they will in the future--and when they do, they are 
liable to wish that they had cared about it all along. What is required 
is to induce Beijing and Delhi to understand that the problems of the 
region are creating chronic internal instability which is ultimately 
the greatest threat to the oil exports of the region.
    If we are able to do so, we will succeed in turning a major 
challenge for our grand strategy into a major asset. If the Chinese and 
Indians (to a lesser extent) insist on seeing the United States as an 
adversary and are willing to associate with states regardless of their 
actions--foreign or domestic--this will greatly complicate the ability 
of the United States to dampen the risk of interstate conflict and to 
press regional regimes to adopt far-reaching reforms. They will always 
be able to hide behind the Chinese, getting what they need from Chinese 
businessmen and using Beijing as a diplomatic and (eventually) military 
counterweight to the United States. Implementing a grand strategy of 
enabling reform in the Muslim Middle East will be that much more 
difficult under these circumstances. However, if we are able to bring 
the Chinese and Indians around, they would then become our allies in 
the same initiative.
    Imagine the impact of these three great powers working in tandem to 
discourage foreign aggression and encourage internal reform? Imagine if 
regional reformers had alternative great power backers (one without the 
taints we have acquired) to turn to for aid in all its forms? Imagine 
if would-be troublemakers met a united front of Washington, Beijing and 
Delhi determined to prevent them from causing mischief? Imagine if 
local regimes found the champions of both East and West determined to 
move them down the path of reform--and willing to help them do so?
    This recognition creates a basis for mutual understanding. If China 
and India acknowledge their own need for greater stability in the 
Middle East to ensure the free flow of oil, but recognize that the 
region is fragile and can be a trap for foreign great powers, then 
Chinese and Indian policymakers may be receptive to an arrangement that 
minimizes great power competition in the Middle East, maximizes 
cooperation, and possibly even establishes a division of labor in which 
the United States continues to play a leading military and political 
role, with economic and diplomatic support from Beijing and Delhi.
    Whereas India is the world's most populous democracy, China itself 
has made only grudging political reforms--and certainly has not 
championed political pluralism abroad. Nevertheless, China's 
ambivalence about democracy probably won't be a serious stumbling block 
to cooperation in promoting internal reform and helping to make that 
possible across the Middle East. The Chinese have demonstrated a high 
degree of cynicism when it comes to systems of government elsewhere, 
showing few reservations about democratization in South Korea, Taiwan, 
Malaysia, and Indonesia, let alone farther afield in Europe, Africa and 
Latin America. As long as a country is doing whatever it is China wants 
and needs, Beijing has typically shown itself willing to tolerate 
political reform.
    Even where China opposes efforts to promote democracy, such as in 
North Korea and Myanmar, its concern is principally with preserving 
regimes friendly to it and avoiding chaotic transitions that could 
affect its interests. The kind of gradual, indigenously-driven process 
of political reform (which may or may not produce true democracy 
depending on the desires of the people themselves) envisioned in this 
grand strategy should be acceptable to the Chinese if they come to see 
it as in their interests because it will ensure long-term stability 
even if comes at the expense of short-term dislocations.
    Persuading China and India to help share the burdens of the Middle 
East will likely consist of more than just compelling conversation. In 
particular, a critical element in making China and India our partners 
in this enterprise will be giving them a role in the Middle East 
commensurate with their growing strength and aspirations. This is going 
to be particularly hard for the United States with regard to China, 
because it is going to mean accepting Beijing as our equal in the 
geopolitics of the Middle East. Rather than making unilateral decisions 
after minimal consultation with our regional allies, Washington will 
have to learn to negotiate common policies with Beijing--and Delhi. It 
will certainly mean lots of painful coordination with other 
governments, whose concurrence will often be vital for the sake of the 
wider partnership if not for cooperation on the specific matter itself. 
It may mean allowing the Chinese and Indians basing rights in the 
region, both so that they feel comfortable that they can protect their 
own interests, and so that they are able to exercise their influence 
jointly with us. It will probably mean agreeing to do some things 
Beijing's way and other things Delhi's.
    All of this would be laborious, frustrating, time-consuming, and 
even enraging for America's leaders and diplomats, but the rewards 
would be well worth the effort. Moreover, they appear increasingly 
necessary given America's diminishing willingness to bear the costs of 
the Middle East on its own.

               the necessity of long-term strategic focus

    I have attempted to cover a lot of ground in this testimony, 
sketching out the framework of a new American grand strategy for the 
Middle East. There is a great deal more that would need to be said to 
explain how these broad approaches could be translated into concrete 
policies. But such a framework is a necessary starting point both in 
building such a program and in debating whether it is the right one for 
the nation. I believe it is, if only because I can think of no other 
that would better suit our interests in the Middle East, our 
circumstances, and the tools and resources we have available to us 
there.
    The one critical requirement of this strategy that I fear we may 
have in inadequate supply is the commitment to see it through. We are 
an impatient people, especially when it comes to the confounding 
problems of the Middle East. We have typically sought to fix a problem 
there, or just fix it-up, and then move on to something we liked more. 
Unfortunately, the history of our involvement in the region since 1971 
has been that every time we have tried this, it has not fixed anything 
at all, and instead the problem has inevitably come back to bite us 
later, and require far more effort and resources to address it then. As 
I have said elsewhere, the Middle East is NOT Las Vegas: what happens 
there does not stay there.
    Nor do its problems admit themselves of quick and easy solutions. 
It took a long time and a lot of disastrous mistakes (by Arabs, 
Iranians, Turks, Israelis, Europeans, Americans and many others) to 
bring the region to its current distressing state of affairs. No 
American strategy is going to change that quickly. While there are 
solutions to the problems we face in the Middle East, they require, 
time, patience and the determination to see them through.
    Mr. Chairman and distinguished Senators, our Founding Fathers 
explicitly created the United States Senate to be the guardians of 
America's long-term good. To ensure that at least some segment of the 
nation's leaders had the perspective and the ability to fight for what 
is in the country's interests beyond tomorrow or even six-months from 
tomorrow. For that reason, I urge you, as you contemplate United States 
policy toward the Middle East to be the voice of strategic wisdom. To 
consider how deep the problems of the region have become, and to press 
for changes in American policy that put in place the long-term shifts 
that will be needed to actually deal with the problems of the region, 
rather than merely trying to paper over them until the next, worse 
crisis engulfs us.

    Chairman McCain. Thank you.
    Colonel Harvey?

 STATEMENT OF COLONEL DEREK J. HARVEY, USA, RETIRED, DIRECTOR, 
GLOBAL INITIATIVE FOR CIVIL SOCIETY AND CONFLICT, UNIVERSITY OF 
                         SOUTH FLORIDA

    Mr. Harvey. Thank you, Mr. Chairman, ranking minority, and 
members of this committee. Thank you for inviting me to 
testify.
    I did not submit prepared remarks, but I am going to make 
some extemporaneous points, and I hope that they are relevant.
    First, I agree with almost everything that has been said, 
so I will just highlight a couple of points about the broader 
regional trends that we need to take into consideration. 
Besides the post-Arab Spring dynamics and the failure of 
governance and institutions, there is a fracturing of society. 
And one of the overarching themes going here is this conflict 
within Islam and a conflict within the Ummah. And it manifests 
itself in several ways. You have the jihadist extremists Sunni-
Salafist approach, a takfiri, annihilationist agenda, which is 
against establishment Islam and the established authorities. 
And that is at one level. But there is also an intra-jihadist 
fight going on, and then there is a Sunni versus Shia fight 
going on at various levels too. And it is at the grassroots 
level, but it is also at a geopolitical level. So you have got 
four clear levels of intra-sectarian conflict going on, and 
then you have an intra-Shia dynamic which is being dominated 
right now by Qom over the Iraq-based Najaf-Karbala view of a 
more quietest approach to Islam.
    And so we have to take this into consideration because it 
is at the heart of how many in the region are looking at this 
through the sectarian divide and the approaches from these sub-
national elements and at the National level. You hear it at the 
senior levels in the UAE, Qatar, and in Kuwait. You also hear 
it across the region in the Levant. So we have to take that 
into consideration.
    Now, very quickly a couple of quick points.
    One, the immediate threat is ISIS, but also an immediate 
threat currently is the encroachment and empowerment of Iran 
across the region, and it is the most dangerous, long-term 
threat. ISIS is not the most dangerous long-term threat, and we 
are misplacing our priorities and we are forgetting about our 
strategic long-term interests in securing an independent, 
sovereign, not-aligned Iraq. Iraq is vital to the stability of 
the region, and we are at deep risk of losing Baghdad today. In 
fact, we may have dug such a deep hole that it is not 
recoverable for us. And I see a similar pattern emerging to 
what we had with the Warsaw Pact, Moscow, and their client 
states, East Berlin, Warsaw, Prague, et cetera where Baghdad, 
Damascus, and Beirut are simply client states of Tehran.
    The current fight against ISIS. I think we are still 
underestimating the deep support that it has, not only in parts 
of Iraq and Syria, but also the empathy that it has in the 
Gulf. The operations against ISIS have had success on the 
margins, along the Kurdish zone, Kirkuk, northern Nineveh. It 
has been clearing in Diyala, the Hamrin Mountains, and pushing 
up the Tigris River. Some localized tactical successes in Anbar 
Province.
    But even when you achieve clearing and holding in these 
places, you are still going to have a residual, deep Sunni Arab 
resistance effort unless there is fundamental change in 
Baghdad. And I think we all understand that. We could be back 
to the days of 2006 with an ongoing industrial strength 
insurgency. And the way this fight has been moving forward in a 
bulldozer-like approach where you demolish a city like Jurf al-
Sakhar, southwest of Baghdad, what has happened in Diyala and 
what appears to be happening in Tikrit--this does not bode well 
for Sunni and Shia relations at the grassroots level.
    Prime Minister Abadi is not sectarian in my judgment, but 
he remains weak and isolated. The Iraqi security forces are 
weak and marginalized in this current construct. Shia militias 
are enhanced in their power and influence, and their loyalty is 
to the Supreme Leader Khamenei and their source of emulation 
Khamenei, not to Najaf, not to Karbala. The one exception in 
this case is the Sadr movement, and that is an area where there 
are some opportunities to reach out for an Iraqi Shia 
nationalist agenda within these militia elements. But we have a 
long and troubled history with the Sadr trend, but I think that 
is one area of some opportunity.
    Tehran's sphere of influence, as I have said, is expanding 
and they have the advantages of proximity, deep knowledge of 
the players in the region, a vital strategic interest in 
achieving their objectives, and a ruthless and committed 
leadership that knows how to work in this environment. And 
those are all things that the United States fails to bring to 
the table and has not brought to the table in recent years.
    The Sunni Arab community is likely weaker and more divided 
than ever in Iraq. Likewise, it is the same thing in Syria. 
Major population displacement is unlikely to be redressed with 
major Sunni communities moving back into these places like 
Sakhar or even in Diyala or eventually Tikrit because there 
seems to be an agenda underway of diminishing, if not cleansing 
major Sunni communities from around the Baghdad belts and the 
approaches into Baghdad in a way to create buffer zones. And 
this is something that has been done in the past, but they are 
just expanding the geographic reach. And General Chisori and 
others from the Qods Force has been orchestrating the same kind 
of effort around Damascus and in other regions of Syria. It is 
a plan that they have and we need to understand how they are 
approaching this.
    Long term, if there is going to be successful 
reconciliation between these communities, there is going to 
have to be an addressing of the disenfranchisement and 
marginalization. That means some kind of local autonomy, a 
national guard, better resource distribution, and rebuilding 
and reinvestment in these Sunni Arab areas. Again, that is 
unlikely to occur under the political dynamics in Baghdad. And 
with the increasing influence of Iran and hard-line Shia, it 
even makes it less likely.
    Lastly, over the last year or more, our engagement in Iraq 
has been insufficient to the task. We remain viewed as a 
peripheral player, hesitant and weak. Without sufficient 
military capabilities invested in this effort in ways that are 
aligned to achieve our political, economic, and diplomatic 
objectives, we are not going to be considered a major player. I 
am not sure we can change our approach at this point in time 
and develop a conceptual approach to our engagement in Iraq and 
execute it effectively to counter the gains made by Iran over 
the last 6 months for sure but how they have been building 
their enterprise there over the last several years.
    We see a cementing of Shia militia relationships from 
Beirut to Syria to Iraq, and these are not just on the military 
side, but they are business, they are economic, partnering 
going on between members of the Maliki family, families in 
Beirut, the Assad family, and others. We could go into great 
detail if one wanted to approach how this cementing of 
relationships is being orchestrated by the Qods Force and MOIS.
    With that, I will just stop, and I am looking forward to 
answering any of your questions.
    Chairman McCain. Thank you.
    Dr. Rand?

STATEMENT OF DR. DAFNA H. RAND, DEPUTY DIRECTOR OF STUDIES AND 
   LEON E. PANETTA FELLOW, CENTER FOR A NEW AMERICAN SECURITY

    Dr. Rand. Thank you very much, Mr. Chairman, Senator Reed, 
members of the committee. Thanks for inviting me to testify.
    I ask that my longer written statement be submitted for the 
record.
    Chairman McCain. Without objection.
    Dr. Rand. Great.
    And shortly I just wanted to focus on the particular 
strategic principles that I believe should guide and inform and 
shape United States foreign policy toward the Middle East and 
North Africa over the near term.
    And I applaud your instinct to hold the hearing on the 
greater question of U.S. Middle East foreign policy because we 
are all so involved in the day-to-day crises.
    I would offer six strategic principles that I believe 
should inform our approach to the Middle East in the near and 
longer terms.
    First, the United States should not shy away from publicly 
and privately articulating its interests and objectives. These 
have endured, surprisingly, despite the tumult in the region. 
They have not changed over time very much, and they include 
protecting the U.S. homeland and its personnel and interests 
abroad; countering radicalization, terrorism, and 
proliferation; and securing the free flow of natural resources, 
commerce, and other goods. The U.S. seeks to protect its 
allies, including the State of Israel, and advance a two-state 
solution to the Israeli-Palestinian conflict. And all these 
goals support U.S. interests while advancing regional and 
international security. The United States also works with the 
governments and people of the region to address public demands 
for education, employment, governance, human rights, and just 
institutions.
    The second principle is that the real and perceived U.S. 
presence in the region matters. Without it, the regional powers 
will try to manage and structure regional order, often working 
at cross purposes with each other and the United States. And 
the best example here is the United States efforts to stand up 
the coalition to combat ISIS in the past 6 months. Here this 
multilateral coalition of over 60 nations, I believe, has 
inserted a degree of management, regional architecture, and 
order to the post-Arab Spring environment. It has generated 
some preliminary positive outcomes. The practical results, of 
course, can be seen in some of the beginning signs of military 
degradation of ISIS, which is still preliminary but 
significant, as well as regional allies' efforts and interests 
in countering ISIS's financing, ideology, and recruitment 
efforts. These gains are very modest, but the fact that the 
Arab allies are working in sync with each other and with the 
United States and other countries is a positive development. 
For example, the Saudis have just invited the Iraqi prime 
minister to visit Riyadh, which is an unprecedented sign of 
diplomatic investment in the new Iraqi Government.
    The third principle is that the United States must seize 
all diplomatic openings and create them as a first resort 
policy. In almost all cases, the alternative to diplomacy 
involves risk, security dilemmas, and greater instability. This 
is true with the current negotiations between the P5+1 in Iran. 
It is also true when it comes to the negotiated end to the 
Syrian civil war and for the pursuit of the final status 
agreement of the Israeli-Palestinian conflict. It is also true 
in Yemen and Libya I will add.
    The fourth important principle is when the United States 
chooses to intervene militarily, judiciously, it must use force 
carefully. U.S. military interventions in the region have been 
most successful when they have involved local partners, when 
the use of coercion is carefully targeted to achieve a defined 
end state, and when the United States makes it clear that it 
has no intention of deploying ground troops semi-permanently in 
the region as the only day-after solution.
    Fifth, the ideal end state for most of our efforts in the 
region involve building partner self-sufficiency, measured by 
the ability and the will of local leaders and their security 
forces to combat mutual threats, joint threats such as 
terrorism and proliferation. The training, equipping, and 
assisting of local partners must be done with an eye for 
shaping how these partners view their own strategy and military 
doctrine, including the threat perception that they hold. While 
building partnership capacity will necessarily focus on the 
measurable military capabilities, ensuring that all partner 
forces act professionally and in a manner consonant with the 
ultimate goal of inclusive governance are equally important 
objectives. U.S. security assistance and training across the 
region must be designed in a manner that reflects these 
particular local challenges.
    And finally, U.S. partners must subscribe to the view that 
it is borne of abundant recent evidence that in this particular 
region stability is borne of governance that is inclusive, 
multi-sectarian, and based on compromise and responsible 
leadership. And this is why Iran may share United States 
concerns about ISIS in Iraq, but ultimately is not an enduring 
partner in the strategic fight against the group in the region.
    Thanks very much. I look forward to your questions on 
specific countries and cases where these principle apply.
    [The prepared statement of Dr. Rand follows:]

                Prepared Statement by Dr. Dafna H. Rand
    Mr. Chairman, Senator Reed, and members of the Committee, thank you 
for inviting me to testify. Events are changing rapidly in the Middle 
East and North Africa (MENA), challenging the pursuit of United States 
interests and values. Often we are mired in the current crisis of the 
moment; this hearing offers an opportunity to consider overall U.S. 
policy objectives in this fluid region, and a strategy to achieve them.

                      assessing regional dynamics

    Any discussion of current and future United States-Middle East 
policy must be founded on a realistic assessment of the regional 
drivers of change. The following four trends have emerged over the past 
decade and, while not exhaustive, they are directly shaping the context 
for how the United States pursues its policy objectives in the Middle 
East and North Africa (MENA).
    First, while it is premature to conclude that the entire nation 
state system has failed across the region, the weakening of central 
government authority is observable in the monarchies, former 
presidential republics, one-party systems, and of course in the many 
states mired in civil conflict. There is a growing contestation of 
power in most MENA capitals, with elites and publics challenging the 
status quo. In some cases, such as in Syria, Iraq, Yemen, and Libya, we 
can visually see the state failure in the large swaths of ungoverned 
territory.
    Elsewhere, evidence of state weakening and de-legitimation may have 
longer term manifestations. In Egypt, for example, despite the strong 
rule of a new strong man, the largest Arab country faces grave socio-
economic problems and a population that will reach 100 million by 
2025.\1\ Egyptians are facing decreased opportunities for free 
expression, organization, and representation, portending poorly for 
future stability. Indeed, the current Egyptian government's approach to 
its political opposition and to domestic counter-terrorism could 
generate new types of terrorist threats, thus weakening the state over 
the medium term.
---------------------------------------------------------------------------
    \1\ Magued Osman, ``Rapid Population Growth Imperils Egypt,'' The 
Cairo Review of Global Affairs, December 16, 2013, http://
www.aucegypt.edu/gapp/cairoreview/pages/articleDetails.aspx? aid=484.
---------------------------------------------------------------------------
    Second, as both a cause and a result of this state weakening, 
social mobilization by non-state actors is rising: individuals, citizen 
groups, tribes, regional blocs, and ethnic and sectarian parties are 
expressing themselves and their identities in an unprecedented way, 
demanding rights, cultural protection, economic opportunity, and 
justice. In some cases, the impact of social media is over-exaggerated, 
but it is true that the rapid increase in Twitter, Facebook, and other 
on-line social media use reflects a yearning for expression by many, 
particularly the approximately 50 percent of MENA citizens who are 25 
years old or younger.\2\ In some cases, social and tribal identities 
are replacing the institutional structures of the state--this is true 
in parts of Syria, Iraq, Libya, and elsewhere. In other cases, 
political parties and factions defined by ethnic and sectarian 
identities are demanding greater rights and, in some cases, autonomy.
---------------------------------------------------------------------------
    \2\ This is a figure cited by the World Economic Forum, in Holly 
Ellyatt, ``Youth Unemployment in Rich Middle East a `Liability': WEF,'' 
CNBC, October 15, 2014, http://www.cnbc.com/id/102088327.
---------------------------------------------------------------------------
    Social mobilization can trigger non-violent protests, as we saw in 
2011, but it also has the potential for violence. A third trend is a 
very real increase in radicalization and terrorism. The Islamic State 
of Iraq and al-Sham (ISIS) is a terrifying organization: it holds 
territory; espouses an ideology that even al-Qaeda finds too violent; 
and is attracting over 20,000 foreign fighters from across the globe to 
fight in Syria and Iraq.\3\ The majority of these foreign fighters are 
coming from the Arab world.\4\ The appeal of this violent, cult-like 
ideology, which encourages attacks against minority groups, women, and 
children and reflects a distorted interpretation of Islam, is alarming. 
It is important to note that while ISIS poses a direct threat to the 
United States, and to its regional partners, radicalization and 
terrorism in MENA is not limited to Sunni jihadists. Indeed, Iranian-
funded terrorism endures and also threatens United States interests and 
allies across the region.
---------------------------------------------------------------------------
    \3\ Nicholas J. Rasmussen, Director, National Counterterrorism 
Center, ``Countering Violent Islamist Extremism: The Urgent Threat of 
Foreign Fighters and Homegrown Terror,'' Testimony to the Committee on 
Homeland Security, U.S. House of Representatives, February 11, 2015, 
http: / / docs . house . gov / meetings / HM / HM00 / 20150211 / 102901 
/ HHRG - 114 - HM00 - Wstate - RasmussenN-20150211.pdf.
    \4\ Richard Barrett ``Foreign Fighters Fighting in Syria,'' The 
Soufan Group, June 2, 2014, http://soufangroup.com/wp-content/uploads/
2014/06/TSG-Foreign-Fighters-in-Syria.pdf.
---------------------------------------------------------------------------
    Unfortunately, social mobilization and radicalization are part of 
the same phenomena, caused in part by inadequate governance and 
institutions, depressed economic opportunity and an absence of 
appropriate jobs, the fracturing of security infrastructures, and the 
appeal of radical jihadism as an alternative ideology and identity. 
These trends were emerging for many years before the Arab Spring; the 
protest movements of 2011 and the state responses to the revolutions 
has accelerated these phenomena.
    Finally, a fourth trend involves the greater activism with which 
the region's powers have responded to the combination of state failure, 
revolution, and radicalism in the post-2011 era. Regional actors have 
tried to manipulate weak and broken states, materially supporting 
proxies in civil conflicts and influencing weak governmental actors and 
parties. Iran has long tried to influence the political system in 
Lebanon, and more recently has expanded its influence into Baghdad and 
Damascus. The weakening and failure of states across the region offers 
Tehran greater opportunities to involve itself operationally in local 
crises, reflected most directly in Iranian military support to the 
regime of Bashar al-Assad.
    Other countries are using their economic wealth, and their 
ideological soft power, to try to influence the outcomes of the 
region's conflicts. For example, since 2011, Turkey, Qatar, and Saudi 
Arabia have all tried to support opposition fighters in the Syrian 
civil conflict. External patronage did not generate coherence, 
cooperation, and moderation among those fighting the Assad regime and 
its proxies. In some cases, when regional powers intervene, they are 
working at cross-purposes, because they often disagree on the role of 
Islam in political life as well as on how--and whether--to establish 
inclusive and pluralistic governance systems.

    u.s. policy in an era of revolution, radicalization, and regime 
                               weakening

    In the face of these trends, and the likelihood that the current 
conditions of ideological and political competition and conflict will 
endure, U.S. strategy in the region need not be overly broad and all-
encompassing. While the United States should not respond to the 
challenges in the region on a case-by-case approach--mainly because 
these conflicts are interconnected--it would be overly simplistic to 
impose a one-size-fits all grand strategy at this moment when the 
region's states are becoming more dissimilar in terms of trajectories 
of democratization, violence, terrorism, and economic conditions.
    Instead, it makes sense to endorse a series of strategic principles 
for the United States to articulate publicly and privately. These 
principles should inform particular U.S. policy approaches to 
individual countries and conflicts. Although in some cases, the United 
States may have to deviate from these principles, it is preferable to 
have a working mission statement for the United States, a cogent 
explanation of what the United States is seeking and how it will pursue 
these objectives. The following strategic principles should guide U.S. 
policy in the near term:
Cleary state U.S. interests and values in the region
    U.S. interests are unambiguous and have not changed significantly 
over time: The United States is protecting the American homeland and 
its personnel and interests abroad; is countering radicalization, 
terrorism, and proliferation; and is securing the free flow of natural 
resources, commerce, and other goods. The United States seeks to 
protect its allies, including the state of Israel, and to advance a two 
state solution to the Israeli-Palestinian conflict. All of these goals 
support U.S. interests and enhance regional and international security.
    The United States works with the governments and people of the 
region to address public demands for education, employment, governance, 
human rights, and just institutions. The United States promotes these 
ideals because they reflect American values. It has also learned that 
the pursuit of the above U.S. interests in this region is inextricably 
tied to--and sometimes depends on--the opportunities afforded to MENA's 
citizens.
Appropriately assess U.S influence, leverage, and leadership
    For decades, many people and governments in MENA have harbored 
unrealistic views about the scope of U.S. influence in the region, 
particularly U.S. policymakers' ability to shape regional events. These 
expectations, and the vision of an omnipotent United States 
masterminding events in the region, are unrealistic. Additionally, they 
do not reflect the American people's desire for cooperation and 
partnership, rather than for control in the MENA region.
    It is equally unproductive, however, to underestimate the 
opportunities for U.S. influence and leverage over events and decision-
making in the region. Despite the challenging environment and the rise 
of new state and non-state actors, the United States can creatively 
deploy its civilian and military toolkit to increase security, 
prosperity, and opportunity. U.S. diplomatic persuasion and its role as 
a leader of international coalitions can prod governments and their 
people to counter threats and to address basic human security concerns. 
In some cases, the United States can prod domestic economic and 
political reforms, particularly when this tough domestic work 
represents a collaboration between the United States, MENA governments, 
local civil society, and the MENA citizens who are advocating for 
change.
    Recent events have shown that U.S. influence may be best achieved 
when the United States mobilizes regional and international coalitions, 
whether the goal is to fight terrorist groups such as ISIS, to impose 
multilateral sanctions against Iran, or to cooperate on threats such as 
cyber and maritime insecurity. In short, the people of the region 
should not overestimate the determinant nature of U.S. Middle East 
policy, even as policymakers in Washington should not underestimate 
U.S. influence in this part of the world.
    Finally, real and perceived U.S. presence in the region matters. 
Without it, regional powers will try to manage and structure the 
regional order, often working at cross purposes with each other and the 
United States Therefore, it is far preferable that the United States 
leads coalitions, such as the current international coalition against 
ISIS, to provide order, direction, and a shared strategic vision. 
Moreover, there is no substitute for the U.S. security guarantor. The 
people and states of the region will increasingly transact economic and 
even security business with other great powers, but will continue to 
look to the United States to provide regional order and leadership.
Align specific policy tools with the U.S. end goal
    The United States must seize all diplomatic openings as a first 
resort, and create diplomatic opportunities were none exist. The United 
States has unrivaled bilateral diplomatic relations with many allies 
and partners in the region, as well as the ability to move other 
international actors to support regional goals, such as preventing 
Iranian nuclear proliferation, reaching a negotiated end to the Syrian 
civil war, or pushing for a final status agreement of the Israeli-
Palestinian conflict. The case for diplomacy is clear: in this region, 
alternatives to diplomacy almost always involve greater bloodshed.
    When the United States chooses to intervene militarily, it must use 
force carefully. U.S. military interventions in the region have been 
most successful when they have involved local partners, when the use of 
coercion is carefully targeted to achieve a defined end state, and when 
the United States makes it clear that it has no intention of deploying 
ground troops semi-permanently in the region as a ``day after'' 
solution. As events in Iraq from 2003-2010 demonstrated, the 
indefinite, unending commitment of U.S. combat troops, deployed in the 
heart of the Arab world, can incite greater anti-American violence and 
redirect the nature of the fighting so that the United States becomes a 
party to the conflict.
    Finally, the ideal end state for most military interventions in the 
region involves partner self-sufficiency, measured by the ability and 
will of local leaders and their security forces to combat mutual 
threats such as terrorism and proliferation. The training, equipping, 
and assisting of local partners must be done with an eye for shaping 
these partners' entire strategy and doctrine, including the state's 
threat perception. While building partnership capacity will necessarily 
focus on the measurable military capabilities, ensuring that all 
partner forces act professionally and in a matter consonant with the 
ultimate goal of inclusive and fair governance are equally important 
objectives. U.S. security assistance and training programs across the 
region must be designed in a manner that reflects the particular, local 
challenges. These include the reasons why local partners may not have 
the will to fight or why partner security forces may be politicized or 
otherwise act unprofessionally.
Define partners and partnerships carefully
    Partners in the Middle East, whether those currently fighting with 
us against ISIS in Iraq and Syria, members of the anti-ISIS Coalition, 
or other longstanding friends and allies share tactical and strategic 
security goals. Partners identify similar threats. As discussed above, 
however, building partnership capacity cannot exclusively focus on the 
technical abilities of regional security forces to fight and use 
American weapons. U.S. partners must subscribe to the view, born of an 
abundance of recent evidence, that in this region stability is born of 
governance that is inclusive, multi-sectarian, and based on compromise 
and responsible leadership. This is why Iran may share U.S. concerns 
about ISIS but cannot be an enduring partner in the strategic fight 
against the group in Iraq and Syria, given its record supporting 
sectarian political parties that do not espouse pluralistic and 
inclusive governance.
    While these principles above are broad, they can guide U.S. policy 
responses to today's crises from Libya to Yemen. There are a few 
immediate implications of the above principles:
    First, U.S. efforts since August 2014 to combat ISIS through the 
efforts of a multilateral Coalition have inserted a degree of 
management, regional architecture, and order to the post-Arab spring 
Middle East and North Africa that is generating many positive outcomes. 
The practical results of U.S. leadership is manifest in the work being 
conducted by the 60-member Coalition, states working in concert to not 
only militarily degrade ISIS but also to train moderate Syrian 
opposition forces and new units of the Iraqi security forces and to 
counter ISIS' financing, ideology, and recruitment efforts.
    Investing U.S. ``skin in the game'' against ISIS is helping to move 
regional partners toward unprecedented support countering foreign 
fighters (i.e. Turkey), countering terrorist financing (i.e. Qatar), 
and bolstering the Iraqi government diplomatically and through 
assistance (i.e. Saudi Arabia). This Coalition alone is not a panacea 
for the problem of ISIS but it represents an effective mechanism that 
is yielding results on the battlefield and in terms of aligning 
strategic goals in regional capitals. The Coalition must be nurtured 
and supported.
    Second, the United States must seize diplomatic opportunities, such 
as the current negotiations between the P5+1 and Iran. In almost all 
cases, the alternatives to diplomacy involve risk, security dilemmas, 
and greater instability. Opponents of diplomacy have not offered a 
persuasive near-term plan for preventing an Iranian nuclear weapon 
without risking potential violence and greater instability for the 
United States and its regional allies.\5\ Similarly, the pursuit of a 
negotiated end to the Syrian civil war and the negotiation of a two-
state solution to the Israeli-Palestinian conflict still offer the best 
pathways for long-term, enduring conflict resolution.
---------------------------------------------------------------------------
    \5\ Daryl G. Kimball, Issue Brief, Arms Control Today, Vol. 7., 
Issue 5, March 5, 2015, http://www.armscontrol.org/Issue-Briefs/2015-
03-03/Netanyahu-On-the-Iran-Nuclear-Issue-A-Reality-Check.
---------------------------------------------------------------------------
    Third, the principles above also point to the right approach to 
countering Iran's network of shadowy militias, action forces, and 
terrorist groups that are contributing to destabilization in the 
region. Iran is not a partner in the work of rebuilding multi-
sectarian, inclusive governing institutions. In some cases, coercive 
measures will be required to counter the Iranian action networks. In 
other cases in order, to prevent Iranian penetration and influence, 
other regional actors, with U.S. support will need to play a direct and 
leading diplomatic and security assistance role. In Yemen, for example, 
the Gulf Cooperation Council (GCC) states led by Saudi Arabia should be 
in the lead, providing security and countering terrorists who are 
stoking ethnic and sectarian bloodshed across the country. The United 
States must publicly and privately support GCC efforts.

                               conclusion

    In short, MENA states and societies are undergoing a decades-long 
process of transformation. This process will continue to be violent and 
non-linear. A U.S. presence and leadership role in the region is 
critical, to managing and containing crises and preventing regional 
competition and disorder. In most cases, diplomatic interventions 
should be a first resort of U.S. policy, but other U.S. tools, when 
deployed carefully and with clear end goals, can help to achieve key 
U.S. interests.

    Chairman McCain. Thank you, Dr. Rand. And I thank the 
witnesses for their important contributions.
    I know the witnesses are aware that General Petraeus made a 
statement in the last few days where he basically stated that 
he believed that Iran was a greater threat long-term in the 
Middle East than ISIS is. Just maybe beginning with you, Dr. 
Takeyh, maybe if you, all the witnesses, respond to General 
Petraeus' statement.
    Dr. Takeyh. Well, I think they are different threats. One 
is also this kind of annihilistic terrorist group that, as was 
mentioned, is borne out of Sunni community's grievances. The 
other is a nation state that has command of nation state 
resources, its economy. It has military and all that. So in the 
long term, I think that is probably a greater threat to the 
stability of the region. When you have a nation state married 
to a revisionist ideology enhancing its military capabilities, 
that will loom over the region for some time to come.
    Chairman McCain. Dr. Pollack?
    Dr. Pollack. Senator, I agree with that statement. I would 
strongly agree with Dr. Takeyh's characterization of it. Al 
Qaeda, ISIS is a terrorist group. It represents an extreme 
element of the Sunni community, one that they may broadly 
sympathize with but they do not necessarily want to represent 
them, let alone to rule over them. Its staying power in the 
region is going to be limited and we have seen it experience 
difficulties. That is not to suggest that it is not a very 
serious threat that needs to be dealt with. It does. But 
exactly as Dr. Takeyh has pointed out--and I think this was 
also the point that Colonel Harvey was making earlier--at the 
end of the day, Iran is a major power in the region. It has the 
capacity to dominate the region and has done so for centuries 
in the past. Ultimately that is a greater threat to the United 
States because it demonstrates a greater ability to control the 
region and to sustain that control over time, if allowed to do 
so.
    Chairman McCain. Colonel Harvey?
    Mr. Harvey. Sir, there are no indications that Iran's 
malign intent in the region vis-a-vis its neighbors has 
shifted. Any beliefs that Iran's agenda in the region is going 
to change based upon reformists taking power as a result of the 
nuclear agreement down the road are probably the same kinds of 
people that would think that a Libertarian candidate in the 
United States could win a presidential election in the next 10 
years. It is not going to happen. The few signs of political 
reformists advancing within the government from academia, from 
economic arena, elsewhere are minor. The hardliners are well 
entrenched, and the system is aligned to keep them that way. We 
see Khamenei posters popping up throughout Iraq. We see them 
posting on their webs in these Shia militias that they are 
going to liberate Shia in Kuwait, in Bahrain, and in the 
eastern provinces. Intent plus capability equals threat. Our 
long-term threat, the current threat is still Iran until we see 
real signs of change.
    Thank you.
    Chairman McCain. Dr. Rand?
    Dr. Rand. The sources of each threat is different. I would 
just highlight something my colleagues have not mentioned, 
which is that ISIS has reinterpreted and distorted even al-
Qaeda's fatwas about killing civilians, you know, giving a free 
reign to its folks to kill women and civilians and minorities. 
There is something new and different and terrifying about ISIS 
that cannot be overestimated. That is that the source of the 
Iranian threat is real and true and has been explained here. I 
see their vision of a winner-take-all governance system as 
deeply terrifying to our goals and our objectives in the 
region.
    Chairman McCain. Thank you.
    Colonel Harvey, you were heavily involved in the surge and 
other activities in Iraq. We now see pictures and publicity 
coverage by the Iranians and others of Soleimani in 
orchestrating and leading the attack on Tikrit. Is this not the 
same guy that sent the copper-tipped IED's into Iraq which 
killed hundreds of American soldiers and marines? And should we 
not be more aware of the malign influence of Soleimani through 
the last--I believe he has been in power for 21 years. And 
would the average Iraqi not believe that it is the Iranians 
that are now coming to the rescue of the Iraqis against ISIS 
and not the United States of America who seems to be observing 
the activities around Tikrit?
    And finally, does the difficulty that they are now 
experiencing in retaking Tikrit not indicate the magnitude of 
the challenge that they face in attempting to retake Mosul?
    Mr. Harvey. Sir, Soleimani and the Iranian Guard corps 
commander Jafari and others have been deeply involved in Iraq 
for the last 6 or 7 months. And for the Shia community and even 
in the Kurdish region, they see that the Iranians have become 
major players and they are contributing on the ground. And the 
publicity and the information campaigns have been really 
effective in my judgment, and Soleimani has taken a front-line 
role in showcasing Iranian presence.
    He is in fact the one that orchestrated the campaign 
against the United States. Iran focused on creating disorder 
and undermining our efforts there--and they are probably one of 
the key reasons that we had such difficulty--and undermined 
domestic U.S. will in that regard. But he has also been deeply 
behind the efforts in Syria and of course in Lebanon. Very 
brutal approaches in orchestrating and conceiving of sectarian 
cleansing, barrel bombs, and that type of thing attacking the 
types of targets and focusing on not going after elements like 
al-Qaeda, Jabhat al-Nusra, and ISIS in order to create this 
picture of either Assad or the extremists, very Machiavellian 
in their approach.
    At the end of the day, Khamenei's access and presence and 
his underlings in the command centers in the 6th infantry 
division, in the 8th infantry division with commandos provides 
them reach and, I think, influence that is going to be far-
lasting. And we just do not have that type of presence or 
capability on the ground. They know how to play in this 
terrain. We have not.
    Chairman McCain. Dr. Rand, maybe we could ask--Dr. Rand, do 
you----
    Dr. Rand. It is an interesting question about whether there 
are any lessons learned from the Tikrit offensive that could be 
applied by the ISF towards the potential battle in Mosul. This 
is, I think, what everyone is watching in the media right now. 
A lot I think will hinge on how the people of Tikrit feel 
liberated, quote/unquote, by these popular mobilization forces. 
There were mixed reports in the media about the response by the 
individual civilians and citizens in Tikrit to the so-called 
liberators.
    I think the ISF and, of course, the units that we are 
training there have learned about this long-term versus short-
term tradeoff in terms of you might have a short term free of 
ISIS, but there could be long-term human rights abuses and 
other grievances that accrue when you are ruled by groups like 
the popular mobilization units.
    Dr. Pollack. Senator, if I could add to this. First of all, 
I think this is a critical issue. I think that what we are 
seeing now is very dangerous. I will just simply add to Dr. 
Rand's point by noting that even if we see short-term success--
and the Iranians are smart about this and the Iraqi allies are 
smart about this--they are trying hard to win hearts and minds. 
But if there is not beyond that a process of reconciliation 
between Iraqi Sunni and Shia, over the long term this is going 
to break down and lead to renewed violence.
    In addition, I think the last part of your question gets at 
a very important issue, which is that while Iran's influence in 
Iraq is now deep and wide--in fact, I would say that it is 
greater in Iraq than at any time since the rise of the Ottoman 
Empire. I do not think that that is an exaggeration--it is not 
permanent necessarily. And there are Iraqi allies that we might 
help to push back on them. And the best we have is Haider 
Abadi. From my conversation with him and from other Iraqis, I 
am convinced that Prime Minister Abadi does not like the 
Iranian presence, would like to see it limited, would like to 
push back on it, but he needs our help. He will be coming to 
the United States in the middle of next month, and this 
provides a terrific, a critical opportunity for the U.S. 
Government to enable him and empower him to be able to push 
back on the Iranians. But he needs resources. He needs the 
support of the United States. He is going to need additional 
American military and civilian assistance, not necessarily 
because he has a specific need for anything, but because he 
needs to demonstrate to his own people and to his rival 
political leaders that he has the full support of the United 
States, that the United States is providing resources just as 
Iran does, and to give him the ability to push back on what the 
Iranians are doing and demonstrate that there is a way to work 
with the United States and people do not need to simply work 
with the Iranians.
    You are absolutely right, Senator. Going around Baghdad 
with signs, as Derek Harvey was pointing out, all proclaim 
Iraq's thanks to Iran for saving them from the ISIS threat. And 
when you speak to Iraqi leaders, across the board they all 
believe that it was Iran who saved them in the summer of 2014, 
not the United States. We have got to reverse that narrative.
    Dr. Takeyh. I agree with Ken in suggesting that the Iranian 
influence may be substantial but not enduring. The Iranian 
model of operation in Iraq is, to some extent, drawn from their 
experiences in Lebanon in the 1980's where they sort of 
amalgamated the Shia political community into a single 
political party and developed a lethal Hezbollah proxy force. 
That is sort of their model in Iraq. Although I think the Shia 
community in Iraq differs from that of Lebanon. It has its own 
sources of emulation. It has its own religious authority. It 
has its own religious hierarchy, and I think it will be prone 
to resist the surge of the Iranian influence in that country 
for all the reasons that Ken suggested and particularly during 
the time of Maliki, 2007-2009, where there was Iraqi leadership 
that put Iraqi nationalism above sectarian identities.
    What I fear is as Iranians are training these Shia 
militias, they are training them today for domestic contests in 
Iraq. Are they going to try to use them as they use Hezbollah 
for transnational purposes, try to deploy them in other places? 
At this point, I do not think they can because there is so much 
work to be done in Iraq, but as the ISIS threat diminishes, I 
think you may see them having plans for those particular 
militias to operate in Syria and operate beyond the boundaries 
of Iraq. And that is something that we should be quite 
concerned about because it is the birth of multiple Hezbollahs.
    Chairman McCain. I thank the witnesses.
    Senator Reed. Dr. Takeyh, you made an allusion in your 
discussion to our ops negotiations during the Cold War with the 
Soviets, and you suggested that there were some collateral 
benefits too. But my sense--and I will ask you--is that those 
negotiations were most specifically focused at reducing nuclear 
threats. In the context of Iran, regardless of whether there 
are any collateral benefits, do you believe it would be useful 
to reach an agreement with the Iranians that can be verifiable 
that would at least check their present nuclear ambitions?
    Dr. Takeyh. I think, as was suggested I think by Dr. Rand, 
the most viable solution to an Iranian nuclear challenge is a 
negotiated one. But it has to be an agreement that has the 
right technological attributes, not just limited to 
verification procedures.
    The dirty little secret about arms control, Senator Reed, 
is that infractions of arms control agreements are difficult to 
prosecute. So you can have a verification regime, but it is 
very difficult to prosecute infractions from the first arms 
control negotiated, the Test Ban Treaty by Kennedy, through all 
the SALT and START agreements to all the framework agreements. 
So we have to be concerned about the components of this 
particular agreement. And I would say there are some 
indications that this is technologically permissive. It 
excludes some key issues from being considered, and therefore, 
not any deal is superior to no deal.
    Senator Reed. No. I think that is a concept that we all 
embrace. We have to look very carefully at the agreement. But 
the issue is if we can get an agreement, which is verifiable, 
which has all the technological issues, that is important in 
and of itself even if it does not immediately reflect a new 
Iran with new openings to the West and less enthusiasm about 
their expansive hegemonic--I am mispronouncing it, but you get 
it--is that fair?
    Dr. Takeyh. I think historically we have looked at arms 
control agreement as precursors to better relationships. That 
is the Americans. Our adversaries have not. The Soviets saw no 
particular contradiction about signing SALT II and invading 
Afghanistan.
    Senator Reed. But nevertheless, we entered these 
agreements. And I think looking back, it materially increased 
our security.
    Dr. Takeyh. I think a good agreement can enhance our 
security. A deficient agreement can substantially detract from 
it.
    Senator Reed. I understand.
    Any other comments on this, Dr. Pollack?
    Dr. Pollack. Absolutely, Senator. I think the point that 
you are making is a very important one because as we assess 
whatever agreement we may get with the Iranians--and I also 
have my concerns about some of the rumors swirling around about 
specifics of it. But nevertheless, we have to assess it based 
on the real alternatives. If we do not get an agreement with 
the Iranians, is it likely that we will be able to force them 
back to the table and get a better one at some later point? I 
remain very skeptical of that. And I think under those 
circumstances, the most likely alternatives will either be 
military action against Iran, which I am on record and I will 
say again I think would be a mistake, a mistake by us and a 
mistake by the Israelis. I do not think it will solve the 
problem. I think it will greatly exacerbate the problem.
    The alternative is that the Iranian nuclear program is 
unconstrained, and under those circumstances, I suspect that at 
some point the Iranians will acquire a nuclear weapon. And if 
that is the case, I think that we will look back and say the 
opportunity that we missed was one that we should not have 
missed.
    Senator Reed. Quickly, any other comments, because I do 
have one other line----
    Mr. Harvey. I think that they are headed to a nuclear 
weapon with the deal or without the deal. That is just my 
judgment from everything I have been looking at with this 
regime unless there is fundamental change in the regime. I am 
concerned about their long-range missile program, their long-
range cruise missiles of about 3,000 miles, and their continued 
efforts to weaponize warheads. There is only one purpose for 
these types of long-range weapons and that is to marry them 
with a nuclear warhead.
    Senator Reed. Dr. Rand, any comments?
    Dr. Rand. I already said on the record that I believe 
negotiations are the best alternative here.
    I would just add that resuming multilateral sanctions is 
going to be very, very difficult in the future, and evidence of 
the previous sanctions regime has shown the importance of 
multilateral sanctions with bilateral U.S. sanctions to really 
maximize the coercion.
    Senator Reed. Let me just turn quickly because all of you, 
both in the comments about Syria and Iraq, have suggested this 
is really a political problem. The kinetics, the military 
operations are critically important to buy time, but we have to 
have--and again, this seems deja vu, deja vu. We have to 
resolve internal conflicts in Iraq between Sunni, Shia, and 
Kurds. We have to resolve the issue in Syria in terms of a 
minority Alawite government and a huge majority Sunni 
population.
    And it begs the question. You know, let us assume that we 
are able to dispose of Assad, get him out, we are able to 
defeat the ISIS threat. The costs, the investment that we are 
going to have to make in both those countries I would assume 
would be staggering. So the good news, if we win--and I think 
this is a question we did not pursue vigorously enough before 
we went into Iraq--is what will be the costs in terms of not 
just resources but commitment of personnel on the ground, 
capacity building of governments. I mean, I was, like Colonel 
Harvey, recently in Iraq and Afghanistan. The capacity of 
ministries to operate is very limited.
    So just quickly, we are talking about if we are pursuing 
this sort of strategy--it is not the quick win, take out these 
militaries, stick somebody in the government. We are talking 
about a multi-trillion dollar enterprise over many years. Is 
that fair?
    Dr. Takeyh. I think, as again Ken suggested, it will take a 
long time to reconstitute these nation states. I think Iraq, as 
bad as it is, is easier than Syria. And I think success of Iraq 
will contribute to success in Syria. Iraq does have ingredients 
of being able to reconstitute itself as a unitary state in 
command of its territory. I think Syria, for all practical 
purposes, will be very difficult to reconstitute Syria as a 
nation state with the sort of a central authority that has all 
the attributes of a national authority that we can think of, 
protecting its borders, ensuring law and order, commerce, and 
all that. So Syria is a much substantial challenge than Iraq 
is. But I think Iraq can contribute to success in Syria.
    Senator Reed. And just before the others comment, let me 
inject something else. This would not be a one-dimensional 
approach by the Department of Defense in terms of--this is 
State Department, AID, the Department of Agriculture, the 
Department of Justice building judicial systems so that if 
sequestration went into effect, our ability financially to 
carry out this grand strategy would be basically mooted.
    Dr. Takeyh. Substantial costs, yes.
    Senator Reed. Dr. Pollack?
    Dr. Pollack. Senator, I want to be careful here. As you 
will remember, I famously went on record saying that I could 
not imagine that the invasion of Iraq in 2003 would wind up 
costing us trillions of dollars. That is because I also could 
not imagine that the Bush administration was going to make the 
parade of mistakes that they made in Iraq, which wound up 
costing us trillions of dollars.
    That said, I am very skeptical of the idea that Iraq and 
Syria will again cost us trillions of dollars. On this, I do 
disagree with you. It is because I think the experience of Iraq 
has illustrated that a great deal of what we did in Iraq was 
probably unnecessary. First, again, so much of what was about 
combat operations that were largely about cleaning up the mess 
that we made starting in 2003. If you think about how things 
might have gone differently if we had done the right thing--
that is, what we did in 2007. If we had done it in 2003, those 
costs would have been dramatically reduced.
    In addition, a lot of what we did on the civilian side was 
not quite germane to the ultimate solution of the problem. I 
want to be careful there. It did buy us Iraq's goodwill after 
having made so many mistakes, but at the end of the day, fixing 
sanitation in Ramadi was not critical to stabilizing the 
country. What was critical to stabilizing the country--and 
incidentally, the historical record of other civil wars makes 
this clear--was, again, securing the population, forging a new 
power sharing arrangement among the warring factions and 
ensuring that there was some entity that can create trust over 
the long term. That is what we need to be going for in Syria. 
That is what we need to be going for in Iraq. As Dr. Takeyh has 
pointed out, as I have said as well, Iraq is going to be 
somewhat easier than Syria because we have got some basis to do 
that in Iraq. But nevertheless, this is mostly about the 
difficulty of creating those processes, none of which ought to 
be that expensive. The big expensive piece for us will be the 
military piece, which is absolutely necessary in both Iraq and 
Syria, and some degree of civilian assistance again, as I said, 
mostly to empower the kinds of actors that we want to help. But 
the lesson we should learn from Iraq is that a lot of the money 
that we wound up spending on Iraqi civilian programs really was 
not a key contributor to what actually created stability there 
in 2007 to 2009.
    Mr. Harvey. Sir, I think I would like to point out one 
thing, and that is in the Gulf, in Jordan and Morocco where we 
did not see the Arab Spring, we have fairly authoritarian 
monarchial governments that are perceived for the most part to 
be legitimate by their populations. I would be very careful 
about what we are seeking in Syria as far as interim steps 
towards some sort of political solution there.
    What we need is capable, possibly authoritarian 
transitional, technical approaches there, bottom-up approaches 
to build the community of interests at the provincial level. 
Top down is a problem, and we have to make sure that we align 
it to the political-cultural dynamic of Syria, and that is 
going to take some hard looking at the demographics and what 
makes sense politically, tribally, et cetera because there are 
a lot of bridges that we could take advantage of once we got to 
the point where we are actually talking about what would it 
look like.
    I think we can diffuse costs regionally and internationally 
because there is interest. Iraq is very much a different story 
because they have got tremendous wealth. Syria does not have 
that kind of wealth.
    And I am doubtful when you look at intervention--and I 
teach a class on intervention--I think we do have to be humble 
about what it is that we can do. Our leadership is absolutely 
critical in shaping it, but at the end of the day, our ability 
to bring the interagency together in a whole-of-government 
approach, to have everything prioritized and to have the 
executive committing political capital to achieve something and 
explain it to the American public, I have doubts about our 
ability to do those things in order to achieve something on the 
ground there.
    Senator Reed. Dr. Rand, quickly please.
    Dr. Rand. I would just add one quick additional point, 
which is the role of allies in the reconstruction or the future 
of Syria and Iraq. As I mentioned, this coalition has 
preliminarily had some success in moving these countries to 
work in sync. And as we know, before this coalition, for many 
years in the Syrian conflict, a lot of the Gulf countries were 
funding opposition forces out of their own bank accounts. So it 
is far better to have a unified, coherent strategy in Syria, 
and there are resources but they just have to be moved through 
a coalition and through leadership. And I believe the United 
States can leverage its leadership role to gain allied support 
for both countries.
    Senator Reed. Thank you very much.
    Senator Inhofe. Thank you, Mr. Chairman.
    Dr. Takeyh and Dr. Pollack, you heard in Senator McCain's 
opening statement the quote by David Petraeus. Do you generally 
agree with General Petraeus in that statement?
    Dr. Takeyh. Yes.
    Dr. Pollack. Yes.
    Mr. Harvey. Yes, Senator.
    Chairman McCain. Do you generally agree, Dr. Rand?
    Dr. Rand. As I said, I think there are different sources of 
the threats.
    Senator Inhofe. Not much has been said about the 
negotiations that are taking place right now, and I will get 
back to that in a minute after asking this initial question. 
But when we had what I thought was really a great speech that 
Netanyahu made when he was over here and was talking about the 
negotiations, what are your feelings about his--how close to 
target was he on the negotiations specifically when he had made 
the joint speech to our House and the Senate?
    Dr. Takeyh. I think actually if you look at the content of 
the speech, the prime minister moved from his previous 
positions of total dismantlement of the Iranian nuclear program 
in a pragmatic way. He is often accused of being a maximalist 
and so on. He actually adjusted his own previous prohibitions 
in order to come closer to what the 5 Plus 1 are negotiating. 
And he established some benchmarks, namely the scope of the 
Iranian nuclear program should be conditioned on its behavior 
in the region, terrorism, and so on. I do not think that is 
what is happening in the negotiations. They are maintaining 
them pretty much on the nuclear issue. So in that sense, his 
attempt to link Iran's nuclear ambitions to its regional 
ambitions is not something that is being upheld by the 5 Plus 1 
in their negotiations. It may be sensible, but it is not 
happening.
    Senator Inhofe. Dr. Pollack, I am just talking about his 
statement to the joint session, not since the election and some 
of the things that are perhaps a little bit different. What do 
you think about his analysis at that time?
    Dr. Pollack. I think the prime minister exaggerated a 
number of different points, and while again I think there is 
truth in logic in them, we also need to be asking the question 
what is practical. As Dr. Takeyh just pointed out, I think that 
the idea of linking the nuclear deal to Iranian behavior 
elsewhere is problematic. And here I would suggest that I think 
that both critics on the left and right are making too much of 
the deal.
    I actually would suggest that we need to think about the 
deal exactly the way the Iranians are. The Iranians are 
portraying this deal as a simple transaction, limits on their 
nuclear program in exchange for sanctions relief. And I think 
they have made it very clear they are not interested in 
anything beyond that. Certainly the Supreme Leader is not. I am 
sure that Foreign Minister Zarif would love a rapprochement, 
but I do not think that that is in the offing because of the 
remarks of the Supreme Leader.
    I think that we need to do the same. I think that we need 
to recognize that there is utility, exactly as Senator Reed's 
questions raised, in having a deal that will provide some 
degree of limits on Iran's nuclear ambitions. I will not 
disagree with Colonel Harvey that I think the Iranians would 
like at some point to have a nuclear weapon, but I think that 
they have made the decision that they do not need an actual 
weapon at this point in time. And what I am looking for is a 
deal that reinforces that inhibition for as long as possible. 
If that is the case, I think that that does remove a very 
important element of the problems in the Middle East including 
those faced by Israel. But we should not assume that our 
problems with Iran go away once the nuclear deal is signed, and 
I think it a mistake for us to be calibrating our responses 
elsewhere in the region under the assumption that we are going 
to have a kinder, gentler Iran after a nuclear deal.
    Senator Inhofe. Yes. Before this hearing, I mentioned to 
you I was going to ask the question about the prediction that 
was made back in 2007 that by 2015 that Iran would have a 
weapon and a delivery system. Here it is 2015. And now you are 
saying you are not convinced that they ultimately want the 
weapon. Is this what you are saying?
    Dr. Pollack. No. What I am saying is I think they do 
ultimately want the weapon. I think that they have decided in 
the short-term not to get it immediately because we have 
created very important disincentives for them to do so.
    Senator Inhofe. Do you think our intelligence back in 2007 
was accurate?
    Dr. Pollack. I do not think that it was wrong. As an old 
intel analyst, I have seen this movie any number of times, 
Senator. I can remember predictions about when Iraq would get a 
nuclear weapon, and they keep moving and they keep moving. And 
we need to assume that the Iranians have some kind of a program 
behind the scenes that has probably been making progress.
    Senator Inhofe. Well, the same with North Korea and others. 
We are always making these predictions.
    Dr. Takeyh, what do you think about what they said back in 
2007 and their intentions, and how close are they today?
    Dr. Takeyh. The intentions of the Iranians to have--
    Senator Inhofe. By 2015, they would have a weapon and a 
delivery system.
    Dr. Takeyh. I think to some extent, the fact that that 
objective was not that--the timeline was not met is a testimony 
to success of export control, sabotage, and sanctions, and what 
the international community has managed to do in terms of 
imposing costs on the Iranian calculation.
    The Islamic Republic deals more in nuclear weapons. To 2 
weeks ago, their former negotiator, who is the current 
representative of the Supreme Leader to the Supreme National 
Security Council, Saeed Habibi, said in an interview in a talk 
at the university that Americans have all these weapons and 
they are objecting to the fact that we want to get enough 
material for one bomb. That was 2 weeks ago. He is not a former 
official. He is the current representative of the Supreme 
Leader to the Supreme National Security Council that makes all 
the decisions regarding nuclear strategy, as well as domestic 
issues.
    No, the question is not intentions. The question is can the 
international community provide obstacles to their intentions. 
And a deal can impose restraints, but it can also serve as a 
pathway. There are problems in terms of a sunset clause, upon 
expiration of which Iran can have an industrial-sized nuclear 
program, similar to Japan and the Netherlands. That is a dash 
to a bomb. There is a problem about the kind of technologies 
that they will have as a residual program. There are problems 
in terms of other aspects of this deal. So a deal can be both a 
restraint that delays the program, but also a pathway that 
makes the march toward that weapon more legal, legitimate, and 
therefore effective. So it is illegal and dangerous, legal and 
longer.
    Senator Inhofe. Well, I am running out of time here, and I 
wanted to get to what is happening right now in Yemen because 
it has been a strategy that the President has talked about for 
a long time. We do airpower. Then we let the other guys get on 
the ground. In fact, this is a direct quote. He said, this 
strategy of taking out terrorists who threaten us, while 
supporting partners on the front lines, is one that we have 
successfully pursued in Yemen. Any comments on Yemen?
    Mr. Harvey. Sir, I think one of the issues we have had is 
focusing almost exclusively on a counterterrorism approach in, 
say, the horn of Africa and in Yemen and not looking at some of 
the wider opportunities, more opportunities we have to engage 
and build up security forces and partnerships in a way to 
solidify governments and address some of the other issues that 
we could have earlier.
    I think right now the problem in Yemen for us is where are 
they headed. It is a large population, about 30 million. It is 
radicalized. You have got the Islamic State, al-Qaeda, Houthis 
backed by Shia there. It is not really a strategic threat to us 
from the Bab-el-Mandeb straits, but from a Saudi perspective in 
the Gulf, it is very, very concerning because of the 
radicalization and the terrorism that can emanate from there.
    Senator Inhofe. Yes. Mr. Chairman, I am going to get some 
questions for the record, so I assume you are going to leave 
that open because I think it is significant. We have all this 
talent here. We need to extract as much as we can. Thank you.
    Chairman McCain. I would like to ask Dr. Rand if she has 
additional response to Senator Inhofe's question.
    Dr. Rand. I think it is an excellent question and it is 
alarming what has happened in the past 2 months. The long-term 
solution or the short-term solution really is a combination of 
counterterrorism and political strategy that involves 
governance and negotiations. And the National dialogue was 
occurring between 2012 and 2014 in Yemen and had international 
buy-in and had neighbor buy-in. The challenge for the U.S. is 
really the risk assessment of placing diplomats and other 
civilians on the ground to work this process. The same reason 
why the U.S. security asking for the embassy to withdraw--other 
Western embassies have withdrawn because of security 
conditions. So it is a dilemma. The solution is a political, 
civilian assistance mission, but the tactics to get there 
requires a risk and that is the calculation the U.S. Government 
has to make.
    Chairman McCain. Dr. Pollack?
    Dr. Pollack. I just wanted to add. Thank you, Senator.
    First, Senator, when I heard the President make that 
statement, I absolutely cringed. It is the worst way that we 
can handle these situations. And as I said, to think that you 
can simply fight terrorism by killing terrorists is an absolute 
mistake, and I would hope that we would have learned that after 
14 or 40 years of trying exactly that approach and failing so 
miserably.
    In the case of Yemen, I think that there were other 
alternatives available in the past, but now we need to accept 
the fact Yemen is in civil war. It is not slipping into civil 
war. It is not on the brink of civil war. This is civil war. 
This what it looks like.
    And to go back to my conversation with Senator Reed just a 
minute ago, solving civil wars is not impossible, but it is not 
easy. It is not simple. It is not fast, and it can be very 
expensive. And while I think that the American interests in 
Iraq and by extension Syria are significant enough to merit 
that kind of an effort there, as President Obama has signed us 
up for, I think rightly so, I am hard-pressed to imagine that 
we are going to make a similar effort in Yemen, which does not 
engage our interests the way that Iraq and Syria do, especially 
when we are making exactly that kind of an effort in Iraq and 
Syria.
    So I think we are going to have to rethink Yemen entirely, 
and to simply say that we need to come up with better 
governance or we need to provide for negotiations, this is not 
going to work. The history of civil wars makes it very clear it 
is not going to work.
    And I will simply say two things about Yemen. One, we are 
going to have to contain the Yemeni civil war as best we can, 
despite the fact that the historical evidence demonstrates that 
it is exceptionally difficult to contain the spillover of civil 
wars. And second, one of the most important things that I would 
argue we need to do is to keep our allies, the Saudis, out. The 
Saudis have an obsession with Yemen and with the notion that 
Yemeni internal instability will affect their own. It has not 
despite the fact that Yemen has been unstable for 50 years. But 
the Saudis cannot help themselves, and I think one of the 
greatest dangers is a Saudi Arabia that is itself facing a 
number of internal challenges will overstretch its resources by 
getting deeply involved in a Yemeni quagmire.
    Chairman McCain. Senator Donnelly, the Saudis look at the 
map and look at where Yemen is situated. I share their 
concerns.
    Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    In regards to Iraq, we are trying to push ISIS back and 
trying to enlist the help of the Sunni moderates. How do the 
Sunni moderates help when it is primarily Iranian Shiite 
militias? And so you are asking them to fight other Sunnis and 
stand with Shiite militias that have attacked their own 
families over the years.
    Dr. Pollack. If I can begin, Senator, I think this is the 
critical question facing Iraq and our efforts there. It is why 
we need to recognize that the key obstacle to be overcome is 
forging a new power sharing arrangement between Sunni and Shia. 
And unfortunately, what I consistently hear from senior U.S. 
Government officials is the sense that this is somehow an 
academic exercise that can follow the successful conclusion of 
the fighting. It cannot. It is a necessary precondition.
    If Sunnis do not know what a future Iraq is going to look 
like, if they do not know what the Iraq they are fighting for 
is going to--how it is going to treat them, if they do not know 
what role they are going to play, what guarantees, what rights 
they are going to have in it, they are not going to be willing 
to fight for that Iraq against what they see as a Shia-
dominated government that has in the past oppressed them. We 
can make short-term gains. They might be able to retake Tikrit. 
They may even be able to take Mosul. The danger is that in 
doing so without that umbrella power sharing arrangement that 
will make all Sunnis comfortable that the future Iraq is one 
that they want to be part of, they will go back to resistance. 
And at some point, they will probably go back to ISIS or al-
Qaeda or some other vicious Sunni group which they do not 
particularly like, but they see as a critical ally in a fight 
against a vicious Sunni government.
    That is how ISIS came back in in 2013 because they saw 
Nouri al-Maliki rip up the hard-won power sharing arrangement 
that we forged in 2008-2009. If we do not have that this time 
around, all of the military gains are likely to prove 
ephemeral, and they are likely to feed a worse civil war in 
Iraq in the future rather than ending the current one.
    Mr. Harvey. Sir, the Sunni leadership is fractured. If you 
look for legitimate leaders, they are at the provincial and 
sub-provincial level. In Baghdad, you have real challenges with 
Sunni coherence and engagement and representation and 
engagement despite the MOD being a Sunni, for example.
    Senator Donnelly. Well, it seems to me, to put it in more 
basic terms for right here, it is like, okay, these are my 
really bad cousins, and I do not like them at all. But you are 
asking for me to join the people I really do not like who live 
in the next town over to go and fight my own cousins. My job is 
to clean up my cousins. It is not their job to come in and 
clean them up.
    So until we figure out the Sunni moderate piece, does it 
not make it extraordinarily difficult to have success? And here 
we are hoping to move out ISIS, and in return, we are looking 
at Soleimani with Shiite militias. And you go, how is that a 
better choice?
    Mr. Harvey. Senator, for the last year we have known, for 
the most part, who the moderate Sunni Arab provincial and sub-
tribal leaders are in these provinces.
    Senator Donnelly. Right.
    Mr. Harvey. We have not been able to deliver. We do not 
have a presence. There is no honest broker on the ground that 
can help build those bridges in an effective way. There has 
been empty promise after empty promise from the prime 
minister's office and others from MOD that they are going to 
provide weapons and arms and munitions effectively to the 
different tribes that have taken up the fight against ISIS, and 
it has not been forthcoming in any significant way.
    Senator Donnelly. Let me ask you this. Abadi may be trying, 
but is he not still surrounded by so many of Maliki's people 
and those are the ones who are still pulling the strings on 
decision after decision?
    Dr. Pollack. I might put it slightly differently, Senator. 
I do not think you are wrong about that, but I just might 
phrase it differently, which is that he does not have his own 
people. This is one of the biggest problems. When you meet with 
Prime Minister Abadi and the people around him, he has got one 
or two guys--and I am not exaggerating--one or two guys who he 
relies on for almost everything. And then those people have----
    Senator Donnelly. Let me ask you this. What would you 
recommend we do there at this point?
    Dr. Pollack. First point. I think that Derek is absolutely 
right about the fragmentation of the Sunni community, but I do 
not think that that is something that either Abadi or the 
Sunnis can overcome themselves. We are going to have to do it. 
This is actually what we did in 2008 where then-Ambassador 
Crocker became the Sunni surrogate in the conversations with 
the Shia. I think the same thing needs to happen this time.
    Second point----
    Senator Donnelly. Do you think that the Iranian nuclear 
discussions are hanging us up in Iraq?
    Dr. Pollack. I think unfortunately they are, and I do not 
think they should. That was my response----
    Senator Donnelly. I am sorry.
    Dr. Pollack.--to Senator Inhofe's question before. I think 
that we need to regard this as a transactional thing, and we 
need to set that aside as----
    Senator Donnelly. One is here. One is here. You do each 
deal----
    Dr. Pollack. Correct, because that is how the Iranians 
treat it. And the Iraqis could not care less about what deal we 
sign with the Iranians. They want to know what the heck we are 
going to do in Iraq and why are we not doing more to help them, 
to help the Iraqis who would like to push Iran back and move in 
the direction we would like them to.
    Point number two is we need to be in a position to empower 
people like Prime Minister Abadi, both helping him create the 
infrastructure to manage the Iraqi Government, but also giving 
him the resources to take action and to demonstrate to other 
Iraqis, who quite frankly are mostly on the fence, that there 
is a reason for coming with him and the American side and not 
simply--
    Senator Donnelly. I am out of time. But I just want to ask 
you real quick. How do you empower the Sunni moderates at this 
point and give them the space to do something?
    Mr. Harvey. I think part of the solution is you have to 
have enough U.S. force presence, credibility, and leadership on 
the ground with a sense that the U.S. will be committed to be 
there over the longer haul. It requires not only a CT presence, 
but it requires some attack aviation, logistics aviation, force 
protection so that we can actually move around the battle space 
and do the engagement and help build these political bridges 
and do the same things we did between the Baghdad government 
and these leaders in these provinces in the past. And you have 
to have a certain amount of presence on the ground to do that. 
We do not have that presence.
    We also need to bring in people that have the experience 
and the ongoing relationships with these people. There are many 
that have those relationships, but they need to be identified 
and selected and brought in to help with this effort.
    Senator Donnelly. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sessions?
    Senator Sessions. Thank you.
    Colonel Harvey, I think you just gave the only real answer, 
solution in Iraq that we have heard. We have got a lot of 
problems, but that is the solution I think.
    Dr. Pollack, you said problems the long in making will be 
long in solving. Just briefly, would you say with the spasm of 
extremism and violence and sectarianism in the Middle East that 
we have to have a long-term policy--I mean 30, 50, 60 years--to 
try to be a positive force in bringing some stability to that 
region? History tells us those spates of violence tend to cool 
off, but often decades in cooling off.
    Dr. Pollack. Yes.
    Senator Sessions. Thank you.
    You said I believe also that the word is getting out that 
Iran saved Iraq. I have a vivid memory of the ambassador to the 
United States from Iraq being pounded by a juvenile CNN 
reporter about why he was taking assistance from Iran. He said 
we want assistance from the United States. This is who we have 
stood with for a long time. We want to be with them, but we 
face an existential threat, and we will have to take the 
assistance wherever we get it.
    And Senator McCain warned in 2011--I do not want to be 
blamed again, but we made a lot of mistakes before 2011. We 
made some after 2011. And I really, really, really believe 
going to virtually zero presence in Iraq was a colossal 
disaster. Go back and read Senator McCain's warnings about what 
would happen if we did that, and it has happened exactly like 
he said to the great tragedy.
    Now, Colonel Harvey, General Stewart, the Defense 
Intelligence officer who was there during the Awakening in 
Fallujah and that area, acknowledged in this committee that if 
we embedded with the Iraqi forces instead of allowing the 
Iranians to be embedded with them, they fight better. They have 
more confidence, that they feel like the operations are better 
planned, that they have air support and smart weaponry that can 
help them if they get in trouble. Do you think even a small 
number of special forces embedded with the Iraqi military 
forces, if we had done that, as they had to, on Tikrit could 
have made a positive difference?
    Mr. Harvey. Sir, I do think it could make a substantial 
difference. One of my concerns right now, though, is that we 
are training a lot of Shia militia that are being integrated 
into some of the training programs separate and apart from the 
training that is going on for Pesh and the Sunnis out in Anbar 
at Al Asad. And I think that is a concern for me.
    The presence of the U.S. at headquarters at the division 
and lower would be much appreciated. I know that there is real 
frustration by Iraqi commanders that they have Asa?ib Ahl al-
Haq or you have got Badr Corps or you have got Kata?ib 
Hezbollah, Shia militia members coordinating their operations 
in their headquarters. And a U.S. counterbalance to that would 
be very welcomed. It would improve their efficiency, their 
capability, their confidence.
    Senator Sessions. Well, General Petraeus said I think at 
the same part of the remarks that Senator McCain quoted--said, 
``as for the United States' role, could all of this have been 
averted if we had kept 10,000 troops here? I honestly do not 
know. I certainly wish we could have tested the proposition.'' 
Do you agree with that?
    Mr. Harvey. I think it would have been very helpful, sir, 
but it requires political engagement and a commitment to 
achieving the objectives that we have laid out----
    Senator Sessions. But, Colonel Harvey----
    Mr. Harvey. If you do not know where you are going, any 
road will get you there, and I am afraid that we have not known 
where we are going with Iraq.
    Senator Sessions. I would certainly agree with that. But in 
2011 we had somehow with American influence negotiated an 
understanding with the Shia and the Sunni and the Kurds. The 
country, as the President acknowledged, was on a sound path. 
When we left, it began to fall apart. We can blame Maliki if we 
want to, which is ultimately the problem, but maybe if we had 
kept our influence there and they knew we were going to be 
there giving them confidence, perhaps they would have stayed 
the course with the progress that had been made by 2011.
    Mr. Harvey. Sir, I think that it would have made a 
difference. It depends upon how you act on the information. We 
had significant early and often warning about the Islamic State 
emerging threat going back to late 2012, 2013. Clearly DIA 
Director General Flynn was highlighting that to the different 
committees. Ambassador Brett McGurk was highlighting the 
deterioration of the situation. Even though you have warning, 
though, you have to have someone who is going to act on it and 
not wish that Iraq would be in the rear view mirror.
    Senator Sessions. Well, it is certainly a complicated 
situation, and it will remain that way for 30-plus years. 
Hopefully not.
    With regard to the--my time is about out, but I will just 
say, Dr. Takeyh, that I do not think any agreement is good in 
itself, as you have indicated. If it leads us to have a 
misunderstanding about what likely is going to occur in the 
future, that would be bad. If Iran continues to maintain its 
determination to go forward with a nuclear weapon, if we reach 
an agreement, our ability to sanctions and other actions could 
weaken and could also cause us to lose credibility in the 
region.
    Senator McCain had a group of observers of smart people 
tell us that they think Iran has no intention whatsoever of 
slowing down its action and that negotiations are simply a way 
to get relief from the sanctions as they continue their plot to 
go forward with a nuclear weapon.
    Dr. Takeyh. Well, I absolutely agree with that, Senator. 
And I think in response to Senator Reed's question, I suggested 
a good agreement is a nice thing to have, but a deficient 
agreement that has residual enrichment capacity, a limited 
sunset clause, does not include the ballistic missiles, does 
not discuss previous military dimensions of the program, upon 
which a viable verification regime can only be built on--even a 
1-year breakout period I do not believe is sufficient. So I 
think if an agreement does not cover all these issues and all 
these concerns in a real viable way, then I am not quite sure 
if any agreement is suitable.
    Senator Sessions. Thank you.
    Chairman McCain. Senator King?
    Senator King. Mr. Chairman, I first want to thank you 
particularly for this hearing but the series of hearings that 
we have had. Abraham Lincoln once said if he was given an hour 
to split a cord of wood, he would spend the first 15 minutes 
sharpening his axe. And that is what we are doing here, is 
trying to think a bit instead of just doing. And I commend you 
for that. In fact, this hearing has helped me to think through.
    Dr. Pollack, I do not know if there is a question buried in 
here. I will it to you to find it. [Laughter.]
    Senator King. But it seems to me that what we are seeing--
you mentioned the phrase, ``I've seen this movie before.'' And 
we have seen this movie, the whole movie before. It was called 
Europe from 1500 to 1950. We have got six historic trends that 
I can see: tribalism to nationalism; autocracy to some kind of 
democracy; economic democracy; number four, corrupt, 
incompetent government to reasonably competent, non-corrupt 
government. And then that is European history. And then we have 
got Sunni and Shia divisions that go back 1,200 years. We have 
got a new division in there. We have got radical Shia. We have 
really got three strains now that are contending. And then on 
top of everything else, we have got Persian-Arab, which goes 
back to Darius the Great. So we are dealing with an 
unbelievably complex series of historic trends that have, in 
fact, played out with catastrophic wars, civil wars. And on top 
of all that, we are watching this play out in a very brief 
period of time with 21st century weapons.
    Am I accurately reflecting all these trends that are 
occurring all at once?
    Dr. Pollack. Senator, I find myself in complete agreement 
with you, and it goes back to my answer to--
    Senator King. That is why I addressed my question----
[Laughter.]
    Dr. Pollack. And I think you have also got a very good 
model there because we do need to remember. We sometimes forget 
this. We look at Europe now. It is wonderful. We all like to go 
on vacation----
    Senator King. We had a world war 60 years ago.
    Dr. Pollack. Exactly. And as you point out, for 500 years 
Europe was the worst continent on the planet by far. Every 
horrific thing that mankind has ever experienced, it 
experienced in Europe and to the worst extent possible.
    Senator King. And we had a little matter of a civil war 
here.
    Dr. Pollack. A little matter of that.
    But inherent in that comment, it also gets to the 
importance of a solution and thinking long-term about it 
because when we finally did in 1945 decide, you know, what, we 
cannot allow Europe to continue to create these problems for 
the world and for us and we actually got serious about it and 
moved Europe toward a process of reform, securing the area, and 
pushing the governments toward democratization, it took 40 
years but it succeeded.
    We did the same thing in East Asia. We started to do the 
same thing beginning in the 1980's in Latin America. And East 
Asia and Latin America are both moving very smartly. And you 
and I can both remember times when we had horrible, vicious 
wars, ethnic cleansing, et cetera in both East Asia and in 
Latin America. Again, it took the United States saying we are 
going to get serious. We are going to make a long-term 
investment. We are going to move these countries toward reform.
    That is what is lacking in the Middle East. We have never 
been willing to do so. We keep just trying to slap a band-aid 
on the problem and hope it goes away. It does not. It gets 
worse and worse.
    Senator King. And military is part of it, but the 
underlying dynamic is better lives for people.
    Dr. Pollack. Exactly. It is political. It is economic. It 
is social.
    Senator King. A question that sort of comes out of this--
Mr. Harvey, you have had a lot of experience in Iraq. Can Iraq 
be one country? The term ``inclusiveness'' comes trippingly to 
the tongue. But are you ever going to have Sunnis and Shias, 
given the historic division, able to live in the same country 
without the kind of slights, oppression, discrimination that 
keep raising their head and, in fact, are raising their head 
right now in the attempt to retake Tikrit?
    Mr. Harvey. Sir, it is very difficult when you have the 
extremes dominating the debate and shaping the security 
environment the way they are. But at its core, I think there 
are a lot of reasons to be optimistic about the continued 
possibility of a unified Iraq. There are very good reasons for 
the Kurdish regional government to stay aligned with Baghdad. 
First and foremost is they are significantly better off on a 
per capita basis getting part of that Iraqi oil wealth. And 
what they would have on their own is dwarfed by what they could 
get on a per capita basis out of Baghdad.
    Similarly with the Sunni Arabs who do not have that type of 
wealth--a potential in Anbar, but it is still a problem for 
them. But at a human level, there has always been a great deal 
of interconnectedness. Shia and Sunni tribes? intermarriage and 
those types of things. It has been the breakdown of civil 
order, the fracturing of the normalcy there, and the economic 
dislocation, and the fear that penetrates every part of that 
society about what their future looks like, which causes people 
to align on a sectarian basis right now.
    First and foremost, security. Give them hope with political 
agreements. It takes leadership. I do not think they can get 
there on their own. It takes U.S. engagement, in partnership 
with others in the region, but that is easier said than done.
    Senator King. Abadi is the key right now. Abadi is the key.
    Mr. Harvey. I think he is essentially a good man but, as I 
said in my opening comment, fairly isolated and weak at this 
point in time.
    Dr. Takeyh. Can I just say one thing? Every time Iraq goes 
through one of its tribulations, there are arguments made on 
this partition. A partition of Iraq in three states does not 
enhance the stability of the Middle East. It does not enhance 
the stability of that subregion of the Middle East because it 
makes all----
    Senator King. I was not making a----
    Dr. Takeyh. No, no, no. I understand that.
    Senator King. I was just trying to make a pragmatic----
    Dr. Takeyh. There is a resilience to the Iraqi national 
identity that has survived all these sectarian conflicts. I 
think for a lot of reasons the Iraqis would want to maintain in 
a unitary state that has some degree of autonomy for the 
promises and the regional parliaments and so forth. But I do 
think that there is a history of Iraq as a unitary state with--
--
    Senator King. Only since 1918 or 1921 or 1922.
    Dr. Takeyh. But there is an Iraqi national identity. And as 
Ken suggested, it did emerge in 2007-2009 to supersede some of 
the sectarian concerns.
    Senator King. A quick question, Dr. Takeyh, a follow-up on 
Iran. You recently had a very interesting article with Michael 
Hayden about the technology of a violation and this idea of a 
1-year breakout. Once you got to all the steps of reporting and 
verifying and everything else, it comes down to a couple of 
months. Could you articulate that? I think that is a very 
important point.
    Dr. Takeyh. I want to, first of all, suggest that any arms 
control agreement--and the history of arms control agreements 
suggest it--is difficult to redress violations of that 
agreement. Now, that was true about SALT II. That is true about 
ABM. We were in a process of trying to adjudicate----
    Senator King. The INF----
    Dr. Takeyh. The INF agreement. That is right.
    There have been--the notion of a 1-year breakout time 
suggests that 1 year is a sufficient time for the international 
community to come to terms on coercive measures to compel 
Iranians to stop is a tough case to make because all the 
agencies of the U.S. Government have to agree. The IAEA has to 
begin a conversation with----
    Senator King. The Germans, the Chinese, the Indians.
    Dr. Takeyh. Well, first is the Americans agreeing among 
themselves that there is a violation. And there is going to be 
investment in this particular agreement. Then the IAEA will 
begin a conversation with the Iranians about those infractions, 
and they may have some satisfactory resolution or as Parchin 
military base has indicated, they may not.
    Then it comes to the Security Council for contemplation of 
coercive measures to be implemented, and they usually begin 
with economic sanctions if there is an agreement among the 5+1. 
And they may not be because of the Russians and Chinese, not to 
mention Germany and others. And then you can apply that.
    Now, can an American President avoid all that and use 
force? Technically yes. Has it happened historically? No. And 
in the aftermath of the Iraq War of 2003, all American 
intelligence agencies are going to be more hesitant about WMD 
violations. The international community is going to be more 
skeptical, and any American President is likely to be more 
cautious.
    Senator King. So one of the things we should look at in 
this agreement is the bureaucracy of enforcement.
    Dr. Takeyh. I think inherently it is difficult to enforce 
violations of an agreement particularly if they are 
incremental. Let me give you three examples of violations.
    Senator King. I am afraid I am out of time. But that does 
not mean you do not try to get an agreement, but maybe this is 
an aspect of it we should focus upon.
    Dr. Takeyh. That is right.
    Senator King. Thank you, Mr. Chairman.
    Chairman McCain. Senator Graham?
    Senator Graham. Let us make this relevant to the American 
people. From our own national security interest, a Sunni-Shia 
conflict of great depth and breadth is not good for us. Do we 
all agree with that?
    If you could, Dr. Rand, in 30 seconds, tell me why.
    Dr. Rand. Sure. A great regional divide that is sectarian 
in nature will play out in the worst possible way. We are 
seeing it in Syria and Iraq. You see it in Lebanon, elsewhere. 
So it will lead to conflict. It will lead to de-
democratization. It will lead to weakening of states and 
leadership and the inability of central states to address the 
economic and political demands of their people.
    Senator Graham. Well, it lead to higher gas prices?
    Dr. Rand. Potentially. It depends which way the conflicts 
go.
    Senator Graham. Will it make it harder to do business 
throughout the world?
    Dr. Rand. Potentially.
    Senator Graham. When it comes to Syria, do any of you 
believe we have a plan in place that will destroy ISIL in Syria 
in the next 3 years?
    Mr. Harvey. There is no plan in place that would achieve 
that in the next 3 years, sir, in my view.
    Senator Graham. Does everyone agree with that?
    Dr. Pollack. I might take slight exception. I think that 
the plan laid out by Chairman Dempsey before this committee 
theoretically could do so in about 2 to 5 years. But it has to 
be properly resourced, and it has to be properly implemented. 
And there I do not see--
    Senator Graham. On a scale of 1 to 10, what is the 
likelihood of this plan working in the next 3 years?
    Dr. Pollack. Again, Senator, that depends on how well the 
United States pursues it. Given what we are doing now, I would 
give it about a 2.
    Senator Graham. All right. What happens the day after? 
Well, do you all agree that no Arab army, if we could ever form 
one, is going to go into Syria and just fight ISIL and leave 
Assad in charge?
    Dr. Pollack. I would completely with that, Senator.
    Senator Graham. Does everybody agree with that?
    Dr. Pollack. I think it is a complete mistake to think that 
we can build a Syrian opposition army that will only fight 
Daesh. They will not.
    Senator Graham. Does everybody agree with that?
    Mr. Harvey. Sir, I also think that we need the Turkish 
Government on side for that.
    Senator Graham. Right, and they are not going to get 
involved if you leave Assad in power.
    Mr. Harvey. Absolutely correct.
    Senator Graham. Because you are giving Syria to the 
Iranians if you leave Assad in power. Right?
    Mr. Harvey. For the long haul, yes, sir.
    Senator Graham. Now, from an American point of view, if 
Syria is not resolved in the next 3 to 5 years, do you worry 
about our allies in Lebanon and Jordan?
    Dr. Pollack. Yes.
    Senator Graham. Could they be one of the victims of a 
protracted civil war in Syria?
    Dr. Pollack. Absolutely. They are already suffering from 
the spillover of that civil war.
    Dr. Takeyh. And I think it leads to radicalization of the 
Sunni community. Syria is a great incubator for radicalizing 
the Sunni community because of the level of slaughter there, 
which destabilizes all the other places, particularly the 
neighboring countries.
    Senator Graham. Do you agree that the terrorist 
organizations that are operating in Syria and Iraq, Yemen--if 
they are not dealt with more effectively, we could get hit here 
at home? The likelihood of an attack is going up on the 
homeland.
    Mr. Harvey. Sir, I think there intent and there is 
capability to strike not only the Western European targets but 
U.S. targets in the homeland that will increase over time, 
undoubtedly.
    Senator Graham. So the more foreign fighters that flow into 
Syria and Iraq to help ISIL and other organizations makes it 
more difficult for us to prevent the next attack because some 
of them have passports that could work their way back here. 
Right?
    Mr. Harvey. Affirmative.
    Senator Graham. Now, let us talk a little bit about Iran. 
Without a nuclear weapon, do you agree with me that Iran is 
wreaking havoc in the region?
    Mr. Harvey. Correct.
    Dr. Pollack. Yes.
    Senator Graham. Everybody agrees with that.
    Dr. Pollack. I would agree, Senator, but I would also say 
that I think we are allowing them to wreak havoc in the region.
    Senator Graham. I could not agree with you more.
    Chairman McCain. Could I say Dr. Rand may want to--
    Dr. Rand. Yes. I want to try to clarify that. I would not 
call it ``wreaking havoc.'' I would say increasing its 
interventionism and its expansionism.
    Senator Graham. Okay.
    Mr. Harvey. Sir, I think they are creating disorder in 
order to enhance their ability to intervene and offer 
themselves as a solution.
    Senator Graham. Would you agree with me that if they had 
more money, probably they would not build hospitals and schools 
with it if the current regime had more money?
    Mr. Harvey. Sir, even under the constrained times they have 
had, they have probably provided over $4 billion to subsidize 
the Syrian Government in the last 18 months.
    Senator Graham. So the idea that if sanctions were lifted 
and you infused their economy with more money, do you agree 
with me it would be more likely than not some of that money, if 
not most of it, would go to destabilizing the region?
    Dr. Takeyh. I do not know how they apportion their budget, 
but I suspect----
    Senator Graham. Well, if past behavior is any indication of 
future action, the answer would be yes.
    Dr. Takeyh. I agree with that, yes.
    Dr. Rand. I mean, we do not really know because there is a 
great demand by the people of Iran.
    Senator Graham. Well, we know what they are doing now.
    Dr. Rand. Right, but the sanctions relief might be funneled 
to respond to the demands of the people.
    Senator Graham. But I do not know how much influence the 
Iranian people have over their own budget.
    But here is what I am saying. The likelihood of more money 
in the hands of this regime to me creates more possibility for 
destabilization unless they change their behavior.
    Finally, is there a moderate hard-line divide in Iran in 
your view that is meaningful?
    Mr. Harvey. Sir, I said in my opening comments that there 
really is not a divide that is meaningful to the outcomes that 
we are interested in here today. The hardliners have a lock on 
the levers of power there, Qods Force and the hardliners in the 
Council of Guardians and elsewhere. A moderate voice is, I 
think, not really hopeful of emerging in that country.
    Senator Graham. Do you all generally agree with that?
    Dr. Pollack. I see a wide division of views within Iran. 
But I do agree with Colonel Harvey that at the end of the day, 
I think that the Supreme Leader is the one who calls the shots, 
and he has tended to move Iran in the direction mostly 
consistent with the hard-line viewpoint.
    Dr. Takeyh. I would just say there is diversity of views, 
but on core security issues, I think there is more consensus 
than disagreement.
    Dr. Rand. I would just add if you look at the speeches of 
Rouhani and Zarif, you see greater pragmatism than some of 
their other colleagues in the government.
    Senator Graham. Yes. And their speeches and their action in 
the assembly of experts apparently is now in the hand of a 
pretty tough dude.
    Last question. I am over my time. Do you all agree that a 
bad deal with Iran would manifest itself with the Arab breakout 
in terms of their nuclear desires, that the worst possible 
outcome with a deal with the Iranians is to create a nuclear 
arms race in the Mideast where the Arabs felt like they needed 
to have a nuclear weapon of their own?
    Dr. Takeyh. I think we will see proliferation of nuclear 
technologies in the region, not necessarily nuclear weapons, 
but perhaps other countries trying to experiment with an 
enrichment capacity or plutonium plants. I think we will see 
some sort of a proliferation of that as Sunni Arabs try to 
match Iran's nuclear capabilities.
    Senator Graham. Thank you very much.
    Chairman McCain. Senator Cotton?
    Senator Cotton. The Middle East is a place of many 
dangerous and complex questions, and the answer in whole or in 
part to virtually every one of those questions is Iran.
    Why, after all, are we negotiating with the Islamic 
Revolution over their nuclear weapons program, but for the 
President's quest to harpoon the great white whale of a nuclear 
agreement with Iran?
    Why is Bashar al-Assad still in power years after the 
President said he must go but for any reason because Iran views 
Syria as a legitimate sphere of interest and the President has 
largely conceded that sphere?
    Why is the Secretary of State wrong-footing himself 
repeatedly on our policy with Syria? Because the President is 
now effectively allowing Assad to stay in power.
    Why are the Qods Force increasingly the dominant force 
inside of Iraq, and why is Qasem Suleimani, the commander of 
the Qods Force, a man with the blood of hundreds of American 
troops on his hand, showing up like a celebrity on Facebook and 
other social media throughout Iraq? Because Iran views Iraq as 
a sphere of its interests and the West appears ready to grant 
that to Iran.
    Why did Yemen fall to Shiite militants that chant `death to 
America' and `death to Israel' ? Again, because they are 
aligned with Iran.
    Why is our campaign against the Islamic State going so 
slowly and haltingly? Because we are more concerned about 
upsetting Iran's interest in the region.
    And why is Hezbollah still so strong in Lebanon? Because 
they remain Iran's terrorist cat's paw.
    In the face of all these negotiations with Iran and its 
drive for regional hegemony, the President has said repeatedly 
that he will not allow Iran to get a nuclear weapon and threat 
of force remains on the table. However, Dr. Takeyh, you say on 
page 6 of your testimony, ``Iran today pointedly dismisses the 
possibility of U.S. military retaliation irrespective of its 
provocations.'' Would you care to elaborate on that?
    Dr. Takeyh. I do not believe at this particular point that 
they take the threat of American military retribution 
seriously. They could be miscalculating. I mean, the history of 
international relations is a history of miscalculations. But I 
do not believe they see themselves as vulnerable to a military 
strike. And that is often the case when you have a diplomatic 
process. I mean, diplomatic process is something that nobody 
wants to disrupt by actually undertaking military action 
against one of the participants.
    Senator Cotton. Do you believe that the President's refusal 
to enforce his own red line against Bashar al-Assad's regime in 
September of 2013 did anything to make Iran believe that he 
would not actually use the threat of force in any credible 
fashion?
    Dr. Takeyh. As I think I mentioned in my opening remarks, 
the fact that we erase our red lines as carelessly as we drew 
them had an effect on the credibility of American deterrence.
    Senator Cotton. Now I would like to draw your attention to 
something you say shortly down the page on page 6. ``While 
America's military option has receded in the Iranian 
imagination, Israel still looms large. Fulminations aside, 
Iranian leaders take Israeli threats seriously and are at pains 
to assert their retaliatory options. It is here that the shape 
and tone of the U.S.-Israeli alliance matters most. Should the 
clerical regime sense divisions in that alliance, they can 
assure themselves that a beleaguered Israel cannot possibly 
strike Iran while at odds with its superpower patron.'' Can you 
elaborate further?
    Dr. Takeyh. Yes. Sure. I think that the divisions and the 
problems and tensions in U.S.-Israeli relations have not well 
affected Israeli deterrence posture as well because the view is 
that the two powers, Israel and the United States, are in such 
disagreement. Again, that might be a miscalculation. Israeli 
officials and the Israeli Government has in the past used 
military force at the times when the United States did not 
approve of it. But at this point, I think the perception is 
that Israel is somewhat restrained in terms of its military 
posture because----
    Senator Cotton. Could that be because anonymous White House 
officials have been quoted in Western media reports saying that 
they have effectively delayed Israel's opportunity to strike 
Iran before they get a nuclear weapon?
    Dr. Takeyh. I think such disclosures are not helpful. But I 
do think that I am not entirely sure that Israel is bent on a 
military action against the Iranian nuclear facilities anyway. 
So we may be restraining a power that wants to be self-
restrained.
    Senator Cotton. Diplomacy is always more effective when 
backed by the credible threat of force, though. Correct?
    Dr. Takeyh. That is right, yes.
    Senator Cotton. Even if perhaps not the American credible 
threat of force.
    Dr. Takeyh. Sure.
    Senator Cotton. So as you say, divisions in that alliance 
could undermine even that threat in the perception of Iran's 
leaders. And last week in the aftermath of Benjamin Netanyahu's 
decisive victory in Iran, the President and many of his senior 
advisors made several statements that they would have to 
reconsider our relationship with Israel, that they might allow 
the United Nations or other international institutions to take 
adverse action against Israel in an unfair and discriminatory 
pattern as is their history.
    As you may also be aware, Ayatollah Khamenei gave his 
annual Nowruz message on Saturday, just 3 days ago, in which he 
whipped the crowd into frenzied chants of ``death to America.'' 
And his response was, ``yes, certainly, death to America.'' And 
yesterday, the President's spokesman said that it just for 
domestic political consumption.
    Do you believe the reaction to Benjamin Netanyahu's 
statements in a democratic election versus the reaction to 
Ayatollah Khamenei's statement discredits Benjamin Netanyahu as 
a critic of the President's negotiations, undermines our 
relationship with Israel, and helps change our relationship 
with Iran?
    Dr. Takeyh. Well, to separate the two issues, I do think 
that it is in the interest of both the United States and Israel 
to get beyond the point of disagreements that they have and try 
to rehabilitate the alliance. That is good for Israel. That is 
good for the United States. That is good for diplomacy toward 
Iran.
    As far as Ali Khamenei trying to satiate a domestic 
audience by chanting ``death to America,'' I do not know who 
that is. Most of the Iranians do not share his animosity toward 
America. So when he says those things, he actually is 
expressing his own opinion, an opinion of many hard-line groups 
that share his proscriptive ideology.
    Senator Cotton. I suggest that when people chant ``death to 
America,'' we should take them seriously and reconsider whether 
we want to make nuclear concessions to such people and their 
regime.
    My time has expired. Thank you.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman. Thank you to the 
witnesses. A number of topics.
    First, on the Foreign Relations Committee, now we are 
engaged in a discussion about finally authorizing the current 
war against ISIL. And I believe strongly Congress does need to 
do this. There are couple of sort of disputed points that we 
are kind of working through, and that is the wisdom of U.S. 
ground troops in such an engagement, what our posture should be 
in a war against ISIL vis-a-vis the Bashar al-Assad regime in 
Syria. Those are two fairly critical areas where even in a body 
that overwhelmingly supports military action against ISIL, both 
the House and Senate--both parties do--there are some details 
that are important. I think we can get to a compromise, but 
there are details that are important.
    I would love your thoughts sort of on either of those 
points: you know, ground troops and how they should be used and 
also what should sort of the mission definition be in Syria in 
any authorization that we do.
    Dr. Pollack. I am glad to start, Senator, and I will start 
by saying that I think that an AUMF is very important. I have 
always believed that having congressional support for major 
American foreign policy endeavors is absolutely critical in 
sustaining support over the long term.
    Second point. I think that initial ground troops will be 
necessary in Iraq, and they may prove necessary to some extent 
in Syria. Here I am thinking about the JTAC's, the air liaison 
officers.
    But I also go back to a point that Colonel Harvey raised 
earlier on. I think that one of the critical elements missing 
from the Iraq advisory program is the accompany mission. I 
think that we do need American advisors down to brigade and 
battalion level accompanying Iraqis in the field both for the 
reason that Colonel Harvey mentioned, which is that it makes 
these forces more efficient, but also because it gives us a 
much greater ability to control the behavior of those forces. I 
think back, Senators Reed and McCain, to 2006 when I can 
remember being in Iraq and having Iraqis say to me we get 
frightened when Iraqi troops come into our village and there 
are no Americans with them because we do not know who they are 
going to kill. If there are Americans with them, they tend to 
behave themselves. And so I think that accompany mission is 
absolutely critical to the political future of Iraq in ensuring 
that these forces do not run amuck as they have in a number of 
instances.
    And last point. With regard to Bashar al-Assad's regime, I 
believe that a solution in Syria is impossible as long as 
Bashar al-Assad remains in charge of the Syrian regime. I think 
that the Alawi community will have to be brought in, will have 
to be represented in a future power sharing arrangement, but I 
think that Bashar himself and a number of key allies around him 
must go. And as we were talking about earlier, I think that it 
is foolish to believe that we can build a Syrian opposition 
army solely to prosecute a war against ISIS. It must be used to 
deal with the Assad regime and, in fact, the entire panoply of 
bad actors in Syria because it has to be about ending the 
Syrian civil war, not just killing ISIS.
    Senator Kaine. Other thoughts?
    Dr. Rand. Sure. I would add that the importance of the AUMF 
is a signaling device in addition to the authorization here. It 
is showing the credibility of what is already going on and what 
is happening and the intent and the support of the American 
people. So I think it is absolutely important to authorize this 
force.
    On the ground combat operations, there is a sunset clause 
in the draft language, and I think that is a very important 
part of this because part of the strategy against ISIS 
inherently involves a checking in or reporting requirement and 
seeing how things are going. This is a very fluid situation. So 
I would urge Members of Congress to look at reporting 
requirements and the sunset clause as also a way to see how the 
operation is going and what new types of offensive ground 
combat operations are needed over time.
    And then finally, on Syria, I am not sure if this draft 
language of AUMF is the right place to authorize use of force 
against Syria. But, of course, the debate needs to be, as Dr. 
Pollack has outlined, what is the plan for the reinsertion of 
these forces. How are they going to get in? Where are they 
going to go in? What are the priority areas? How are they going 
to work with the changing coalitions of Syrian oppositionists 
that every week are changing partners? And the other question 
is, what is the role of the Kurds in this part of Syria, 
particularly in the northeast?
    Senator Kaine. Let me ask a second question. U.S. policy 
since President Truman--and I consider myself a Truman Democrat 
or I would like to be one day thought to be a Truman Democrat. 
That is a high standard to meet. U.S. policy with respect to 
Israel has been to strongly support Israel as our ally, but 
also to support the notion of a Palestinian state. That was the 
original U.N. mandate and it was reaffirmed in the Oslo 
Accords, and that is official U.S. policy.
    I think it is safe to say that at least now sort of the 
official policy of the Israeli Government may be different. 
Both President Rivlin and now Prime Minister Netanyahu have 
indicated that there will not be a second state. I do not 
really see a one-state solution working, but maybe I have not 
figured out how it can.
    But given that the stated position of both the prime 
minister and the president of Israel at this point are contrary 
to what has been U.S. policy supporting two states, what, if 
anything, should the United States do now that there is that 
gulf in policy between our two nations? Should the U.S. change 
our policy, or should we keep the policy we have? And what 
should we do to try to make that a reality?
    Mr. Harvey. Well, sir, I would say that the overall 
atmospherics in the relationship between the United States and 
Israel has clearly undermined the Israeli confidence about 
moving forward in a number of areas, and this is one that you 
have highlighted. It is hard to make difficult decisions that 
go at your core political support at home, that go to the real 
threat to your country. They had a 50-day war last year with 
Gaza, after giving up in agreement after agreement after 
agreement things to the Gazans and Hamas. And when they look at 
the West Bank and you look at the one-state solution, first and 
foremost, you have to have confidence in your long-term 
security and what those arrangements might be. And right now, 
there is tremendous doubt in Tel Aviv about the strength of our 
relationship and whatever the sidebar decisions would be that 
are going to affect this overall agreement of a two-state 
solution. So I think, first and foremost, you have to right the 
ship politically, diplomatically between the two countries in 
order to create the environment that you might be able to move 
forward on.
    Senator Kaine. I am just curious. Are you suggesting that 
the disclaiming of the idea of two states is the United States? 
fault?
    Mr. Harvey. No. What I am saying is that the impact--if you 
are in Tel Aviv and you are thinking about where you are headed 
with this two-state solution, you cannot discount the friction 
and the undermining from their view of
    their relationship with Washington, D.C. It has to impact 
these other decisions.
    Senator Kaine. I have no other questions, Mr. Chair. But if 
any other witnesses would care to comment on that--I am over my 
time, but--
    Dr. Takeyh. I will just briefly say that in the 1990's 
there was a notion that a resolution of the Israeli-Palestinian 
conflict would transform the region. I do not believe that is 
true. But I also think the absence of that resolution does 
contribute to the instability of the region. And I think the 
prime minister's advocacy on Iran and other issues would have 
much more force and legitimacy if he had a more forthcoming 
approach toward the Palestinian problem.
    Dr. Pollack. Senator, I will add to that while I would not 
want to characterize Prime Minister Netanyahu's position, 
because I do not feel like I understand it at the moment, I 
will simply say that I continue to believe that the best policy 
for the United States is to pursue the two-state solution. I 
believe that that is just. I believe it is equitable. As you 
pointed out, it was the original intent of the United Nations, 
and quite frankly, I do not see--no one has ever shown me a 
workable alternative, a one-state solution, a three-state 
solution, that both preserves the Jewish character and Israeli 
democracy. And that being the case, I see no reason for the 
United States to deviate from that policy and every reason for 
the United States to continue to advocate it as best we 
possibly can.
    Senator Kaine. Dr. Rand?
    Dr. Rand. I would just completely agree that the two-state 
solution has been the policy of the United States for decades 
and the policy of the international community and offers the 
U.S. and Israelis in my opinion the best option for living in 
peace and stability and security of the State of Israel.
    I would also add that I think it is dangerous to over-
dramatize the current political tensions between Tel Aviv, 
Jerusalem and Washington in the sense that the broad national 
security apparatuses between the two countries--the 
relationships are very strong and very thick, as this committee 
knows, in terms of defense appropriations having reached last 
year I think an unprecedented $3 billion in FMF, the Iron Dome, 
other missile defense programs. So there is a thickness to the 
relationship that is actually improving and increasing at the 
non-political level. And that portends a very important trend 
in U.S.-Israeli relations that supersedes the personalities of 
individual leaders.
    Senator Kaine. Great. Thank you, Mr. Chair. I went over, 
but I appreciate you letting the witnesses take that question.
    Senator Reed. Senator McCain has been very gracious to 
allow me to ask questions at the conclusion. Senator Hirono has 
just arrived, and so I will yield to Senator Hirono. Then when 
she is finished, I will ask questions.
    Senator Hirono. Thank you very much.
    This is a question for all of the witnesses to respond as 
you desire, a broader framing. The instability of multiple 
nations throughout the world, particularly in the Middle East 
and North Africa, has become a growing threat to U.S. interests 
by providing ungoverned space for extremism to operate. How do 
we balance the ever-increasing economic gap between developing 
nations and their vulnerability to power vacuums with radical 
ethnic and/or religious philosophies that appeal to rising 
young adult populations? Does anyone care to respond?
    Dr. Rand. Sure. This is an excellent question because this 
gets at the root drivers of some of the trends that we have 
been discussing that a lot of the U.S. foreign policy responses 
have to be predicated on what is actually going on.
    Here I would just raise two points in response to this 
question. One is that the rise in economic opportunity by some 
and the rise in education in the 1990's and 2000's actually 
created higher expectations among many of the youth in the 
region. So you had higher graduation rates across the Middle 
East and North Africa, including in many of the countries that 
saw a revolution in 2011, without the commensurate supply of 
jobs that were at the level for university graduates. And this 
is a serious problem and endures across the region. So there is 
a job retraining educational element to the economic dilemma.
    But the second point is that there are natural resources 
and economic sources of revenue in many of these states. So the 
key question is how to reform some of the state economic 
decision-making so that the budgets are growing and so that the 
state can use its resources and use its revenue, whether it is 
from oil or foreign aid or other assistance, to create the kind 
of market economies that will provide jobs and provide 
opportunity.
    Dr. Pollack. Senator, if I could just add to Dr. Rand's 
very cogent comments. I would like to pull out one of her 
points which I think is absolutely critical, and that is the 
role of education. And I would commend to you, if you have not 
already seen it, the Arab Human Development reports, in 
particular the volumes issued in 2002 and 2003. These are 
landmark reports by Arab scholars and Arab experts looking at 
their own part of the world, commissioned by the United 
Nations.
    And the critical point that they came to was that, as Dr. 
Rand has pointed out, there has been a massive growth in the 
quantity of education provided to Arabs, but no corresponding 
improvement in the quality of the education they receive. They 
continue to be taught by rote memorization with the 
disparagement of critical thinking in ways that do not equip 
Arabs to become productive members of an information economy. 
And as a result, you have gotten more and more people with high 
school and college degrees who believe that they are entitled 
to become middle and upper class citizens of their communities 
and of the world, but they simply do not have the skills to 
function as such. This is the most critical gap in the Arab 
world today. And again, it is a problem that is not going to be 
solved in the next 2 years or the next 10 years, but if we do 
want to help the Arab world move out of its current state of 
affairs, it is one that we need to help them address.
    Senator Hirono. Well, following up then, are we doing 
something to address these kinds of institutional changes that 
need to occur with regard to the quality of their education?
    Dr. Rand. This is an excellent question, and this is an 
area where the U.S. State Department and United States Agency 
for International Development (USAID) is actively involved and 
has been for decades. Again, the going is tough.
    So in some parts of the region, there are still states 
functioning and there are a lot of reforms going on and the 
U.S. Government is working in places like Morocco and Tunisia. 
Even in Libya before this current round of fighting, there was 
a new authorization and appropriation for telelearning 
programs, education programs. So there is creative work that 
the U.S. Government is doing to try to address these gaps.
    The challenge is that there is an increasing number of 
states in the region where there is great instability and 
conflict. So we have four or five states where there is either 
failure or a civil conflict right now. And those states are 
providing a real challenge.
    And the other challenge is combating the appeal of foreign 
fighters and radicalization as part of this because the ISIS 
recruiters can work much faster than the international programs 
to support education and long-term job growth programs.
    Senator Hirono. Can you point to a nation in the Middle 
East that is a model for the kind of changes that would really 
address the underlying problems or challenges in the Middle 
East that lead to instability?
    Dr. Rand. There is no one model that comes to mind. There 
are isolated programs that either the governments or the 
international community have introduced in Morocco, in Tunisia, 
in Jordan in particular that come to mind as useful. Again, it 
is very hard to measure the effect of an intervention on the 
outcome because a lot of this is a lot of different factors. 
International assistance can help and can work, and the U.S. 
should continue to do this even though it is hard, even though 
there are obvious demands on the budget.
    Mr. Harvey. I think when we talk about the region, we have 
to recognize that the problems are different for the Gulf where 
addressing educational quality is an issue, the critical 
thinking, but it is different in North Africa and different in 
Syria. If you cannot establish security and address the 
building of the institutional capacity so the state not only 
controls the means of policing and the means of violence in the 
state but can deliver some services and is exactly the go-to 
place and is relevant to people's lives, then you are going to 
have some real problems.
    But the international community on a broader scale, whether 
it is USAID or others, large-scale projects tend not to work. A 
lot of the projects we have tend to be well-intentioned but not 
aligned with the social, cultural, business approaches there. 
We do not have good conditions-based metrics or conditions-
based programs that require some accounting in a way that would 
be more transparent. And so it enables corruption in ways that 
become very dysfunctional.
    Or you engage in a place like Afghanistan with significant 
programs that, in effect, draw the entrepreneurial and the 
educated that are needed for other programs--they draw them to 
these larger USAID projects in a dysfunctional way. We need to 
keep the nurses and the doctors in the medical field not 
working in a USAID project because they speak English and make 
more money because we brought in a different pay scale that 
attracts these people. There are so many different things that 
seem to be going wrong when we try to do good things.
    Dr. Pollack. Senator, if I could just quickly. I would 
actually point to Saudi Arabia.
    Senator Hirono. With the indulgence of the chair.
    Dr. Pollack. Thank you, Senator.
    I would actually point to Saudi Arabia for three different 
reasons, and I know it seems ironic because we typically think 
of Saudi Arabia as an utterly repressive, medieval regime. But 
under King Abdullah, there was a very determined effort to try 
to reform the Saudi educational system. King Abdullah tried to 
press for co-education. He tried to press for a change in 
curriculum. He tried to press for Western instructors and 
Western methods of achievement.
    Now, a few things in order. First, it was largely a Saudi-
driven process. It was the king and his advisors who recognized 
the importance of the need to do it and that pretty much did it 
on their own. We need to be looking elsewhere in the region for 
other Arabs who are willing to take this on themselves and then 
ask the question of how can we help you, which is about the 
best that we are going to do because they are going to have to 
drive this train themselves.
    Second, it is worth noting that the king had modest 
success. He did create King Abdullah University of Science and 
Technology, which is kind of, sort of a model for what could 
happen. And he did make some progress toward curriculum reform, 
co-education, a variety of other things. But it only moved so 
far. And we have to recognize that these kinds of big changes 
are going to move haltingly.
    And the third point to make is the reason that they only 
went so far is because the king was resisted by a whole variety 
of different factors within his society, the clergy, the 
bureaucracy, others with vested interest in the current 
society. And again, we need to recognize that these were all 
obstacles that need to be overcome.
    But, again, I think that Saudi Arabia in some ways is a 
wonderful case study to look at over the last 10 years of how 
to move things forward but also the difficulties in doing so, 
difficulties that we should be thinking creatively of how we 
might help them overcome.
    Senator Hirono. Do you think Qatar would also qualify for 
that kind of change?
    Dr. Pollack. Qatar is difficult for reasons that I think 
that Colonel Harvey alluded to, which is that Qatar is unlike 
pretty much anything other than conceivably the UAE and Kuwait. 
It is not a great model for the larger states of the region. It 
is a tiny, little population. It is obscenely wealthy. They are 
able to do things in ways that no one else in the region can. 
And so we can look at them and again say, well, maybe there is 
something here that Arabs might look to as something they might 
some day emulate, but I think that the reality is that it is 
not a close enough approximation of the circumstances of the 
rest of the region to serve as a practical model.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Hirono.
    And I want to thank the chairman for convening this 
hearing. It is extraordinarily thoughtful, insightful, and 
timely. And thank you all for your testimony.
    Just a couple of questions, and I asked the chairman if I 
could pose these. I was in the chamber and I listened to Prime 
Minister Netanyahu. It was a very eloquent and very powerful 
discussion. But one of the points I seem to recall is he said 
if we reject this agreement, we will get a better agreement. Do 
you believe that would be the case, Dr. Takeyh, that after all 
this effort and the political capital that all sides have laid 
down, that we will simply get a better agreement?
    Dr. Takeyh. I think it is an impossible proposition to 
verify. It can only be validated in practice. And the prime 
minister's position was that if this agreement proves 
unsatisfactory, you can go back and increase the level of 
pressure on Iran through the international community and so on 
and possibly come back with a more superior agreement.
    There have been times in history of arms control where that 
has taken place where you have gone back and revisited some of 
the issues and so on. The Iranian regime does have 
vulnerabilities less so today than it did in November 2013. I 
think it is fair to say--and I think history will validate 
this--that we could have gotten a better agreement than the 
joint plan of action in November 2013. I think that is largely 
true. At that time, the country was essentially suffering 7 
percent negative economic growth. Today it is about 1-2 percent 
growth. At that time the Rouhani regime needed some sort of a 
validation of his strategy of his electoral claims, and at that 
time, Iran was much more vulnerable. And history has shown that 
Iranian presidents tend to be stronger in the first year than 
every other year. That is not unique to their presidency. You 
see it in other chief executives.
    Today there is more resilience in the system, more economic 
resilience, a greater degree of consensus, less measure of 
factionalism. It will be harder to do that today. I do not 
believe it is impossible. We have to consider the fact that 
these are negotiations between the international community and 
a superpower and a second-rate power with substantial 
vulnerability in terms of economic deficiencies, in terms of 
popular dissent, disaffection, and in terms of elite 
fragmentation. I cannot rule it out, but I can tell you it is 
going to be harder.
    Senator Reed. Dr. Pollack?
    Dr. Pollack. Senator, I find myself very much in agreement 
with Dr. Takeyh's statement, my good friend. My body language 
might be a bit different than his, though. I think that 
everything that he has just said is absolutely accurate. We do 
not know. We will not know until we test the proposition.
    I also agree that we might have done better, and I wish we 
had done some things differently in terms of the tactics of how 
we got here, but given where we are, I think it unlikely that 
we will get a better agreement. And I think that a lot of this 
has to do with how the world now sees these negotiations, and I 
am quite concerned that if the United States walks away from 
this current agreement, as imperfect as it may be, that the 
rest of the world will blame us for doing so, not the Iranians, 
and that will make it very difficult to get a better deal.
    Dr. Takeyh. I just want to say one thing very briefly. We 
do not have an agreement at this point. We have a negotiating 
process. Therefore, some of the deficiencies that have been 
highlighted, duration of sunset clause, absence of PMD--I think 
Secretary Kerry can strengthen his case internationally and 
here by going back and revisiting some of those issues.
    Senator Reed. No. I do not think there is a question there.
    But I want Colonel Harvey and dr. Rand to comment also.
    But just, Dr. Pollack, to follow up, your sort of sense is 
that given all the events, we are at a critical moment, and 
that if there is not an agreement, there is a question of will 
the sanctions regime stay in place. Do you think that is 
likely?
    Dr. Pollack. I am very concerned that it will begin to 
erode and erode quickly if we do not get an agreement soon.
    Senator Reed. Even with the sanctions regime in place and 
we do not have an agreement, do you believe that the Iranians 
will accelerate their efforts to develop a nuclear device or at 
least a virtual nuclear device rather than just simply sort of 
status quo?
    Dr. Pollack. That is a hard one to answer, Senator, because 
again I think it will be based on their calculation of how much 
they need it. And as I said, I do not think that they feel like 
they need a weapon right now, but I think it would also be 
calculated on their expectation of what is the best way to 
erode the sanctions regime. And again, I suspect that their 
feeling will be the best way to handle the breakdown of 
negotiations is to actually say, look, we do not want a nuclear 
weapon. We keep saying we do not want one. We are going to 
foreswear acquiring one at least for now to make clear that the 
Americans are the problem, not us.
    Senator Reed. And then again, I think we always have to 
think worst case, which is with or without an agreement, with 
or without the durability of sanctions, if we detect a movement 
away from compliance and they are developing a nuclear capacity 
or technology or a breakout that is not a year but weeks, then 
we are forced with the issue of military action. One of the 
arguments that is made is that without an agreement--and it 
seems to track what you said about sort of the world kind of 
consensus--our ability to engage the world community at least 
supporting us, maybe even after the fact would be diminished. 
Is that fair?
    Dr. Pollack. I would agree with that. I think that we would 
be in a strong position to engage in military action which, 
again, I do not believe is the right course of action, but 
nevertheless, we would be in a stronger position with an 
agreement. And what is more, especially if we were seen as the 
party that walked away from the current negotiations, it would 
be very difficult for us to then come back to the world and say 
we would like international support to take military action 
against Iran for continuing to pursue their nuclear program.
    Senator Reed. Let me ask Colonel Harvey. I do not know if I 
promoted you or demoted. I almost called you ``doctor.''
    [Laughter.]
    Senator Reed. And then Dr. Rand, and then I will conclude.
    Mr. Harvey. We are not very good at maintaining a siege 
mentality against other countries, and I think that is part of 
the problem. I agree with everything I have heard heretofore on 
this issue.
    I wish that we would have not decoupled the missiles and 
delivery means from this track of negotiations. I think we need 
more transparency and more work on that. I think it would have 
been much better if we could have kept that connected.
    I am very concerned that we are not going to have the 
intelligence awareness and insights as to where they are at. 
And my belief, after studying this regime now for over 2 
decades--and I used to be a missile and nuclear analyst at DIA 
on these issues--is that this is viewed in the leadership that 
matters in Tehran as just a transitional point, an obstacle to 
get over to continue to move in the direction because the 
character and nature of the regime is not fundamentally 
shifting, and we have not put any other conditions about 
behavior or missiles or other things to influence how that 
regime responds to this agreement.
    Senator Reed. Thank you, Colonel.
    Dr. Rand, the last word, please.
    Dr. Rand. I mean, I want to repeat what some of my 
colleagues have said but just emphatically say that I think the 
logic behind waiting for a better deal has a lot of holes in 
it. And the first one is this question of what is the course of 
pressure that you then mobilize in the moment after this 
current negotiation breakdown. Where are the multilateral 
sanctions and the international will? So I do not see how you 
pinch Iran to get them to the table in 1, 2, 3, 4, or 5 years. 
I have never seen that explained.
    But second, I think it is again just a question of what 
happens internal to Iran and domestic politics, which we do not 
want to rely on in terms of whether they go to accelerate 
nuclear weaponization in the aftermath of a failed deal. This 
is just a big unknown that will depend on a lot of things 
outside U.S. and international control. And I do not want to 
take that risk.
    Senator Reed. Well, thank you all very much.
    I am going to, I think at this point, on behalf of Chairman 
McCain, thank you for extraordinarily effective and insightful 
testimony and recess the hearing. Adjourn it actually. Thank 
you.
    [Whereupon, at 11:53 a.m., the committee adjourned.]


 
                    UNITED STATES MIDDLE EAST POLICY

                              ----------                              


                      TUESDAY, SEPTEMBER 22, 2015


                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in Room 
SH-216, Hart Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Sullivan, Graham, Cruz, Reed, Nelson, McCaskill, 
Manchin, Shaheen, Gillibrand, Donnelly, Hirono, Kaine, King, 
and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Senator McCain. Committee will come to order.
    Since a quorum is now present, I ask the committee to 
consider a list of 3,725 pending military nominations. All of 
these nominations have been before the committee the required 
length of time.
    Is there a motion to favorably report?
    Senator Reed. So moved.
    Senator McCain. Second?
    Senator Sessions. Second.
    Senator McCain. All in favor, say aye.
    [A chorus of ayes.]
    Senator McCain. The motion carries.
    Senate Armed Services Committee meets this morning to 
receive testimony on United States strategy in the Middle East.
    Eight years ago--eight years ago, our Nation was losing a 
war in Iraq. Despite the assurances of the Bush administration, 
the generals and leaders there, despite the favorable comments 
of, at that time, Secretary of Defense, who said, quote, 
``Stuff happens'' and other equally ridiculous comments, we 
were losing the conflict. In fact, we were at a point where 
there was almost sufficient votes
    in the United States Senate to force a complete withdrawal 
from Iraq.
    And then a seminal event took place before this committee, 
a day that I will never forget. On September 11th, 2007, 
General David Petraeus appeared before this committee with 
Ambassador Ryan Crocker. Their compelling testimony was 
critical in securing support for the surge. An integrated 
civil-military campaign plan that defeated al-Qaeda in Iraq 
brought security to the Iraqi people and created the 
possibility for meaningful political reconciliation.
    Now we meet again. Now we meet again. At a time of grave 
security challenges around the world, more than ever our Nation 
must be able to draw upon the wisdom and experience of its most 
distinguished leaders. That's why I'm so pleased to welcome 
back before this committee--who has had many appearances before 
this committee--one of our most extinguished--distinguished 
leaders. I'm welcoming back General David Petraeus for his 
first appearance before Congress since leaving government.
    General, it's good to see you. I want to thank you, on 
behalf of this committee, for your willingness to testify today 
and offer insights from your decades of distinguished service, 
especially your leadership in Iraq, Afghanistan, and as 
Director of the Central Intelligence Agency.
    Across the Middle East today, the old order is collapsing 
both the regional balance among states and social order within 
states. No new vision has emerged to take its place. And across 
the region, chaos fills the vast ungoverned spaces left behind. 
Filling this vacuum have been terrorist groups such as Islamic 
State of Iraq and the Levant (ISIL) and al-Qaeda, on the one 
hand, and hostile states such as Iran and now Russia, on the 
other. This regional disintegration has only been made worse by 
a failure of U.S. strategy and leadership to shape events in 
this vital part of the world for the better. Too often, we have 
confused our friends, encouraged our enemies, mistaken an 
excess of caution for prudence, and replaced the risks of 
action with the perils of inaction.
    In Iraq and Syria 1 year after the President commenced 
airstrikes and committed United States troops, the Chairman of 
the Joint Chiefs of Staff and Commander of Central Command have 
characterized the fight against ISIL as a stalemate. ISIL has 
consolidated control of its core territories and expanded its 
control in Syria. Efforts to retake Iraqi cities, like Mosul, 
Fallujah, and Ramadi, have foundered. ISIL is expanding 
globally to places like Afghanistan, Lebanon and Yemen, Libya 
and Egypt. This appearance of success only enhances ISIL's 
ability to radicalize, recruit, and grow.
    The Obama administration now tells us their strategy is 
working. Ultimately, ISIL is not 10 feet tall. It can and must 
be defeated. However, the current policy does not appear 
sufficient to achieve our goal of degrading and destroying 
ISIL. To put it mildly, this committee's hearing last week on 
counter-ISIL strategy did little to alleviate these concerns. 
In the absence of an effective strategy, violent extremist 
groups like ISIL, al-Qaeda, and their adherents are expanding 
across the Middle East, Africa, and South Asia, including 
Afghanistan.
    After 14 years of fighting in Afghanistan, decisions made 
in the months ahead will determine whether our sacrifices were 
worth it. After pulling out of Iraq, against the advice of our 
military leaders, the President's plan to withdraw from 
Afghanistan would risk a replay of that failure. We look 
forward to your views on this policy.
    In addition to the so-called Islamic State, the Islamic 
Republic of Iran has been another main beneficiary of the 
Middle East descent into chaos. For years, many of us have 
urged the administration to adopt a regional strategy to 
counter Iran's malign activities in the Middle East. 
Unfortunately, that has not happened. Instead, the 
administration has too often treated Iran as merely an arms-
control challenge rather than the wider geopolitical challenge 
that it is. Left unchecked, Iran has stepped up its 
destabilizing activities in Iraq, Syria, Yemen, Lebanon, 
Bahrain, Gaza, and elsewhere. Whatever one thinks of the 
nuclear agreement, it will not resolve this larger Iran 
challenge, and will likely make it worse as Iran gains new 
legitimacy, the lifting of sanctions, and billions of dollars 
in sanctions relief.
    Into the wreckage of our Middle East policy has now stepped 
Vladimir Putin. As in Ukraine and elsewhere, he perceives the 
administration's inaction and caution as a weakness, and he is 
taking advantage. Putin's ongoing military buildup in Syria is 
the greatest expansion of Russian power in the Middle East in 
four decades, and it will allow Putin to prop up Assad, play 
kingmaker in any transition, undermine United States policy and 
operations, and ultimately prolong this horrific conflict. The 
main beneficiary will be ISIL.
    In classic fashion, the administration first condemned 
Putin's move, but has now capitulated, agreeing to military-to-
military talks. The first step toward a solution is recognizing 
there's a problem. Unfortunately, that has appeared beyond the 
capacity of the administration. Instead, they continue to 
resort to a litany of truisms, strawman arguments, partisan 
attacks, and talking points that, to borrow a phrase, require, 
quote, ``a willing suspension of disbelief.''
    In a display of self-delusion that can rival the Bush 
administration's Iraq policy at its worst, the Obama 
administration now tells us their strategy is working, that 
we're making progress, that time is on our side, that strategic 
patience is all we need, and that we should just stay the 
course.
    When our earlier strategy in Iraq in the broader Middle 
East was failing, not so long ago, we, thankfully, had leaders, 
like our distinguished witness, who were willing to face that 
situation with realism and a President who, to his everlasting 
credit, took responsibility for that failure and changed 
course. Other American Presidents, including Jimmy Carter and 
Bill Clinton, have demonstrated a similar capacity for change. 
There's no reason President Obama could not do the same. No one 
believes that there are good options. There never are. No one 
believes that these kinds of problems lend themselves to purely 
military solutions. They never have and never will. No one 
expects us to succeed overnight, and no one believes that 
America can or should solve every problem by itself. But, that 
does not absolve us of our responsibility to make the situation 
better, where we can.
    Yes, these problems are hard. But, as our witness once 
said, they are not hopeless. Now more than ever, we need some 
reasons to be hopeful again.
    I thank you for appearing before the committee today, and 
look forward to your testimony.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    And, General Petraeus, welcome back to the Armed Services 
Committee.
    This morning's hearing continues the committee's review of 
the policy issues confronting the United States in the Middle 
East. And your long experience in a number of leadership 
positions, both in the United States military and as Director 
of the Central Intelligence Agency, makes you superbly prepared 
and qualified to provide your perspective on the current 
situation in the Middle East. And, once again, thank you for 
being here.
    The situation in the Middle East presents a deeply complex 
problem set, and it is a near certainty that the problems that 
were there challenge our Nation's security today and for many 
years to come. And, while our Nation's military is playing a 
critical role in addressing the threats emanating from the 
Middle East and lasting solutions will require, in addition, 
dogged diplomacy and persistent attention by our Nation's 
civilian and military leaders and those of our allies and 
partners who share a security interest in the region.
    As the committee heard at last week's hearing, the 
immediate threat confronting the United States, our partners, 
and allies in the Middle East is ISIL. ISIL's control over 
portions of Syria and Iraq provides this violent extremist 
organization a base from which to terrorize civilians and 
spread its poisonous ideology, regionally and globally. The 
brutality of ISIL, coupled with that of the Assad regime and 
other armed elements in Iraq and Syria, has caused a collapse 
of stability in many areas and forced millions to flee the 
wanton violence.
    The emerging refugee crisis in Europe highlights the urgent 
need for the international community to focus on restoring 
security in the region. The United States-led international 
coalition, enabled by the leadership of retired General John 
Allen, has brought together 60-plus countries to respond to the 
ISIL threat, including a multinational air campaign to degrade 
ISIL's capabilities and programs to train and equip local 
forces in Iraq and Syria.
    General Petraeus, we are very interested in your views on 
the value of a multilateral approach to confronting ISIL. I 
would also be interested to hear whether you support the 
efforts to build and work through local forces on the ground to 
liberate and then restore stability to areas previously under 
ISIL control.
    In Iraq, United States and partner nations are once again 
training and equipping Iraqi Security Forces and helping to 
recruit Sunni tribal forces to the counter-ISIL effort. General 
Petraeus, given your experience on the ground in Iraq, which is 
extensive and detailed both as an operational and strategic-
level commander, I look forward to hearing your assessment of 
the broader military campaign, but also on whether the Iraqi 
Security Forces can summon the will to fight successfully 
against ISIL and other opponents within Iraq.
    Further, the administration has rightly, I believe, 
conditioned our support to the Iraqi government on their 
continuing efforts to be more inclusive and responsive to the 
concerns of the Sunnis, Kurds, moderate Shiites, and 
minorities. Again, your assessment of these political efforts 
would be deeply appreciated.
    In Syria, according to public reports, the DOD-run train-
and-equip program has experienced a variety of setbacks. Many 
observers have criticized this program. And again, I would be 
interested in your assessment of the viability of this program.
    At the same time, the already difficult task of restoring 
security in Syria has only been further complicated by Russian 
President Putin's recent provocative act of deploying Russian 
marines and equipment, including fighter aircraft and surface-
to-air missiles to Assad-regime-controlled areas under the 
guise of joining the counter-ISIL effort. What President Putin 
hopes to gain from this brazen military intervention in this 
volatile situation is unclear. And we'd, again, like your 
perspective on that issue.
    The other major issue of the United States in the Middle 
East is Iran. Last well, the Joint Comprehensive Plan of 
Action, or JCPOA, entered the implementation phase. In the 
coming months, the Iranians have much work to do, and the world 
will be watching to see whether Iran will discharge its 
obligations. Holding Iran accountable during this phase of the 
agreement is, I would suggest, one of the most significant 
efforts that we can take, along with our allies.
    Aside from the JCPOA, General Petraeus, Iran's malign and 
destabilizing activities are of critical concern. This includes 
the continued support and financing of the Assad regime, 
Hezbollah in Lebanon, the Houthis in Yemen, Shiite elements in 
Bahrain, and Shiite militias in Iraq. Countering Iran's malign 
influence is an area where the administration has made a 
significant commitment to our partners in the Gulf Cooperation 
Council, among them an increase in training and exercise 
programs to ensure these partners have the necessary 
capabilities to counter Iranian threats. Again, your assessment 
of these efforts would be appreciated.
    While much attention is focused on the Middle East, the 
United States continues to have nearly l0,000 United States 
forces deployed in Afghanistan as part of the Resolute Support 
Mission. A critical decision will have to be made in the next 
few months regarding the size of United States forces to be 
retained in Afghanistan during 2016 and beyond. Again, your 
advice in this respect would also be appreciated.
    And lastly, we cannot forget that al-Qaeda, especially its 
affiliates in Yemen and adherents in Syria, remain a 
transregional threat to the United States and other interests 
around the world. Your insights with respect to what might be 
done to keep the pressure on al-Qaeda, both their senior 
leadership and their organizational structure, is--would be 
deeply appreciated.
    Once again, thank you for your service--your distinguished 
service, and thank you for joining us today.
    Senator McCain. General Petraeus, welcome back.
    General Petraeus. Thank you, Mr. Chairman. It's good to be 
back.

  STATEMENT OF GENERAL DAVID H. PETRAEUS, USA (RET.), FORMER 
    DIRECTOR OF THE CENTRAL INTELLIGENCE AGENCY; COMMANDER, 
  INTERNATIONAL SECURITY ASSISTANCE FORCE; COMMANDER, UNITED 
  STATES FORCES AFGHANISTAN; COMMANDER, UNITED STATES CENTRAL 
       COMMAND; AND COMMANDER, MULTI-NATIONAL FORCES-IRAQ

    General Petraeus. Mr. Chairman, Senator Reed, members of 
the committee, thank you for this opportunity to discuss the 
situation in the Middle East.
    As you noted, Mr. Chairman, this is the first time I have 
testified in open session before Congress since resigning as 
Director of the Central Intelligence Agency (CIA) nearly 3 
years ago. As such, I think it is appropriate to begin my 
remarks this morning with an apology, one that I have offered 
before, but nonetheless, one that I want to repeat to you and 
to the American public.
    Four years ago, I made a serious mistake, one that brought 
discredit on me, and pain closest--to those closest to me. It 
was a violation of the trust placed in me and a breach of the 
values to which I had been committed throughout my life. 
There's nothing I can do to undo what I did. I can only say 
again how sorry I am to let--to those I let down, and then 
strive to go forward with a greater sense of humility and 
purpose, and with gratitude to those who stood with me during a 
very difficult chapter in my life.
    In light of all that, it means a great deal that you have 
asked me to share my views on the challenges in the Middle 
East, where, as you noted, I spent most of my last decade in 
government. I thank you for that, Mr. Chairman. And I thank you 
for the support and friendship that you have long extended to 
me.
    The Middle East today is experiencing revolutionary 
upheaval that is unparalleled in its modern history. At the 
root of this upheaval is the weakening or disintegration of 
state authority in multiple countries. This has led to a 
violent struggle for power across a vast swath of territory, 
the competition both between different groups within states, 
and one between different states in the region, and some 
outside it. Almost every Middle Eastern country is now a 
battleground or a combatant in one or more wars.
    The principal winners, thus far, have been the most 
ruthless, revolutionary, and anti-American elements in the 
region. This includes Sunni extremists, like the so-called 
Islamic State, which is attempting to carve a totalitarian 
caliphate out of the wreckage of the old order, and the Islamic 
Republic of Iran, which hopes to establish a kind of regional 
hegemony.
    All of the revolutionary forces, whether Sunni or Shi'ite, 
are exploiting the upheaval in the Middle East while also 
exacerbating it. While hostile to each other, the growth of 
each is feeding the sectarian radicalization that is fueling 
the other. But, none of them reflects the hopes of the 
overwhelming majority of Middle Easterners.
    The crises of the Middle East pose a threat not just to 
regional stability, but also to global stability and to vital 
national interests of the United States, for the repercussions 
of developments in the Middle East extend well beyond it. 
Indeed, the Middle East is not a part of the world that plays 
by Las Vegas rules. What happens in the Middle East is not 
going to stay in the Middle East. We see this in the global 
reach of the Islamic State from the sanctuaries it has seized 
in the region, in the tsunami of refugees fleeing the conflicts 
of the Middle East, in the danger of a nuclear cascade sparked 
by Iranian actions, and in the escalating tensions between the 
United States and Russia over Syria. And it is in the Middle 
East today where the rules-based international order, the 
foundation of American security and prosperity since the end of 
World War II, is most in danger of coming apart at the seams.
    International peace and security do not require the United 
States to solve every crisis or to intervene in every conflict. 
But, if America is ineffective or absent in the face of the 
most egregious violations of the most basic principles of the 
international order that we have championed, our commitment to 
that order is inevitably questioned and further challenges to 
it are invited.
    I will focus here this morning on three countries at the 
eye of the present geopolitical storm: Iraq, Syria, and Iran. 
It has been more than a year since the United States commenced 
military action against the Islamic State in Iraq and Syria. 
And, while there have been significant accomplishments, the 
progress achieved thus far has been inadequate. An impressive 
coalition has been established. Key The Islamic State of Iraq 
and Syria (ISIS) leaders have been killed or captured. And 
support for local forces in Iraq and Syria has helped roll back 
ISIS in certain areas. Some elements of the right strategy are 
in place, but several are under-resourced, while others are 
missing. We are not where we should be at this point.
    In Iraq, we have halted and reversed ISIS's momentum in 
some areas, but we have seen gains by ISIS in others, such as 
Ramadi. In my judgment, increased support for the Iraqi 
Security Forces, Sunni tribal forces, and Kurdish peshmerga is 
needed, including embedding United States advisor elements down 
to the brigade headquarters level of those Iraqi forces 
fighting ISIS.
    I also believe that we should explore use of joint tactical 
air controllers with select Iraqi units to coordinate coalition 
airstrikes for those units. And we should examine whether our 
rules of engagement for precision strikes are too restrictive.
    That said, we should exercise restraint to ensure our 
forces do not take over Iraqi units. I would not, for example, 
embed United States personnel at the Iraqi battalion level, nor 
would I support clearance operations before a viable hold force 
is available.
    As critical as the front-line fight against ISIS is, 
however, the center of gravity for the sustainable defeat of 
ISIS in Iraq lies in Baghdad. In this respect, we should recall 
that the cause of Iraq's unraveling over the past several years 
was the corrupt sectarian and authoritarian behavior of former 
Prime Minister Nouri al-Maliki and his government. This is what 
alienated the Sunni Arab population we worked so hard to get 
back into the fabric of Iraqi society during the surge. 
Maliki's actions, in turn, created the conditions for the 
Islamic State to reconstitute itself in Iraq, after which it 
gained additional strength in the Syrian civil war and then, of 
course, swept back into Iraq.
    The key now is for the United States to help strengthen 
those in Baghdad who are prepared to pursue inclusive politics 
and better governance, goals that unite the majority of Iraq's 
Shi'ites, Sunni, and Kurds. It is vital that Sunni and Kurds, 
in particular, are again given a stake in the success of the 
new Iraq rather than a stake in its failure.
    There is, at present in Iraq, an unprecedented opportunity 
to support Prime Minister Haider al-Abadi, who, with the back 
of Iraqi citizens in the streets, Iraq's senior Shiite cleric, 
and one Shiite party, is embarked on very serious reforms that 
are being resisted by the leaders of the major Iranian-
supported militias and former Prime Minister Maliki.
    The reality, then, is that the challenges in Iraq are 
neither purely political nor purely military. They are both. 
What is required, therefore, is an integrated civil-military 
plan in which diplomatic and military lines of effort are 
coordinated to reinforce each other. That is what Ambassador 
Crocker and I pursued during the surge, and all the elements of 
that effort are once again required, though it is the Iraqis 
who must provide the ground forces and achieve reconciliation 
if the results are to be sustainable.
    Unfortunately, we do not yet have the proper civil-military 
architecture in place to support this, though we do appear to 
be moving closer to it. Notably, the operational headquarters 
for the military campaign against ISIS in Iraq is based in 
Kuwait. This means that the United States Ambassador in Baghdad 
does not always have a day-to-day military counterpart. I would 
strongly recommend facilitating this by moving key elements of 
the headquarters to Baghdad and ensuring that a comprehensive 
civil-military plan is pursued.
    I note here that I'm very encouraged that the general 
selected to lead the campaign in Iraq is the officer who, as a 
brigade commander in Ramadi in the fall of 2006, launched the 
reconciliation initiative on which we subsequently built during 
the surge, leading eventually to what became the Anbar 
Awakening.
    I should also note that, in my view, the commander in 
Baghdad should focus primarily on Iraq while another commander, 
perhaps positioned in Turkey, perhaps under the three-star in 
Iraq, should be designated to focus on operations in Syria 
which clearly need greater unity of effort.
    Let me now turn to the situation in Syria. Syria today, Mr. 
Chairman, is a geopolitical Chernobyl, spewing instability and 
extremism over the region and the rest of the world. Like a 
nuclear disaster, the fallout from the meltdown of Syria 
threatens to be with us for decades, and the longer it is 
permitted to continue, the more severe the damage will be.
    It is frequently said that there is no military solution to 
Syria or the other conflicts roiling in the Middle East. This 
may be true, but it is also misleading. For, in every case, if 
there is to be any hope of a political settlement, a certain 
military and security context is required, and that context 
will not materialize on its own. We and our partners need to 
facilitate it. And, over the past 4 years, we have not done so.
    It has been clear, from early on in Syria, that the desired 
context requires the development of capable, moderate Sunni 
Arab ground forces. Such Sunni elements are critical for any 
objective one might have in Syria: defeating extremists like 
ISIS, changing the momentum on the battlefield to enable a 
negotiated settlement, and upholding that agreement while 
keeping ISIS down. Unfortunately, we are no closer today to 
having that Sunni force than we were a year ago or when support 
for such forces was first considered, several years ago.
    The central problem in Syria is that Sunni Arabs will not 
be willing partners against the Islamic State unless we commit 
to protect them and the broader Syrian population against all 
enemies, not just ISIS. That means protecting them from the 
unrestricted warfare being waged against them by Bashar al-
Assad, especially by his air force and its use of barrel bombs. 
This, not ISIS, has been the primary source of civilian 
casualties. It has also been a principal driver of the 
radicalization fueling ISIS and the refugee crisis.
    The problems in Syria cannot be quickly resolved, but there 
are actions the United States, and only the United States, can 
take that would make a difference. We could, for example, tell 
Assad that the use of barrel bombs must end and that if they 
continue, we will stop the Syrian Air Force from flying. We 
have that capability. This would not end the humanitarian 
crisis in Syria or end the broader war or bring about the 
collapse of the Assad regime, but it would remove a 
particularly vicious weapon from Assad's arsenal. It would 
demonstrate that the United States is willing to stand against 
Assad. And it would show the Syrian people that we can do what 
the Islamic State cannot: provide them with a measure of 
protection.
    I would also support the establishment of enclaves in 
Syria, protected by coalition airpower, where a moderate Sunni 
force could be supported and where additional forces could be 
trained, internally displaced persons could find refuge, and 
the Syrian opposition could organize.
    Now, no one is more conscious of the costs of military 
intervention or of the limits of our military power than I am. 
As Commander in Iraq and then Afghanistan during the height of 
combat in those countries, I wrote more letters of condolence 
to parents of America's sons and daughters than any of my 
contemporaries. I do not make recommendations for any kind of 
military action lightly.
    But, inaction can also carry profound risks and costs for 
our national security. We see that clearly today in Syria. And 
Russia's recent military escalation in Syria is a further 
reminder that, when the United States does not take the 
initiative, others will fill the vacuum, often in ways that are 
harmful to our interests.
    Russia's actions to bolster Assad increase the imperative 
of support for the moderate opposition and Syrian civilians. We 
should not allow Russia to push us into coalition with Assad, 
which appears to be President Putin's intention. While we 
should not rush to oust Assad without an understanding of what 
will follow him, Assad cannot be part of the solution in Syria. 
He is, after all, the individual seen by Sunnis across the 
region as responsible for the deaths of some 250,000 Syrians, 
the displacement of well over a third of Syria's population, 
and the destruction of many of Syria's once thriving 
communities.
    Finally, let me turn to Iran. The nuclear agreement 
negotiated by the Obama administration contains many positive 
elements. It also contains problematic elements. Over the next 
10 to 15 years, the agreement will impose meaningful 
constraints on Iran's nuclear activities. It will also, 
however, increase considerably the resources available for the 
Iranian regime to pursue malign activities. And, in the longer 
term, as constraints imposed by the agreement expire, the risk 
of Iranian proliferation will increase.
    The key question, going forward, is, What will be the 
relationship of the United States to Iranian power? Will we 
seek to counter it or to accommodate it? As the Obama 
administration sought to promote the nuclear agreement, its 
senior members pledged the former: to counter malign Iranian 
activity. But, many in the region worry that the White House 
will now pursue the latter, attempting to work with Iran, 
perhaps beginning with Syria. This would be a mistake. To be 
sure, the idea of reconciliation with Iran should not be 
dismissed. But, it is one thing if reconciliation means that 
Iran abandons its Quds Force-driven foreign policy, sponsorship 
of extremist proxies, and pursuit of hegemony over its 
neighbors. It is a very different matter if reconciliation 
entails accommodating those actions.
    As we have seen in Iraq, Syria, and Yemen, Iran's 
activities are not only hostile to us and our partners, they 
also exacerbate Sunni feelings of alienation and 
disenfranchisement, which, in turn, drive sectarian 
radicalization and the growth of groups like ISIS. Thus, rather 
than viewing the nuclear agreement as marking the end of a 
hostile relationship with Iran that will enable our 
disengagement from the Middle East, we should see it as 
inaugurating a new, more complex phase of that competition that 
will require intensified United States involvement in the 
region. This should include several important actions:
    First, the United States should make absolutely clear that 
we will never allow Iran to possess highly enriched uranium and 
that any move in that direction will be met with military 
force. This guarantee must be ironclad to reassure our partners 
in the region and have the desired effect with Iran. Such a 
declaration would carry maximal credibility if issued by the 
President and Congress, together.
    Second, we must intensify our work with our Arab and 
Israeli partners to counter Iran's malign regional activities. 
This can take several forms, including continued use of 
existing sanctions authorities against Iranian entities tied to 
terrorism, ballistic missile development, and human rights 
abuses. It should also include expedited approval of weapon 
systems sought by our partners in the region and greater 
integration of their capabilities. And it should encompass 
additional actions to demonstrate that the theater remains set 
with respect to our capabilities to carry out military 
operations against Iran's nuclear program, if necessary.
    Beyond these actions, we should understand that the most 
immediate test for the credibility of our policy will be what 
we do in Iraq and Syria. The outcome in those countries will be 
the basis for the judgments of friend and foe alike about our 
steadfastness and competence in thwarting ISIS, other 
extremists, and Iran's quest for hegemony.
    Mr. Chairman, the situation confronting the United States 
in the Middle East today is very hard, but, as I observed and 
as you recalled, when I took command in Iraq in early February 
2007 amidst terrible sectarian violence, ``hard'' is not 
``hopeless.'' As complex and challenging as the crises in the 
region are, I'm convinced the United States is capable of 
rising to the challenge if we choose to do so.
    I ended my statements before the Senate Armed Services 
Committee in the past by thanking its members for their 
steadfast support of our men and women in uniform. I will end 
my statement this morning the same way, repeating the gratitude 
that so many of us felt during the height of our engagement in 
Iraq and Afghanistan, for the committee's extraordinary support 
for so many critical initiatives on and off the battlefield, 
even when a number of members questioned the policies we were 
executing.
    This committee has also long played a critical oversight 
role poising tough questions about U.S. policy and strategy. I 
highlight the leadership of Chairman McCain in this regard for 
questioning the strategy in Iraq before 2007 and calling for 
many of the key elements that ultimately made possible the 
stabilization of that country. The questions that members of 
this committee ask about our approach in Syria and the broader 
fight against ISIS continue in this tradition.
    Again, this committee's unwavering support of those serving 
our Nation in uniform has meant a tremendous amount to those on 
the battlefield and to those supporting them. And it is with 
those great Americans in mind that I have offered my thoughts 
here this morning.
    Thank you very much.
    [The prepared statement of General Petraeus follows:]

   Prepared Statement by General David H. Petraeus, U.S. Army (Ret.)
    Mr. Chairman, Senator Reed, Members of the Committee, thank you for 
this opportunity to discuss the situation in the Middle East.
    This is the first time I have testified in open session before 
Congress since resigning as Director of the CIA nearly three years ago. 
And I think it is appropriate to begin my remarks this morning with an 
apology . . . one that I have offered before, but nonetheless one that 
I want to repeat to you and to the American people.
    Four years ago, I made a serious mistake--one that brought 
discredit on me and pain to those closest to me. It was a violation of 
the trust placed in me and a breach of the values to which I had been 
committed throughout my life.
    There is nothing I can to do to undo what I did. I can only say 
again how sorry I am to those I let down, and then strive to go forward 
with a greater sense of humility and purpose, and with gratitude to 
those who stood with me during a very difficult chapter in my life.
    In light of all that, it means a great deal that you have asked me 
to share my views on the challenges in the Middle East, where I spent 
most of my last decade in government.
    I thank you for that, Mr. Chairman, and I thank you for the support 
and friendship that you have long extended to me.
                                        ***
    The Middle East today is experiencing revolutionary upheaval that 
is unparalleled in its modern history.
    At the root of this upheaval is the weakening or disintegration of 
state authority in multiple countries. This has led to a violent 
struggle for power across a vast swath of territory--a competition both 
between different groups within states, and one between different 
states in the region and some outside it. Almost every Middle Eastern 
country is now a battleground or a combatant in one or more wars.
    The principal winners, thus far, have been the most ruthless, 
revolutionary, and anti-American elements in the region. This includes 
Sunni extremists like the so-called Islamic State, which is attempting 
to carve a totalitarian caliphate out of the wreckage of the old order, 
and the Islamic Republic of Iran, which hopes to establish a kind of 
regional hegemony.
    All of the revolutionary forces--whether Sunni or Shiite--are 
exploiting the upheaval in the Middle East while also exacerbating it. 
While hostile to each other, the growth of each is feeding the 
sectarian radicalization that is fueling the other. But none of them 
reflects the hopes of the overwhelming majority of Middle Easterners.
    The crises of the Middle East pose a threat not just to regional 
stability, but also to global stability and to vital national interests 
of the United States, for the repercussions of developments in the 
Middle East extend well beyond it.
    Indeed, the Middle East is not a part of the world that plays by 
Las Vegas rules: what happens in the Middle East is not going to stay 
in the Middle East.
    We see this in the global reach of the Islamic State from the 
sanctuaries it has seized in the region; in the tsunami of refugees 
fleeing the conflicts of the Middle East; in the danger of a nuclear 
cascade sparked by Iranian actions; and in the escalating tensions 
between the United States and Russia over Syria.
    And, it is in the Middle East today where the rules-based 
international order--the foundation of American security and prosperity 
since the end of World War II--is most in danger of coming apart at the 
seams.
    International peace and security do not require the United States 
to solve every crisis or to intervene in every conflict. But if America 
is ineffective or absent in the face of the most egregious violations 
of the most basic principles of the international order that we have 
championed, our commitment to that order is inevitably questioned . . . 
and further challenges to it are invited.
    I will focus here this morning on three countries at the eye of the 
present geopolitical storm: Iraq, Syria, and Iran.
    It has been more than a year since the United States commenced 
military action against the Islamic State in Iraq and Syria. And, while 
there have been significant accomplishments, the progress achieved thus 
far has been inadequate. An impressive coalition has been assembled, 
key ISIS leaders have been killed or captured, and support for local 
forces in Iraq and Syria has helped roll back ISIS in certain areas. 
Some elements of the right strategy are in place, but several are 
under-resourced, while others are missing. We are not where we should 
be at this point.
    In Iraq, we have halted and reversed ISIS's momentum in some areas. 
But we have seen gains by ISIS in others, such as Ramadi. In my 
judgment, increased support for the Iraqi Security Forces, Sunni tribal 
forces, and Kurdish peshmerga is needed--including embedding United 
States advisor elements down to the brigade headquarters level of those 
Iraqi forces fighting ISIS. I also believe that we should explore use 
of Joint Tactical Air Controllers with select Iraqi units to coordinate 
coalition airstrikes for those units. And we should examine whether our 
rules of engagement for precision strikes are too restrictive.
    That said, we should exercise restraint to ensure our forces do not 
take over Iraqi units. I would not, for example, embed United States 
personnel at the Iraqi battalion level; nor would I support clearance 
operations before a viable hold force is available.
    As critical as the frontline fight against ISIS is, however, the 
center of gravity for the sustainable defeat of ISIS in Iraq lies in 
Baghdad.
    In this respect, we should recall that the cause of Iraq's 
unraveling over the past several years was the corrupt, sectarian, and 
authoritarian behavior of former Prime Minister Nouri al-Maliki and his 
government. This is what alienated the Sunni Arab population we worked 
so hard to get back into the fabric of Iraqi society during the Surge. 
Maliki's actions, in turn, created the conditions for the Islamic State 
to reconstitute itself in Iraq, after which it gained additional 
strength in the Syrian civil war and then, of course, swept back into 
Iraq.
    The key now is for the United States to help strengthen those in 
Baghdad who are prepared to pursue inclusive politics and better 
governance--goals that unite Iraq's Shiites, Sunnis, and Kurds. It is 
vital that Sunnis and Kurds, in particular, are again given a stake in 
the success of the new Iraq, rather than a stake in its failure.
    There is, at present in Iraq, an unprecedented opportunity to 
support Prime Minister Abadi who, with the backing of Iraqi citizens in 
the streets, Iraq's senior Shia cleric, and the Shia ISCI party, is 
embarked on very serious reforms that are being resisted by the leaders 
of the major Iranian-supported militias and former Prime Minister 
Maliki.
    The reality is that the challenges in Iraq are neither purely 
political nor purely military. They are both. What is required 
therefore is an integrated civil-military plan, in which diplomatic and 
military lines of effort are coordinated to reinforce each other. That 
is what Ambassador Crocker and I pursued during the Surge, and all the 
elements of that effort are once again required, though it is the 
Iraqis who must provide the ground forces and achieve reconciliation if 
the results are to be sustainable.
    Unfortunately, we do not yet have the proper civil-military 
architecture in place to support this, though we appear to be moving 
closer to it.
    Notably, the operational headquarters for the military campaign 
against ISIS in Iraq is based in Kuwait. This means that the United 
States Ambassador in Baghdad does not always have a day-to-day military 
counterpart. I would strongly recommend facilitating this by moving key 
elements of the headquarters to Baghdad--and ensuring that a 
comprehensive civil-military plan is pursued.
    I note here that I am very encouraged that the general selected to 
lead the campaign in Iraq is the officer who, as a brigade commander in 
Ramadi in the fall of 2006, launched the reconciliation initiative on 
which we subsequently built during the Surge, leading eventually to 
what became the Anbar Awakening.
    I should also note that, in my view, the commander in Baghdad 
should focus primarily on Iraq, while another commander, perhaps 
positioned in Turkey and perhaps under the three-star in Iraq, should 
be designated to focus on operations in Syria, which clearly need 
greater unity of effort.
    Let me now turn to the situation in Syria.
    Syria today, Mr. Chairman, is a geopolitical Chernobyl--spewing 
instability and extremism over the region and the rest of the world. 
Like a nuclear disaster, the fallout from the meltdown of Syria 
threatens to be with us for decades, and the longer it is permitted to 
continue, the more severe the damage will be.
    It is frequently said that there is ``no military solution'' to 
Syria or the other conflicts roiling the Middle East. This may be true, 
but it is also misleading. For, in every case, if there is to be any 
hope of a political settlement, a certain military and security context 
is required--and that context will not materialize on its own. We and 
our partners need to facilitate it--and over the past four years, we 
have not done so.
    It has been clear from early on in Syria that the desired context 
requires the development of capable, moderate Sunni Arab ground forces. 
Such Sunni elements are critical for any objective one might have in 
Syria: defeating extremists like ISIS, changing the momentum on the 
battlefield to enable a negotiated settlement, and upholding that 
agreement while keeping ISIS down.
    Unfortunately, we are no closer today to having that Sunni force 
than we were a year ago--or when support for such forces was first 
considered several years ago.
    The central problem in Syria is that Sunni Arabs will not be 
willing partners against the Islamic State unless we commit to protect 
them and the broader Syrian population against all enemies, not just 
ISIS. That means protecting them from the unrestricted warfare being 
waged against them by Bashar al-Assad--especially by his air force and 
its use of barrel bombs. This, not ISIS, has been the primary source of 
civilian casualties; it has also been a principal driver of the 
radicalization fueling ISIS and the refugee crisis.
    The problems in Syria cannot be quickly resolved. But there are 
actions the United States, and only the United States, can take that 
would make a difference.
    We could, for example, tell Assad that the use of barrel bombs must 
end--and that if they continue, we will stop the Syrian air force from 
flying. We have that capability.
    This would not end the humanitarian crisis in Syria, or end the 
broader war, or bring about the collapse of the Assad regime. But it 
would remove a particularly vicious weapon from Assad's arsenal. It 
would demonstrate that the United States is willing to stand against 
Assad. And it would show the Syrian people that we can do what the 
Islamic State cannot--provide them with a measure of protection.
    I would also support the establishment of enclaves in Syria 
protected by coalition airpower, where a moderate Sunni force could be 
supported and where additional forces could be trained, Internally 
Displaced Persons could find refuge, and the Syrian opposition could 
organize.
    Now, no one is more conscious of the costs of military 
intervention, or of the limits of our military power, than I am. As 
commander in Iraq and then Afghanistan during the height of combat in 
those countries, I wrote more letters of condolence to parents of 
America's sons and daughters than any of my contemporaries. I do not 
make recommendations for any kind of military action lightly.
    But inaction can also carry profound risks and costs for our 
national security. We see that clearly today in Syria. And Russia's 
recent military escalation in Syria is a further reminder that, when 
the United States does not take the initiative, others will fill the 
vacuum, often in ways that are harmful to our interests.
    Russia's actions to bolster Assad increase the imperative of 
support for the moderate opposition and Syrian civilians. We should not 
allow Russia to push us into coalition with Assad, which appears to be 
President Putin's intention. While we should not rush to oust Assad 
without an understanding of what will follow him, Assad cannot be part 
of the solution in Syria. He is, after all, the individual seen by 
Sunnis across the region as responsible for the death of some 250,000 
Syrians, the displacement of well over a third of Syria's population, 
and the destruction of many of Syria's once thriving communities.
    Finally, let me turn to Iran.
    The nuclear agreement negotiated by the Obama Administration 
contains many positive elements; it also contains problematic elements.
    Over the next 10-15 years, the agreement will impose meaningful 
constraints on Iran's nuclear activities. It will also, however, 
increase considerably the resources available for the Iranian regime to 
pursue malign activities. And, in the longer term, as constraints 
imposed by the agreement expire, the risk of Iranian proliferation will 
increase.
    The key question, going forward, is: What will be the relationship 
of the United States to Iranian power? Will we seek to counter it, or 
to accommodate it?
    As the Obama Administration sought to promote the nuclear 
agreement, its senior members pledged the former, to counter malign 
Iranian activity. But many in the region worry that the White House 
will now pursue the latter--attempting to work with Iran, perhaps 
beginning in Syria.
    This would be a mistake. To be sure, the idea of reconciliation 
with Iran should not be dismissed. But it is one thing if 
reconciliation means that Iran abandons its Qods Force-driven foreign 
policy, sponsorship of extremist proxies, and pursuit of hegemony over 
its neighbors. It is a very different matter if reconciliation entails 
accommodating these actions.
    As we have seen in Iraq, Syria, and Yemen, Iran's activities are 
not only hostile to us and our partners. They also exacerbate Sunni 
feelings of alienation and disenfranchisement, which in turn drive 
sectarian radicalization and the growth of groups like ISIS.
    Thus, rather than viewing the nuclear agreement as marking the end 
of a hostile relationship with Iran that will enable our disengagement 
from the Middle East, we should see it as inaugurating a new, more 
complex phase of that competition that will require intensified United 
States involvement in the region.
    This should include several important actions.
    First, the United States should make absolutely clear that we will 
never allow Iran to possess highly enriched uranium, and that any move 
in that direction will be met with military force. This guarantee must 
be ironclad to reassure our partners in the region and have the desired 
effect with Iran. Such a declaration would carry maximal credibility if 
issued by the President and Congress together.
    Second, we must intensify our work with our Arab and Israeli 
partners to counter Iran's malign regional activities. This can take 
several forms, including continued use of existing sanctions 
authorities against Iranian entities tied to terrorism, ballistic 
missile development, and human rights abuses. It should also include 
expedited approval of weapons systems sought by our partners in the 
region and greater integration of their capabilities. And it should 
encompass additional actions to demonstrate that the theater remains 
``set'' with respect to our own capabilities to carry out military 
operations against Iran's nuclear program, if necessary.
    Beyond those actions, we should understand that the most immediate 
test for the credibility of our policy will be what we do in Iraq and 
Syria. The outcome in those countries will be the basis for the 
judgments of friend and foe alike about our steadfastness and 
competence in thwarting ISIS, other extremists, and Iran's quest for 
hegemony.
                                        ***
    Mr. Chairman, the situation confronting the United States in the 
Middle East today is very hard. But as I observed when I took command 
in Iraq in early February 2007 amidst terrible sectarian violence, hard 
is not hopeless. As complex and challenging as the crises in the region 
are, I am convinced the United States is capable of rising to the 
challenge--if we choose to do so.
    I ended my statements before the Senate Armed Services Committee in 
the past by thanking its Members for their steadfast support of our men 
and women in uniform. I will end my statement this morning the same 
way--repeating the gratitude that so many of us felt during the height 
of our engagement in Iraq and Afghanistan for the Committee's 
extraordinary support for so many critical initiatives, on and off the 
battlefield, even when a number of Members questioned the policies we 
were executing.
    This Committee has also long played a critical oversight role, 
posing tough questions about U.S. policy and strategy. I highlight the 
leadership of Chairman McCain in this regard for questioning the 
strategy in Iraq before 2007 and calling for many of the key elements 
that ultimately made possible the stabilization of that country. The 
questions that Members of this Committee ask about our approach in 
Syria and the broader fight against ISIS continue in this tradition.
    Again, this Committee's unwavering support of those serving our 
Nation in uniform has meant a tremendous amount to those on the 
battlefield and to those supporting them. And it is with those great 
Americans in mind that I have offered my thoughts here this morning. 
Thank you very much.

    Senator McCain. Thank you very much, General. And thank you 
for probably the most comprehensive overview that this 
committee has received on the situation. I'm very grateful.
    And I would mention, perhaps one of the most admirable and 
important part of my experience was watching your leadership, 
not only in the architect of the surge, but your motivation of 
the young men and women who are serving in the military as 
officers and enlisted. Your inspirational leadership to them 
was something which I will always remember with great 
admiration.
    You called for, in your statement, what some of us have 
been asking for, for years, and that is, the barrel bombs have 
got to end. It's not ISIS that's dropping the barrel bombs. And 
when my colleagues say ISIS is the problem, they're not the 
ones that have killed 230,000 of their countrymen. It's Bashar 
Assad. And let's--and we should own up to that. And some kind 
of accommodation with Bashar Assad, of course, would fly in the 
face of everything that the United States of America has ever 
stood for.
    So, you are calling for, in your statement, that we tell 
Bashar Assad to stop the barrel bombs and establish an enclave 
where people could take refuge, could have protection from the 
incredible, insane cruelties of Bashar Assad. There's going to 
be blowback on that. ``Well, doesn't that mean that we're going 
to have to have American boots on the ground? Doesn't that mean 
we're back in the quagmire? Doesn't that mean''--I can see the 
reaction now from some of my friends who--by the way, the same 
ones that oppose the surge when they're around. But, what's 
your response to that, General Petraeus, that this would then 
cause us to be involved with boots on the ground and the--back 
into the quagmire that characterized our involvement prior to 
the surge?
    General Petraeus. Well, a couple of points, if I could, Mr. 
Chairman.
    First of all, I think very important to underscore the fact 
that Bashar al-Assad can't be part of the longrun solution in 
Syria. He is, as you noted, as I noted, the individual held 
responsible for well over 200,000, and perhaps as high as 
250,000, Syrians dead, and he cannot--he is the magnetic 
attraction that is bringing jihadis to Syria to fight him. And, 
indeed----
    Senator McCain. And----
    General Petraeus.--if we are to support a force, it won't 
work for us, it won't be supportable if we don't support it 
against Bashar al-Assad's actions against it, the most horrific 
of which are the dropping of barrel bombs. And that can be 
stopped. We have the capability to do that. We don't have to 
put 165,000 troops on the ground to do that. We don't have to 
put any boots on the ground to do that, although I think, at 
some point in an enclave, we should not be closed to the 
possibility of some advisors or support elements being in 
something like that, in the same way that we have them on the 
ground in Iraq. So, I don't see this as the--entering a 
quagmire. I see this as taking out the most horrific casualty-
producing item.
    I think General Allen has said that well over 50 percent of 
the casualties overall in Syria have been caused by these 
indiscriminate barrel bombs that can, at a moment's notice, 
drop from the sky. We have the capability to stop that. And we 
should.
    Senator McCain. Speaking of Russia, I noted that the 
Russians have now--have aircraft that are primarily as 
interceptors, not close air support. ISIS doesn't have an air 
force. It's very interesting. And what is your assessment of 
what Vladimir Putin is trying to accomplish with this 
incredible buildup in Syria? And what should the United States 
do in response?
    General Petraeus. Well, first of all, I think you have to 
look at this, writ large. I think that what Vladimir Putin 
would like to do is resurrect the Russian Empire. You see this 
in a variety of different activities. Or at least the Soviet 
Union. He has a number of different activities--diplomatic, 
economic, and, of course, military--in a variety of countries 
around Russia. And now he is, of course, in Syria, as well, and 
trying to revive Russian relationships with countries in the 
Middle East.
    I think the immediate objective that he has in Syria is to 
solidify the corridor on the Mediterranean coast between 
Latakia, where he has his airbase, and Tartus, where they have 
the Russian naval base, the only naval base left in the 
Mediterranean. Clearly, he would like to shore up his ally, 
Bashar al-Assad. At the very least, he wants to make sure that 
Bashar is not thrown under the bus by either other regime 
members or perhaps even Iran until at least he has some better 
sense of the way forward. His objective is to keep that naval 
base, and indeed to keep the airbase that is also useful for 
solidifying it in that corridor. I would think, beyond that, he 
wants to help Bashar solidify his grip, which has been 
challenged increasingly in recent months by ISIS and then by 
other opposition forces, as well, that runs from the coast to 
Holmes and then down to Damascus and so that he can at least 
keep a rump Syrian state.
    But, again, as I said, Assad cannot be part of the longrun 
solution. But, as I also said, we should not be quick to oust 
Assad until we have some sense of what will follow him.
    Senator McCain. So, the United States, in the short term, 
should do what in regards to this--in response to this 
significant military buildup?
    General Petraeus. Well, the first is, we should not go in 
league with this, we should not think that we should--we can 
partner with Russia and Iran and Bashar al-Assad against ISIS. 
Again, if Russia wanted to fight ISIS, they could have joined 
the 60-plus-member coalition that General Allen has so capably 
put together, and helped drop bombs on ISIS. They have some 
capabilities that would be useful to that fight. So, this is 
clearly not what they're up to. And we have to be very clear in 
our resolve to ensure that we deter action by Russia that would 
involve any of the forces we're supporting and certainly 
anything that we're doing in that region, and show firmly, not 
provocatively, that we will not accept that.
    I might add that this also extends, of course, to what's 
going on in Ukraine. I was there a week or so ago. The good 
news is that the violence is down somewhat in the east, 
probably because Putin is going to the United Nations (U.N.) 
General Assembly, then has another negotiating round and would 
like to get out from underneath the sanctions that are so 
crippling.
    I might note that I think that Putin is not playing the 
strongest hand in the world, although he's playing his hand, 
tactically, quite effectively. But, at the end of the day, 
Vladimir Putin is going to run out of foreign reserves. He's 
probably got 200 billion or so left. He will burn through those 
in the course of the next 2 years. And if the sanctions are 
still imposed at that time, he and the companies that have debt 
coming due--he running a very large fiscal deficit--are not 
going to be able to go to the world markets and get money to 
finance their government operations. So, I think he has, 
actually, a limited window of a couple of years to continue 
provocative actions in Ukraine, Belarus, Moldova, Syria, 
Georgia, and so forth. And we have to be very careful during 
this time, when he could actually lash out and be even more 
dangerous than he has been.
    Senator McCain. Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman. And 
thank you, I think, for calling this very important hearing.
    And, General, thank you for your very incisive and 
extraordinarily erudite treatment of these complex issues. It's 
been very helpful.
    Just want to sort of go back to the point that you made. 
Long term, Assad cannot be the future of Syria.
    General Petraeus. Correct.
    Senator Reed. But, short term, you acknowledge that there 
has to be some recognition of what the following on----
    General Petraeus. Absolutely.
    Senator Reed.--would be.
    General Petraeus. Sure. I mean, Syria could actually get 
worse.
    Senator Reed. Right.
    General Petraeus. And we----
    Senator Reed. Now, the----
    General Petraeus. It's hard to believe that, but it could 
get worse.
    Senator Reed. Does that in some way imply that, for at 
least the temporary expedient measure, we would have to work 
with Assad, with the Russians, et cetera, to create a 
transition? You know, your--you seem to pose this dilemma as, 
``He can't go until we know what's following him. But, he can't 
stay forever. But, we don't know''----
    General Petraeus. Right.
    Senator Reed.--``where to move.''
    General Petraeus. Sure.
    Senator Reed. I think that's a key----
    General Petraeus. I----
    Senator Reed.--to the question.
    General Petraeus. I think actually being seen to work with 
Assad would unravel our relationships with our Sunni partners 
in the region. And I think it's, therefore, not something we 
can do.
    Having said that, what we can do is ensure that we don't 
launch an offensive or support an offensive by opposition 
forces that could precipitate his departure before, again, 
there is some sense of what will follow.
    As I mentioned, again, this Sunni Arab force that we need 
to support is essential not just to fight ISIS. It's essential 
to create----
    Senator Reed. Right.
    General Petraeus.--the context within which you might 
actually get a political agreement. And that context is not 
there right now.
    Senator Reed. So, essentially what your advice would be is 
that this Sunni opposition force, composed of a whole range of 
elements with different political philosophies, if it put 
sufficient pressure on Assad, could force him to leave. Is that 
the solution?
    General Petraeus. Well, but--well, I don't know about 
``force him to leave.'' Again, they can force a negotiated 
settlement, out of which, I would think, there will come 
something that will not include Assad.
    Senator Reed. Well, let me ask----
    General Petraeus. Again, I don't see how he's possibly part 
of the longrun----
    Senator Reed.--let me ask--again, I think you have--because 
of your insights, you have continually revealed the complexity 
of this issue, and let's--if we could pursue it--who's going to 
do the negotiations if we're looking for a negotiated 
agreement?
    General Petraeus. Well, there is the U.N.'s Special 
Representative of the Secretary General. He happens to be the 
same individual, Staffan de Mistura, who was the SRSG in----
    Senator Reed. Iraq.
    General Petraeus.--Iraq during the surge, as you'll recall.
    Senator Reed. Yeah.
    General Petraeus. And, candidly, I played a role in 
persuading him to do the same position in Afghanistan, where he 
was also highly capable. So, he--we have--there is a--an extant 
process. I actually am seeing him on Sunday in New York, just 
purely coincidentally.
    Senator Reed. So, you know, in a practical sense, we should 
begin to energize this U.N. process as----
    General Petraeus. We----
    Senator Reed.--an effective means to create at least a 
forum for negotiations----
    General Petraeus. Correct. Now----
    Senator Reed.--without embracing----
    General Petraeus.--I mean, this does exist. It's been--it's 
had--been halting, to put a happy face on it, but it does 
exist, and it is something on which we could build, again, as 
there is a sense of the context developing, where those in 
Damascus are going to realize that perhaps it's time to cut a 
deal, and those who are supporting Damascus in Tehran and now--
--
    Senator Reed. Right.
    General Petraeus.--in Moscow.
    Senator Reed. Let me--you, early on, were advocating a 
train-and-equip program for Syria, to get effective counter-
ISIL and counter---at least counter-ISIL forces on the ground. 
Now, what can we do to revitalize that effort? Is it possible 
to revitalize it, to be very----
    General Petraeus. I think it is. Frankly, again, it has to. 
If we cannot do this, we aren't going to defeat the Islamic 
State. We've done a great deal with the Syrian Kurds.
    Senator Reed. Yeah.
    General Petraeus. But, you can't push Kurds, there or in 
Iraq, farther than the areas that they can hold with 
legitimacy. So, you can't push them all the way, I don't think, 
to take out the capital of the Islamic State, for example, and 
expect them to hold that. It's not their traditional territory. 
And the same is true in Iraq. Those who say, ``Well, just keep 
pushing the peshmerga further.'' The peshmerga shouldn't go 
further. Masuhd Barzani knows that. I have heard that. And 
there's recognition that that shouldn't go. So, again, in Iraq 
there also has to be the development of this force. And that is 
moving along.
    I think, actually, the pieces are in place if we will 
resource them and actually make a critical policy decision. And 
I think that's the critical element for a Sunni force in Syria. 
They are not going to be willing to be supported by us if we're 
not going to support them when they're under attack by Bashar 
as well as when they're under attack by ISIS. Oh, by the way, 
for that matter, Jabhat al-Nusra, the Khorasan Group, or some 
others.
    Senator Reed. So, you think the--it's been a long and 
winding road, but it can be done, putting in the field 
indigenous forces, Syrian forces, et cetera. And the key policy 
decision is that they would be protected against any foe that--
--
    General Petraeus. Indeed. And taken down the barrel bombs. 
If the barrel bombs continue, then the air force goes down.
    Beyond that, I think we're going to have to support some 
forces that will not have gone all the way through our train-
and-equip program. Again, I think pushing everybody through 
that is not necessarily the solution for ramping up.
    Senator Reed. If the President--if the Chairman would 
indulge--one of the approaches to taking down the barrel bomb 
is eliminating the airfields, although some of these can be 
dropped by helicopters, so that makes it very difficult. But, 
the other is to destroy the aircraft, et cetera. Is there any 
sort of--that runs the risk, obviously, of some response--if 
not by the Syrians, some response by even in the Russians, at 
least protesting.
    General Petraeus. Well, there was a--it was publicly 
reported that, had we taken out the chemical systems in the 
redline issue, that a lot of that would have been done, if not 
all of it, by sea- and air-launched cruise----
    Senator Reed. Right.
    General Petraeus.--missiles and a variety of other. So, you 
don't even have to fly in the airspace, necessarily. The fact 
is, we're already in Syrian airspace. We're flying over it all 
the time. We've already put boots on the ground in Syria, 
special mission-unit boots. So, we have the capability to do a 
great deal, and I think we know how to do it capably and 
without undue risk.
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, General.
    Senator McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I'm--I agree with Senator McCain when he said that it's 
refreshing to get a very succinct presentation, breaking it 
out--Iran, Iraq, Syria. And you've--you have certainly done 
that, and I appreciate it very much.
    General Petraeus. Yes, sir.
    Senator Inhofe. One thing we haven't talked about very much 
is the refugee situation. And it's been our feeling, or at 
least my feeling for a long time, that until such time as we 
develop a strategy in the Middle East, that it's going to be 
very difficult to address this. It's also, as you pointed out, 
become more severe if we don't.
    In January, General Mattis testified before this group. He 
said, quote, ``We have many potential allies around the world 
in the Middle East who have rallied to us, but we have not been 
clear about where we stand in defining or dealing with the 
growing violent jihadist terrorist threat.'' He's saying the 
same thing. We don't have a specific strategy there.
    Dr. Kissinger stated before this committee, ``The role of 
the United States is indispensable. It's time for a global 
upheaval. And the consequences of American disengagement 
magnifies and requires larger intervention later.''
    First of all, I'd ask, Do you agree with these assessments?
    General Petraeus. I do. Yes.
    Senator Inhofe. You know, I'm embarrassed to say that if we 
have a strategy in the Middle East and dealing with 
specifically these countries and others, I don't know what it 
is, because we've been waiting for that strategy. And it seems 
to me that you're not going to resolve the refugee problem, 
that's a very real one--here we are, expanding the numbers that 
we would be willing to accept. And that's just a drop in the 
bucket when you look at 4 million that are out there, plus 
another 8 million that have been displaced within--are still in 
Syria. So, until that time, I don't think that's going to 
resolve the problem. Would you have a specific explanation of 
the strategy of the administration in the Middle East, 
affecting the whole Middle East along with the Syria, Iran, and 
Iran? Do you know what that is?
    General Petraeus. I'll defer to the administration for 
that.
    Senator Inhofe. Well, I've been deferring to the 
administration for that, also, and we still don't have it.
    The--you mentioned Ukraine. I know this is supposed to be 
the Middle East subject, but I happened to be there right after 
the Ukrainian elections, with Poroshenko, with Yatsenyuk, the 
Prime Minister, and how proud they were, and how committed they 
were to us, that they, for the first time in 96 years, don't 
have one Communist on their--in their Parliament. And then 
immediately--of course, the--Putin started invading, sending 
troops in, sending equipment in. Very similar to what's 
happening in Syria. Now, you did respond to what they're trying 
to, I guess, do with their military buildup in Syria. Is there 
anything you would like to add to that, in terms of what their 
end game is, what they're trying to accomplish with that?
    General Petraeus. Let me go back to Ukraine, if I could, 
actually, because I think----
    Senator Inhofe. Sure.
    General Petraeus.--what Putin wants in Ukraine is to ensure 
that the--that Ukraine does not succeed. His worst nightmare 
would be a thriving, vibrant, prosperous democracy with free-
market economy on his western border. He knows--he can look at 
Poland and see what's--what happened in the 20 years since--
Poland and Ukraine had roughly the same----
    Senator Inhofe. That's right.
    General Petraeus.--per capita gross domestic product (GDP). 
Poland is twice as much now. Ukraine is still mired where they 
were. So, he's going to do everything he can, not only now that 
the conflict seems to be freezing, to keep it bubbling, but 
what he really wants to do is, again, ensure that there is 
failure in Ukraine. And, in that regard, the future of Ukraine 
is going to be determined in Kiev, not out in the Donbass.
    Senator Inhofe. Yeah.
    General Petraeus. And there are concerns about political 
infighting and so forth. And the Ukrainian leaders have got to 
pull together and get the politics right, just the way, by the 
way, Iraqi leaders have got to pull together, because the 
center of gravity, as I mentioned, of the fight in Iraq is 
actually not on the front lines. As important as fighting on 
the front lines is, and pushing back ISIS and out of Ramadi and 
out of Mosul and so forth, the future of Iraq is going to be 
determined by politics in Baghdad. And, as I mentioned, we have 
a unique opportunity right now to support the Prime Minister of 
Baghdad, who is, a year into the job, pursuing very aggressive 
reforms. He's done away with the vice presidencies, the deputy 
prime ministers, eight ministries, and is now asking for 
examination of the activities of the chief justice, somebody 
who was actually a solid, reasonable chief justice during the 
surge and a few years after that, but then increasingly became 
used, I think, is an accurate description, by Prime Minister 
Maliki to go after the senior Sunni Arab politicians and to 
support other activities that ultimately alienated the Sunni 
population and undid what we achieved during the surge.
    Senator Inhofe. But--General Petraeus, my time is expired, 
but here's what I'd like to do. I'd like to have you answer, 
for the record--I go back to Oklahoma, and I talk to people, 
and they contend, and I do, too, that we're over-complicating 
this deal that we have proposed with Iran, and that you don't 
really need to go beyond the fact that, as our--Ronald Reagan 
used to say, verify. Verification is important. I don't think 
verification is there. So, I'd like to have you analyze just 
that part of this proposed deal. If we have something that can 
go as long as 54 days before going in to find out whether or 
not Iran is developing some of the things that we think they 
are, I'd like to know how that is--verification plays into 
this, if you'd do that for me.
    General Petraeus. Sure.
    [The information referred to follows:]

    General Petraeus did not respond in time for printing. When 
received, information will be retained in the committee files.

    Senator Inhofe. Thank you.
    Senator McCain. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    General, thank you for your service.
    Characterize, if you would, on the solution that follows 
Assad in order to get there. How could we interact with Russia, 
in the U.N. context, in order to bring about a political 
solution?
    General Petraeus. Well, first of all, I think it's just 
important to acknowledge that there are various potential 
options for Syria. One could be, you could put the whole 
country back together again and have a multiethnic, 
multisectarian, pluralist democracy--I find that probably 
remote, in terms of possibilities--all the way to acknowledging 
that we can't put Humpty Dumpty back together again and there 
will be a number of states carved out of the old Syria, perhaps 
a Sunnistan, a Shiite-Alawite-stan, and Kurdistan. Perhaps more 
than one. But, again, none of this is going to happen. They're 
not going to have negotiations, certainly unless the individual 
most responsible for this civil war, Bashar al-Assad, and his 
regime feel that they are threatened and that their survival is 
in question.
    I think if you can get to that point, then you might have 
the leverage to conduct negotiations, in which case we would 
expect that Russia would be on the side of keeping a favorable 
regime to them, because, again, their overriding national 
interest in this case, beyond President Putin striding the 
world stage again, as he did to provide the way out of the 
chemical weapons conundrum, is to maintain the seaport that he 
has at Tartus, and the airbase in that corridor that connects 
them on the Mediterranean coast.
    Senator Nelson. In your opinion, are we not getting close 
to that point, where Assad feels completely threatened?
    General Petraeus. I think probably the Russian intervention 
gives him a degree of new hope. I think he has been losing 
recently, gradually, steadily over the course of recent years--
or a sense that he might not be able to continue the fight. 
But, of course, progressively what has happened over the years 
has been that, first, Quds Force advisors entered to help, Iran 
bankrolled and provided equipment and so forth, Russia's 
provided some of that, and then Lebanese Hezbollah entered the 
fray on the side of Syria, as well. There are also reports of 
various Shiite militias from neighboring countries fighting on 
his behalf. And certainly the support from Russia, especially 
if it includes a considerable amount of military hardware, will 
bolster him further.
    Senator Nelson. Turning to Iran and the agreement, I read 
your op-ed with Ambassador Ross, and I find it very compelling. 
There are a lot of conclusions that the two of you drew that I 
had drawn, as well, in determining how I was going to vote. And 
that was that, in the short term, it certainly is, in my 
judgment and apparently what you articulated, in the interest 
of the United States with the agreement, but, in the long 
term--and you speak in terms of 10-15 years down the road. Do 
you want to expand, then, on your idea? And I'll quote from 
your op-ed. ``In other words, deterrence is the key to ensuring 
not just that the Iranians live up to the agreement, but also 
to preventing them from developing nuclear weapons.''
    General Petraeus. Absolutely. And not only that, deterring, 
if you will, or dissuading or persuading, countries in the 
region that they don't need to go to that similar point that 
Iran is, or will be at the 15 year mark and perhaps beyond, 
because then we're going to have a real threat to the 
proliferation regime that is in place--the nonproliferation 
regime.
    So, again, the key element here is an ironclad United 
States position--again, ideally from both Congress and the 
White House--that states unequivocally that if Iran ever moves 
toward enriching to weapons-grade, that we will stop that, 
militarily.
    Senator Nelson. And your other sentence that leapt out at 
me, ``But, verification means only that we catch the Iranians 
if they cheat. What matters more is that the Iranians recognize 
that they will pay a meaningful price when we catch them.''
    General Petraeus. Correct. Absolutely. Yeah. Again, they've 
got to know in advance. And there are provisions in this. The 
snap-back provision actually, I think, is fairly artful. Again, 
there are many positive features in this. The elimination of 
other entire 20-percent stockpile, elimination of 97-98 percent 
of the low-enriched 3.5 percent, ends the plutonium path to a 
bomb, intrusive inspections, with some wrinkles, to be sure, 
and some challenges that have been noted. But, again, a number 
of positive, but some problematic ones, because along with that 
will come the release of at least $50 billion, according to the 
Under Secretary of the Treasury, that has been frozen around 
the world. And this is for a country--that's 10 percent of its 
GDP, just given to it. And, while most of that undoubtedly will 
go to worthy programs for Iranian citizens, there will be a 
portion that will end up in the pockets of the Quds Force and 
enable them to further enable Lebanese Hezbollah, Hamas, the 
Houthis in Yemen, who, when they couldn't get their way at the 
political table, got their way with force of arms and so forth, 
and Shiite militia in Iraq.
    Senator McCain. Senator Sessions.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Sessions. Thank you.
    General Petraeus, thank you for your service to your 
country. It's been so valuable to us. Those who have watched 
your career, who have been with you in Iraq, seen you serve the 
country, I'm not aware of anyone who's done a more superior job 
than you. And my respect for you and your integrity is 
unmatched.
    And Senator McCain, I believe his opening statement is very 
important for all of us. I think the questions Senator Reed has 
asked raise the kind of practical questions we've got to deal 
with. And I believe that, at this point in time, we, as a 
Congress, needs to assert itself.
    I think the first thing Congress should say to this 
administration is, ``Show us a strategy that will leave us--
lead us out of this morass that we're in.'' And we don't have 
that today. I believe--and I'll ask you. You've seen the 
political world, and you see the disagreements and agreements 
that occur. Don't you think it's possible for the Republicans 
and Democrats on this panel, in this Congress, to agree on a 
long-term overall strategy for the Middle East that could guide 
us for decades to come? And isn't that important?
    General Petraeus. Well, what's interesting is that this is 
one of those moments in time where there seems to be 
bipartisan--a bipartisan sense of a need to do more, frankly. 
And that includes to define all the elements of a strategy. As 
I mentioned, some of those elements are there, some are under-
resourced, and some are missing.
    Senator Sessions. Well, if we had an overall goal, I think 
it would be important to have our allies also join in that. I 
think--do you think that's possible--our European----
    General Petraeus. I----
    Senator Sessions.--allies, particularly----
    General Petraeus. I----
    Senator Sessions.--could join with us in a--on a plan that 
we could--it's got to extend beyond the next presidential 
election. We can't change our strategy every time a President 
changes.
    General Petraeus. Look, I--you know, it's always good to 
recall Winston Churchill on allies, and he said the only thing 
worse than allies is not having any. And I spent a good bit of 
my time in Afghanistan, in particular, but also in Iraq, doing 
what might be termed ``coalition maintenance.'' And I firmly 
believe that we should never go it alone if we can avoid doing 
that, although we should also recognize that there will be 
different contributions from different countries. And, at the 
end of the day, there was--there were virtually no countries in 
Afghanistan that did not have some caveat of some type. And the 
art of that--of coalition command is figuring out what each 
country can uniquely do well, where each country needs to be 
augmented, frankly, by U.S. assets to enable it to do what it--
to contribute the most that it can, given the limitations that 
it has.
    Senator Sessions. I think this is a historic hearing. I 
remember Senator McCain's reference to your testimony with 
Ambassador Crocker. I asked you at that time, and you've 
already answered it, about the Middle East, I think, today, 
what you said. And we worried, ``Could we be successful?'' And 
I asked you, ``Do you believe, if you go to Iraq with the--that 
we can achieve a successful result?'' You said yes. I asked 
you, ``If you got to the point where that wasn't possible, 
would you tell us so?'' And you said yes. And you succeeded as 
you suggested that we could succeed.
    I just can't tell you how much I value your opening 
statements. And I think we all should appreciate the efforts of 
Senator McCain at that time in 2007, when his presidential 
election--he placed everything he believed about the forces and 
our men and women in combat above any personal political goals. 
And I think that's a good example for all of us today.
    General Petraeus. I seem to recall him saying that he would 
rather lose an election than lose a war.
    Senator McCain. So, I did both.
    [Laughter.]
    General Petraeus. And he--you know, if I could just make 
one quick comment, Senator. It's really important to remember 
the surge that mattered most was not the surge of forces, it 
was the surge of ideas. It was a change in strategy. Big ideas 
are everything. And shifting from consolidating on big bases 
and getting out of the neighborhoods to recognizing that the 
only way to secure the people is by living with them was big 
idea number one. It was very difficult to execute. It was 
costly. But, it was necessary, and it actually did help bring 
security and, ultimately, brought violence down by some 90 
percent, coupled with the other big idea, which was, you can't 
kill or capture your way out of an industrial-strength 
insurgency. You have to promote reconciliation. And that's why 
I singled out building on that case of reconciliation that had 
been established in late 2006 in--outside Ramadi by 
Lieutenant--now Lieutenant General MacFarland, who is actually 
back in that region and spending the bulk of his time in 
Baghdad.
    Senator Sessions. Thank you for your service. Thank you for 
your wise words. And I think it's a challenge to us to see if 
we can't, at this point in history, develop an overall view of 
the Middle East. There's been studies that show the violence 
that have been around where extremists--extreme Islam tends to 
cause conflicts. And I think we need to see the whole region. 
And, within it, we'll have allies, and we'll have problems, 
we'll have things we have to accept even if we don't like. Some 
things we're going to have to try to provide leadership on. And 
a long-term agreement of that kind among both parties and all 
of our people, including our allies around the world, I believe 
would be a positive development. My hand is open to try to 
reach that kind of agreement.
    Senator McCain. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    And, General, thank you again for your service----
    General Petraeus. Yes, sir.
    Senator Manchin.--but also for being here today and 
presenting to us. I think it's most valuable.
    You know, we look at trying to find something that would 
resonate over in that part of the world, especially with Syria 
being so unstable right now, and our relationships in that 
area. You can only look back at our past performance and find 
out, you know, and learn from that. So, you know, when Qadhafi 
was taken out of Libya and we had nothing to replace Qadhafi 
with, we see what's happened to Libya. We're gone out of there.
    In Iraq, when Maliki was put in, there had to be somebody 
making decisions on this was the person we're going to put in, 
knowing he had to be a hardline Shi'ite, knowing that he would 
divide up the Sunni-Shi'ite forces there and cause, basically, 
the unstability that we have. Was that not considered, or is it 
just impossible to find a moderate that can work with the 
different sectors involved?
    General Petraeus. First of all, there's been a lot of 
discussion of this, and a lot looking back. Ambassador Jeffrey, 
who was the Ambassador at the time----
    Senator Manchin. I might add, so I----
    General Petraeus.--has written about this.
    Senator Manchin. That's the caution that we have with Assad 
right now. Everyone's saying, ``Who do you replace him with?'' 
What do you do, since we've had failures in both of those?
    General Petraeus. Again, this is--you know, you play the--
--
    Senator Manchin. Sure.
    General Petraeus.--part you're dealt. You can influence 
that sometimes. There may have been a moment to do that. I 
actually ended up being in Afghanistan during the penultimate 
months of that. But, I was there for the initial piece.
    We should remember that--you know, I've been tough in Prime 
Minister Maliki here, but Prime Minister Maliki during the 
surge and, indeed, in the years after the surge, he's the one 
who went after the Shiite militia in Basrah, very, frankly, 
impulsively, as you may recall, in the charge of nights in--in 
March. We called it March Madness, in March of 2008. And it was 
a very close-run affair until we could get all of the forces 
marshaled to support his elements that were on the ground. And 
ultimately, it was a resounding victory there, in Sadr City, in 
Khatami, in a number of other places in Baghdad, and actually 
set the conditions for a period of relative stability and 
reasonable harmony that lasted for several years after that. 
Tragically, he undid much of what was done during the surge, no 
longer honored agreements that were made with the Sunni 
population, with the so-called Sons of Iraq, and so forth. And 
again, there has been a lot of academic and pundit discussion, 
think-tank discussion on why we hung with him, especially 
because--former Prime Minister Allawi got one more vote in the 
Parliament, but then just couldn't form a government, and so 
there was a lot of wrangling back and forth.
    Without question, this is something that is in everyone's 
mind and in everyone's memory. And again, certainly the 
experience with Qadhafi, although I think, at the point at 
which we committed to support the upspring--wellspring of 
citizens going after Qadhafi, that that, arguably, was the 
right move. What needed to happen after that, of course, was to 
immediately, as quickly as possible, try to carry out a DDR 
program--a disarmament, demobilization, and reintegration 
program--for all the different militias, try to help form 
security forces as quickly as possible. And I think that we 
have learned some lessons in that regard so that, when you've 
got an inclusive government, that it's supported wholeheartedly 
and you move forward.
    Senator Manchin. If I may, sir, I----
    General Petraeus. Sure. Yes, sir.
    Senator Manchin. Time's limited here. But, the Iran nuclear 
decision was probably the most difficult for all of us, not 
just in this committee, but, I think, in the whole Senate 
membership. With that being said, I leaned strongly toward 
supporting, because I wanted to work with our allies. And I 
always said, if I couldn't go home and explain it, I couldn't 
vote for it. And I could not explain to West Virginians, 
basically, when they would ask the question, What happens at 
the end of 8 and a half to 10 years? What happens at 15? 
Because we put them in a position to be stronger if they had 
not changed their ways. And, since we didn't hold them 
accountable, basically, for their actions of terrorists, then 
how do you expect them to change their ways later on? So, that 
was the one thing to stop me from supporting it.
    What I would ask you is, How damaging to our allies would 
we have been--would the U.S. have been if it had been defeated, 
if we had not--those who voted for it had not voted for it? 
Would it have damaged our relationships, since our allies were 
all saying, ``We're going to go without you''?
    General Petraeus. Oh, absolutely. Sure. And I think there 
are big questions about what would have happened--what would 
happen to their sanctions regime. Could you get it back 
together? We had kept Russia and China onboard through this 
whole process. Does it all become unraveled? And so forth.
    And, look, I think the real question--this is a reality. 
Focusing forward, taking the rearview mirrors off the bus, the 
biggest question is, What happens after 15 years? That's when 
virtually all--there's a few that linger.
    Senator Manchin. I got it.
    General Petraeus. But, virtually all of the restrictions of 
the agreement end, and Iran can move out quite smartly in a 
variety of different areas in building its enrichment capacity 
and other elements of a program. And that's why it is so 
vitally important that the U.S. be very, very clear, crystal 
clear, ironclad, why the White House and Congress, together, 
should be very clear about what would happen if Iran ever made 
a move towards weapons-grade enrichment. That will also, again, 
not only, hopefully, deter Iran, but also reassure our Gulf 
allies. And that's another very important consideration.
    Senator Manchin. Thank you, Mr. Chairman.
    General Petraeus. Thank you, sir.
    Senator Manchin. Thank you.
    Senator McCain. Senator Wicker.
    Senator Wicker. General Petraeus, thank you for your 
testimony.
    I think we could have gotten a Status of Forces Agreement 
in Iraq if we'd really, really tried. Do you agree with that?
    General Petraeus. Actually, I--let me put it to you another 
way. I--I mean, if it goes through the Parliament--the problem 
was, it was not probably going to be approved by the 
Parliament.
    An interesting fact is that I believe we now have 3500 
troops on the ground without a Status of Forces Agreement. So, 
we seem comfortable doing this now that we really have to. And, 
candidly, that was something I think we might have considered 
trying, given that the Prime Minister was going to give his 
personal assurance, and tested out. There's no guarantee that 
having 10,000 troops on the ground would have given us the 
influence or prevented Prime Minister Maliki from taking the 
highly sectarian actions that he did, but I would have liked to 
have tested the proposition.
    Senator Wicker. Thank you for that.
    I'm encouraged that you're so positive about Prime Minister 
Abadi and his reforms, and the fact that he is--has the backing 
of Iraqi citizens in the streets. I assume by that you mean 
Kurdish Iraqi citizens in the street. Sunni----
    General Petraeus. No, I mean--I mean Shiite Iraqi. If you 
look at the----
    Senator Wicker. Okay. Well, what about----
    General Petraeus. I think folks haven't----
    Senator Wicker.--the Sunnis----
    General Petraeus.--picked up----
    Senator Wicker.--and the Kurds?
    General Petraeus. I don't think folks have picked up--well, 
they very much want to see inclusive governance. The Sunnis 
desperately need it, because, without this, they have no source 
of revenue. So, those who say, ``Let Iraq break up,'' by the 
way--it's one thing to--for Kurdistan, which his largely 
autonomous, now actually has pretty good oil revenues coming 
in, although not enough. I can--they are running a deficit, and 
they still need what they can get, their 17 percent out of the 
oil revenues from Iraq proper, which means really the two 
southern provinces that produce the most. But, there's no oil 
or gas revenue going to be provided for the Sunni areas. 
There's no production in those areas. So, one of the really 
serious problems is, How would they survive? The second is, Who 
draws the boundaries? Where are the borders? I mean, if you 
have a state of politics that's so fractious that you have a 
population that's alienated, how in the world are you going to 
have an amicable divorce? This will be a very fractious 
divorce, and it will be another civil war, perhaps, along the 
lines of Syria.
    Senator Wicker. Okay.
    General Petraeus. So, great concern about that. Abadi wants 
to pursue inclusive politics. But, I don't think people have 
picked up that there are huge demonstrations going on in the 
cities of Iraq in the southern part of the country, because of 
citizens who are outraged by insufficient services, 
particularly electricity, during extraordinarily hot weather in 
recent weeks--really, month--and then corruption. And they are 
just flat outraged. The Grand Ayatollah, then, seeing this 
outrage through his clerics, issued statements that really 
encouraged the kinds of reforms that Prime Minister Abadi has 
now pursued, and they are now moving--each week, he has pursued 
more reforms. And, indeed, he knows that the only way to get--
to combat ISIL sustainably is to get the people in the area 
where ISIS is located to turn against them in the same way that 
we did with reconciliation with the Anbar Awakening with the 
Sons of Iraq Program. But, of course, citizens can't turn 
against a particularly barbaric force unless they have a sense 
that they're going to be secured. So, this will have to 
proceed. But, to do that, you have to have Sunni Arab Iraqis 
who will not only clear, but then be able to hold these forces, 
with a considerable assistance from us in the form os 
intelligence, surveillance, and reconnaissance and precision 
strike assets.
    Senator Wicker. Okay. So, let me make sure I understand. 
That--this sort of divorce you talk about is something really 
to be avoided in Iraq. And you have a different view about 
Syria, where you seem to suggest in your testimony it wouldn't 
be the end of the world if Syria as we've known it does split 
up into three or four----
    General Petraeus. Well, because they've had this horrific 
situation. I mean, Syria----
    Senator Wicker. So, you have----
    General Petraeus.--has gone through considerable--you can 
call it sectarian cleansing. I mean, you've had horrific 
sectarian displacement. I mean, this would not have been the 
solution for Syria 4 years ago. But, we are where we are with 
Syria, and you see enormous displacement of different sects. 
You----
    Senator Wicker. But, we can avoid that in Iraq, and we 
should make every effort to----
    General Petraeus. No guarantee we can, at all. This is a--
going to be a very close-run affair. But, we should try to 
avoid it, I think. There will be greater devolution of power. 
There's going to be--have to be a different political bargain, 
if you will, between Baghdad and the Sunni Arab provinces. And, 
by the way, one of the challenges on the Sunni Arab side is 
that the Mosulawis don't agree with the Tikrikis who don't 
agree with the Anbaris. So, you even have a fractious situation 
among the various Sunni leaders--by the way, all whom come 
through here or see you somewhere out in the region. So, that's 
going to be difficult, as well. There is nothing easy about 
this situation right now. But, I don't think we should just 
say, ``Okay, we'll just let it go further,'' because there are 
still mixed areas in Baghdad, there are still mixed areas in 
the Baghdad belts. Diyala Province is still highly mixed. There 
have been efforts to reduce that amount of mixing. There has 
been sectarian displacement; indeed, in some cases, perhaps 
worse than that. But, the only way to prevent that kind of 
horrific civil war breaking out, which is what will--the result 
will be if there is a determination to break it into Sunni, 
Shiite, and Kurdistan--you've got to get inclusive politics. 
You, once again, have to give the Sunnis a sense that they have 
a stake in the success of the future of Iraq rather than a 
stake in its failure. And that's what they came to feel, back 
in 2006, before the surge, and it's what they have come to feel 
in the last couple of years, as well.
    Senator Wicker. Well, your answers are very thorough, and 
we're way out of time. I--let me just ask for something on the 
record, because Senator McCain mentioned it in his opening 
statement. I would hope that, on the record, you can give us 
your insight as to what lessons we might apply in Afghanistan 
that we've learned from our experience in Iraq.
    General Petraeus. Could--Chairman, could I make two quick 
points on Afghanistan, possibly?
    First of all, there have been reports recently that there 
was a policy or an acceptance of what clearly is absolutely 
reprehensible, unacceptable behavior by certain Afghans with 
using male, essentially, sex slaves and so forth. I was very 
pleased to see General Campbell issue a statement today, the 
current Commander in Afghanistan, who, by the way, was a two-
star in Afghanistan, as you'll recall, with the great 101st 
Airborne Division when I was the Commander of the International 
Security Assistance Force. He was also there as a brigade 
commander. And he stated very clearly that has never been a 
policy, it is not a policy now, and it certainly was not 
something that was acceptable or even discussed, frankly, when 
I was the Commander of the International Security Assistance 
Force.
    The very first line of a counterinsurgency guidance that I 
put out as COM ISAF said we have to help--we have to be seen to 
be helping secure and serve the people, and we have to help the 
Afghan forces do the same. There's no way that that kind of 
behavior would be seen as helping to serve the Afghan people. 
And it is absolutely unacceptable.
    Second, look, I do think that we have to take a very hard 
look at our future plans for the footprint that we have in 
Afghanistan, recognizing that now there is an Islamic State 
presence being established there, recognizing there still is 
work to be done to continue the disruption, the further 
disruption of al-Qaeda senior leadership in the Federally 
Administered Tribal Areas of Pakistan. That campaign has had 
considerable--considerable progress, success, indeed not only 
on Osama bin Laden, but, over a certain period, three number-
twos in about an 18-month period. And that is a very, very much 
diminished in capability central headquarters for al-Qaeda, but 
it has to continue to be disrupted, because we don't own the 
ground, and really nor does Pakistan, fully.
    Beyond that, we're in a situation where, with a relatively 
modest number of United States forces providing assistance to 
our Afghan partners, we are able to continue to accomplish the 
mission that we went to Afghanistan to achieve. And we cannot 
forget why we went there and why we stayed. It was because 
Afghanistan was where al-Qaeda planned the 9/11 attacks and 
conducted the initial training for those attacks. And our 
mission was to ensure that never again would Afghanistan be a 
sanctuary for al-Qaeda or other transnational extremists to do 
that again.
    That mission has been accomplished, so far, as you know, 
Senator. It is now being done with a relatively modest number 
of U.S. forces. There still are casualties, but way, way less 
for us. In the meantime, Afghan forces are very much fighting 
and dying for their country to help achieve the mission that is 
so important to us and to them, to not allow the force retake 
their country, the Taliban, that did allow al-Qaeda to camp out 
on its soil and plan those attacks.
    Senator Reed [presiding]. Thank you very much.
    On behalf of Chairman McCain, let me recognize Senator 
Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    And, General, thank you and your family for your service to 
this country. And it is good to have you back here with us 
today, and we appreciate your ideas, your advice a great deal.
    One of the things I want to ask you about is, you 
emphasized the need to work with the Kurds, Turkey, Israel, and 
other allies, to interdict Iranian arms bound for extremist 
groups. We've had the authority to cut off these shipments. 
What are the challenges, and what are your recommendations, to 
help finish the job on this?
    General Petraeus. Well, the challenges have been that there 
has been fairly devious and difficult operational security 
carried out by Iran when it has provided weapons to different 
forces, whether it's Hamas, Hezbollah, Houthis, whatever. We do 
have a unique situation with respect to Hamas now that is quite 
extraordinary, and that is that Egypt, for the first time, is 
cutting the tunnels and absolutely obliterating the tunnels 
that used to enable the, basically, free movement of goods 
and--including weapons and ammunition, from the Sinai into 
Gaza. That is no longer a reality, and that is a major 
development in that regard, and a big help to us.
    Beyond that, I do think we make gains in a variety of 
different technologies and forms of intelligence, whether it's 
so-called maritime big data or a variety of other advances that 
can help us interdict that flow of--maritime flow, first, as it 
has, to some degree, limited the flow to the Houthis, where, of 
course, in Yemen, where the Saudis, the Emirates, the Qataris, 
other Gulf Cooperation Council countries are engaged in rolling 
back the action of the Iranian-supported Houthis, who, as I 
mentioned earlier, are trying to get at the point of a gun what 
they couldn't get at the negotiating table.
    Senator Donnelly. Because I see this as a critical part of 
the nuclear agreement that was just put together, is, what you 
were talking about, the promise and the guarantee that we'll 
stand with them to push back on the conventional side from 
corner to corner here. And one of the areas is Lebanon, as 
well, and Hezbollah. How do you feel we can be most effective 
at interdicting materiel, missiles, and others going to 
Hezbollah?
    General Petraeus. I think what we can most effectively do 
is assist our Israeli allies, frankly, with the provision of 
intelligence from a variety of different sources. And they have 
certainly not shrunk from taking action when there have been 
meaningful movements of military capabilities going from Syria 
to Lebanon, for example.
    The concerns that President Netanyahu discussed with 
President Putin yesterday, I believe it was, undoubtedly 
included a discussion of Israel saying, ``We will continue to 
take action if hardware that matters moves from, say, Damascus 
to--into the Beqaa Valley into Lebanon Hezbollah.''
    Senator Donnelly. I wanted to follow up with a question 
about Baghdad, where you say so much has to be determined. When 
we were in Iraq not too long ago, it was pretty clear that the 
Shiite leadership in Baghdad was not creating any confidence 
with the Sunni leaders in the tribal belt out in Anbar and in 
other areas. And so, how do we change that mix? I know 
supporting Abadi is critical, but how do we change the mix of 
so many of the Shiite leaders who are tied to Iran so closely 
in getting some understanding in them that it's not going to 
work against ISIS unless we have our Sunni tribal leaders with 
us, and they're not going to be with us until they start to 
feel that the Shiite leaders in Baghdad understand that, give 
them a piece--give them, in effect, a piece of ownership of the 
country?
    General Petraeus. Well, what's very, very important is that 
the elected Prime Minister of the country recognizes the 
criticality of inclusive politics. That is hugely important. 
It's also important to recognize that the people right now are 
quite supportive of the actions the Prime Minister is taking, 
because the people are outraged about the lack of basic 
services, the corruption----
    Senator Donnelly. He has a real----
    General Petraeus.--and so forth.
    Senator Donnelly.--window now, then.
    General Petraeus. He has a window. This is a very tenuous 
situation, because, again, opposing him are the very forces 
that, arguably, saved Baghdad when the Islamic State was 
threatening it on its--on the belts. And then, these are the 
forces that some people are allied with. And they--by the way, 
at least a couple of these forces are led by individuals who 
were in detention, during my time as the commander of the 
multinational force, because of their involvement in the 
killing of our soldiers. They are now leading, not only 
militias, but parties in the Parliament, to give you some sense 
of how challenging this is.
    So, we're going to have to patiently, painstakingly, day 
after day, engage, use our convening authority, our support for 
the establishment of Iraqi Security Forces not beholden to a 
particular political party with Iranian support, and so forth.
    But, this is going to be a close-run affair, make no 
mistake about it. Prime Minister Abadi has crossed the Rubicon 
into--in the form of the reforms that he is pursuing. Keep in 
mind that when he did away with the vice presidencies, he did 
away with the jobs of the former Prime Minister of Iraq, 
Maliki, another former Prime Minister, Allawi, and the former 
Sunni Arab Speaker of the Parliament. These are considerable 
figures, and I think it was the right move, a very strong move, 
but he is going to have to be shored up in every way that is 
possible, not just by the United States, but by the coalition, 
and, more importantly, by forces within Iraq that want to see 
their country move forward again as an inclusive country rather 
than one that practices exclusive politics that are carried 
out, in many cases, at the force of a gun.
    Keep in mind the outrageous activities that have taken 
place in Baghdad, where one of these militias just recently, 
basically, kidnapped--I think it was 18 or so Turkish workers, 
moved them all the way from Baghdad down to Basrah without 
being stopped, and is holding them ransom down there for some 
not particularly clear objective, other than Turkey stopping 
the flow of ISIS into Iraq. There have been very, very public 
threats by some of the militias against serving leaders, 
including the Prime Minister.
    So, this is a moment of real consequence, a moment of 
considerable drama in Baghdad, and I think we have missed how 
significant it is to see this number of Iraqi citizens in the 
streets expressing their outrage at what's going on in Baghdad, 
a Prime Minister who's moving to take action in response to 
that, but very powerful elements that are going to oppose him.
    Senator Donnelly. Thank you again for your service to the 
country.
    Thank you, Mr. Chairman.
    Chairman McCain [presiding]. Isn't it true that the major 
political influence is Iranian in Baghdad?
    General Petraeus. It is certainly a very important one. I'd 
have to think through what other one might possibly rival it. 
But, I can't think--come up with one.
    But, you know, having said that, Chairman, as you know, 
Iraq has never wanted to be the 51st state of Iran and use that 
support like a crutch when it's required. The problem is that, 
when that support gets tentacles into parties and so forth, 
it's very hard to get it back out.
    Senator McCain. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, General, for your----
    General Petraeus. Senator.
    Senator Fischer.--service to this country, but also for 
being here today so that you can provide us with, I think, some 
very important insights.
    Our approach in Syria and Iraq seems to be that we're going 
to be relying on local partners to be the boots on the ground. 
Just how far do you think these local partners are going to be 
able to take us?
    General Petraeus. Well, again, they'll go as far as is in 
their interest to do so, which is why I mentioned earlier--we 
just have to be realistic about that. That is reality. That's 
why I mentioned earlier, we should not think that the Kurdish 
peshmerga, for example, can be pushed much farther below where 
it is that they are in Iraq right now, or, frankly, the Syrian 
peshmerga. Again, you might get them a bit farther, you might 
employ them for some specific operations. They'll play a role 
in clearing parts of Mosul, one would think. But, they can't, 
ultimately, hold those areas if they are predominantly Sunni 
Arab. So, I think, in that sense, we just have to be realistic. 
They have a stake, however, in doing, generally, what it is 
that we want done, which is to defeat the extreme--the most 
extreme of extremists, the Islamic State, and then also, of 
course, ultimately to create a context within which Bashar al-
Assad will be ushered from the scene in Syria, although it's 
difficult to tell, again, what ultimate shape Syria will have 
at that point.
    Senator Fischer. General Dempsey speaks about patience and 
risk, and weighing of the patience needed and against how much 
risk we're looking at. How much patience should we be 
exhibiting towards our local partners in Iraq and Syria? How 
long should we stick with them before we reach a point where 
we've assumed too much risk and there may be no options left 
that the United States can look at? When do we reach that 
point? And is a tactical stalemate where we want to be?
    General Petraeus. Well, look, as I said, we are not where 
we should be. And the tactical stalemate is actually a fairly 
dynamic stalemate. This is not a stalemate that has, you know, 
World War I trenches, and so forth. There's a lot of movement. 
We are rolling back ISIS in certain places, inflicting very 
heavy casualties on them. I would not want to be a leader in 
the Islamic State in Iraq or Syria, because I think it would be 
very hard to get a life insurance policy if you were in those 
shoes.
    Having said that, there's a lot of reinforcements flowing 
in. And yes, we've pushed them out of this area or that area, 
and then they go into Ramadi. Or, in Syria, they've sustained 
defeats around Khobani, and they go into lightly defended 
Palmyra. So, again, this is still a lot of movement. And ISIS 
is on the defensive in certain areas--without question, in many 
areas--but still has the freedom of action to exercise 
initiatives, certainly in some places.
    The key with our partners is, of course, to be--we should 
be impatient, we should push it as hard as we can. But, as you 
know, this is one of those where you can't rush to failure. And 
that's, unfortunately, what can happen if we push it just too 
hard.
    Senator Fischer. I believe, in your opening, you said that, 
in the future, what will be our relationship to the Iranian 
power, as we see this after the agreement, and that the United 
States used to be a counter to Iran, and now we may be looking 
at accommodating them. Can you tell me what you feel would be 
the challenges and if there are any opportunities to both of 
those positions----
    General Petraeus. Well----
    Senator Fischer.--if we find ourselves as----
    General Petraeus. Sure.
    Senator Fischer.--a counter or if we find ourselves as 
being there just to accommodate Iran?
    General Petraeus. Yeah. And again, what I said was that 
there are concerns in the region that we might accommodate 
Iran, that we might work with them, and now Russia----
    Senator Fischer. And certain comments----
    General Petraeus.--and Bashar.
    Senator Fischer.--I think----
    General Petraeus. Now----
    Senator Fischer.--have challenged our credibility recently, 
from the Secretary of State, with--in Syria, for example, 
though, as well. So, it goes to our credibility in the region, 
too, beyond that.
    General Petraeus. And credibility matters.
    Senator Fischer. Yes.
    General Petraeus. I can tell you, I was just out in Asia, 
Mr. Chairman, and Australia, and it's all about United States 
credibility and what does it--what does that mean for the South 
China Sea? Does what happened in Syria a few years ago have 
implications for that? The answer is yes, it does.
    At the end of the day, if Iran's foreign policy is 
continued to be dictated by the Revolutionary Guards Corps Quds 
Force and enables proxies like Lebanese Hezbollah, a designated 
terrorist organization by the United States, Hamas, another 
one, Houthis, again, with what they're doing, and murderous 
Shiite militia in Iraq, then obviously we have to counter that 
malign activity. If, on the other hand, Iran changes spots, 
whatever changes its approach and so forth, I--by all means, if 
the conditions change, then we should be always alert for 
opportunities to work with what used to be a former enemy. 
We've done this throughout our history. I think the chances of 
that are not particularly high, but it's not something one can 
rule out if something happens as a result, perhaps of Iran 
being reintegrated into the global economy and deciding that it 
wants to be a responsible world citizen instead of trying to 
achieve regional hegemony.
    Senator Fischer. Thank you, sir.
    Senator McCain. Senator Cotton.
    Senator Cotton. General Petraeus, thank you very much for 
joining us today. Thank you for your many decades of 
distinguished service----
    General Petraeus. Thanks for your own service.
    Senator Cotton.--to our country.
    In your testimony, you've broken your main areas of focus 
down to Iraq, Syria, and Iran, and also you recognized the 
interrelated nature of them. I want to start with the section 
on Iran where you emphasize that the nuclear deal, whatever its 
short-term implications for the nuclear program, cannot be seen 
as ushering in a new age of accommodation or conciliation of 
Iran's interests in the regions. Given what's happened in Syria 
over the last month with Russia entering the picture, how do 
you think that our Arab and Israeli partners in the region view 
our current posture towards Iran's influence in Syria?
    General Petraeus. Well, I think they're actually waiting to 
see right now, frankly. I think--that's why I inserted the 
point. I talk to a number of those individuals, and--on a quite 
regular basis--and they have expressed concerns about the 
future. And they want to see us continue to counter malign 
activity by Iran if that continues. And we have to be very, 
very clear about that. Beyond that, I think, again, the very 
clear, ironclad statement about what would happen if Iran moves 
towards weapons-grade uranium enrichment after the 15-year 
mark, or if they should do it before then, has--that has to be 
very clear, as well. That would speak volumes.
    Senator Cotton. You helpfully recommend in your testimony a 
few concrete suggestions for policy direction for each of Iran, 
Syria, and Iran. There is one related to Iran that says, quote, 
``additional actions to demonstrate that the theater remains 
set with respect to our own capabilities to carrying out 
military operations against Iran's nuclear program, if 
necessary,'' end quote. Would you elaborate on what you mean by 
that?
    General Petraeus. Thanks, Senator.
    Back--in fact, when I was the Commander of United States 
Central Command, we developed a plan that would attack Iran's 
nuclear program. It was quite thoroughly developed, rehearsed, 
and the theater was set. In other words, as a logistician, as 
Senator Ernst would appreciate, we--you know, we had all the 
bed-down sites, we had munitions positioned, the fuel. 
Everything is there so that if you need to conduct an attack 
like that on relatively short notice, you can do it. The 
theater has remained set, by and large, ever since. I think 
there's the possibility of adjustments now, because some of the 
countries in the region, I think, would be more accommodating 
to basing than they were at that time. Kingdom of Saudi Arabia 
foremost among them. So, again, I think it's time to very 
publicly lay out how we have postured our forces--again, not 
giving away major secrets, here, or something like that--but 
ensuring that the region knows, and Iran knows, that, if need 
be, we can do what is necessary with our military forces.
    Senator Cotton. What message does the absence of a United 
States Navy aircraft carrier group in the Persian Gulf send to 
Iran, Syria, and Russia, on the one hand, and the Sunni Gulf 
states, on the other hand?
    General Petraeus. It says that there are limits to U.S. 
military power. What I don't know is whether that means that 
there's none in, not only the Arabian Gulf, but also in the 
Arabian Sea. In the past, we've actually had two out there, at 
a--or at least a minimum of one, although that one might sit 
off the coast, sort of south of Pakistan, flying its aircraft 
up into Afghanistan every day. And if there's none in either of 
those locations, again, that's a statement that there are 
distinct limits to what it is we're capable of doing, and 
therefore, there are limits to what we can do to help the 
forces in the region.
    Senator Cotton. Moving northward to Syria, you write, in 
one of your proposals for Syria, ``We could, for example, tell 
Assad that the use of barrel bombs must end, and, if they 
continue, we will stop the Syrian air force from flying.'' I 
suspect that he will not listen to us if we tell him that, so 
we must stop him if we want them to stop. Did you propose this 
policy to President Obama while you were in government?
    General Petraeus. Yeah. When Syria started, I was the 
Director of the CIA, not in uniform anymore, and certainly 
didn't have any responsibility for military actions with 
respect to Syria.
    Senator Cotton. Did you support that policy that others 
recommended?
    General Petraeus. I don't remember a recommendation of it. 
I don't remember barrel bombs at that time, frankly. Again, 
this is the very early stages, where there was no Lebanese 
Hezbollah, there was no ISIS, there was no Jabhat al-Nusra, 
there was no Khorasan Group, and there was no--maybe limited 
Quds Force advisors on the ground.
    Senator Cotton. And now there's Russia, with surface-to-air 
missiles and fighter aircraft. Could you explain to us what 
exactly it would look like if we were to stop Assad from using 
these barrel bombs or to ground his aircraft, given the 
presence of Russia in such heavy numbers now?
    General Petraeus. Well, I think Russia would probably get a 
little bit of advanced warning once certain assets are in the 
air. This doesn't mean that you have to penetrate into the 
integrated air defense of what might be left of that integrated 
air defense of Syria. You can do this with, again, lots of 
different forms of cruise missiles coming off of ships, subs, 
and planes.
    Senator Cotton. Thank you. My time is expired.
    Senator Reed [presiding]. Thank you, Senator Cotton.
    On behalf of the Chairman, let me recognize Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And, General Petraeus, great to have you with us. This 
testimony has been quite helpful. So, I'm going to just go into 
areas where I'm confused and I'm really interested in your 
opinion.
    We've had a lot of testimony before this committee, really 
over the last year and a half, most recently General Austin's 
posture hearing in March of this year, that talks about the 
instability we're seeing in the region as kind of a spiking of 
a longstanding Sunni/Shiite divide that is, at some points, 
relatively calm, and, at other points, you know, pretty 
significant. And yet, I've also heard others say that that 
might overstate it. It could be more Arab v. Persian or, you 
know, Revolutionary Guard v. monarchy, or it could be all of 
them together. But, I just would like to ask your question--
your opinion on this. Do you think the Sunni/Shiite divide, 
kind of the sectarian divide, is widening? And is that a 
significant contributing factor to the challenges that we're 
seeing?
    General Petraeus. I think that there has been a widening of 
the sectarian divide. I think what you see in Syria is very 
much a sectarian civil war. But, I would also point out, there 
are also ethnic overtones, because, in Syria alone, you have a 
Kurdish--Syrian Kurdish element that clearly wants, and has now 
achieved, a degree of greater autonomy. And you have, of 
course, the same in Iraq. And then, frankly, in some other 
countries you have what might be more of a tribal--or, say, an 
Islamist versus non-Islamist, as is the case in Libya, with a 
real civil war, but largely between Sunni Arabs, or in Tunisia, 
which has been more of a political contest, where, thankfully, 
the two leaders of the major parties actually agreed to agree 
with each other, or at least not to be a--opposed to the bitter 
end, but actually reach some compromise.
    Senator Kaine. To the extent that--so, multiple factors. 
And that's my sense, too, from my more limited experience. But, 
to the extent that some of the divide--some of the instability 
is caused by a widening sectarian divide, would you agree that 
it is pretty important that the United States not unwittingly 
sort of, you know, plant our feet on one side or the other of a 
sectarian divide? Sunni versus Shiite is not the U.S.'s issue, 
and we do need to be careful and just kind of be mindful of not 
giving the impression that we're taking a side in a sectarian 
divide.
    General Petraeus. No, I think that's--that is accurate. And 
I think all we have to do if people say, ``Well, you're on the 
side of the Gulf Cooperation Council countries or all Sunni 
Arab,'' we would then merely point out, of course, that we have 
supported the Shiite Arabs in Iraq, and if it were not for our 
action, Sunni Arabs would still be ruling the country.
    Senator Kaine. Right. Indeed.
    General Petraeus. A Shiite-majority country, by far.
    Senator Kaine. Indeed.
    Another strategic challenge. It seems like the areas where 
we've done best in the battle against ISIL are the areas where 
we've worked in close cooperation with the Kurds. I was at 
the--with Senator Donnelly at the Joint Operations Command in 
Erbil in July, I guess, and then some of the activities of the 
United States and Kurds working together in northern Syria have 
had some success. But, sadly, ``no success'' doesn't create 
some of its own challenges. And, on the Syrian side, it just 
struck me as odd that, after a long time of trying to get 
Turkey more engaged in the battle of--against ISIL, it was--
when we started to do a lot of work together with the Kurds, 
around Khobani and elsewhere, and achieved some success, that 
Turkey then decided, ``Okay, now is time we want to really 
participate in this.'' And then, there's obviously been tension 
between Turkey and some of the, you know, very elements that--
Kurdish elements in northern Syria that are having some success 
against ISIL. I'd be interested in your, kind of----
    General Petraeus. Sure.
    Senator Kaine.--thoughts on the Turkish role, here, and how 
we maintain that NATO alliance with Turkey and get them 
involved in the battle against ISIL without them cutting the 
legs out from under the Kurds, who have been effective 
partners.
    General Petraeus. I mean, Turkey's been an ally for 
decades, very, very important country in the defense, first, 
against the Warsaw Pact, the Soviet Union, and continues to 
play a very important role. And I think it's very significant 
that, again, General Allen and others did great work to get 
access to Incirlik Airbase and to get pledges by Turkey to--
certainly to make the movement of ISIL through their country 
into Syria much more difficult.
    But, clearly there are historic tensions between Turkey and 
their Kurdish population. Very sadly, very tragically, there is 
now much greater violence as a cease-fire--and there are 
various explanations as to why this has happened, and whether 
the blame lies in the capital of Turkey or out with the Kurds, 
themselves.
    But, this another complicating factor, without question. 
And I think we saw that the Kurdish Regional Government of 
Iraq, which was starting to think that Turkey would be very, 
very supportive as they were exporting oil through Turkey and 
so forth, when they tried to reinforce Khobani with Kurdish 
peshmerga from Iraq, found it very difficult to move that until 
the United States again offered its convening authority and 
brought people together and helped push that through. So, there 
are some historic tensions there, as well.
    And so, again, the--I mean, the bottom line, as you very, 
very rightly identified, there aren't--there are sectarian 
divides that are very, very important, probably--arguably, the 
most important, unless you're caught in the middle of an ethnic 
divide----
    Senator Kaine. Yeah.
    General Petraeus.--between, say, Arab and Kurd or Arab and 
Persian, when that's the most important. And then there's also 
a tribal overlay, and even in--Islamist versus non-Islamist in 
countries like, again, Libya, Tunisia, and, frankly, in Egypt, 
for that matter.
    Senator Kaine. Great.
    General, thank you.
    Thank you, Mr. Chair.
    Senator Reed. On behalf of the Chairman, let me recognize 
Senator Rounds.
    Senator Rounds. Thank you, sir.
    General Petraeus, thank you very much for your service to 
our country.
    Over the last year or so, Prime Minister of Israel has come 
before us and explained and expressed his concern with regard 
to the--what I would call the nuclear concession agreement 
which our administration has proposed. King Abdullah of Jordan 
has been before us and has requested, as he said--first of all, 
on the day that it was announced that one of his pilots had 
been incinerated, he said, ``Thank you for the F-16s, but,'' he 
says, ``it would be very appropriate if we could also receive 
some of the armaments, which we have been waiting on as a 
country for literally 24 months.'' And then, in the spring of 
this year, Saudi Arabia, along with a coalition of Bahrain, 
Kuwait, Qatar, Jordan, Iraq, Sudan, Egypt, and UAE, when they 
began their campaign in support of, or at least in their 
attempt to make headway in Yemen, we found out about it as a 
nation after it had occurred. Seems to me that that does not 
suggest, in any one of those occasions, a deep degree of 
cooperation and trust with those traditional partners that we 
have. You mentioned the need for coalition maintenance. Could 
you give us your assessment on what needs to be done right now 
to perhaps begin the process of building and maintaining that 
coalition that we've been relying on in the Middle East for 
years?
    General Petraeus. Sure. And some of the elements, of 
course, were in my opening statement, where I talked about, 
again, first and foremost, reassuring them that Iran will never 
be allowed to enrich to weapons-grade, then approving requests 
for various weapon systems that have taken a long time to be 
approved and wouldn't seem to threaten any of the balances 
about which we are concerned. That's particularly interesting 
now that there is a convergence of interest between Israel and 
the Gulf states, as an example. The integration of different 
military capabilities of the countries themselves--take 
ballistic missile defense, early warning systems, and so 
forth--again, this is something we have been pushing. Secretary 
Carter has encouraged, as Commander of Central Command. Again, 
there's more we can do in those areas, as well.
    Again, this is--really comes down to a question of whether 
we'll be there when they need us most. There's no question 
there have been strains. There's no question that some of the 
episodes in recent years have generated some concern. We have 
to be careful not to overdo it, because there's an insatiable 
desire for certain--you know, the requests never stop. But, I 
think we do have to reassure these countries, and I've laid out 
some ways, in the opening statement, I think, on how we should 
go about that.
    Senator Rounds. I'd like to go back to one of those 
thoughts, and that was that you indicated we should make it 
crystal clear that we would not allow uranium enrichment to 
occur with regard to the Iranians' activities.
    General Petraeus. To weapons-grade.
    Senator Rounds. To weapons-grade.
    General Petraeus. Right.
    Senator Rounds. Do you think that's missing in the--or one 
of the items which was missing in the arrangement or the 
proposal that the administration has brought forward?
    General Petraeus. I think we can make it more clear. And, 
frankly, if Congress and the White House were to do it 
together, if this was, you know, seen as ironclad--again, 
remember that, of course, it's not Members of this Congress or 
this White House that are going to be around 15 years from now. 
It'll be their successors' successors. But, establishing a U.S. 
policy that becomes, again, very, very foundational, I think 
would be a very important move. The President did, in a letter 
to one of your House of Representatives, Congressman Nadler, 
lay this out, but then there was a little qualification later 
on. So, again, this is a time just to be absolutely clear, 
straightforward. And I think that that opportunity is there.
    Senator Rounds. I agree with you. I wish it would have been 
included in the proposal that we saw.
    Finally, with regard to reconciliation, I just noted one 
item--when we talk about building and trying to find those 
coalitions and so forth, I just wanted to--a clarification, and 
that is with regard to ISIS. Do you see any reconciliation ever 
available with those who we now term as ISIS?
    General Petraeus. Certainly not with any of their leaders, 
middle leaders, or probably the bulk of the rank-and-file. I 
mean, this is such an extremist organization that it is 
probably beyond redemption. I wouldn't rule out the possibility 
of a few misguided souls that want to come back to the fold.
    A fair amount was made that I said that we should deal with 
Jabhat al-Nusra, the al-Qaeda affiliate in Syria. I really 
didn't say anything of the sort. What I did say is, we should 
try to strip away from within--Jabhat al-Nusra has had a number 
of groups that probably would have been classified as moderate 
Sunni Arab elements drift to it because it had resources, and 
they did not, and because it, probably more importantly, is 
actually fighting against Bashar al-Assad, and the forces that 
we were supporting had to accept that they'd--they would not do 
that, as a condition of our providing them weapons and 
training.
    And I do think that there's a possibility that there might 
be some sub-sub elements, and certainly some fighters, that 
could be wooed back to the cause of the--we did this--you know, 
it was not popular throughout the ranks in Iraq in February 
2007 when I said that we are going to have to sit down with 
people who have our blood on their hands--al-Qaeda Iraq and 
associated insurgent groups. That did not mean that we sat down 
with the leaders of Iraq--of al-Qaeda Iraq. We tried to kill or 
capture them. The same with the major insurgent groups. It did 
mean that there were a number of individuals, though, below 
that with whom we did deal and did bring them in. Ultimately, 
you know, there were 103,000 or so Sons of Iraq, of which about 
80,000 or so were Sunni Arab. And, by the way, there were 
Shiite Arab Sons of Iraq, as well, ones that wanted to shed 
their ties with the militia, particularly after the militia 
were defeated.
    Senator Rounds. Thank you, sir.
    Thank you, Mr. Chairman.
    General Petraeus. Thank you, Senator.
    Chairman McCain [presiding]. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Thank you, General, for being here today.
    The Middle East is an area that is very complicated, and 
there's a lot of instability there, to say the least. So, how 
would you rank the most destabilizing forces in the Middle 
East, if you were to look at Assad, ISIL, Iran and its malign 
activities in the region, al-Qaeda?
    General Petraeus. Well, I mean, they're all sources of 
enormous instability and, really, again, problems that extend 
beyond the region. The----
    Senator Hirono. So, would you be able to rank them?
    General Petraeus. I don't think I can, no. And I--you know, 
on a given day, we might be more concerned with a plot by the 
Islamic State, which might actually do enormous damage in 
Europe to one of our allies, or perhaps even inspire something 
in the United States. On another day, it might be the actions 
of Iran in providing lethal munitions to Hamas to rain 
indirect-fire----
    Senator Hirono. So----
    General Petraeus.--objects on Israel.
    Senator Hirono.--General, in the 10 years that you were--
that you served in the Middle East, then, has it always been 
thus there? It could have been the Taliban, it--you know, there 
was always just a whole range of entities who created 
tremendous instability in that area--has it always been that 
way in the Middle East?
    General Petraeus. Oh, no, I think the instability in the 
Middle East is much greater now than it was, say, when I was 
the Commander of U.S. Central Command, from 2008 through 2010. 
I mean, for one thing, we've had the Arab Spring. So, it's not 
just a result of extremist elements, Bashar al-Assad, or Iran. 
It is the throwing over of longtime dictators who did achieve a 
degree of stability in their countries, but obviously at such 
great expense----
    Senator Hirono. Yes.
    General Petraeus.--that, ultimately, the people rejected 
them. So, I think that's probably the single biggest cause of 
the instability. And what you see then is groups like the 
Islamic State and, indeed, in some degree--to some degree, Iran 
and others, that are taking advantage of ungoverned or 
inadequately governed spaces. I think one of the lessons of the 
post-Arab Spring is that if an area is ungoverned or 
inadequately governed, extremists may well seek opportunities 
in those locations.
    Senator Hirono. Well, hence your caution about Assad and, 
if he were to be toppled, then who would come in to take his 
place.
    There are some who have said that we ought to support the 
partitioning of Iraq, turning to Iraq, so that the Kurds, the 
Shiite, the Sunnis would have their areas. And I believe you 
said, today, that that would be a bad idea. Did you say that?
    General Petraeus. I did.
    Senator Hirono. And do you see any kind of scenario where 
partitioning Iraq in some way would actually lead to some level 
of stability in allowing that country to go forward?
    General Petraeus. It's a wonderful question. I have no 
intellectual objection to the concept of a Shiitestan, 
Sunnistan, and Kurdistan. I have never had anyone explain 
adequately to me, though, how you get to particularly the 
Sunnistan and the Shiitestan. Who is it that draws the 
boundaries? What happens, in terms of oil revenue for 
Sunnistan, which has no oil production in the footprint that it 
now occupies? So, again, this is a--there are some very serious 
practical issues here which, if not resolved, result in a civil 
war, and you'll have Syria Part 2, except in Iraq. So, again, 
intellectually, academically, okay. Tell me how you're going to 
get there in a country in which the politics are so fractious--
--
    Senator Hirono. Yes.
    General Petraeus.--that the Sunni Arabs feel alienated from 
Baghdad. They're not going to agree. This is not going to be an 
amicable divorce. This will be a civil war.
    Tragically, there has been further sectarian displacement 
during the latest violence, as there was, in fact, in the 2005-
2006 timeframe, to a considerable degree. But, they're 
certainly by no means divided. And again, the concept for how 
the Sunnis would survive, how they'd generate revenue, how all 
of this would work, I think, are quite problematic.
    Senator Hirono. So, would you say that any kind of movement 
toward that kind of partitioning should come from within? It 
certainly shouldn't be imposed upon them from----
    General Petraeus. Very, very good point. Indeed----
    Senator Hirono. We have not had----
    General Petraeus.--you may----
    Senator Hirono.--much luck doing it--doing things that way.
    General Petraeus. You--well, I mean, the boundaries were 
drawn by outsiders, and----
    Senator Hirono. Yes.
    General Petraeus.--you see them be obliterated now, to some 
degree.
    Yeah. No, I think you have raised a very, very important 
point, and that is that, whatever the future is, it's going to 
have to be agreed upon or it's going to be fought over.
    Senator Hirono. Thank you.
    Mr. Chairman, I did have one more question, if I--I'm 
running out of time, but--would you mind?
    Senator McCain. Actually, you've run out, but please go 
ahead.
    [Laughter.]
    Senator Hirono. Thank you.
    Over the weekend, the United States began military-to-
military talks with Russia following the arrival of additional 
Russian military equipment, including tanks and fighters 
already in aircraft in Syria. And I just wondered, What would 
your primary objectives be if you were holding these talks with 
Russia?
    General Petraeus. Make sure that nothing goes bump in the 
night, you know, that there's not an operation carried out by 
either side that is misconstrued by the other, is 
misinterpreted, and ends up in shooting where there doesn't 
need to be shooting.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    General Petraeus. I mean, the same as we actually have 
ship-to-ship conversations with Iranians. We had ship-to-ship 
conversations with Chinese in the counter-piracy mission off 
Somalia. Actually, we had ship-to-ship with Iranian ships that 
were actually helping with the counter-piracy mission.
    Senator McCain. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair.
    General Petraeus, I apologize for having to step out. I've 
been to a committee meeting, two meetings, and a vote since 
then, but I was here to listen to your opening statements, and 
I have to agree with the Chair, I think you did a extraordinary 
job in kind of setting the stage for the discussion and some of 
the concerns we should have in the region.
    I did want to go back--and I do apologize if others asked 
you to expand on this; if you did, just let me know and I'll go 
back to the record--but, when you were talking about proposing 
enclaves as potential safe havens within Syria, could you give 
me an idea of what that would look like? Over what reasonable 
timeframe could we do it? To what extent could that potentially 
have a positive impact on the refugee situation in the region? 
Just give me a little bit better idea of how that would play 
out.
    General Petraeus. Yeah. I don't think I can give you a 
timeline. I mean, it's going to start with us actually making a 
declaration that the barrel bombs are going to stop and that 
we're going to defend what's-ever in that enclave.
    Senator Tillis. And what statement or what strategic 
positions are we taking to end the barrel bombing? I mean, 
what, precisely, would the U.S. military, and potentially 
coalition partners, be doing to make sure that that just 
ceases?
    General Petraeus. Well, you have a policy decision and a 
policy statement that says, ``The barrel bombs stop, and, if 
they don't, your air force stops flying.'' Our military can 
figure out how to stop the--Bashar's air force from flying.
    Senator Tillis. I have another question, and----
    General Petraeus. Could I----
    Senator Tillis. Oh, of course.
    General Petraeus. On the enclave, Senator, I'm--the enclave 
is hugely important when it comes to refugees. I mean, what's 
happening is, the refugees are just--they're just giving up. 
And so, they are very much--they would want to go back, I 
think, still now, if there's any hope. And an enclave gives 
them hope. Without that, over time you're just going to see a 
continued exodus. And it's--it is already overwhelming, 
obviously, borders and countries in Europe.
    Senator Tillis. Now, we--you know, once you create an 
enclave, it could, on the one hand, be a safe haven, on the 
other hand, be a huge target. So, then how do we--you know, we 
have attempted to train the Free Syrian Army as a potential--
the original thought was not to put them in an offensive 
posture, but to put them in some sort of defensive posture so 
they, themselves, could create, I guess, enclaves around the 
areas that they, maybe, came from, and that that's not working. 
But, how do we then make sure that we have the presence on the 
ground to ensure the security of these so that they would be 
perceived as a safe haven in the region, versus the mass exodus 
that we're seeing now?
    General Petraeus. Well, first, again, there's a policy 
decision that says, ``We're going to protect you against all 
enemies, not just against the Islamic State.'' And I think, if 
they understand that, and if you put a sufficient constellation 
of assets over them, that you could do a reasonably good job 
with that and equip them with some radios and other 
communications devices so that we can be alerted if they're 
experiencing pressure. I--again, I don't want to make light of 
this. This is very complicated military activity, but it is 
doable.
    Senator Tillis. Can they----
    General Petraeus. And, at a certain point, I'm not, you 
know, at all against having some of our forces in an enclave--
--
    Senator Tillis. And I think----
    General Petraeus.--assuming it's reasonably secure.
    Senator Tillis.--you said in an advise-and-assist role.
    General Petraeus. That's right. That's right.
    Senator Tillis. I have a--shifting to a different 
direction--Iran--the--last week, the President doubled down on 
his position to now allow petroleum exports from the United 
States while, at the same time, the Iran deal was going to 
allow Iran to export oil. I think some estimates, after the 
sanctions are lifted, as many as a million barrels a day. It's 
my understanding they need a price point of about $130 a barrel 
for them to really start balancing their books.
    General Petraeus. Oh, I--no, I don't think so at all, 
Senator. Not Iran.
    Senator Tillis. So, you think it's lower than that.
    General Petraeus. Oh, I think it's much--it's a good bit 
lower than that, yeah.
    Senator Tillis. I may have my----
    General Petraeus. Yeah.
    Senator Tillis.--facts wrong. But, just conceptually----
    General Petraeus. I mean, they wouldn't sell the extra 
million barrels--again, you're----
    Senator Tillis. If they didn't----
    General Petraeus.--you're saying to----
    Senator Tillis. Let me finish----
    General Petraeus.--for their budget?
    Senator Tillis.--the thought process.
    General Petraeus. I think they're okay.
    Senator Tillis. Well, let me finish the thought process, 
though.
    For--based on your military and intelligence experience, do 
you believe that the United States being able to also 
participate in the global markets and being able to export oil 
and other energy products to other nations who may become 
dependent on Iran at the same time that Iran is benefiting 
economically from it, is also a strategic weapon that we should 
be looking at?
    General Petraeus. Look, this is not just based on my 
military intelligence. I'm the chairman of the KKR Global 
Institute, and I'm a partner in KKR, one of the global 
investment firms, big private equity firms in our country. And, 
first of all, by the way, the analysis on crude oil exports 
shows that not only would the price of WTI, West Texas 
Intermediate, go up slightly so the producers would be better 
off, it would actually have an impact on Brent crude prices, 
which would come down--the global price--which is a lot of what 
we refine. And the price at the pump probably would go down. 
So, it's----
    Senator Tillis. So----
    General Petraeus.--a very interesting--if you look at--I 
think it's the CBO that did the analysis of this. One of our 
analytical organizations here, I think, on Capitol Hill has 
looked at this. And it's a very interesting dynamic.
    Senator Tillis. And, General----
    General Petraeus. Beyond that, I don't think we should get 
involved in markets, as a country, unless we want to do 
something like sanctions. So, again, you wouldn't do it--if you 
want to use sanctions or economic tools as a weapon, fine, but 
otherwise I think you have to be very careful about 
intervention in global markets.
    Senator Tillis. Mr. Chair, I apologize. I'll be brief.
    The 130 number, I think, was the kind of profit they would 
have to throw off to also fix their fiscal problems, versus the 
actual market price.
    But, the other question----
    General Petraeus. Or maybe to do investment----
    Senator Tillis. That's right.
    General Petraeus.--in the fields in the future. There's----
    Senator Tillis. That's----
    General Petraeus.--there's something there. But, again----
    Senator Tillis. That's what I was referring to.
    But, I guess, finally, I'm--I want to make sure I 
understand the answer to your question. Do you believe that the 
United States being able to extract more energy from the 
regions under our jurisdiction, and provide that energy, is a 
part of a strategic play to hedge against Iran's ability to go 
out, make more money, fund more malign activities, do more of 
the bad things they're already doing?
    General Petraeus. Look, we ought to produce all the oil and 
gas that we can, if we're making a profit. If we can enable 
countries like Iraq to revive their oil industry as we did, it 
helps Iraq, it funds their government. By the way, they're 
running a fiscal deficit now.
    But, again, we--this is really about market forces, I 
think, much more than getting involved in this as a country. 
The fact is that the energy markets right now, because of the 
U.S. shale gale, the oil energy revolution so far, most 
significant with crude oil in the global markets, and next--by 
the way, the next big disruption is going to be in the 
liquified natural gas markets because of the approval now of 
whatever it is, six or seven liquified natural gas (LNG) plants 
for the United States--they'll be--and that's going to be a 
huge challenge for President Putin. And, as I mentioned 
earlier, Putin's hand is getting weaker. He's running enormous 
deficits, he's carrying out very costly adventures outside his 
country, he's got a limited amount of foreign reserves left to 
fund this, and he doesn't have access to the global markets, 
because of the sanctions on him and on the major--many of his 
major banks. So, I think he's got problems down the road. And, 
oh, by the way, when our LNG hits European markets, just as 
Australian LNG is hitting Asian markets, you're going to see a 
compression of natural gas prices, even though he's selling it 
off the pipeline and we'll have had to liquefy, ship, and 
regasify.
    Senator McCain. Senator Shaheen.
    Senator Shaheen. General Petraeus, thank you for being here 
and for your insights into what's happening in the Middle East.
    I know--last week General Austin was here, and he got 
questioned by a number of members of this committee about the 
train-and-equip mission. And, unfortunately, what he had to say 
about that mission suggests to me, and I think to others on the 
committee, that it has not accomplished what it was supposed 
to. And I--my recollection is that you advocated for a similar 
kind of mission--early, before it actually started. And I 
wonder if you have thoughts about what can be done at this 
point. I think, as it has been operating, it has not been 
successful. So, what should we be doing? Is there any way to 
right it? Should we just abandon it and go on to----
    General Petraeus. Look----
    Senator Shaheen.--other areas?
    General Petraeus. First of all, you can't abandon it, 
because anything we want to accomplish in Syria has to be 
enabled by a Sunni Arab force on the ground, whether it's the 
defeat of the Islamic State or creating a context within which 
the Bashar al-Assad regime might be willing to go to the 
negotiating table, or stemming the flow, the exodus, of 
refugees from Syria that is overflowing European countries.
    Senator Shaheen. So, how----
    General Petraeus. I think the central----
    Senator Shaheen.--do we make it work?
    General Petraeus.--the central issue is that we have to 
pledge, and then take action, to support these fighters against 
anybody who comes at them, whether it's ISIS, which we want 
them to fight, or Bashar al-Assad or Jabhat al-Nusra or even 
other elements. So, again, we're going to have to support them 
against all of these. They want to fight Bashar. We've at least 
got to enable them to fight Bashar's forces in a local way, 
without, as I mentioned in my statement, creating the 
conditions where Bashar goes before we have a sense of what it 
is that we want to see follow him or what will follow him.
    Senator Shaheen. Thank you.
    In your testimony, you talked about establishing enclaves 
in Syria that would be protected, which I interpreted as what's 
normally described as safe zones. Is that what you're--you were 
suggesting by the enclaves you were talking about?
    General Petraeus. Save havens, I think, it----
    Senator Shaheen. I had a--last----
    General Petraeus. And, by the way, they can be in the south 
as well as the north. I mean, and actually there's a reasonable 
one in the south, I think, arguably, contiguous to Jordan.
    Senator Shaheen. Well, last week we heard, at the Foreign 
Relations Committee, from Michael Powers, who--of Mercy Corps, 
which has done a lot of work--humanitarian work in Syria. And 
he expressed grave concerns about establishing safe zones. He 
suggested that it would be very difficult to keep them actually 
safe without a lot of investment of additional airpower and 
troops. He also thought they could become a target for 
extremists and that they could be used by some countries as an 
excuse to reject refugees. So, how does your proposal suggest 
we address those issues----
    General Petraeus. Well, we're going to defend it. I mean, 
we have to make very--what he's saying--you just can't declare 
something a safe zone and expect everybody to honor that. We 
would have to--again, this is the key. The forces that we 
support aren't going to stay supportable. They won't even stay 
alive, as we have seen, if we don't take very active measures, 
have a credible campaign for them to pursue. And part of that 
campaign should be establishing enclaves. That's--I don't 
really like the word ``safe zones.'' There's nothing safe about 
a safe zone, unless you're going to defend it. And the people 
on the ground will judge whether or not you're doing that, and 
they'll vote with their feet whether they're willing to stay or 
even come back or depart with all--a number of the others.
    So, we would have to invest in supporting that zone. It 
doesn't mean, I don't think, that you have to have our boots on 
the ground in that enclave. Although, again, at some point, 
security is adequate, I would be comfortable doing that, just 
as we were comfortable doing it in Iraq.
    Senator Shaheen. Finally, one of the things that I think we 
have not done as successfully as we need to is to counter the 
ISIL propaganda. And do you have thoughts about how we could be 
better responding?
    General Petraeus. This is a really, really difficult 
problem because of the magnitude of it, the sheer number, the 
way that machines are used to amplify, to magnify. I think 
we've got to get smarter about that. I've talked to people at 
Google Ideas, for example, about various techniques that could 
be used on our side in the same way that they're used on their 
side. We did have a program at CENTCOM during part of the time 
that I was the Commander, where we had what we termed 
``credible voices.'' These were native speakers, sometimes 
dialect speakers, with academic training in various religious 
disciplines and so forth. And they were quite effective. The 
problem is that it's very costly. And again, whether that 
effect is really measurable is something that could be debated.
    So, I think we do have to partner more effectively with 
those that really understand the technology. And then we have 
to activate those who are willing to engage in this. I don't 
know that it can, by any means, be all government. I just don't 
think we can generate the critical mass that would be 
sufficient for this task.
    Senator Shaheen. My time is up, but should it be 
spearheaded by CENTCOM or by State Department? Or coordinated--
--
    General Petraeus. The problem with it being spearheaded by 
State Department can be best explained by an episode when I was 
the CENTCOM Commander and the Under Secretary of State, high-
ranking government official, came to CENTCOM to ask, I think, 
for $1- or $2 million for--from us, which we provided, somehow, 
to help them with their program. So, it's--State Department has 
never been adequately funded. I don't know if Senator Graham is 
here. He would--he's the subcommittee chair, I think, still----
    Senator Shaheen. Right. He is.
    General Petraeus.--of the key committee, and has generally 
agreed with that. But, we have always called for State and AID 
to do more, and more and more, and yet we have not given them 
the appropriations, nor, in some cases, the authorization to do 
that.
    Senator Shaheen. Thank you.
    Senator McCain. Senator Ernst.
    Senator Ernst. Thank you, Admiral McCain.
    [Laughter.]
    Senator Ernst. General Petraeus, thank you for appearing in 
front of the committee today.
    And I think you can see, from the attendance at this 
committee today, that your opinions and your thoughts are very 
highly valued. So, thank you for sharing with us----
    General Petraeus. Thank you.
    Senator Ernst.--today your thoughts.
    I would like to go back to the Kurds a little bit. I think 
we've talked a lot about it, and everybody's asked questions, 
but maybe not in all manners. So, the Kurds have been a great 
ally to us. And I've heard that from many of the men and women 
that have served in that region. They've been a great partner 
for 25 years or so. And they have a healthy respect for the 
rule of law. They've been very helpful with a number of 
minorities--ethnic minorities, religious minorities. And what 
can we do to better provide support for the Kurdish regional 
government, the Kurdish peshmerga? I believe we need to double 
down in this effort, regardless of whether they may push beyond 
their regional boundaries. But, they do provide an area, 
whether we can engage them in shaping operations, whether it is 
to provide an area for us to base--can you give us some 
thoughts?
    General Petraeus. I----
    Senator Ernst. The advantages----
    General Petraeus. I can. The fact is, we are based there. 
As you know, we have headquarters, we have operational 
headquarters, we have very close relationships. In both my 
military and intel lives, we were very, very closely linked.
    I think the single biggest issues are the provision of 
weapons and other supplies, to streamline that. You know, I've 
said we have to support Prime Minister Abadi. We need to 
strengthen him. That means we can't bypass him on these issues. 
But, we need to figure out how to get this so that, ideally, it 
doesn't have to touch down in Baghdad, it can go directly to 
them. Some coalition members are doing that, I think, actually, 
with----
    Senator Ernst. They are, correct.
    General Petraeus.--our tacit approval, if not applause. I 
think that's the single biggest step that we could take, and to 
look very carefully at what it is we're providing. And there 
are some additional items--again, I was in--happened to be 
there for a conference in Sulaymaniyah, back in the earlier 
part of this year, and had a lot of people come and plead that 
particular case.
    The other is to determine--you know, the KRG, the Kurdish 
Regional Government, is in very, very difficult financial times 
right now because of the price of oil going down by 55 percent. 
It's not only reduced what they get, but it's reduced the 
amount from which the 17 percent that they get from the central 
government is. And so, they're having a very difficult time. 
They're supporting hundreds of thousands of refugees on their 
soil. Anybody who goes up there and flies over this will see a 
camp every few kilometers. And, indeed, they're fighting a war. 
And again, if we could provide additional assistance to them 
that would be of support, I think that would be very valuable, 
also.
    We have very much enabled them. We helped them hold off--
had it not been for decisive action, actually, at a critical 
moment last year, it's very possible that the Islamic State 
might have gotten closer to the capital of Erbil. That held 
that off, and then has really retaken most of the area around 
the Kurdish Regional Government. And, candidly, there are no 
more disputed internal boundary areas in Iraq. They are 
generally controlled by the Kurdish Regional Government as a 
result of the operations that have taken place with our 
support.
    Senator Ernst. Very good. I appreciate those thoughts very 
much. I would tend to agree.
    I would love to see more assistance going to the KRG, of 
course, in consultation with the Iraqi government. I applaud 
you on that, as well.
    If we could turn to Turkey, just very briefly, we've talked 
a little bit about the fact that they have mobilized. And, 
unfortunately, what we have seen is that, through their 
mobilization of resources, whether it's political, military, 
instead of really pushing back against ISIS, we see there's 
been a turn to mobilize against PKK. And what do you see the 
impact is to those coalition forces, the anti-ISIS coalition 
forces? And what are the greater implications of that, and 
thoughts, maybe, from some of those coalition members?
    General Petraeus. I don't know that this has a huge effect 
on U.S. or coalition forces. They're not being diverted to 
assist. There's a certain--slight degree of support that we 
have provided in the past in the intelligence realm that I 
don't imagine has changed a great deal. What I think is very 
significant is what's happening within Turkey as a result of 
this. The sheer escalation of the violence, a situation that 
was relatively calm and seemed to be heading toward one in 
which there was greater and greater reconciliation between the 
government in Ankara and the sizable part of their population 
in Turkey that is Kurdish, with the allowance of certain--
meeting certain desires of that Kurdish population. And all of 
a sudden, the wheels have come off the bus. And whether this is 
connected with a future election in Turkey or something else, 
it is very distressing to see, because, again, the violence on 
both sides now has escalated very, very rapidly and quite 
considerably.
    Senator Ernst. Great. Thank you.
    My time is expired. Thank you, General.
    Thank you, Admiral.
    Senator McCain. Senator King.
    Senator King. General, first, courage is an element of 
character. And courage to admit mistakes, particularly in an 
open forum such as you did at the beginning of your testimony 
today, to me is a huge indicator of character, which I think is 
the essential quality of leadership. And I want to compliment 
and acknowledge that you did something that wasn't easy this 
morning. And it's very meaningful.
    Question about Russia and Syria. The recent buildup of 
Russian troops, of course, is very worrisome. On the other 
hand, Russia was--you should pardon the expression--an ally 
when it came to getting rid of the chemical weapons. Is there a 
geopolitical opportunity where Russia may recognize the danger 
of ISIS to them, to Chechnya and to the--that ideology--and 
there could be common cause with them, not to dump Assad 
precipitously, but to work on a negotiated agreement, where 
Assad would be moved aside? Because Assad is ISIS's evil twin. 
He brought them into being.
    General Petraeus. Exactly. And continues to inspire the 
recruiting and the--it's a magnetic attraction.
    Senator King. Exactly. So, talk to me about the possibility 
of talks with the Russians seeing--I believe countries act in 
their interests. And, in this case, they have an interest in 
not seeing ISIS metamorphose into terrorism in their country. 
Do--is there an opportunity here for working in concert with 
the Russians to move Assad aside, perhaps guaranteeing their 
presence? You mentioned the bases on the Mediterranean.
    General Petraeus. This is not something I'd rule out at 
all, Senator. I think, again, there's no question they have an 
interest. They're worried about the effect on--in the Caucuses. 
There are Chechens that are down, fighting, without question, 
in Syria. There's a worry, of course, they'll go back, 
presumably, and be more effective. So, the problem is, if they 
had wanted to have done this, if that was really their goal in 
life, they could have contacted the coalition of more than 60 
countries and said, ``Where could you bed down our aircraft? 
How can you integrate us into the air tasking order? We'd like 
to drop bombs on ISIS, just like you guys.''
    Senator King. It appears----
    General Petraeus. And, of course----
    Senator King.--that these recent moves, they've simply 
said, ``We're going to shore up Assad, no matter what.''
    General Petraeus. It--well, it's really--again, you--you're 
right. This is about national interest, and their national 
interest is to preserve the naval base that they have at--in 
Tartus, down----
    Senator King. So, perhaps there's a way to----
    General Petraeus.--down on the coast----
    Senator King. Perhaps there's a way to assure----
    General Petraeus.--and then Latakia, the airbase.
    Senator King. Perhaps there's a way to assure that without 
necessarily guaranteeing the presence of Assad.
    General Petraeus. There could be, at some point. Again, if 
there are serious negotiations. It's not the kind of thing that 
you would just rule out unequivocally. The--this is real 
complicated right now, though, and if they really enter the 
fight on the side of Assad, rather than just sort of 
protecting, again, this coastal enclave that matters to them, 
strategically, geostrategically, then we're going to see real 
complications. And, ultimately, you could end up--you don't 
want to be in direct conflict.
    You know, I'm--look, Russia is an important power. It has 
carried out very provocative actions. It doesn't mean that we 
need to be provocative in return, but we do need to be firm in 
return. We do need to establish what is unacceptable actions--
Ukraine, as an example. And we have to do that here, but we've 
got to see this develop a bit further, recognizing, again, that 
there is a very clear way for them, if they just wanted to 
attack ISIS, and that would be to join the coalition.
    Senator King. Changing the subject. You talked about barrel 
bombs and airpower. Is there an alternative--and I'm keenly--
I'm very aware of the problem, but an alternative closely 
vetted Syrian opposition with MANPADs or similar weapons, which 
could neutralize Assad's air force without mobilizing a major 
air war and coordinated strikes and essentially escalating the 
conflict? In other words, you----
    General Petraeus. The----
    Senator King.--you can take care of barrel bombers from the 
ground or from the air.
    General Petraeus. This has been an issue in virtually any 
of these kinds of endeavors that we've----
    Senator King. Since Afghanistan.
    General Petraeus.--engaged in. Exactly. And the concern, of 
course, is that one gets out of hands and drifts over somewhere 
else and takes down a civil airliner. And so, the risk in this 
has to be very, very carefully measured and mitigated. There 
are some techniques, some technologies, some other things that 
can be employed. I'm not sure that we have not done that or 
that other countries have not done that. I--but, it's a very 
risky proposition. And we would--we have to do--exercise 
enormous caution if we employ that.
    Senator King. And those mitigation factors would be 
crucial. Final----
    General Petraeus. Yes.
    Senator King.--question. Do people wake up in Iraq and 
think of themselves as Iraqis, or as Sunnis and Shiites, or as 
Kurds?
    General Petraeus. Sadly, I think, in recent times, it is 
more their sectarian or ethnic identity, rather than Iraqi. 
Having said that, I remember when the Iraqi soccer team won 
the--I think it was the Asia Cup, and that night there were 
cheers all the way from Basrah through Baghdad to Erbil. So, 
there can be unifying features.
    And let's never forget, the most important centrifugal 
force in Iraq is still there, and that is the distribution of 
the oil revenues by the central government to the provinces, 
the ministries, and so forth, including the Kurdish Regional 
Government.
    Senator King. Thank you. Thank you, General.
    Senator McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    And, General, good to see you again. I also want to echo 
what Senator King said about your comments earlier. We very 
much appreciate you being here, and what you did, what you've 
done for the country.
    I wanted to just talk a little bit--I know there's been a 
lot written on the surge and what you did, and what the 
Chairman and others did, with regard to that important 
strategy. To me, it's an example of where you have a strategy, 
you have rhetoric, and then you actually have action. And what 
I mean by ``rhetoric'' is, we--you know, the President and 
others announced what we are going to do, and then we took 
action. And I think one of the broader strategic failures right 
now that certainly we're seeing with all the chaos in the world 
is that we--in many ways, as a country at the high levels, 
whether it's the President or the Secretary of Defense or 
others--we're talking about things--redlines in Syria, Bashar 
al-Assad's got to go--even Secretary Carter gave what I thought 
was a very powerful speech at the Shangri-la dialogue----
    General Petraeus. I was there.
    Senator Sullivan.--when we were out there.
    General Petraeus. Right.
    Senator Sullivan.--on the built-up islands in the South 
China Sea. But, the--but, none of these statements have been 
followed up by action, unlike what you did with the surge. What 
happens when, as a country, we talk a lot, but don't act?
    General Petraeus. Well, first of all, I think we have taken 
action. And I have to be somebody who sits here and says that 
I----
    Senator Sullivan. Where have we--on those three examples--
--
    General Petraeus. We killed Osama bin Laden----
    Senator Sullivan. No, no, I just gave you--I gave three 
examples.
    General Petraeus. Well, no--but, I was merely going to say 
that this is not a record of unmitigated lack of action. But, 
in my statement, I said that inaction--in some cases, inaction 
has consequences. And I think that is the case with some of the 
cases that we're dealing with in Syria, without question.
    Senator Sullivan. So, what do you think happens when we 
don't take action?
    General Petraeus. Well, if you do not act----
    Senator Sullivan. If you say--if you make a statement----
    General Petraeus.--others may. Others will question. Again, 
you know, the art of this is figuring out when to take action 
and, of course, what action to take. This is not an argument 
that you should always take action, everywhere, all the time. 
As I said----
    Senator Sullivan. But, shouldn't you take action if you----
    General Petraeus.--we can't solve all the problems.
    Senator Sullivan. Should you take action if you're 
actually--what I'm talking about is not just random action. I'm 
talking about----
    General Petraeus. Sure.
    Senator Sullivan.--to implement stated policies that you've 
already announced as a country. Are you hearing, in your 
travels throughout the world, that the United States is losing 
credibility, in terms of our national security and foreign 
policy?
    General Petraeus. Look, there are some questions out there. 
And what I was going to do was point out where there have been 
actions, because there--this is not, again, a record of no 
action. There have been some very, very courageous actions. I 
took very tough issues to this President, and he took action. 
There have also been some that--on which there was not action. 
And if those in which there is not action taken really matter, 
then, obviously, again, there are consequences. They 
accumulate.
    I do think that the Syrian redline that was not a redline, 
which had a decent outcome in the end, as was pointed out--you 
know, 90 percent or so of the chemical weapons gone. But, the 
way we got to that was quite a circuitous path. And to be 
bailed out by President Putin, at the end of the day, was, 
again, a very interesting outcome. That is not the kind of 
case, I don't think, that instills--you know, and again, a 
great sense of confidence in the United States.
    Senator Sullivan. Let me ask another--in terms of actions. 
You know, in another area of the world, in the Arctic, we're 
seeing a lot of strategic interest from the Russians and other 
nations, for reasons of natural resources, transportation 
routes. And you've seen a really pretty dramatic aggressive 
move by the Russians, in terms of a new Arctic military 
command, four new BCTs there, 40 icebreakers, a lot of heated 
rhetoric there. And then, in terms of the United States action, 
if we were to remove a--our substantial Arctic forces, say the 
only airborne BCT in the entire Arctic or Asia Pacific, what do 
you think that would do, in terms of additional Russian 
reactions in that part of the world?
    General Petraeus. I'm just not--I have expertise in a 
reasonable number of places in the world, but I'll defer to you 
on the Arctic, I'm afraid.
    Senator Sullivan. Okay, let me ask one final question, 
General. You know, I think there's a bit of a strategic irony 
going on, where some of us think that, in certain parts of the 
world, we're withdrawing. And yet, when you look at--and you 
and I have talked about the instruments of American power, not 
only the military, but things like energy that we've talked 
about, the ability, in terms of finance, the ability--
resurgence of manufacturing in the United States, best 
universities in the world, by far. I mean, the list--
agriculture--the list is very, very strong, where we have so 
many advantages over other countries, whether it's China, 
whether it's Russia--long-term advantages. How do we utilize 
those in a way that show that we still are the country holding 
all the cards in--on so many different instruments of power 
that countries measure power by?
    General Petraeus. Well, first of all, we don't all the 
cards, but rumors of America's demise have been greatly 
exaggerated, to paraphrase Mark Twain. I teach a course called 
``The Coming North American Decades'' at the Honors College of 
the City University of New York. I've just done a monograph at 
Harvard as a Fellow, again, on ``The Great New Emerging 
Economy: North America.'' When I was asked, a year or so ago, 
in London, ``After the American Century, what?''--and I think 
they asked--expected me to say, ``The Asian Century'' or ``The 
Chinese Century.'' I said ``The North American Decades.''
    The bottom line is that our economy is fundamentally--it's 
got lots of challenges and there's a lot of issues that we need 
to resolve, some with the help of this body, working together 
with the other body. All that notwithstanding as--at a time 
when the number-two economy is slowing down quite 
significantly, we don't yet see the rise of India, the Eurozone 
has got a very differentiated recovery. The U.S. has 
continued--we may be in the longest recovery in our history. It 
has not achieved escape velocity. There's aspects of it, again, 
that are not great. But, when you look at the rest of the 
world, and when you look at the fundamentals of the United 
States, whether it's demography compared to the others, whether 
it is the values that we share with our two neighbors--I mean, 
you don't see Mexico asking China to pivot to North America to 
help them balance against the United States the way every 
country that has a maritime boundary with China is doing to us.
    So, there are enormous strengths here in this country. You 
enumerated a number of them. I've laid them out elsewhere. 
There are a number of actions that this body, again, could take 
to address issues that are really headwinds to us capitalizing 
on this tremendous opportunity, because of the Energy 
Revolution, foremost, but also the IT Revolution, which enables 
all the others, the Manufacturing Revolution that's now 
beginning to gather steam, and the Life Sciences Revolution, 
which is starting to gather momentum, as well. We are the 
leaders, or among the leaders, in every one of these areas. And 
we have a number of really great, again, fundamentals here that 
are going to keep this country and North America, writ large, 
in a very enviable position. I would not want to be in any 
other economy than this one right here. And I now get paid to 
analyze those kinds of factors and elements.
    Senator Sullivan. Thank you, General.
    Thank you, Mr. Chairman.
    Senator McCain. Senator Graham.
    Senator Graham. General, thank you very much for a lifetime 
of extraordinary service under difficult circumstances.
    General Petraeus. And thanks to you for yours. As I noted 
in a response to----
    Senator Graham. Yes, sir.
    General Petraeus.--a local newspaper's article here, you 
served nine stints under my command in Iraq, CENTCOM, and 
Afghanistan alone, each of those as a week or a bit longer. I 
was very skeptical before the first one. I didn't----
    Senator Graham. Yeah.
    General Petraeus.--appreciate the great opportunity we were 
going to have.
    Senator McCain. We can understand the skepticism.
    [Laughter.]
    General Petraeus. And--yes--and, under duress, I accepted 
Colonel Lindsey Graham of the Judge Advocate General Corps of 
the U.S. Air Force Reserve, and I must say that, after every 
single one of those visits, you came back and provided a real 
nugget and one of these big ideas that helped us come to grips 
with one of the serious issues we were confronting, starting 
with issues that we had at Camp Bucca, as you'll recall, in 
Iraq, and carrying all the way through various legal conundrums 
that we had with President Karzai in Afghanistan.
    Senator Graham. Well, thank you. You've certainly made my 
day. And it was a very small contribution, and it----
    General Petraeus. And I am nonpartisan, by the way----
    [Laughter.]
    General Petraeus.--Mr. Chairman. I--really. Honestly.
    Senator Graham. But, I really appreciate that. The bottom 
line is, I enjoyed the heck out of it, and I learned a lot 
under your command and working with people in the region.
    So, let's try to see if we can make some sense out of the 
world as it is. There's two things going on at once, I think, 
in the Mideast: a fight for the heart and soul of Islam and a 
demand for social justice, particularly by young people and 
women. Do you agree with that?
    General Petraeus. Certainly among the two biggest issues. I 
don't know if--I'd put some economic issues that might be in 
the social justice category, but that one be another element 
that's----
    Senator Graham. The only reason I mention this--I just want 
the American people to understand that young people are not 
going to live in dictatorships for our convenience any longer. 
Do you agree with that?
    General Petraeus. They're not doing it for our convenience, 
to begin with, but I think what--the real point here is that 
the age of the----
    Senator Graham. Yes.
    General Petraeus.--dictators is certainly under a certain 
degree of strain. And we've seen it boil over in Libya, 
Tunisia, Egypt, Syria--some degree, Yemen.
    Senator Graham. Well, would you agree that America should 
take sides in this struggle, and side with young people and 
say, ``Yes, you're right to demand a larger voice about your 
children if you're a mother, you're right to want more economic 
opportunity.'' We should say--we should embrace what they're 
asking for.
    General Petraeus. Yeah, I don't know that I would do this 
as a universal declaration, but I would certainly have that in 
the back of my mind as I looked at each----
    Senator Graham. Well----
    General Petraeus.--each and every case.
    Senator Graham. Well, I'm going to do it as a universal 
declaration. That's just me, though.
    Now, on the other side of Islam, there's a--do you agree 
with me that most Muslims reject radical Islam?
    General Petraeus. Yes. Yeah.
    Senator Graham. And that is a--to suggest otherwise, you 
really don't understand the region--that the biggest victim of 
radical Islam is other people in the faith.
    General Petraeus. It's generally Muslims.
    Senator Graham. Yeah. And you have been there more than 
anyone I know. Don't you agree with me that the good news for 
all of us is that we can partner with people within the faith 
who are willing to partner with us and destroy this radical 
ideology? And it's going to require these partnerships.
    General Petraeus. Correct. I mean, we have sought to do 
that. We have done that. We do it----
    Senator Graham. So, when people say they're----
    General Petraeus.--in our own country.
    Senator Graham.--all the same, they don't know what they're 
talking about. You have seen----
    General Petraeus. I'm a Presbyterian. I don't think all 
Presbyterians are the same, either, frankly.
    Senator Graham. Good. Good. Nor do I, General.
    But, the point I'm trying to make, for people to look at 
the Mideast as ``everybody's the same, everybody is radical,'' 
they miss the boat. Most fathers and mothers don't want to give 
their daughters to ISIL.
    General Petraeus. Correct.
    Senator Graham. So, that is something we need to build 
upon.
    In terms of Iraq, the President has said the goal is to 
degrade and destroy ISIL. That is the right goal. Do you agree?
    General Petraeus. ``Destroy'' is a very high bar in the 
military lexicon, and I think it's actually been lowered 
slightly to ``defeat,'' which I think is adequate.
    Senator Graham. Okay.
    General Petraeus. I'd love to destroy them, as well. We did 
destroy al-Qaeda in Iraq, I think----
    Senator Graham. You----
    General Petraeus.--it's safe to say.
    Senator Graham.--certainly did. And I want----
    General Petraeus. And, sadly, they were able to resurrect 
themselves in the form of ISIS, and then gain strength in Syria 
and come back into Iraq.
    Senator Graham. Absolutely. Now--but we are where we are. 
The surge----
    General Petraeus. Right.
    Senator Graham.--didn't work, and it was a marvelous thing 
to witness.
    Do you believe more American ground forces would help lead 
to the defeat of ISIL in Iraq?
    General Petraeus. What I've laid out here today is, indeed, 
a requirement for additional forces--not ground combat forces.
    Senator Graham. I agree.
    General Petraeus. Additional advisors at brigade 
headquarters level, probably augmentation at--what's going to 
happen is, you know, you will get a critical mass, at some 
point, of Sunni forces. And it will start off--set off a chain 
reaction, as we did when we had the----
    Senator Graham. Sure.
    General Petraeus.--the Anbar Awakening, where we--it 
rippled up and down the Euphrates River, then ultimately it 
goes up the Tigris. We have to be prepared to capitalize on 
that. And I suspect we'll have more training locations, more 
locations where we'll have advisors in assistance.
    Senator Graham. Right. But, would a couple of aviation 
battalions help--Army aviation battalions?
    General Petraeus. It would help. You're going to incur 
greater risk, obviously----
    Senator Graham. Definitely.
    General Petraeus.--and you're now getting into the--into 
this in a way--we have, obviously, attack helicopters, which we 
have employed.
    Senator Graham. Right.
    General Petraeus. Now you're starting to add numbers quite 
considerably, and I'd be concerned about possible ramifications 
of that.
    Senator Graham. And I--I'm over, but I do want to talk 
about Syria. Is there anyone left to train in Syria that would 
have the capability to both destroy ISIL and push Assad out? Is 
there an indigenous force left to train?
    General Petraeus. I think there are forces that, if we 
pledge to support them against everybody, not just the--fight 
the Islamic State--and start off by actually allowing them to 
solidify control over an enclave----
    Senator Graham. Right.
    General Petraeus.--before we launch them or push them into 
an offensive----
    Senator Graham. What about a regional force? Would you 
support the creation of a regional force with two goals in 
mind: to destroy ISIL and push Assad out?
    General Petraeus. I'd have concerns about that. I think 
that----
    Senator Graham. What concerns?
    General Petraeus.--to have neighbors go into one of the 
countries in this region--again, every country is different, 
and--but, to go into a country that is as already fractured as 
is Syria, I think there are some complications with that.
    Senator Graham. Finally, Assad should go? He must go?
    General Petraeus. He has to go, ultimately.
    Senator Graham. Right.
    General Petraeus. But, the keyword there is ``ultimately,'' 
underscored and bold letters, because, until we have a sense of 
what will replace him, we need to be very careful not to push 
him out, because what comes after could actually be even worse.
    Senator Graham. How many people do you think are left that 
would be willing to fight both ISIL and Assad? And how long 
would it take to train this indigenous force? And would you 
have American boots on the ground as part of that training?
    General Petraeus. I--I'd put them, certainly, on the 
ground, first in Turkey and Jordan. I'd certainly be willing to 
put them into an enclave, when it's solidified, secure, and 
you're not going to put people in jeopardy of ending up in an 
orange jumpsuit in a cage.
    Senator Graham. Right. But, do--how long do you think it 
would take to----
    General Petraeus. I don't know, Senator. Again, you give me 
the assumptions, and I could give you a timeline. But, again, 
there's a host of assumptions that we'd have to make before we 
could get any precision on that.
    Senator Graham. Thank you very much.
    General Petraeus. Thank you, Senator.
    Senator Reed [presiding]. General, on behalf of Chairman 
McCain, let me thank you for your extraordinary testimony, 
insightful and thought provoking as always, and also for your 
incredible service to the country. And one thing that always 
impressed me about you is that your dedication to the men and 
women you led was unshakeable, and everything you did was about 
those young soldiers and sailors and marines and airmen. Thank 
you, sir.
    General Petraeus. Thank you, Senator.
    Senator Reed. The hearing is adjourned.
    [Whereupon, at 12:23 p.m., the hearing was adjourned.]


           UNITED STATES MILITARY STRATEGY IN THE MIDDLE EAST

                              ----------                              


                       TUESDAY, OCTOBER 27, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:02 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Ernst, Tillis, 
Sullivan, Lee, Graham, Reed, Nelson, McCaskill, Manchin, 
Shaheen, Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, King, 
and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The committee meets today to 
receive testimony on United States Strategy in the Middle East.
    I want to thank our distinguished witnesses for appearing 
this morning and for their service to our Nation.
    Before I proceed, I'd like to remind our witnesses, this 
committee's rules require written testimony to be submitted 24 
hours in advance of a hearing, and I'd like, from now on, to 
try--for our witness to try to adhere to that.
    The tragic loss last week of Master Sergeant Joshua Walker, 
a veteran of 14 combat deployments, reminds us of the high 
stakes of our mission in the Middle East and how grateful we 
are to those Americans serving there. We need a strategy worthy 
of those who carry it out. Unfortunately, we don't have that.
    What's worse, it appears the administration has not even 
defined the problem correctly. A policy of ``Islamic State in 
Iraq and the Levant (ISIL) first'' fails to understand that 
ISIL, for all of the threat it poses, is actually just a 
symptom of a deeper problem, the struggle for power and 
sectarian identity now raging across the Middle East, the 
epicenter of which is Iraq and Syria. That is why ISIL exists 
today with the strength that it does. This problem will only 
get worse the longer this conflict rages on.
    We hear it said all the time, quote, ``There is no military 
solution to this problem,'' which is a truism. But, that, too, 
is misleading. The real problem is that there can be no 
diplomatic solution without leverage, and there is a clear 
military dimension to this problem. Secretary Kerry can take 
all the trips he wants to Geneva, but, unless the military 
balance of power changes on the ground, diplomacy, as has been 
amply proven, will achieve nothing. Changing those conditions 
is what the administration has consistently failed to do. 
Instead, it is assumed our Nation could withdraw from the 
Middle East and avoid the conflict at its heart. Moreover, on 
those occasions when the administration has felt compelled to 
respond, after the use of chemical weapons, for example, or 
with the rise of ISIL, and now amid the worst refugee crisis in 
Europe since World War II, the administration has merely 
addressed the symptoms of the underlying problem rather than 
the problem itself, and, all too often, made that problem 
worse.
    There is no clearer example of this than the Syrian train-
and-equip (T&E) program. From the start, the administration 
said the fighters in this program could only fight ISIL, not 
Bashar Assad's forces, which have slaughtered and displaced 
exponentially more Syrians than ISIL has. In addition, the 
administration made no commitment, until only recently, to 
provide these forces with any meaningful military support once 
they returned to Syria. After millions of dollars and months of 
effort, the program failed to come anywhere close to the 
Department's original expectations.
    The President has expressed surprise about this failure. It 
was not a surprise. It was completely predictable, and many of 
us here did predict it. Only someone who does not understand 
the real problem, which is the underlying conflict in Syria and 
Iraq, or does not care to, could think that we could 
effectively recruit and train large numbers of Sunni Syrians to 
fight only against ISIL, with no promise of coalition 
assistance if they came under fire from Assad's forces. Rather 
than fixing the problem, the President suspended it. But, this 
is tantamount to killing the program, because it's destroying 
what little trust our Syrian partners have left in us, to say 
nothing of allies like Turkey and Jordan, which invested their 
own money and prestige in this program.
    The President now says, incredibly, the failure of this 
program--his program--the President's program--proves he was 
right for not wanting to do it in the first place. Harry Truman 
must be spinning in his grave. If there is an opposite for 
Commander in Chief, this is it.
    The training and effort in--the training effort in Iraq has 
its own challenges. Indeed, it is deja vu all over again. We 
don't have enough United States forces to train and advise 
Iraqi units at the right levels. We're still not providing 
sufficient support to Sunni tribes, which are the center of 
gravity in this fight against ISIL. We're looking the other way 
as Shi'a militias go on the offensive in the Sunni heartland. 
We hear complaints that Iraqis have no will to fight, but, 
we're prohibiting United States forces from bolstering their 
will to fight by advising them in combat or calling in 
airstrikes. We learned all of these lessons in Iraq just a few 
years ago, and apparently we have to relive these failures now.
    For nearly seven years, the administration has tried to 
extract America from the Middle East. Instead, we have created 
a massive power vacuum that has been filled by ISIL, al-Qaeda 
and its affiliates, on the one hand, and Iran and its proxies, 
on the other. Now into this vacuum has stepped Vladimir Putin. 
Putin's intervention in Syria really began in Ukraine. The 
administration's failure to impose greater costs on Russia, 
particularly by providing defensive arms to Ukrainian forces, 
allowed Putin to annex Crimea, dictate the terms of a frozen 
conflict in eastern Ukraine, and then pivot to Syria. It's also 
confirmed Putin's belief that the administration is weak. To 
Putin, weakness is provocative.
    The administration's response, thus far, to Russia's 
intervention in Syria has only made this problem worse. First, 
it urged Russia not to build up its forces in Syria. Putin 
ignored these warnings. The administration then tried to deny 
Russia the airspace to move into Syria. Failed. Putin responded 
by bombing moderate Syrian forces, many of whom are allied with 
the United States. What has been the result? The number of 
United States airstrikes in Syria has dropped. The train-and-
equip program in Syria was halted just as it was starting to 
show some battlefield results. The administration scrambled to 
pen a so-called ``deconfliction agreement'' with the Russians 
that spells out more of what we will not do in Syria. Indeed, 
this agreement means the United States is now moving out of the 
way and watching as Russian aircraft, together with Iranian, 
Hezbollah, and Assad's ground forces, attack and kill brave 
Syrians, many of whom our Nation has supported and encouraged. 
This is not only harmful to our interests, it is immoral.
    What we must do to hasten the end of the conflict in Syria 
and Iraq, in particular, we must stop Assad's use of airpower 
and his horrific barrel bombs, which are the major killer of 
Syrians and driver of refugees out of the region. We must 
establish areas in Syria where civilians can be safe and do 
what is necessary to protect these areas in the air and on the 
ground. We must recognize that Putin is not interested in a 
negotiated solution in Syria that favors United States 
interests, so, we should, instead, impose real costs on Russia, 
not just in Syria, but everywhere we have leverage to do so. 
Finally, as General David Petraeus has recently said, we must 
devise a strategy to confront Iranian power and designs in the 
region rather than acquiescing to them.
    Some will object, as they have for years, that we cannot 
bear the costs of these actions. But, consider the costs of our 
current inaction and half measures. Mass atrocities in Syria 
will continue. Our allies and partners in the Middle East will 
be put at greater risk of existential danger. Europe will 
continue to be destabilized and consumed by the internal 
challenge of managing the refugee challenge. The cancer of ISIL 
will grow more potent and spread across more of the Middle 
East, Africa, and Asia, posing a greater threat to our national 
security. Iran will be emboldened in its pursuit of its malign 
regional ambitions. Putin will establish Russia as a dominant 
military power in the Middle East for the first time in four 
decades. All the while, America's credibility and influence 
will continue to erode.
    Make no mistake, this is the course we are now on. This 
will be the consequences of our current policy. No one believes 
there are easy answers to the underlying problems in the Middle 
East, but this much should be clear: We cannot go on pretending 
that we can somehow avoid these problems or that the current 
approach of trying to treat the symptoms of the disease, rather 
than its cause, will work if only we give it more time. It will 
not. Policies of gradual escalation never do.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    Let me join the Chairman in welcoming back the Secretary of 
Defense and the Chairman of the Joint Chiefs of Staff. Thank 
you, gentlemen, for your service.
    Today's hearings comes in the midst of a series of events 
altering the security situation in the Middle East. These 
include a massive wave of refugees fleeing the continued 
violence on the ground in Syria and Iraq, the deployment of 
Russian air and ground forces in Syria, the suspected ISIL 
attack in Turkey that killed over 100 people and injured 
hundreds more during a peace rally in Ankara, and the 
deployment recently of Lieutenant General Sean McFarland, the 
new commander of Operation Inherent Resolve, Secretary John 
Kerry's recent meetings with the Foreign Ministers of Russia, 
Turkey, and Saudi Arabia. In addition, the hearing also comes 
only weeks before the G20 summit in Turkey, where these issues 
and the international response will be at the forefront.
    General McFarland has been in the command of military 
operations in Syria and Iraq for a little more than 45 days. I 
understand that he has used this time to evaluate the situation 
on the ground and may be recommending changes to the campaign. 
General McFarland's arrival comes at a critical time, as the 
coalition military campaign requires a reevaluation of our 
strategy.
    In Syria, the coalition faces a series of intermingled 
conflicts, including the counter-ISIL fight, the Syrian civil 
war, a regional proxy war between the Gulf states and Iran, a 
sectarian Sunni-Shi'a conflict, our counterterrorism fight, and 
the intervention of Russia, a potential great power struggle. 
Considering these challenges, it is important that we 
continually assess the role of our Nation's military in helping 
to bring about the conditions for an acceptable and sustainable 
settlement.
    In Iraq, the recent visit by Chairman Dunford and General 
Austin have focused attention on the coalition's effort to 
train and equip the Iraqi Security Forces (ISF). However, taken 
as a whole, the ISF have not shown the will to make necessary 
advances in the operation to take Ramadi, for example. The 
political leaders in Baghdad have not made the progress needed 
in the broader agenda of improving the inclusiveness of the 
Iraqi government and addressing the longstanding grievances of 
Kurds, Sunnis, moderate Shi'a, and minorities.
    The recent operation by Kurdish Peshmerga forces, 
accompanied by United States Special Operations Forces in 
northern Iraq, despite the tragic loss of one of our finest 
soldiers, demonstrated that such targeted efforts can have 
significant success in protecting innocent civilians and 
degrading ISIL. These kinds of operations can also result in 
critical intelligence to support the coalition's broader 
campaign against ISIL. While these operations are obviously not 
without risk, the time may have come to evaluate whether the 
tempo of such counter-ISIL operations can be increased and 
whether our troops can play an even more active role in 
enabling the ISF, including by accompanying their forces at 
lower echelons, especially when direct contact with the enemy 
is not expected.
    According to reports, the coalition's provisions of close 
air support to Syrian Kurdish forces have shown success in 
northern Syria. The recent decision by the administration to 
equip a group of Sunni tribes who have come together to form a 
Syrian Arab coalition to fight alongside Syrian Kurdish forces 
shows promise for placing additional pressure on ISIL in Raqqa 
and the surrounding areas. If successful, this would be a 
positive development towards the objectives of the broader 
campaign. However, I am concerned that the decision to 
completely suspend the Department's overt train-and-equip 
program may not enable us to accomplish our goals in Syria. 
Where the program clearly failed to live up to heightened 
expectations, my understanding is that the Combined Joint 
Interagency Task Force had recently recalibrated the program 
based on lessons learned, and that later graduates today are 
having a direct impact as enablers in the fight against ISIL. 
The coalition cannot succeed in Syria without a reliable Sunni 
force on the ground to hold any territorial gains. Building 
this force will require time and patience. Critically, it will 
require the building of trust through training engagements and 
persistent contact between the coalition and our new partners 
on the ground. I hope the Secretary and the Chairman will 
provide the committee a clear understanding of the conditions 
required to reengage in training of vetted individuals or small 
groups.
    The deployment of Russian forces in Syria, and their 
indiscriminate military operations targeting the moderate 
opposition, have the potential to set off another wave of 
refugees across Europe. More specifically, Russia's military 
operations in Syria have complicated the coalition air campaign 
and have the potential to draw the attention of moderate Syrian 
operation--opposition forces, rather, away from counter-ISIL 
operations. Russian operations have also negatively impacted 
the distribution of humanitarian and other nonlethal aid to the 
Syrian people.
    In the coming months, I hope General McFarland will be 
provided with the operational flexibility to implement 
necessary modifications to the campaign against ISIL. Secretary 
Carter and Chairman Dunford, I would be interested in your 
recommendations for how to ensure that General McFarland 
receives the operational flexibility and support needed to be 
successful, going forward.
    Thank you, and I look forward to your testimony.
    Chairman McCain. Welcome the witnesses.
    Secretary Carter.

    STATEMENT OF HON. ASHTON B. CARTER, SECRETARY OF DEFENSE

    Secretary Carter. Thank you, Mr. Chairman and Ranking 
Member Reed, members of the committee. Thanks for inviting us 
to come here today before you to discuss the counter-ISIL 
campaign in Iraq and Syria, and, along the way, to address some 
of the concerns, Mr. Chairman, that you raised, and to share 
with you, Senator Reed, some of the plans and initiatives that 
the Chairman and I are formulating for our campaign in both 
Iraq and Syria.
    This is the first time, for me, appearing before this 
committee alongside Chairman Joe Dunford, who was just in the 
region last week, as was noted. I'm grateful to Joe for 
answering my and the President's call to step down from what 
every marine knows is a higher position--namely, Commandant of 
the Marine Corps--to become Chairman of the Joint Chiefs of 
Staff. To this committee, for conforming Joe, thank you.
    I'm glad to have you here with me today.
    Before I turn to the subject of today's hearing, I want to 
reiterate, as I've said consistently since March and continue 
to believe, that Washington needs to come together behind a 
multiyear budget deal that supports our defense strategy, the 
troops and their families, and all elements of Americans' 
national security and strength. I understand significant 
progress was made on this overnight, and I'm looking forward to 
reviewing the details. But, I welcome this major positive 
development, and applaud the members of this committee for what 
you're doing to help us get there.
    The Middle East presents a kaleidoscope of challenges. But, 
there, as everywhere, our actions and strong military posture 
are guided by what's in America's interests. That's our North 
Star. Amid this region's complexity and uncertainty, those 
interests are to deter aggression, to bolster the security of 
our friends and allies, especially Israel, to ensure freedom of 
navigation in the Gulf, to check Iran's malign influence even 
as we monitor the implementation of a Joint Comprehensive Plan 
of Action, and to degrade and ultimately defeat ISIL. This last 
one, ISIL, poses a threat to our people and to friendly 
countries, not only in the Middle East, but around the world.
    Today, I will, first, outline the changes in the execution 
of our strategy that we have considered and are now pursuing 
militarily to gather battlefield momentum in the fight against 
ISIL. Then I'll address what Russia is doing in Syria and why 
we won't let it interfere with our campaign against ISIL.
    When I last spoke to this committee about our counter-ISIL 
campaign and its nine lines of essential military and 
nonmilitary effort, I made three things clear about the 
military aspects: first, that we will deliver ISIL a lasting 
defeat; second, that truly lasting success would require 
enabling capable, motivated local forces on the ground, 
recognizing that this will take time and new diplomatic energy; 
and third, that our strategy's execution can and must and will 
be strengthened. All that's still true. Our determination is 
unchanged even as the situation continues to evolve and we 
continue to adapt to execute our campaign more effectively. 
Today, I'd like to elaborate on the third point and explain how 
we're adapting our campaign to do more, reinforcing what we 
know works.
    The changes we're pursuing can be described what I--by what 
I call ``the three R's'': Raqqa, Ramadi, and raids. Before I 
explain what they mean, let me also note that I took actions to 
streamline command and control of the counter-ISIL military 
campaign by assigning the entire effort to a single general 
officer, Lieutenant General Sean McFarland, where, in the 
urgency of the early phase of the campaign last year, several 
layers were added to the general officer already present in 
Iraq.
    The first ``R'' is Raqqa, ISIL's stronghold and 
administrative capital. We've been clear for some time that we 
need to keep up pressure on Raqqa. To that end, we will support 
moderate Syrian forces fighting ISIL that have made territorial 
gains near Raqqa. Indeed, some of them are within 30 miles of 
Raqqa today. The Syrian Arab coalition, which we plan to 
strengthen through our new equipping approach--more on that in 
a moment--will work over time with other Syrian anti-ISIL 
forces to push towards Raqqa. To the south, we plan to further 
strengthen our partner, Jordan. From the skies above, we expect 
to intensify our air campaign, including with additional United 
States and coalition aircraft, to target ISIL with a higher and 
heavier rate of strikes. This will include more strikes against 
ISIL high-value targets as our intelligence improves, also its 
oil enterprise, which is a critical pillar of ISIL's financial 
infrastructure. As I said last Friday, we've already begun to 
ramp up these deliberate strikes.
    Part of this pressure includes our new approach to the 
Syria train-and-equip program. I, like President Obama and 
members of this committee, was disappointed with that program's 
results. We, accordingly, examined the program this summer and 
have since changed it. I use the word ``change,'' not ``end.'' 
``Change'' the program. While the old approach was to train and 
equip completely new forces outside of Syria before sending 
them into the fight, the new approach is to work with vetted 
leaders of groups that are already fighting ISIL, and provide 
equipment and some training to them, and support their 
operations with airpower. This approach builds on successes 
that local Syrian Arab and Syrian Kurdish forces have made 
along Syria's northern border to retake and hold ground from 
ISIL with the help of United States airstrikes and equipment 
resupplies. If done in concert, as we intend, all these actions 
on the ground and from the air should help shrink ISIL's 
territory into a smaller and smaller area and create new 
opportunities for targeting ISIL, ultimately denying this evil 
movement any safe haven in its supposed heartland.
    The second ``R'' is Ramadi, the capital of Iraq's Anbar 
Province, which serves as a critical example of the Abadi 
government's commitment to work with local Sunni communities, 
with our help, to retake and hold ground from ISIL, and, in 
turn, to build momentum to eventually go northward to Mosul. 
Under Prime Minister Abadi's leadership, the Iraqis have begun 
to use American-made F-16s to support counter-ISIL operations, 
and have empowered capable battlefield commanders to step 
forward. As we see more progress towards assembling capable and 
motivated Iraqi forces under Baghdad's control and including 
Sunni elements, we're willing to continue to provide more 
enabling capabilities and fire support to help them succeed. 
However, the Iraqi government and security forces will have to 
take certain steps militarily to make sure our progress sticks.
    We need to see more in the direction of multisectarian 
governance and defense leadership. For example, we've given the 
Iraqi government two battalions' worth of equipment for 
mobilizing Sunni tribal forces. As we continue to provide the 
support, the Iraqi government must ensure it is distributed 
effectively. Local Sunni forces aren't sufficiently equipped, 
regularly paid, and empowered as coequal members of the Iraqi 
Security Forces, ISIL's defeats in Anbar will only be 
temporary.
    The third and final ``R'' is raids, signaling that we won't 
hold back from supporting capable partners in opportunistic 
attacks against ISIL or conducting such missions directly, 
whether by strikes from the air or direct action on the ground. 
Last week's rescue operation was led by Iraqi Kurdish forces 
with United States advisors in support. One of those 
accompanying advisors, Master Sergeant Joshua Wheeler, 
heroically acted to ensure the overall success of the mission, 
and lost his life in the process. The death of any 
servicemember is a tragedy. As I told his family and teammates 
this weekend, we offer our condolences to Master Sergeant 
Wheeler's loved ones for their loss.
    While our mission in Iraq is to train, advise, and assist 
our Iraqi partners in situations such as that operation, where 
we have actionable intelligence and a capable partner force, we 
want to support our partners, and we will. At the same time, 
the raid on Abu Sayyaf's home, the strikes against Junaid 
Hussain, and, most recently, Sanafi al-Nasr, should all serve 
notice to ISIL and other terrorist leaders that, once we locate 
them, no target is beyond our reach.
    As we've looked at how to gather momentum and adapt to the 
changing battlefield, some have discussed putting a buffer 
zone, humanitarian zone, or no-fly zone in Syria. We have 
analyzed various options, and the political and military 
requirements of each. These options are complex and raise some 
challenges, which I'm prepared to discussed in answer to your 
questions.
    Let me now turn to Russia's involvement in Syria. To be 
clear, we are not cooperating with Russia, and we're not 
letting Russia impact the pace or scope of our campaign against 
ISIL in Iraq and Syria. While we negotiated a document on 
safety of flight with the Russian Minister of Defense, we do 
not align ourselves more broadly with their military actions, 
because, instead of singularly attacking ISIL, as they said 
they were going to do, they're primarily attacking the Syrian 
opposition, as the Chairman has noted, which further fuels the 
tragic civil war there. Their actions suggest a doubling down 
on their longstanding relationship with Assad, sending 
advisors, artillery, and aviation to enable and support the 
Assad regime and Iranian forces in attacking moderates who 
oppose the regime and are essential to Syria's political 
transition. It appears the vast majority of their strikes, by 
some estimates as high as 85 to 90 percent, use ``dumb bombs,'' 
which obviously increases the possibility of civilian 
casualties.
    So, as Russia acts in a coalition of two with Iran at its 
side, the United States will continue to strengthen our 65-
nation global coalition. Even as we've reached an understanding 
with the Russians on safety protocols for coalition pilots over 
Syria, we will keep prosecuting our counter-ISIL campaign 
unabated. We will keep supporting the moderate Syrian 
opposition, along with our other commitments to friends and 
allies in the region. Consistent with our strong, balanced 
approach towards Russian aggression elsewhere in the world, 
including NATO and Ukraine, we will keep the door open for 
Russia to contribute to efforts towards a political solution in 
which--which, in the final answer--analysis, is the only answer 
to the Syrian conflict.
    I've discussed the military strategy and accompanying 
campaign, but, before I conclude, I remind the committee that 
defeating ISIL and protecting America requires coordinated 
efforts across all of the so-called ``nine lines of effort,'' 
to include supporting effective governance in Iraq, enhancing 
intelligence collection, disrupting ISIL's financing, 
countering ISIL's messaging, stopping the flow of foreign 
fighters, providing humanitarian support, and protecting our 
homeland, where other departments and agencies of our 
government have the lead.
    Thank you.
    Chairman McCain. General Dunford.

STATEMENT OF GENERAL JOSEPH F. DUNFORD, JR., USMC, CHAIRMAN OF 
                  OTHER JOINT CHIEFS OF STAFF

    General Dunford. Chairman McCain, Ranking Member Reed, 
distinguished members of the committee, thanks for the 
opportunity to appear before you today to discuss our 
challenges in the Middle East, and specifically the military 
dimension of our campaign against ISIL.
    I've been in my current position for just short of 4 weeks, 
and spent much of that time reviewing our counter-ISIL 
campaign. I also followed up on a commitment I made in my 
confirmation hearing to visit the region early in my tenure. 
Last weekend, to get a personal perspective on the campaign, I 
visited Israel, Jordan, and Iraq. I was extremely impressed 
with the focus and commitment of our soldiers, sailors, airmen, 
and marines that I met during the visit. Thanks to your 
support, I can report that they are well trained and equipped.
    Before taking your questions, I'd like to share a few 
thoughts on the counter-ISIL military campaign in Iraq and 
Syria. ISIL's primary source of strength is its claim to be a 
caliphate. To be successful, the coalition's military campaign 
must reduce ISIL's territorial control, destroy its warfighting 
capability, and undermine its brand and aura of invincibility. 
There are two critical elements of the military campaign:
    The first is to conduct strikes against ISIL targets. The 
strikes are intended to kill key leadership and fighters, 
interdict their lines of communication, and deny them sources 
of revenue.
    The second critical element in the military campaign is to 
develop and support effective partners on the ground to seize 
and secure ISIL-held terrain.
    Many weeks before I became the Chairman, the leadership 
across the Department recognized that we needed to increase 
pressure on ISIL from multiple directions to generate momentum 
in the coalition's military campaign. As with any campaign, 
we're continuing to examine ways to enhance the effectiveness 
of our operations.
    But, we all recognize that ISIL is a transregional threat 
requiring a broader strategy. The immediate priority is to bear 
down on core ISIL across Iraq and Syria simultaneously. The 
framework for the campaign is the same for Iraq and Syria, but 
the conditions on the ground present unique challenges and 
opportunities. The end state is to defeat ISIL. Without a 
partner on the ground, Syria has clearly presented the most 
difficult challenge. No one is satisfied with our progress to 
date. Moving forward, we must continue to work with our Turkish 
partners to secure the northern border of Syria. We must do all 
we can to enable vetted Syrian opposition forces willing to 
fight ISIL. We must be more aggressive in strikes that will 
deny ISIL the access they have to oil revenue.
    The Secretary has already addressed the adjustments to the 
Syrian train-and-equip program. I support the refined approach. 
While there will be challenges, we'll be supporting groups who 
have already demonstrated the will to fight ISIL. Our support 
will be contingent upon their attacking specific objectives in 
meeting specific standards. We'll look for opportunities to 
support vetted opposition groups in both the north and along 
the border with Jordan.
    In our initial efforts to build ground forces in Syria, 
Major General Mike Nagata and his team were operating under 
extraordinarily difficult conditions, and I'd like to thank 
them for their hard work. Due to their efforts, we have a much 
better understanding of the operating environment and the 
opportunities. We'll be able to leverage their initiative and 
lessons learned as we make course and speed corrections.
    Last week, we began to move the campaign forward in another 
important way by striking a major oil facility and source of 
revenue for ISIL. Based on some superb analytic work and 
planning, Central Command (CENTCOM) is now postured to 
accelerate broader interagency efforts against ISIL's economic 
means. The Central Command is also continuing to work with 
Turkey to secure border--the border area in northwest Syria. We 
still have some work to do.
    In Iraq, we've also been frustrated with the pace of 
operations. That said, there's been recent progress in Baiji, 
some movement around Ramadi, and the Peshmerga have made 
progress in the north. After talking to the commanders on the 
ground, I believe we'll have an opportunity to reinforce Iraqi 
success in the days ahead. We've developed a variety of options 
to do that.
    To be successful in Syria and Iraq, in addition to the 
initiatives I've mentioned and those outlined by the Secretary, 
we also need to continue to improve how we leverage our 
intelligence capabilities and do more to cut the flow of 
foreign fighters. I have a better understanding of these two 
issues after my visit, and those will be a priority for me in 
the days ahead.
    We will also continue to look hard at other ways to 
increase the effectiveness of coalition operations in the tempo 
of the campaign. The Secretary and the President have made it 
clear that they expect me to bring to them all of the options 
that may be--that may contribute to our winning the fight 
against ISIL. I've made a commitment to them that I would do 
that, and I'll meet that commitment.
    In closing, as I complete my initial assessment of the 
campaign, I believe we've identified and started to implement a 
number of initiatives to move the campaign forward. We're not 
satisfied or complacent about where we are, and we won't be 
satisfied until ISIL is defeated.
    Thank you again for the opportunity to join you, and I look 
forward to your questions.
    Chairman McCain. Thank you very much, General.
    Secretary Carter, the President's spokesman, after it was 
clear that the arm and train and equip by the DOD program had 
failed--President's spokesman said that the President was--felt 
vindicated that this program had failed, because he never 
supported it to start with. This was a program that we invested 
$43 million, at least, of a $500 million program. I'm not sure 
how many young people were killed in trying to implement this 
failed program. Did you feel vindicated when this program 
failed?
    Secretary Carter. Mr. Chairman, I thought that the effort--
and I want to repeat something that the Chairman just said--I 
think that General Nagata, who was given this program, which 
was conceived last summer----
    Chairman McCain. Yeah, I just asked----
    Secretary Carter.--approved through the winter----
    Chairman McCain.--the question whether you felt vindicated, 
or not----
    Secretary Carter. No, I was----
    Chairman McCain.--as the----
    Secretary Carter.--disappointed.
    Chairman McCain.--President's spokesman----
    Secretary Carter. I was actually--no, I was disappointed in 
it.
    Chairman McCain. I see.
    Secretary Carter. I wished it had turned out differently.
    Chairman McCain. I see.
    Secretary Carter. However, we----
    Chairman McCain. But, the----
    Secretary Carter.--are learning our lessons from that, and, 
therefore, our new approach differs in----
    Chairman McCain. Well, then would one of those----
    Secretary Carter.--a fundamental way from----
    Chairman McCain. Go ahead.
    Secretary Carter. I can describe the difference between the 
old and the new. But, we think that we have learning lessons 
from that.
    Chairman McCain. So, you don't feel vindicated that the 
program failed.
    Secretary Carter. I was disappointed that it failed.
    Chairman McCain. I see. But, the President obviously 
wasn't. He felt vindicated, according to his spokesperson.
    In this change that you were talking about--and already 
we're seeing some of the changes--does that mean that we--these 
young people that we train and equip and send in to fight--that 
we're going to protect them from being barrel-bombed and 
attacked by Russian aircraft?
    Secretary Carter. I think we have conveyed the same 
obligation last time I was before you----
    Chairman McCain. Right now, as we speak----
    Secretary Carter.--to protect----
    Chairman McCain.--Russian aircraft----
    Secretary Carter.--these forces----
    Chairman McCain.--are bombing--right now, as we speak, 
Russian aircraft are bombing moderate Syrian forces in Syria 
while we have deconflicted. Do you believe that we should be 
protecting those young people----
    Secretary Carter. Our Title 10 forces, we have an 
obligation to protect. We've stated that. We will have----
    Chairman McCain. Are we protecting them?
    Secretary Carter.--options to do that. We have authority to 
do that.
    Chairman McCain. Are we protecting them now?
    Secretary Carter. They have not come--they're operating in 
a--they have not come under attack by either Assad's forces or 
Russia's forces----
    Chairman McCain. Russia's air has not been----
    Secretary Carter.--the Syrian Arab----
    Chairman McCain.--attacking----
    Secretary Carter.--coalition and the Kurdish People's 
Protection Unit (YPG).
    Chairman McCain. No, no, I'm asking about the moderate 
Syrian forces that are there, some of whom we trained.
    Secretary Carter. I'm sorry, I was speaking of our train-
and-equip----
    Chairman McCain. I'm asking the question about those that 
we--some of those we trained and equipped, moderate Syrian 
forces that are now being bombed by Russia.
    Secretary Carter. With respect to the Title 10 forces that 
the Department of Defense trains and equips in Syria, they have 
not come under attack, but we have expressed----
    Chairman McCain. None of the moderate forces that--some of 
whom we have trained, are--have come under attack by Russia 
from the air?
    Secretary Carter. Not in our train-and-equip program, our 
Title 10 program, no.
    Chairman McCain. That's fascinating. It----
    Secretary Carter. But, let me be clear, Chairman, the 
Russians--and, obviously, Assad--do attack moderate Syrian 
forces----
    Chairman McCain. Yes.
    Secretary Carter.--which are supported by----
    Chairman McCain. Primarily----
    Secretary Carter.--the international coalition. The--one of 
the reasons why the Russian approach is so----
    Chairman McCain. So, are we going to train----
    Secretary Carter.--wrongheaded----
    Chairman McCain.--are we going to train these young people, 
you say, in the change--are we going to send them into Syria to 
fight--are we going to protect them from being barrel-bombed 
by----
    Secretary Carter. The ones----
    Chairman McCain.--Bashar Assad and protected from----
    Secretary Carter. The ones that----
    Chairman McCain.--Russians----
    Secretary Carter. Yes, the ones that we----
    Chairman McCain. Anyone we send in and----
    Secretary Carter.--train and equip----
    Chairman McCain.--train, we're----
    Secretary Carter.--we have that----
    Chairman McCain.--going to----
    Secretary Carter.--obligation.
    Chairman McCain.--protect from Russian air attacks.
    Secretary Carter. We have an obligation to do that, and 
we've made that clear, right from the beginning of the train-
and-equip program.
    Chairman McCain. We haven't done it. We haven't done it----
    Secretary Carter. They have not----
    Chairman McCain.--Secretary----
    Secretary Carter.--come under attack.
    Chairman McCain.--Carter.
    Secretary Carter. But, I've----
    Chairman McCain. I promise you they have. We will----
    Secretary Carter.--we have an obligation----
    Chairman McCain. We--you will have to correct the record.
    Now, General Petraeus and General--and former Secretary 
Robert Gates, SECDEF, and now, we understand, Secretary Hillary 
Clinton, have all stated that they think we should stop the 
barrel-bombing and that we should train and equip, and we 
should have no-fly zone or aircraft exclusionary zones. I might 
point out, General Dunford, as complicated as it is, we were 
able to do Northern Watch and Southern Watch rather 
successfully in Iraq, although it's not exactly the same. So, 
are you recommending that we should stop the barrel-bombing, as 
General David Petraeus and Secretary--former Secretary Gates 
and now Secretary Clinton--have suggested, to stop the barrel-
bombing, to provide a no---an aircraft exclusionary zone in 
order to protect the innocent civilians that are being driven 
into refugee status, in the greatest refugee situation since 
the end of World War II?
    Secretary Carter. Yeah, Chairman, I--we have, as I 
indicated in my statement, analyzed zones of various kinds 
and--humanitarian zones, buffer zones, and you're talking 
about----
    Chairman McCain. Yeah
    Secretary Carter.--no-fly zones. I can give you some of the 
considerations----
    Chairman McCain. Stop the barrel-bombing.
    Secretary Carter.--the--that would be one of the----
    Chairman McCain. Yeah.
    Secretary Carter.--intents of a no-fly zone. If you'd like, 
I can tell you some of the considerations that----
    Chairman McCain. I'd just like to know whether you support, 
or not.
    Secretary Carter. We have not made that recommendation to 
the President. He has not taken it off the table. I can explain 
some of the reasons for our recommendation--or our----
    Chairman McCain. It's not an issue that has not been 
examined, Secretary Carter. It's been recommended for years by 
some of us. I mean, you have to examine it----
    Secretary Carter. But, we have looked at it quite----
    Chairman McCain.--all over again?
    Secretary Carter. We've looked at it quite closely. I'm 
prepared to describe it. I know the Chairman is, as well.
    Chairman McCain. It's not a--it's a matter--it's an issue 
that's been on the table for three or four years that I know 
of. It's not a--we received information when General Martin 
Dempsey said it would cost a billion dollars a day or something 
incredible. But, it's not a new issue.
    Secretary Carter. It is not a new issue. It is a 
substantial military----
    Chairman McCain. So, it seems to me you should have a 
position on it.
    Secretary Carter. We have not recommended that. We have 
analyzed it. We've presented the alternatives----
    Chairman McCain. So, you do not----
    Secretary Carter.--to the President.
    chairman--support----
    Secretary Carter. We've not----
    Chairman McCain. You do not agree with General Petraeus and 
former Secretary Gates and Secretary Clinton.
    Secretary Carter. We do not have a concept of operations 
for a no-fly zone at this time that we're prepared----
    Chairman McCain. After all these years, we don't have a 
concept of operations.
    Secretary Carter. That we're prepared to recommend.
    Chairman McCain. Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    I just, Mr. Secretary, want to clarify. You have spoken 
exclusively about forces trained by the Department of Defense. 
You kept--Title 10, but there are a lot of titles in the U.S. 
Code. But, there are other forces on the ground that our 
coalition partners have trained, that have come under attack by 
the Russians. Is that--that's clear, correct?
    Secretary Carter. Absolutely true.
    Senator Reed. But, the forces that are subject to direct 
training by the Department of Defense have been placed in areas 
which, for many reasons, have not been subject to aerial 
attack----
    Secretary Carter. Well, they're fighting ISIL.
    Senator Reed. They're fighting ISIL.
    Secretary Carter. So--and the Russians, as I stated, are 
not, even though they said they were.
    Senator Reed. Now, let me go back to the points you made 
about the train-and-equip program. It has shifted from trying 
to train individual units, insert those units into the counter-
ISIL fight, to identifying leaders and providing some training 
to the leader, and then----
    Secretary Carter. Right.
    Senator Reed.--some support. There is another aspect of 
this approach which I'd like to clarify. That is training not 
just leaders, but individual enablers, people with technical 
skills that can go into a deployed unit and provide those 
skills. Is that still being done?
    Secretary Carter. Yes, that is still part of the approach. 
That was part of the old approach, as well. But, the big 
difference is that, rather than trying to form brand-new units, 
we are identifying units that are already fighting ISIL, 
providing them equipment, and, as you point out, after vetting 
their leadership, providing them with selected abilities that 
help them leverage our enablement, particular with--from the 
air.
    Senator Reed. From the air. So, the program still is able 
to do that and, in addition, grow not so much units, but teams 
of Syrian nationals that can go in as specialists on a whole 
range of issues: air support, medical support, logistics 
support--and aid these units in Syria.
    Secretary Carter. Exactly. Now, we're very transactional in 
this, so we are giving some equipment, seeing how they perform, 
give some more equipment, and how--see how they perform. But, 
these are groups that already exist. The Syrian Arab Coalition, 
moving in the areas north of Raqqa, is an example of that.
    Senator Reed. Thank you.
    General Dunford, you just returned from Iraq, and you had 
conversations with the--Prime Minister Haider al-Abadi because 
there were disconcerting reports of invitations to the 
Russians, collaboration at the intelligence level with the 
Russians. What's your latest estimate of that? Is it something 
that was a more political statement by the Prime Minister, or 
is there actual ongoing, real efforts?
    General Dunford. Senator, thanks--I asked that specific 
question to all the senior ranking leaders that I met with, and 
I explained to them how difficult it would be for us to 
continue to provide support if the Russians were invited in to 
conduct airstrikes. I was assured, at every level, that that 
wouldn't be the case.
    Could I follow up on the train-and-equip?
    Senator Reed. Yes, sir.
    General Dunford. In your opening statement, you mentioned 
that we completely suspended the program, and I just wanted to 
clarify one point. The individuals that we had previously 
trained, we are still supporting them when they're still in the 
fight. There are a number of them that are doing exactly the 
kind of things you spoke about, Senator Reed. They're providing 
joint terminal attack controller (JTAC)-like support for forces 
that are fighting ISIL.
    Senator Reed. It's--based on the Secretary's comments, it's 
our intention to expand that as rapidly as we can.
    General Dunford. Where there are opportunities. I would 
just say, you know, for the T&E program, although we're talking 
now about the Syrian Arab Coalition and training those large 
groups, my perception and the guidance that we have from the 
President is, where there are other opportunities, we should 
bring those forward to him. When I talked to the team on the 
ground, I made that clear to them, that, when we see 
opportunities, we ought to develop concept of operations, bring 
that back, and expand the program, where it will work. We'll 
look to do that both in the northern part in Syria as well as 
along the Jordanian border.
    Senator Reed. One final question, General Dunford, is 
that--and you--both your testimonies highlighted this inability 
of the government in Baghdad to fully support Sunni forces in 
Anbar, particularly. Some of that is historic mistrust, et 
cetera. Do your--from your testimony, they're--you're 
considering having American advisors at--not at the company 
level, but higher up, and the one function they could perform 
is to be an honest broker, which would allow the payment of 
troops, would allow the government of Baghdad to feel that they 
have some control, and, in addition, demand, on behalf of Sunni 
forces, that they get the fair share. Is that part of your 
thinking, going forward?
    General Dunford. It is, Senator. I think there's actually 
four reasons why you might consider putting forces in an 
accompany role. The first is what you're suggesting, which is 
to really to bring some campaign coherence. I think the other 
is to ensure that our logistics support is effective. Another 
challenge we've had is situational awareness and intelligence. 
So, that would be another--that would be another advantage of 
doing that. Then, also the better delivery of combined arms. 
So, there's really four factors, I think, that would be 
considered. If it had operational or strategic impact and we 
could reinforce success, that would be the basic framework 
within which I'd make a recommendation for additional forces to 
be colocated with Iraqi units.
    Senator Reed. Thank you very much, Mr. Chairman.
    Chairman McCain. Just to make the record clear, Secretary 
Carter, there are coalition-supported and American-supported 
forces that are in Syria that are being attacked by Russian 
aircraft. Is that true or false?
    Secretary Carter. I'm sorry, Mr. Chairman. There are 
moderate Syrian opposition forces----
    Chairman McCain. Coalition-supported.
    Secretary Carter.--in Syria supported by the coalition, 
and, of course, people that we think are part of Syria's future 
and part of the Syrian political transition.
    Chairman McCain. It's hard to be part of----
    Secretary Carter. They are being attacked. That's--and not 
ISIL--and that's why the Russian approach is backwards, or----
    Chairman McCain. That's why----
    Secretary Carter.--I've called it wrongheaded.
    Chairman McCain. That's why it's immoral to train people in 
and watch them--to go in and fight, and watch them being 
destroyed and maimed and killed----
    Secretary Carter. For our part----
    Chairman McCain.--by Russia.
    Secretary Carter. For our part, in our train-and-equip 
program, as I've said before this committee before, we have a 
moral obligation----
    Chairman McCain. You are making a distinction without a 
difference, Mr. Secretary. These are American-supported and 
coalition-supported men who are going in and being slaughtered.
    Secretary Inhofe--Senator Inhofe.
    Senator Inhofe. Yes. My understanding, Mr. Chairman, that 
Senator Cotton is presiding, so I'll defer to him and then ask 
that we return to regular order.
    Senator Cotton. Thank you, Senator Inhofe. Yes, I do have 
to go preside over the Senate. General Dunford, that's the 
Senate equivalent of staff duty for a junior officer.
    Secretary Carter, you talked about our ``nine lines of 
effort.'' Not all of those are military lines of effort. Is 
that correct?
    Secretary Carter. That's correct.
    Senator Cotton. Now that General Allen has departed as our 
envoy in charge of those ``nine lines of effort,'' who are 
minding those nondefense lines of effort?
    Secretary Carter. Well, it's a good question. What--one of 
the things that I have proposed, and Secretary Kerry has 
accepted, that he and I meet periodically with the other agency 
heads who have the other nine--the other lines of effort. 
General Allen's been present at those meetings. His successor, 
Ambassador McGuirk, will be present at them. I thought--it's 
one of the things I noticed when I began to look at this 
campaign--that since all of these lines of effort are--it is 
necessary to have moving in concert, we needed a better effort 
to do that. So, Secretary Kerry's agreed to do that with me. 
We've had, I think, four meetings--General Dunford was at the 
last one--focused on--counterfinancing was the last one. Before 
that was foreign fighter flow both into the conflict region and 
out of the conflict region to Europe, around the world. We are 
addressing messaging and ISIL's messages and efforts to recruit 
people online.
    So, there are lots of different dimensions to this that are 
not military, per se, but I believe that they're opportunities 
to make the whole greater than the sum of the parts, and I've 
sought to seize those opportunities with Secretary Kerry, now 
with General Dunford, and make sure that all these different 
efforts are coordinated. They're all important. The other 
participants are doing important things--the diplomatic people 
and the intelligence people and the homeland security and law 
enforcement folks. But, I think the whole can be greater than 
the sum of the parts. Just per your question, that's exactly 
the intent.
    Senator Cotton. Is that a detailed way of saying there's 
not a single person taking over all of the nondefense lines of 
effort?
    Secretary Carter. There has not been a single person who 
had that responsibility. Remember, General Allen, who was 
superb--General Allen had the responsibility for assembling the 
coalition, which he did with great skill, and, to his credit 
and Ambassador McGuirk's, we have a broad coalition. I'm 
talking about something different, which is assembling the 
mechanics of all of the nine lines of effort. So, that's 
something I'm undertaking to do with Secretary Kerry, and we're 
gathering in the other parties that are involved. Ambassador 
McGuirk will be part of that effort. But, I think it's 
necessary----
    Senator Cotton. I'd like to----
    Secretary Carter.--necessary organizational change.
    Senator Cotton. I'd like to shift briefly now to Russia's 
move into Syria. A few weeks ago, before the major Russian 
movement into Syria, the United States Government requested 
that Bulgaria and Iraq close its airspace to Russian aircraft. 
How did we transmit that request to Iraq?
    Secretary Carter. I do not know what the mechanics of that 
were. Can I get back to you on that, Senator? I simply don't 
know.
    Senator Cotton. Is that something the State Department 
would----
    Secretary Carter. I'm happy to----
    Senator Cotton.--typically do? The Department of Defense?
    Secretary Carter. I----
    Senator Cotton. The White House?
    Secretary Carter. I--Joe, go ahead.
    General Dunford. Senator, I believe that message would have 
been delivered by Ambassador Jones, in Baghdad.
    Senator Cotton. Iraq obviously declined our request, while 
Bulgaria accepted it.
    General Dunford. Declined the request----
    Senator Cotton. Let Russian aircraft fly through their 
airspace.
    General Dunford. There was--there has been Russian aircraft 
that's flown through Iraqi airspace. My understanding is, it 
was not at the invitation of the Iraqi government.
    Senator Cotton. Does it--does the Iraq air force have the 
capability to protect its own air force and exclude a foreign 
air force like Russia's?
    General Dunford. They have limited capability, Senator. 
They recently were fielded with F-16s, but they have limited 
air-to-air capability.
    Senator Cotton. So, if the United States Government 
requested that the Government of Iraq close its airspace to 
Russia, surely the United States Government was prepared to 
assist Iraq in closing its airspace and stopping Russian 
aircraft from flying over Iraq?
    Secretary Carter. Well, I--it's a sovereign decision by 
Iraq, but, I'll tell you, we're not uninterested in it. And--
but, you're raising a very important question, which is, Is 
Iraq going to cooperate with the Russian--what I would regard 
as mis---I called it wrongheaded approach I Syria? We have 
received--and I believe that General Dunford received, just 
last week--from Prime Minister Abadi, in no uncertain terms, 
the statement that he will not work with the Russians, he 
will--he will not allow them to be partners with Iraq in that 
regard, that we are the preferred partners of Iraq. We've been 
insistent on that point. Prime Minister Abadi has repeated 
those pledges to us. I only say that because I--we feel 
emphatically about that--receiving those pledges, and intend to 
have them implemented by Prime Minister Abadi. But, he has not 
been ambiguous about that. I believe the most recent 
conversation was held by General Dunford, and perhaps you'd 
like to say something about that, Joe. It's a serious issue.
    General Dunford. No, Senator, I raised it both with the 
Minister of Defense and the Prime Minister and, again, tried to 
explain to them that our continued support really would be 
problematic, were they to invite the Russians in to conduct 
strikes. I was assured that they had not extended that 
invitation, and they did not intend to extend an invitation to 
do that.
    Senator Cotton. Well, in closing, I would say it's 
problematic for Russia to be resupplying its forces in Syria by 
flying through Iraq. We should renew our request that they 
exclude Russian aircraft from their airspace, and our military 
should be prepared to assist them in excluding Russian aircraft 
from their airspace.
    Thank you, Senator Inhofe, Chairman.
    Chairman McCain. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Thank you both for your service and for being here.
    Let me--I think my question would be, What is our end game? 
The end game would be--we've been there, bogged down for quite 
some time. If you look at--when I go home to West Virginia and 
talk to the citizens, you know, they say, ``Well, to stop this 
migration, you're going to have to have a no-fly zone. You have 
to have protection where people feel like they're safe. As the 
country regroups or rebuilds, that--there are still people 
there that, basically, are peace-loving, well-educated.'' So, 
we haven't made a decision on that. I know the Chairman has 
asked directly on that.
    And then I start looking at, basically, with Russia's 
involvement, and Russia being involved to protect Assad. Russia 
is more involved in protecting Assad and working with Iran to 
have some influence of what happens there, in my evaluation. 
Then, you look at the United States. We're more concerned about 
fighting ISIL, if you will--or it looks to be--more so than 
protecting or fighting with our coalition, who wants to defeat 
Assad.
    So, what would be the end game? Who--what part are we going 
to be able to play in this unless we take on Russia or 
basically check Russia from what they're doing, unless we have 
some type of diplomatic relations with Russia and an agreement 
with Russia? I see Russia as being in a situation--and they 
have involved themselves--to where they're going to be a major 
broker in that region, because Iran seems to be, if you will, 
more influential, as far as in Iraq and in Syria, with Assad. 
Now with Assad being helped and propped up by Russia, we're out 
there fighting ISIL. We don't--we're not protecting the people 
that can basically put any security back into Syria. I just--
it's a very confusing situation. It's hard for us to say, 
``Okay, at the end of the day, here's our end game.''
    And if somebody has any explanation for that and tells me 
what we're trying to accomplish, I'd be happy to hear it.
    Secretary Carter. I'll take that, Senator.
    The--for us, the paramount objective is the defeat of ISIL. 
That will require----
    Senator Manchin. That's our number-one----
    Secretary Carter.--in Iraq----
    Senator Manchin.--priority right now in Syria.
    Secretary Carter.--because they're trying to attack 
Americans.
    Senator Manchin. I gotcha.
    Secretary Carter. We have to take that very seriously.
    Senator Manchin. Okay.
    Secretary Carter. They must be defeated, and they must be--
--
    Senator Manchin. You agree----
    Secretary Carter.--defeated very----
    Senator Manchin. I'm sorry, Mr. Secretary.
    Secretary Carter. Sorry.
    Senator Manchin. You do agree that Russia's primary is to 
protect Assad.
    Secretary Carter. Yeah. They said they were going to fight 
ISIL, and that's not what they're doing.
    Senator Manchin. Okay. So----
    Secretary Carter. They're propping up----
    Senator Manchin.--we----
    Secretary Carter.--Assad, which just fuels the civil war, 
which is the point the Chairman was making----
    Senator Manchin. Okay.
    Secretary Carter.--and fuels the----
    Senator Manchin. So, we have two different----
    Secretary Carter. So, they're on the----
    Senator Manchin.--objectives right now----
    Secretary Carter.--they're on the wrong side of the----
    Senator Manchin. The United States and Russia has two 
complete different objectives.
    Secretary Carter. Well, they say they have the same 
objectives, but----
    Senator Manchin. But, we don't----
    Secretary Carter.--their actions----
    Senator Manchin.--see that. I gotcha.
    Secretary Carter.--belie that.
    Senator Manchin. And they're basically in line with Iran in 
helping prop up Assad and protect Assad.
    Secretary Carter. Iran has also supported Assad, 
absolutely, as well.
    So, to get to the question of the end game, the end game in 
Syria has to be a transition in which Assad is no longer 
running the country. We would like to see that transition occur 
in as peaceful and prompt a way as possible, because we would 
like there to be the--a----
    Senator Manchin. Is it obvious that--basically, that Russia 
and Iran will have more influence on who the next leader or the 
leadership of Syria's going to be than we will?
    Secretary Carter. Well, I think that--I wouldn't--I don't 
think they can be sure of that, because the----
    Senator Manchin. But, I'm saying they're----
    Secretary Carter.--the future of----
    Senator Manchin.--positioning themselves for that.
    Secretary Carter.--Syria--the future of Syria will be in 
the hands of the Syrian people, and many of those are Syrian 
moderate opposition leaders who are being attacked by Assad's 
forces, with Russia's help, right now.
    Senator Manchin. Have we----
    Secretary Carter. That's why Russia's----
    Senator Manchin.--been able to assist----
    Secretary Carter.--on the wrong side of----
    Senator Manchin.--the migration of the people from Syria as 
being----
    Secretary Carter. Some of them.
    Senator Manchin.--more of the leaders----
    Secretary Carter. Some of them.
    Senator Manchin.--more of the well-educated, more of the 
peace-loving?
    Secretary Carter. Yes. There's a spectrum there that goes 
all the way over to true extremists, like Jabhat al-Nusra (al-
Nusra) and al- --and ISIL, all the way through groups----
    Senator Manchin. Can I ask, General----
    Secretary Carter.--much more moderate.
    Senator Manchin.--Dunford, if--on this--General, I know 
that we've talked before on some of this, but it's just so--
it's so hard to go home and explain our involvement unless 
we're going to have a no-fly and protect those who want to be 
there to rebuild their country. We're not going to have much to 
work with.
    General Dunford. The Chairman said something important in 
his opening comments. I think that's exactly what the military 
campaign is designed to do, and that's to provide some 
leverage. I think what we owe--what we owe the President is 
options that will allow us to generate the kind of momentum and 
confidence in the military campaign against ISIL that will give 
us leverage politically.
    So, the decision's been made that the issue with Assad is 
being solved politically right now. So, I think there's two 
separate approaches, here, in Syria that'll come together at 
some point in the future. One is that we're dealing with ISIL 
on the ground, and we're doing that militarily, and that's with 
the strikes and the partnership capacity that I spoke about a 
minute ago. Meanwhile, there are broader political negotiations 
that are taking place to determine the future of the 
transitional government. I think right now it's pretty clear to 
me what we should be doing on the military side, and that is 
taking the fight to ISIL, generating momentum, keeping the 
coalition together, giving confidence in the campaign. Then, 
again----
    Senator Manchin. If I can just----
    General Dunford.--the Chairman talked about----
    Senator Manchin. Mr. Chairman, if you indulge us, one more.
    If I can just ask: Is the rebels or the coalition forces, 
which we are supporting in Syria--are they more intent on 
fighting Assad or fighting ISIL?
    General Dunford. The individuals that we are supporting, 
specifically those in the north, are supporting--fighting ISIL.
    Senator Manchin. More so than Assad.
    General Dunford. More so than Assad.
    Senator Manchin. Even though----
    General Dunford. So, that includes the Syrian Arab 
Coalition and the YPG and some smaller groups that we've 
supported. We have some other groups that we're beginning to 
negotiate with in the south that have expressed the same 
intent.
    Senator Manchin. Thank you, sir.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Our committee rules have always been to submit the 
statements 24 hours in advance, and I--that didn't--it's really 
helpful to us if we can get that. So, I'd ask you, in the 
future hearings, to do that.
    Appreciate the fact that both the Chairman and you, 
Secretary Carter, mentioned by name Josh Wheeler. Josh Wheeler 
is from Roland, Oklahoma. He's one who is certainly a--he was a 
hero before all of this happened, and, by his actions, he saved 
70 lives of hostages and fellow members of the Coalition Task 
Force. I--so, I appreciate very much your talking about him.
    I--since the--you were here before, Secretary Carter, in 
July, ISIL still controls much of the northern and western 
Iraq, despite more than a year of United States airstrikes and 
the loss of Ramadi. Significant setback. Russia continued its 
military buildup in Syria, as we've been talking about, and 
began operations to support Iraq. Iran Quds Forces in Syria 
have been joined by Iranian support forces from Lebanon's 
Hezbollah to support the Assad regime. All under the command of 
General Qasem Soleimani, who previously directed attacks on 
United States forces in Iraq. We talked about the change in the 
train-and-equip program, which I would like to get--have you 
elaborate a little bit more on. But, in your statement that we 
got this morning, Secretary Carter, you said, quote, ``To be 
clear, we are not cooperating with Russia, and we are not 
letting Russia impact the pace and scope of our campaign 
against ISIL in Iraq and Syria.''
    Last week, we had--well, some time ago, we had Dr. Henry 
Kissinger in as a witness, but then last week we had five 
professors that were there in one of our really good hearings 
that we had on--I think it was on Wednesday or Thursday. We 
quoted Dr. Kissinger when he said, quote, ``Syria is the latest 
symptom of a disintegration of the American role in stabilizing 
the Middle East order,'' unquote.
    Now, do you think that's inconsistent with the statements 
that you've made, Secretary Carter?
    Secretary Carter. I think that the Middle East is certainly 
very tumultuous, but, once again, I come back to: our role is 
to protect American interests in that circumstance. That's----
    Senator Inhofe. Yeah, but are----
    Secretary Carter.--what we're doing. Whether it be the 
fight against ISIL, our alliances and partnerships with Gulf 
countries, and Israel, our posture in the Gulf, all of that is 
intended to protect American interests in the Middle East. Is 
the Middle East tumultuous? You bet it is. But, our anchor is 
the protection----
    Senator Inhofe. Well, when I read your statement, it seemed 
to me that it's not totally consistent with that.
    What do you think, General Dunford, about Kissinger's 
statement, in terms of our role in that part of the world?
    General Dunford. Senator, thanks.
    I mean, I--what I would agree with, with former Secretary 
Kissinger, is that we have a critical role to play in the 
Middle East. We have national interests in the Middle East, and 
we should be decisively engaged in advancing those national 
interests.
    Senator Inhofe. Yeah, okay, but--and I know this is about 
the Middle East, but--and Ukraine is another good example of 
what our posture is in that part of the world. A lot of us here 
were actually--well, I was there during the last election that 
they had, in October, when, for the first time in 96 years, 
they don't have one Communist on--in their Parliament in the 
Ukraine. And so, President Petro Poroshenko and Prime Minister 
Arseniy Yatsenyuk and--they're all--that was a pro-Western 
effort. And then, immediately, Putin started killing them all. 
Our response was sending blankets and K-rations--well, they 
don't call them K-rations anymore, but--anyway, do you agree, 
General Dunford, that this is the right response that we should 
have had, to maintain what you have always perceived to be our 
role?
    General Dunford. Senator, I don't want to be evasive, but 
I'm not sure it would be appropriate for me to comment on an 
issue of policy and what we ought to do. I mean, it--I think my 
job is to provide military options to our leadership----
    Senator Inhofe. Okay.
    General Dunford.--in support of the policy.
    Senator Inhofe. Okay. We've been--let me ask you a 
question, because I don't know. What is the current status of 
Fallujah?
    General Dunford. Fallujah, right now, is being held by 
insurgents. That is one of the areas that's been identified for 
future operations by Iraqi Security Forces.
    Senator Inhofe. Well, yeah, that's--you know what----
    Chairman McCain. That's comforting. We know it's been 
identified.
    Senator Inhofe. All right. Well, thank you, Mr. Chairman.
    Chairman McCain. Senator Heinrich.
    Can't make it up.
    Senator Heinrich. Secretary Carter--Secretary Carter, if 
there is one lesson it seems to me we should have learned in 
the Middle East and North Africa by now, it's that every time 
we think it can't get worse, if there's not an end game, it 
can. Removing Saddam Hussein at the cost of thousands of 
American lives gave us a chaotic civil war, an ethnic war that 
led to the vacuum that helped spawn ISIL. In Libya, we removed 
a brutal dictator, only to see chaos and extremism reign across 
what can now only loosely be called a country.
    So, to reference Senator Manchin's comments that we need to 
think about an end game, here, I think about the fact that many 
of our colleagues now believe that the solution to Syria today 
is to focus directly on the removal of the Assad regime rather 
than the current administration focus on ISIL.
    So, I want to ask you: Were the Assad regime to fall 
without a plan in place for follow-on governance and a 
political settlement that could create some sort of stability, 
how confident are you that Syria wouldn't just slip into an 
even more chaotic state, you know, potentially threatening our 
allies in the region, creating new opportunities for ISIL, and 
creating a new wave of refugees that could make the current 
outpouring of refugees look modest?
    Secretary Carter. Well, that--the end game we seek is both 
the defeat of ISIL and a transition in Syria. You're right, the 
sooner that occurs, the more likely it is that their--the 
structures of Syrian society aren't completely destroyed by the 
time that transition occurs. That's why hastening that 
political transition--Assad out and the political forces, to 
include the moderate Syrian forces now opposing Assad, have the 
opportunity to rebuild the country. That's the only way to put 
Syria back together. And the sooner that occurs, the better. 
That's why we--we're supporting that political transition. But, 
at the same time, we have to defeat ISIL. They have to be 
militarily defeated. There's no----
    Senator Heinrich. My point with respect to Assad is that, 
should Assad fall, we need to be thinking about what comes next 
so it's not just an opportunity for ISIL and other extremist 
groups in that region.
    Secretary Carter. I believe that the talks that Secretary 
Kerry is having with various partners--parties in the region 
this week are precisely aimed at deciding what the contours of 
that political settlement would be and what would come after 
it. But, one of the reasons why it's so important that this 
occur quickly is that the structures of the Syrian state are 
going to be important to the future, and we don't want them to 
disintegrate entirely. That's why fueling the Syrian civil war, 
which is what the Russians are doing, is so wrongheaded.
    Senator Heinrich. General Dunford, with respect to the 
potential no-fly-zone issue that was brought up earlier, what 
would be the limitations of that kind of course of action, 
given particularly the new fairly sophisticated air defenses 
from Russia that are now inside Syria?
    General Dunford. Senator, from a military perspective, we 
can implement a no-fly zone, and we have the capability to do 
that. The challenges are political, legal, and then a diversion 
of the resources that are currently fighting ISIL in support of 
that no-fly zone. So, those are among the factors that were 
considered when we looked at the no-fly zone.
    Senator Heinrich. Moving back to you, Secretary Carter, 
during your previous appearance before this committee, in July, 
you emphasized that Prime Minister Abadi was doing everything 
he could to recruit Sunnis to the fight. And I think you said 
that, quote, ``Only''--or--``Sunnis can take back Anbar.'' Do 
you still feel this way? Can you update the committee on the 
progress, or lack of progress, in training Iraqi Security 
Forces?
    Secretary Carter. It is still true. The recapture of 
western Iraq is going to require Sunni forces that participate 
in that recapture and then, of course, that keep the peace 
after the peace is won. That's why we're in--so intent on 
getting Sunni fighters into the fight. And the legacy of Prime 
Minister Nourial-Maliki was to make the armed forces of Iraq 
more sectarian, to the detriment of the Sunnis. That's one of 
the things that led to ISIL. I think that Prime Minister Abadi 
is trying, but I think they--that--I'm going to be honest with 
you--Iraq needs to----
    Senator Heinrich. A lot of that----
    Secretary Carter.--do more----
    Senator Heinrich.--damage has been done.
    Secretary Carter.--to attract--well, but if we're going to 
reverse it, we need to try to recruit, pay, arm, and equip the 
Sunni forces. That is our purpose. That's what we're doing with 
the Iraqis. That needs to be part of the future.
    If I can also address the no-fly zone, I just--I just want 
to be clear. We have studied the no-fly zone as--the Chairman's 
absolutely right, one knows how to do that. I thought it--I'll 
give you some of the considerations that go into that. By the 
way, I should--the President hasn't taken anything like this 
off the table. You asked whether we've recommended that. At 
this stage, we've not. A no-fly zone would be intended to 
prevent the Syrian air force from, as the Chairman said, 
``barrel-bombing'' or otherwise using airpower, both fixed-wing 
and rotary-wing, against the civilians population. Where 
they're doing that is over in the western part of the country, 
which is not the area where we're flying in now, because we're 
flying and attacking ISIL, further to the east. That area is 
protected by the Syrian Integrated Air Defense System. So, were 
we to fly there, we would need to deal with the Syrian 
Integrated Air Defense System, which is a substantial 
undertaking of its own that we have, as the Chairman indicated, 
analyzed, and we certainly have capabilities to do. Then, we 
would be interdicting both fixed-wing and rotary-wing aircraft 
that were attacking the Syrian population.
    The--I should note that it--however, that most of the 
civilian casualties inflicted by Assad's forces on the civilian 
population have been from artillery. Obviously, this wouldn't 
do anything about artillery, but it would do something about 
airstrikes.
    It's a substantial new undertaking. We've analyzed it. 
We've not made the recommendation to do it at this time. But, I 
respect people who are making recommendations for these kinds 
of zones. Then there are also humanitarian zones, which have 
been referenced also, which are a portion of Syria, now 
speaking conceptually, where people could congregate and be 
protected. Now, those--a zone thus created would be contested 
by ISIL, by al-Nusra, at a minimum, and so it would have to 
defended. So, again, it's a substantial military undertaking. 
The people who live there would, therefore, take a ground 
force, with accompanying air forces, to accomplish that. The 
people who were protected could be people who live there or--
and I think some people who have moved into Turkey, whom Turkey 
wishes to move back. But, I just want to be clear that, to keep 
it safe would require fighting to keep it safe, because the 
people who want to terrorize the population would attempt to 
attack such a zone. So, you need to think, in each case--and 
we've thought through several different cases--who's in, who is 
kept out, and how the enforcement of it is done.
    So, there are air zones and there are ground zones. We have 
considered all of them. Again, the President hasn't taken 
anything off the table. We've not made any specific 
recommendations in that regard, but we've looked at a variety 
of such possibilities.
    Let me ask the Chairman if he has anything to add to that.
    Chairman McCain. Senator Graham.
    Senator Graham. Thank you, to my colleagues, for letting me 
jump ahead. I appreciate it very, very much.
    I want to see if I've got this right. We're going to train 
people inside of Syria to fight ISIL, rather than training them 
outside of Syria; equip them inside and train them inside, 
right? New strategy.
    Secretary Carter. Yes. That's where they are.
    Senator Graham. Okay. So, you know, count me in for trying 
to help. Do we still want to replace Assad?
    Secretary Carter. Oh, absolutely. I mean----
    Senator Graham. Is that a goal of ours?
    Secretary Carter. A--yes--a transition from Assad----
    Senator Graham. Okay.
    Secretary Carter.--to a government----
    Senator Graham. Okay.
    Secretary Carter.--of Syria that is----
    Senator Graham. General Dunford----
    Secretary Carter.--inclusive and moderate----
    Senator Graham. Right.
    Secretary Carter.--and together.
    Senator Graham. Right.
    Secretary Carter. Absolutely.
    Senator Graham. General Dunford, is it smart to let Russia 
fight ISIL and we stay out of the fight?
    General Dunford. Russia is not fighting ISIL, Senator.
    Senator Graham. But, that wouldn't be a good idea, to rely 
on Russia to fight ISIL for us.
    General Dunford. Senator, I think we need to be engaged in 
advancing our own national interests. We have a national 
interest in dealing----
    Senator Graham. Okay.
    General Dunford.--with ISIL, and----
    Senator Graham. Okay.
    General Dunford.--we should be doing that.
    Senator Graham. Okay, here's----
    General Dunford. We can do it----
    Senator Graham.--the question.
    General Dunford.--it more effectively. I'm not confident--
--
    Senator Graham. Right.
    General Dunford.--that Russia----
    Senator Graham. Right.
    General Dunford.--is effective----
    Senator Graham. I am----
    General Dunford.--would be effective at doing it.
    Senator Graham. I'm a million percent with you.
    Are we going to supply air support for the people we train 
to fight ISIL?
    General Dunford. We are, Senator.
    Senator Graham. Do those same people want to take Assad 
down?
    General Dunford. The ones that we are supporting right now 
are focused on ISIL, sir.
    Senator Graham. Do they have a goal to take Assad down?
    General Dunford. Senator, I don't know.
    Senator Graham. What do you mean you don't know?
    General Dunford. Well, the ones we're--we--I don't know 
because----
    Senator Graham. Don't you think most people in Syria want 
two things: they want to fight--they want to destroy ISIL and 
get rid of Assad, the person who's killed 250,000 of their 
family?
    General Dunford. The----
    Senator Graham. Is that really a mystery?
    General Dunford. No, it's not----
    Senator Graham. It's not----
    General Dunford.--Senator.
    Senator Graham.--a mystery. Okay. Is Russia going to fight 
for Assad?
    General Dunford. Russia is fighting for Assad.
    Senator Graham. Will Iran fight for Assad?
    General Dunford. They are doing that, sir.
    Senator Graham. Will Hezbollah fight for Assad?
    General Dunford. They were doing that.
    Senator Graham. When the people we train to fight ISIL turn 
on Assad, which they surely will, are we going to fight with 
them to replace Assad?
    General Dunford. I can't answer that question, Senator.
    Senator Graham. Can you answer it, Secretary Carter?
    Secretary Carter. Yeah, I--just to be clear, let's take 
the----
    Senator Graham. That days is coming.
    Secretary Carter.--YPG Kurds--well, I--the----
    Senator Graham. Do you see a scenario where the----
    Secretary Carter. Let me just--
    Senator Graham.--people in Syria----
    Secretary Carter. Let me just address the----
    Senator Graham.--don't take----
    Secretary Carter.--the people that----
    Senator Graham.--on Assad?
    Secretary Carter.--the people that are--that we are 
equipping are people who live in or come from ISIL-occupied 
territory, and they're----
    Senator Graham. Do they want to take Assad down?
    Secretary Carter.--on defeating ISIL and----
    Senator Graham. Do they want to take Assad down?
    Secretary Carter. For the most part, they're focused on 
defeating----
    Senator Graham. Do they want to take Assad--have you asked 
them?
    Secretary Carter. We know what their intent is, and it is 
to fight ISIL.
    Senator Graham. Come on.
    Secretary Carter. They're fighting ISIL now.
    Senator Graham. You know as well as I do, both of you know, 
that the average Syrian not only wants to destroy ISIL, but 
they're intent on destroying Assad because he's killed 250,000 
of them.
    Here's the question for this committee. How do we leverage 
Assad leaving, when Russia's going to fight for him, Iran's 
going to fight for him, Hezbollah's fighting for him, and we're 
not going to do a damn thing to help people take him down? 
Y'all both know that. So, when Kerry goes over to Geneva, he is 
turning over Syria to the Russians and to the Iranians.
    Is there any credible military threat to Assad now that 
Russia, Iran, and Hezbollah's on his side? Do you see any 
credible military threat to take him down, General Dunford?
    General Dunford. I think the balance of forces right now 
are in Assad's advantage.
    Senator Graham. Not his advantage. He is secure as the day 
is long.
    So, this is what's happened, folks. The strategy is 
completely fallen apart. Russia, Iran, and Hezbollah are going 
to fight for their guy, and we're not going to do a damn thing 
to help the people who want to change Syria for the better by 
getting rid of the dictator in Damascus.
    Do you see a scenario, Secretary Carter, where we would 
fight to support an effort to take Assad down, that we would 
fight alongside of people who want to take Assad down in Syria? 
Is that remotely possible?
    Secretary Carter. We are--our approach to removing Assad 
has been to----
    Senator Graham. Does it have a military component?
    Secretary Carter. It is principally a political effort in 
Syria. Our----
    Senator Graham. So, the answer----
    Secretary Carter.--military effort in Syria----
    Senator Graham.--is no.
    Secretary Carter.--our military effort in Syria----
    Senator Graham. Are we going to fight with people who want 
to take Assad down? Are we going to provide them military help?
    Secretary Carter. Our train-and-equip program----
    Senator Graham. The answer is no.
    Secretary Carter.--is to provide----
    Senator Graham. The answer is no----
    Secretary Carter.--is supportive of people--
    Senator Graham. The answer is no.
    Secretary Carter.--who are fighting ISIL.
    Senator Graham. So, let me just end this. If I'm Assad, 
this is a good day for me, because the American government has 
just said, without saying it, that they're not going to fight 
to replace me. The Russians and the Iranians and Hezbollah, 
this is a really good day for them, because their guy has no 
military credible threat.
    So, now you tell me what kind of deal we're going to get, 
folks. I'm sure we'll get a really good deal with this 
construct. So, what you've done, gentlemen, along with the 
President, is, you've turned Syria over to Russia and Iran. 
You've told the people in Syria, who have died by the hundreds 
of thousands, we're more worried about a political settlement 
than we are about what follows.
    All I can say, this is a sad day for America, and the 
region will pay hell for this, because the Arabs are not going 
to accept this. The people in Syria are not going to accept 
this. This is a half-assed strategy, at best.
    Chairman McCain. Since a quorum is now present, I ask the 
committee to consider a list of 1,663 pending military 
nominations. All of these nominations have been before the 
committee the required length of time. Is there a motion so--
favorably report these 1,663 nominations----
    Senator Reed. So moved.
    Chairman McCain.--to the Senate?
    Is there a second?
    Senator Kaine. Second.
    Chairman McCain. All in favor, say aye.
    [A chorus of ayes.]
    Chairman McCain. The motion carries.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Thank you, to the witnesses, for your service and 
testimony.
    Secretary Carter, you stated that the primary objective of 
our actions, as you've described this morning, is the defeat of 
ISIL. I want to dig into that a little bit.
    Currently--I think I'm right on this--we are engaged in 
activities against ISIL, military activities in Iraq, Syria, 
Afghanistan, Yemen, Libya, and then, when we were on a--during 
that week of congressional recess, the President sent to 
Congress a war powers letter indicating the detachment of, I 
think, 300 American troops to Cameroon to assist in activities 
against Boko Haram, which has pledged allegiance to ISIL. Have 
I omitted any countries where there is currently activity that 
is either ISIL activity or groups that have pledged allegiance 
to ISIL?
    Secretary Carter. We're watching ISIL all over the world, 
Senator. As you know, it has aspirations and tries to 
metastasize, uses the Web. I mean, you--we have had--and 
Director Comey's made this very clear--Americans who have self-
radicalized----
    Senator Kaine. That--actually, that----
    Secretary Carter. And so----
    Senator Kaine. That's going to be my----
    Secretary Carter.--this is a----
    Senator Kaine.--next question.
    Secretary Carter.--phenomenon that is around the world. 
We're watching it around the world--not just ourselves, but in 
law enforcement and intelligence circles. It's one of the 
reasons why ISIL needs to be defeated.
    Senator Kaine. In terms of kind of kinetic activities by 
the military, though, am I right that currently, it's Iraq, 
Syria, Afghanistan, Yemen, Libya, and then the deployment of 
troops to Cameroon?
    Secretary Carter. It depends on what you mean by that.
    You want to go ahead, Joe?
    General Dunford. Senator, we don't currently have 
operations ongoing in Yemen--direct operations against ISIL. We 
don't have operations against--Libya against ISIL. And our 
support in Cameroon is Intelligence, Surveillance and 
Reconaissance (ISR) support in support of operations against 
Boko Haram.
    Senator Kaine. Okay. But, Secretary Carter----
    Secretary Carter. We can get you what we're doing----
    Senator Kaine. Yeah.
    Secretary Carter.--in each country. But, it's----
    [The information referred to follows:]

    The Department of Defense is currently engaged in activities 
against the Islamic State in Iraq and the Levant (ISIL) and other 
terrorist groups in several countries in the Middle East, West Africa, 
Libya, and Afghanistan.
    Middle East: In the Middle East, the Department's counter-ISIL 
efforts are focused in Syria and Iraq.
    Iraq: The military activities in Iraq seek to deny ISIL safe haven 
and build local partner capacity. The Department along with Coalition 
partners are conducting an ongoing air campaign to limit ISIL's freedom 
of movement, constrain its ability to reinforce its fighters, and 
degrade its command and control. To bolster partner capacity, the 
Department is advising and assisting Iraqi Security Forces, and is 
training and equipping Iraq's security forces. The United States 
military expects to deploy a specialized expeditionary targeting force 
to Iraq, with the Government of Iraq's permission, to further pressure 
ISIL.
    Syria: The military activities in Syria seek to dismantle ISIL's 
leadership, to work relentlessly with the help of Coalition partners to 
deny ISIL safe haven, and to enable capable, motivated local forces on 
the ground to fight ISIL and achieve a lasting defeat. Towards that 
end, the Department is providing ammunition and equipment packages on a 
case-by-case basis to appropriately vetted local counter-ISIL forces 
engaged in fighting ISIL, supporting these ground forces with increased 
Coalition airstrikes, and introducing a small number of advisors to 
cooperate with opposition forces.
    Yemen: Although the Department is watching with significant concern 
the actions of ISIL affiliates in Yemen, this has not yet required 
direct military action.
    Africa: The approach to counter the impact of ISIL-affiliated 
groups in Africa is generally to work by, with and through partners.
    Libya: The overall U. S. Government policy in Libya is to support 
the United Nations-led negotiations process to bring about a unified 
government; without a unified government, the United States will not 
have a reliable counter-terrorism partner to combat ISIL in Libya. The 
Department also works closely with governments and partners across the 
region to support a range of security missions, including border 
security and information sharing. In cooperation with these partners, 
the Department is working to assess the extent of ISIL's presence in 
Libya and how best to counter the threat. Further, the Department is 
going after ISIL leaders wherever they operate. In Libya, for example, 
the United States military conducted an airstrike against ISIL's Libya 
leader, Abu Nabil, in November.
    Lake Chad Basin: Similarly in the Lake Chad Basin region of West 
Africa, the Department is partnering with the nations in the region--
Benin, Cameroon, Chad, Niger and Nigeria--who are committed to working 
together to defeat Boko Haram. To that end, the Department is providing 
airborne Intelligence, Surveillance and Reconnaissance (ISR) support to 
contributing countries to improve the overall effectiveness of their 
counter-Boko Haram efforts. The U.S. forces in question are in the 
region to provide force protection for these ISR assets which will 
increase the Department's ability to assess the connections between 
Boko Haram and ISIL.
    Afghanistan: In Afghanistan, the Department is taking this emerging 
threat seriously. Through the train, advise, and assist mission to the 
Afghan National Defense and Security Forces, the Department is 
supporting Afghanistan's efforts to deter the expansion of ISIL's 
affiliate in Afghanistan, the Islamic State in the Khorasan Province 
(IS-KP). Additionally, the Department is closely monitoring IS-KP's 
development and associations to ISIL-core in Iraq and Syria to evaluate 
whether IS-KP's emergence will have a meaningful impact on the threat 
environment in the region. United States forces in Afghanistan have the 
authority and capability to defend against IS-KP threats.

    Chairman McCain. I don't want to get into asking about non-
DOD title activity, so I'll omit that, but just--I think the 
record, in the public record, about activities in those 
countries is fairly plain.
    Secretary Carter, you indicate we're watching ISIL in other 
countries. Is it fair to assume, based on your joint 
professional judgment, that ISIL continues to mutate and find 
adherents in other countries, and we may well have to 
contemplate DOD activity against ISIL in nations other than 
those that I've mentioned?
    Secretary Carter. It could come to that. And that's why I 
think we need to kill the source of it, which is in Syria and--
--
    Senator Kaine. Iraq.
    Secretary Carter.--Iraq.
    Senator Kaine. Is it fair to assume--you know, we pray that 
this is not the case, but that the death of Master Sergeant 
Wheeler may not be the last death of an American servicemember 
in this campaign to defeat ISIL?
    Secretary Carter. I think we need to be realistic. We are--
our people will be in positions--they are right now, every day; 
there are people flying right now, there are people training 
and advising forces there, and they are in harm's way. There's 
no doubt about it.
    Senator Kaine. And we've lost service personnel, before 
Master Sergeant Wheeler, not necessarily in direct combat or 
kinetic activities, but, as you say, they were in positions of 
danger because of their support for this mission against ISIL.
    Secretary Carter. Yes. Make no mistake, they are in harm's 
way in this fight against ISIL. No doubt about it.
    Senator Kaine. In your professional judgment, your notion 
that the primary objective is the defeat of ISIL, how long will 
that take?
    Secretary Carter. It needs to be--I can't tell you how long 
it will take, but I think that the--it needs to be soon, which 
is why we're so intent upon strengthening our effort, which is 
why we are working with the Iraqis and trying to get them to 
field more Sunni forces, strengthening our training and 
equipping of Sunni forces, why we're prepared to do more with 
those forces in Iraq. The President's indicated that, and 
indicated a willingness for the Chairman and me to make him 
recommendations in that regard. So, to enable those Sunni 
forces so that they can take back the Sunni territories of 
Iraq. And, over in Syria, it's Raqqa.
    Senator Kaine. If I can----
    Secretary Carter. And that's why the Syrian--the coalition 
forces that are intent--to get back to the question that 
Senator Graham was raising--they want to attack Raqqa and----
    Senator Kaine. If I can----
    Secretary Carter.--take back Raqqa, which is occupied by 
ISIL. And they, therefore, deserve our support, and are 
receiving our support.
    Senator Kaine. Mr. Secretary, when you say ``soon,'' let's 
just be realistic, sitting here today. Aren't we talking--I 
mean, with all the countries that we've mentioned, and your 
acknowledged possibility that there could be more, aren't we 
talking about an effort that is likely to be a multiyear 
effort, certainly well into the next administration?
    Secretary Carter. That's probably the case. And the reason 
is that the strategy is to--and this is an important part of 
the strategy, and we've said it right from the very beginning--
is to support capable and motivated forces that can retake and 
hold territory, not to try to substitute for them. That's the 
only way to have a lasting victory. And that--it takes some 
time to identify those forces, to motivate those forces, to 
train those forces. It depends upon the political circumstances 
in both Iraq and Syria. So, it does depend upon the political 
circumstances. That isn't something that is anything other than 
a very real factor there. But, that's necessary in order to 
have a lasting defeat, because we want ISIL not only to be 
defeated, but it has to stay defeated. That means the people 
who live there need to govern themselves and restore the peace 
and order. That's what takes the time, is to develop those 
forces. It is hard work, but that's what we're doing in Iraq, 
and that's what we're doing in the new train-and-equip program 
in Syria. It will take some time.
    Senator Kaine. Mr. Chair, I'll just conclude and say that I 
think that that answer, about the complexity and the fact that 
this, under any circumstances, is going to take significant 
time, is a very relevant one for us. The administration's 
position about the authority to wage this war is based upon an 
authorization that was passed on September 18, 2001, before 
many of us were here, that specifically says the President is 
authorized to use force against those who planned, authorized, 
committed, or aided the terrorist attacks that occurred on 
September 11, 2001. I would just renew my observation that I 
think it would have been far beyond the contemplation of the 
Members of Congress who voted on that at the time, and it's 
certainly beyond the contemplation of those of us who did not 
vote on that at the time, that those words would be applying, 
15 years later, to an effort in the countries I just mentioned 
that may mutate to other countries that is, by the admission of 
our witnesses today, likely to take a good deal more. I think 
it's very much time that Congress revisit the question of this 
authorization and try to provide some underlying legal 
justification for the ongoing military action.
    With that, Mr. Chair, I thank you.
    Chairman McCain. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Secretary Carter, would you assess ISIL and al-Nusra to be 
among the most capable rebelled groups that are on the Syrian 
battlefield?
    Secretary Carter. I would. They--they're ferocious, they 
are extremely cruel and brutal. Of course, some of these forces 
that are not trying to brutalize the population, but trying to 
fight Assad, are, as has been indicated, more moderate Syrian 
forces, and they don't behave that way, and that's why they 
deserve to be, and will be, part of the Syrian political future 
after Assad.
    Senator Fischer. Are you concerned that the Russian and 
Iranian attacks are going to further polarize the battlefield 
and we're going to see more moderate fighters cooperate with 
ISIL and al-Nusra because those groups are more capable?
    Secretary Carter. Well, that's precisely the point I've 
made to the Russians. The way I put it is, they--pouring 
gasoline on the civil war in Syria by supporting Iraq, and 
they're going to--they're going to enhance the very extremism 
that they say they fear, and they have every reason to fear, 
because now ISIL and other groups, including Syrian opposition 
groups of all stripes, are turned against Russia. Russia's had 
very bitter experience with extremism in their own country. 
This is why their actions are not consistent with their words 
and are--I keep using the phrase ``wrongheaded.''
    Senator Fischer. Have you----
    Secretary Carter. They say they're doing one thing, and 
they're actually doing another.
    Senator Fischer. Have you told Russia not to attack units 
that have been trained by the United States or to avoid certain 
areas where U.S.-affiliated groups may be operating? Or have 
you indicated to the Russians in any way that the United States 
will respond to such attacks?
    Secretary Carter. Well, we've certainly indicated that we 
intend to prosecute our counter-ISIL campaign unchanged, and we 
don't intend to make any changes, and that we're determined to 
do that. And we haven't.
    Senator Fischer. So, you have communicated to the Russians 
that, if there are attacks on United States-trained troops--or 
United States-trained units in any way, that we will respond.
    Secretary Carter. I've said earlier in this testimony, and 
I've said publicly, that we have an obligation to our--the 
forces that we've trained and equipped, to protect them. We 
intend to do that.
    Senator Fischer. But, that does not include the coalition-
trained troops--units. Is that correct?
    Secretary Carter. Well, we don't control all of the 
opposition forces to Assad. This gets back to the earlier 
question. Our train-and-equip program that the Department of 
Defense runs is oriented towards fighters whose principal 
preoccupation is fighting ISIL. There are others who are 
fighting Assad, and they do come under attack by the Russians. 
And that's why--and--because some of them----
    Senator Fischer. Would it----
    Secretary Carter.--deserve to be part of the Syrian 
political future, that's a serious mistake on Russia's part.
    Senator Fischer. Would it be a serious mistake on Russia's 
part to attack any units that have been trained by other 
agencies besides the Department of Defense? Would we have a 
response in that case?
    Secretary Carter. I--that's something we'd have to talk 
about separately, Senator.
    Senator Fischer. Under Secretary Christine Wormuth stated 
that Article 2 of the Constitution allows the President to use 
force against Assad if he attacks Syrian rebels trained by the 
United States. I would assume that a similar determination has 
been made with respect to using force against Russian planes if 
they attack United States-trained rebels. Is that true?
    Secretary Carter. Let me just repeat what I said about 
the--for the Department of Defense forces that we are training 
and equipping in Syria, we have an obligation to protect them. 
They're fighting ISIL. They're far from the territory that is 
contested or where the Russians are operating. But, we do have 
an obligation to defend them.
    With respect to other Syrian opposition forces and so 
forth, that's something we'd have to discuss in a closed----
    Senator Fischer. Would the United States take action 
against Russian planes if Russian planes were attacking United 
States-trained units?
    Secretary Carter. I--just to repeat, we have indicated that 
we have an obligation, we have options, to protect our people, 
whom we have trained, against attack.
    Senator Fischer. I would appreciate if you could provide us 
with some more information for the record. Specifically, if 
United States forces have the legal authority to intervene if 
Assad's forces attack United States-trained fighters, but not 
if Russia attacks such fighters, if you could provide some 
clarification there; specifically, legal authority.
    Secretary Carter. Will do. But, the short form is, as I 
say, we have an obligation, I believe we have the legal 
authority to do that. But, I'm happy to put that in more 
detail.
    [The information referred to follows:]

    Although the Department's lawyers would have to analyze the facts 
and circumstances present at the time, the Administration has concluded 
that, under appropriate circumstances, U.S. forces have sufficient 
legal authority to provide combat support to vetted Syrian counter-
Islamic State in Iraq and the Levant (ISIL) groups that the Department 
has trained or equipped who come under attack by Syrian government 
forces, consistent with the right of U.S. self-defense, if the action 
is necessary to address effectively the threat posed by ISIL to the 
United States and Iraq and meets the international law requirements of 
necessity and proportionality. A similar factual and legal analysis 
would need to be conducted in the event those groups are attacked by 
Russian forces.

    Secretary Carter. And then, there are other aspects that 
you're alluding to that we'd simply have to talk about in 
closed session.
    Senator Fischer. Okay.
    Thank you.
    Chairman McCain. Senator King.
    Senator King. Mr. Secretary, before Senator Graham began 
his important line of questioning, I wrote, in my notes, ``The 
opposition will never push Assad out as long as Russia and Iran 
are all-in.'' I think that's just the reality. And the question 
is, What do we do about that? There will be no--we can't say, 
``Well, there'll be a political solution, there'll be 
negotiations.'' The negotiations will flow out of the military 
situation. They've already shown they're not going to negotiate 
as long as they think they're solidly in power, which they 
clearly think they do. On the other hand, talking about a no-
fly zone, which would bring us in direct conflict with the 
Russian air force, raises very large geopolitical questions.
    But, give me some more thoughts on Senator Graham's line of 
questioning. Let's be realistic. You know, wishing is not going 
to make a policy. Assad is going to be there as long as Russia 
and Iran are willing to stay all-in. How do we change their 
calculus without a significant additional commitment of 
military power?
    Secretary Carter. Two things. The--first of all, the--
Russian support to Assad is having the effect of increasing and 
catalyzing and motivating the opposition to Assad. I believe 
that both the Russians and the Syrians will see the effects of 
that on the battlefield. You're right, there will be--
conditioned by the military situation on the ground there.
    With respect to the political transition and at what point 
Russia would recognize that its actions were fueling Syria's 
civil war and fueling the extremism it fears, I can't say--
speak to that.
    Senator King. That's what that----
    Secretary Carter. Now, that is----
    Senator King. They----
    Secretary Carter.--what Secretary----
    Senator King. The----
    Secretary Carter. Kerry is exploring with the Russians.
    Senator King. The Russians----
    Secretary Carter. But, I can't----
    Senator King.--have to decide----
    Secretary Carter.--say when and whether they will reach 
that conclusion.
    Senator King. They have to decide that ISIS is a bigger 
threat to them than the loss of Assad. And I don't know when 
that's going to occur; but I agree with you, that's the narrow 
diplomatic opening. But, right now, they seem to be trying to 
have it both ways. You--as you point out, they can't. As long 
as they prop up Assad, they're essentially propping up Islamic 
State in Iraq and Syria (ISIS).
    Secretary Carter. This is----
    Senator King. Because Assad is----
    Secretary Carter. This is the----
    Senator King.--the stimulus.
    Secretary Carter.--logical contradiction in their approach. 
There's no question about it. I've said that from the day that 
it started, and I said that to the Russian counterpart, why 
it's so wrongheaded, their approach. And at what stage they'll 
recognize that, I don't know. I do commend Secretary John Kerry 
for talking to them and trying to find a different way, but 
they'd have to reach that recognition, and a part of that will 
be learned on the battlefield, and part of it will be learned 
in terms of extremism and how it is turned on Russia.
    Senator King. But, I think the question that the 
administration has to address is, How do we ratchet up pressure 
on Assad to change the military calculus in such a way that 
it's going to move that calculation?
    Let me just change the subject for a minute. Both of you 
used the term, with regard to the Iraqi army, ``capable, 
motivated Iraqi forces.'' Isn't that an oxymoron? You, 
yourself, have pointed out that this--that's what's been 
missing in Iraq. Is there any likelihood that that's changing? 
Do we----
    Secretary Carter. There are some----
    Senator King.--have any intelligence on that?
    Secretary Carter. There are some, but not nearly enough. 
For example, the Counter-Terrorism Service, the Iraqi Counter-
Terrorism Service (CTS), which has been trained by the United 
States over time, is an effective, capable, motivated force. 
What we lack enough of in Iraq are capable and motivated Sunni 
forces. That is the type of force that is in short supply, and 
that is why it's so important that the Government of Iraq 
continue to recruit Sunnis, pay them. We will equip them and 
train them, and we'll support them in the battlefield. But, it 
will require Sunni forces to retake Sunni territory----
    Senator King. Does Abadi understand that in his gut, or is 
he just giving lipservice to this inclusion? Because if he 
doesn't, if this isn't real inclusion, we're sunk.
    Secretary Carter. He has been consistent in what he has 
told us, and----
    Senator King. But, is his actions----
    Secretary Carter.--including----
    Senator King.--are his actions bearing that out?
    Secretary Carter. I think you have to be--I'd have to be 
candid and say that Prime Minister Abadi does not have his--
complete sway over everything that happens in Iraq. We have 
insisted that anything we do to support Iraqi forces must be by 
and through the Government of Iraq. But, very clearly--and you 
see it--there are militias of various kinds, Shi'a militias, 
that are inadequately under the control of the government in 
Baghdad, and that's one of the challenges there. But, the 
forces----
    Senator King. Well----
    Secretary Carter.--we support are those that are under the 
control of Prime Minister Abadi. I have talked to him, and I 
believe he is sincere in wanting to do the right thing there. 
But, again, wanting to do the right thing and having a complete 
authority are two different things in Baghdad. I think his 
authority is growing in that regard, but we do not yet have all 
the Sunni forces recruited, paid, enrolled, trained, and so 
forth, that we need and want.
    Senator King. Well, I certainly hope we'll use our 
influence to the maximum, because if that doesn't--if that 
inclusion doesn't happen, then this whole enterprise is for 
naught.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen, thank you for being here today. Thank you very 
much for your service.
    It's a very difficult time, General Dunford. I was in 
theater with a handful of colleagues about the week before you 
were in theater. I was very disturbed at what I see going on on 
the ground. It's a very tumultuous time.
    Chairman Dunford, you did state that we need to take the 
fight to ISIL, and we need to continue the momentum. It's 
concerning, because to continue the momentum, we actually have 
to have momentum, going forward. And, right now, the only group 
that I see in Iraq that's fighting ISIL that has momentum is 
the Kurdish Peshmerga. Again, everybody knows how I feel about 
this. They've been great allies to us. In testimony before this 
committee over the past several months, we've had many, many 
prestigious military--former military commanders and 
governmental officials, such as General David Petraeus, General 
Mike Hayden, General Jack Keane, and, of course, former 
Secretary Bob Gates. And all of them agree that we really do 
need to enhance our support to the Iraqi Kurds as part of a 
more comprehensive strategy against ISIS.
    And I'm very concerned that right now our current strategy 
piecemeals the weapons, the equipment, and--my gosh, we have so 
many various types of calibers of weapons--that's going from 
our coalition partners and the United States to the Kurdish 
Peshmerga. As a logistician, as a transporter, you know, 
supported those forces, our forces in Iraq, I know how 
difficult this would be for any army, that we are piecemealing 
so much up to the Peshmerga.
    So, what is our strategy to develop a more capable 
Peshmerga force for the long-term fight for ISIS? Secretary 
Carter, if you could address that, please.
    Secretary Carter. Absolutely. You're absolutely right. The 
Kurdish Peshmerga are a excellent example of capable and 
motivated ground forces. And so, they have taken and held 
territory. We support the--and most recently, of course, in the 
operation conducted this past week.
    With respect to equipping them--and you know from your 
logistics background, as you indicated very well--that rapidity 
and certainty of supply are very important to them. And we have 
a policy of routing equipment to the Kurdish Peshmerga through 
the government of Baghdad and--I think that's where--the hinge 
on which your question turns--for the reason--to get back to 
what Senator King was asking earlier--that our approach to Iraq 
is to try to support a multisectarian government in Baghdad. 
So, we're trying to do both: supply the Peshmerga and support 
Prime Minister Abadi as the leader of the country overall.
    Now, in the early days, that led--that issue led to some 
delay in our supplies to the Kurdish Peshmerga. Those delays do 
not occur now. So, we--and, by the way, it's not just us; I 
think there are more than 14 other countries that are shipping 
tons and tons----
    Senator Ernst. Quite a few.
    Secretary Carter.--of question to the Kurdish----
    Senator Ernst. Quite a few.
    Secretary Carter.--Peshmerga. And so, I do not believe 
there now is a bottleneck in our supply to the Kurdish 
Peshmerga. We still do go through the routine of shipping 
through and with the permission of the government of Baghdad, 
for the very simple reason that we want to stick up for the 
principle of----
    Senator Ernst. I do believe that we need to do a better job 
at this.
    General Dunford, just very quick, if I could turn to you. 
How do the Iraqi Security Forces, or the Iraqi Army--how do 
their maneuver, fires, and effects units compare to the Kurdish 
Peshmerga's units?
    General Dunford. I think the best of the Iraqis, the CTS 
forces and some of the brigades we trained, compare favorably 
to the Peshmerga. The Peshmerga also have, you know, very 
competent forces. But, I think the best of the Iraqis are about 
comparable to the Peshmerga.
    Senator Ernst. Okay. And we're utilizing them to the best 
of our capability?
    General Dunford. We are. We--and, Senator, that's an 
important question, because the one thing that the commanders 
told me is, those brigades that we actually have put through 
training, there is a qualitative difference in their 
performance. There's two brigades, for example, surrounding 
Ramadi right now that have gone through our training program, 
and those two brigades have performed at a much higher level 
than the other units, as well as the CTS, the Counter-Terrorism 
Service, who's also performed very well.
    Senator Ernst. So, you believe that training and advising 
and assisting below the division level would be very important 
in any future operations.
    General Dunford. I do----
    Senator Ernst. For----
    General Dunford. From a training perspective, in 
particular, yes, Senator.
    Senator Ernst. I do believe that needs to be part of our 
decisionmaking process as we move forward.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    General Dunford, in your testimony, you went over a number 
of areas that we need to focus on in our fight to defeat ISIL. 
And you said that we need to do more to cut the flow of foreign 
fighters to ISIL. Can you briefly describe what we're doing now 
and what more we need to do in this area?
    General Dunford. I can, Senator. I had an--we have a team 
on the ground. They're part of a ten-nation coalition that's 
working on foreign fighters right now. But, it's mostly a 
military view of foreign fighters. And so, when I sat down and 
spoke to that team, you know, one of the challenges that became 
clear is that we really don't have, amongst all the coalition, 
kind of a common view of where the foreign fighters come from, 
how they move back and forth into the area, but, more 
importantly, not much of a track on where they go once they 
leave back to their home country. So, from my perspective--and 
this is an area that Secretary Carter and I have spoken to 
Secretary Kerry about last week--from my perspective, we need 
to do much more: one, to get a view of foreign fighters as a 
whole, and then make sure we maximize the legal, the military, 
and the political tools that are available to us to cut off the 
flow of foreign fighters.
    Senator Hirono. So, is this an area that we're going to see 
some kind of a measurable improvement?
    General Dunford. Senator, for me, when I came back from my 
visit, there are two areas that I think we need to focus on to 
move the campaign forward. Two of many. The two that I 
personally engage on is, one, foreign fighters, and the other 
is intelligence.
    Senator Hirono. So, you're--we're going to see some 
appreciable, measurable improvements. And I know you can't talk 
about the intelligence side of things in this setting.
    So, Secretary Carter, in response to a question, you said 
that the timeframe for defeating ISIL is--it better be soon. 
And, from everything that we understand, this is--this whole 
area of the world is a--very complicated. And so, it is, I 
realize, difficult to really hone in, I suppose, on what a 
reasonable timeframe may be. At the same time, with regard to 
Assad, there were indications that he was about to collapse, 
that his regime was about to collapse. But, now that Russia has 
come in to bolster the Assad regime, two questions: How long do 
you think that Assad can be propped up by Russia's actions? 
Two, do you think that Putin really is looking at a long-term 
scenario, where Assad stays in place, or is he much more 
interested, long term, in the stability of Syria for Russia's 
own interests?
    Secretary Carter. I can't say what Vladimir Putin is 
thinking about Assad's future, but I can tell what his behavior 
suggests. That is that he is--does want to support, at least 
for now, Assad, avoid the collapse of the Syrian state, which, 
as you indicated, I think he believed could occur, and that was 
one of the things that spurred his support--enhanced support 
for Assad. I've told you what I think of that approach. I think 
that it has the--it's going to backfire, and that is have the 
opposite of the effect that he is seeking. It enhances the 
opposition to Assad, and it also enhances the extremism he says 
he fears. So, it's not a very sensible strategy, but that 
appears to be what his behavior is----
    Senator Hirono. Well, that----
    Secretary Carter.--suggests.
    Senator Hirono. That appears to be his immediate goal, but 
I think that Putin is also smart enough to figure out that if 
he really wants stability in Syria, he may not be able to get 
it as long as Assad is in power.
    I wanted to get to the no-fly zone. What would we need to 
do--if a no-fly zone is declared in Syria, what would we need 
to do to make sure that that no-fly zone sticks?
    Either one of you.
    Secretary Carter. Yeah, I'll start, and then maybe the 
Chairman can say.
    So, we have now, for quite a while, and preceding my time 
as Secretary of Defense, analyzed the possibility of no-fly 
zones. I've tried to give you some of the--an indication of 
some of the considerations there. That would involve operating 
in the part of the country which is not generally where we're 
conducting air operations now and where there are Syrian air 
defenses.
    Senator Hirono. Yes.
    Secretary Carter. If we were going to put air crews in that 
environment, we would have to take care of those air defenses, 
which is a substantial military undertaking in its own----
    Senator Hirono. So, one scenario could----
    Secretary Carter.--right.
    Senator Hirono.--be that Assad would be--would not abide by 
a no-fly zone, and we would need to protect----
    Secretary Carter. No. I think you have to----
    Senator Hirono.--it. Therefore, we would be in----
    Secretary Carter.--assume it would be contested.
    Senator Hirono.--direct conflict----
    Secretary Carter. Yeah, I think you have to assume----
    Senator Hirono.--with Assad.
    Secretary Carter.--that these--an air--no-fly zone would be 
contested by Assad, because----
    Senator Hirono. Yes.
    Secretary Carter.--its very intent was to engage his air 
force. Just, again, to get back to Senator Graham's point, we 
have not undertaken to have United States forces engage Assad's 
forces in a war for control----
    Senator Hirono. That's probably one of the reasons----
    Secretary Carter.--of Syria.
    Senator Hirono.--with that kind of----
    Secretary Carter. We haven't taken that step.
    Senator Hirono.--excuse me--with that kind of likely 
scenario, it's probably one of the reasons that we hesitate 
in----
    Secretary Carter. That's a----
    Senator Hirono.--creating a no-fly zone.
    Senator Hirono.--substantial and new military undertaking. 
Likewise----
    Senator Hirono. Thank you.
    Secretary Carter.--zones on the ground would be have to be 
defended, as well, so there are military implications to the 
declaration of such zones. We have thought them through, but we 
have not made recommendations to----
    Senator Hirono. Thank you very much, Chairman.
    Chairman McCain. What you're saying is the strongest nation 
in the world with the most capable military can't even 
establish a no-fly zone to protect people from being barrel-
bombed by Bashar Assad. That's--it's an embarrassing moment.
    Secretary Carter. Just to be----
    Chairman McCain. Senator Tillis.
    Secretary Carter.--clear, Chairman, we could do it. I--but 
I----
    Chairman McCain. Of course we could do it. People like 
General Petraeus and General Keane and every other military 
leader that I have know of--and we're talking about having to 
shoot down all the--all we have to do is protect it and tell 
them not to fly into it, show--history shows that they won't, 
if they're going to get shot down.
    Senator Tillis.
    Senator Tillis. General Dunford, Secretary Carter said that 
the Russian presence in Syria has not affected the pace or the 
scope of United States operations there. Is that because the 
pace is slow and the scope is narrow? How does that--I mean, 
how does that happen, when we have the administration saying 
that we're not going to have any sort of conflicts with Russian 
air presences in Syria? It would seem like it is affecting the 
pace and scope. Do you agree with Secretary Carter?
    General Dunford. Senator, I do. We are--because we're 
focused on ISIL, and the Russians are largely conducting 
operations to the west, we are not operating in the same area 
as the Russians right now. We've had two or three incidents 
where we've had contact with Russian aircraft, and those 
preceded the Memorandum of Understanding that was signed on the 
20th of the month.
    Senator Tillis. So, that--I guess that goes back to what 
Chairman McCain said. A part of that is because we're not 
necessarily providing support to those who are not trained, who 
are trying to take the fight to Assad but were not specifically 
trained by us. Is that--I mean, is that----
    General Dunford. That's correct, Senator. We're operating 
in two different areas.
    Senator Tillis. I want to get to Iraq, and specifically in 
your meetings in Iraq. First, I'd like an update on Iranian 
presence there; and then, secondly--I've only been here for ten 
months, and the discussion about having the Iraqi government 
reengage the Sunnis is already a broken record. Over the last 
year, is there any tangible evidence that they've actually 
acted on the words----
    General Dunford. Senator----
    Senator Tillis.--of reengaging?
    General Dunford. Yeah. Senator, with the caveat that we're 
not satisfied with the outreach to the Sunni, and very aware 
that that's a necessary condition for us to be successful, is 
that we actually do have an inclusive government, inclusive of 
the Sunni, there has been some progress. For example, in the 
Anbar Province, there was an agreement to train and equip 8,000 
Sunni. We've had about 5,000 that have been identified, have 
been recruited, and have been trained, of that 8,000 number. 
So--and that's slow progress----
    Senator Tillis. Is that more----
    General Dunford.--for some----
    Senator Tillis. Is that more transactional--sorry, General 
Dunford, I want to be sensitive to time--is that more of a 
transactional win, or do you--are you seeing any sort of 
systemic changes that are going to make sure that that remains 
sustained and that we build on it?
    General Dunford. I can't tell you that I've seen systemic 
changes, Senator.
    Senator Tillis. I don't think there is any.
    What about the Iranian presence in Iraq right now? Where 
are they? What are they doing? What should we be concerned 
with?
    General Dunford. Well, they still have the provisional 
forces that are there.
    Senator Tillis. So, that's----
    General Dunford. Soleimani's----
    Senator Tillis.--still around 1,000?
    General Dunford. You know, Senator, the numbers have been 
bounced around. I think it's been more--you say 1,000?
    Senator Tillis. Uh-huh.
    General Dunford. Yeah, I think there's more than 1,000 
Iranians that are on the ground in Iraq.
    Senator Tillis. In Syria?
    General Dunford. In Syria, we think the numbers are 
probably something less than 2,000, is our assessment.
    Senator Tillis. Secretary Carter, I appreciate you 
mentioning Sergeant Wheeler. I know that he was from Oklahoma, 
but he and his wife and four sons, including a 3-month-old, 
live down in North Carolina. I think that, in that particular 
operation, you made a comment that those are the--those are 
operations that are probably occurring frequently, if--not a 
daily basis, but frequently, and American soldiers are at risk. 
In my opinion, I think the Peshmerga would consider that a 
combat operation. Do you consider what Sergeant Wheeler was 
doing a combat operation?
    Secretary Carter. Sure. He was killed in combat. It--that 
wasn't the intent, obviously. He was accompanying those forces. 
But, when he saw that they were running into trouble, he very 
heroically acted in a way that all the reports suggest spelled 
the difference between the success and failure of that 
important mission.
    Senator Tillis. Thank you.
    Secretary Carter. So, it clearly was a----
    Senator Tillis. My final----
    Secretary Carter.--heroic.
    Senator Tillis.--question. I want to start with General 
Dunford.
    General Dunford, were you consulted by the President before 
he vetoed the NDA?
    General Dunford. I was not, Senator.
    Senator Tillis. Do you consider the National Defense 
Authorization Act (NDAA) being--having been passed either 
positive or negative to the men and women in uniform in your 
efforts?
    General Dunford. Senator, I think my job is to identify the 
requirements that we need to support the force----
    Senator Tillis. Do you think some of those requirements 
were fulfilled by our passage of the NDAA?
    General Dunford. There were--absolutely, sir.
    Senator Tillis. Okay. And----
    General Dunford. Inside the ND---
    Senator Tillis.--as a result of the veto, those 
requirements are not going to be fulfilled unless we can come 
up with a solution?
    General Dunford. Unless there's a solution, Senator.
    Senator Tillis. Thank you.
    Senator--or, Secretary Carter, were you consulted by the 
President before he vetoed the NDAA?
    Secretary Carter. I was, yes.
    Senator Tillis. What was your recommendation to him?
    Secretary Carter. My recommendation was to support his 
veto.
    Senator Tillis. Was to support his veto?
    Secretary Carter. I did--I supported it. I'll tell you why. 
Two----
    Senator Tillis. That was going to be my next question.
    Secretary Carter. Sure. Two principal reasons. The first is 
that I--and I started saying this in March, and I--it--I 
believe it----
    Senator Tillis. Mr. Carter, I'm going to be out of time. 
There may be other people----
    Secretary Carter. Well, let me just----
    Senator Tillis.--following up with it, but I----
    Secretary Carter.--tell you what those two----
    Senator Tillis. Let me--let me finish.
    Secretary Carter. It's an important subject.
    Senator Tillis. Then, to the extent the Chair will let you 
continue, I will defer to him.
    But, are you telling me, then, that you think that the 
President's veto leaves our military--of the NDAA--better than 
with it?
    Secretary Carter. I--the President's veto of the NDAA is 
something that reflected two facts, just to get back to what I 
was going to say. One is that we need--and I believe the 
Department of Defense needs--budget stability greater than a 1-
year horizon----
    Senator Tillis. Taking a step back----
    Secretary Carter.--and a foundation of base funding that is 
adequate----
    Senator Tillis. Mr. Secretary, nobody on this----
    Secretary Carter.--to our needs----
    Senator Tillis.--committee disagrees with you. That's a 
well-worn path in discussions that goes all the way back to 
sequestration. But, I find it remarkable, given the 
circumstances we're in now and the testimony today, that we 
would take a step back with this NDAA while we continue to 
fight that fight, because that's going to require a willing 
administration. One thing's clear to me, this administration is 
not willing to confront the challenges that these men and women 
have in uniform today. Taking a step back in these dangerous 
times, I don't think makes sense. I respectfully disagree with 
your recommendation to support the veto.
    Thank you, Mr. Chair.
    Secretary Carter. Well, if I can just say, I think that I--
just to say what I think we need. What we need is what I hope 
is going on now, which is a true budget agreement, where 
Washington comes together behind a honest, straightforward 
budget with some multiyear horizon. That's what the Department 
deserves, and that's what I've been saying for months. Perhaps 
that is occurring as we speak.
    But, I can only be honest and say what I think is best for 
the Department. That's, honestly, what we need. I realize that 
no individual member or individual committee can deliver that. 
It requires a coming together of gridlocked Washington behind 
an overall budget deal. I fervently hope that that occurs. I 
know there's some indication--I'm not involved in it--over the 
last couple of days that that might occur, and that is what I 
have been urging ever since March. I fervently hope that can 
occur. That's what the troops deserve. That's what the world 
needs to see.
    Chairman McCain. I would point out that Overseas 
Contingency Operations (OCO) will be part of this agreement, as 
well.
    Mr. Secretary, if you want to complete your answer, please 
continue. Or have you completed it?
    Secretary Carter. There's just one other aspect that I'd 
ask the committee, also apropos of the NDAA. There are a number 
of reforms that we have requested now for several years 
consecutively that have been denied in the authorization bill. 
I'd ask for----
    Chairman McCain. For example?
    Secretary Carter.--that they be--some having to do with 
healthcare, some having to do with readjustments in force 
structure. These are things that the relevant armed services 
have determined are the optimal use of their resources. And the 
authority to carry out those reforms has been denied. And I'd 
just appeal to you not to--to allow those reforms, because it 
is the professional judgment of the Department of Defense that 
better use for those funds can be had. In years when it's 
difficult to find funding for the Federal Government--and I 
understand all the reasons for that--we have to use every 
dollar we do get to the--for the--to best use. And we're not 
able to do that with some of the restrictions that are in the 
NDAA. That's another reason why I'd ask you to reconsider some 
of its provisions.
    Thank you for the time to elaborate on that, Senator.
    Chairman McCain. Well, I'd also point out that there's 
about $11 billion in savings, including in a mandatory 7-and-a-
half-percent-per-year reduction in headquarters staff, which 
we'll be glad to show you the dramatic growth in those, tooth-
to-tail, and many other reforms that have been made. I look 
forward to looking at further reforms with you as we begin new 
hearings when we resolve this issue and further very necessary 
reforms that we feel are called for.
    I'm proud of the reforms, frankly, that, in a bipartisan 
basis, this committee enacted. I am proud of the fact that we 
have dramatically revised the retirement system. I am proud of 
the fact that we are finally trying to get a handle on the cost 
overruns that has characterized acquisition practices.
    So, you may have some concerns. I can't tell you, after 
being on this committee for nearly 30 years, how proud I am of 
the bipartisan product that we've produced. I hope that maybe 
sometime you might recognize that.
    Senator Blumenthal.
    Secretary Carter. May I just second that?
    Chairman McCain. Yes, go ahead.
    Secretary Carter. We're proud, too. I--and I thank you. I 
thank you, personally. I don't mean to say there----
    Chairman McCain. No problem.
    Secretary Carter.--that reforms haven't been enacted. There 
are some additional ones that we would like to have. But, I 
salute the committee. The only way we can ask the taxpayer to 
give us more money for defense, which we need, is if we can 
also show that we use every dollar well. So, I appreciate your 
leadership in that regard.
    Chairman McCain. Well, I thank you, Mr. Secretary. We do 
look forward to it. We'll have hearings, beginning this week, 
on restructures that I--restructuring that I think are 
necessary. We want to work very closely with you. I'm very 
proud to work very closely with a graduate of West Point.
    Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    I thank both of you for your service to our Nation, and for 
your candid and forthright answers today in an area that is 
exceedingly difficult.
    As you may know, I'm working with a number of colleagues 
who both supported and opposed the Joint Comprehensive Plan of 
Action (JCPOA) to strengthen United States policy toward Iran; 
in other words, to improve and strengthen that agreement--among 
other ways, by providing more military assistance to our allies 
in the area, and anticipating that some of the financial 
windfall will go toward increased extremism and even terrorist 
violence in that area. So, to bolster the defenses and military 
capacity of our allies in that region, this legislation will 
reassert the United States policy that a nuclear-armed Iran 
will never be permitted. It will reaffirm our dedication to 
imposing sanctions related to terror financing and human rights 
abuses. It will ensure that our allies, most especially Israel, 
will be provided with the assets that they need so that their 
defense will be bolstered and they will be able to deter Iran.
    General Dunford, you've just visited the area. Can you tell 
us what additional assets we can provide? Can you commit--and, 
Secretary Carter, I ask you to join in this question--that the 
United States will, in fact, bolster assets going to Israel and 
our other allies in the Middle East, and comment on this 
legislation?
    Thank you.
    General Dunford. Senator, I can't talk to the details now. 
I can tell you that the Minister of Defense from Israel is here 
today for meetings with Secretary Carter. We'll have dinner 
with him this evening. As you probably know, they're developing 
their perspective on what cooperation further we might have 
with them, to include the details of capability development 
that I had some initial discussions with their Chief of 
Defense--Minister of Defense and Prime Minister last week 
during my visit.
    Senator Blumenthal. In the conversations that preceded our 
votes on the agreement, I was assured--and I think other 
colleagues were assured--that, in effect, Israel will receive 
all the necessary assistance to make sure that its qualitative 
edge is not only maintained, but enhanced. Is that the policy 
of the administration?
    Secretary Carter. Yeah, qualitative military edge of Israel 
is an important part of our overall policy toward the Middle 
East, and that's exactly what I'll be talking to--along with 
the Chairman--the Defense Minister of Israel about today. Of 
course, that's one ingredient of our overall support for Israel 
and also, I should add, other Gulf partners and allies.
    I also need to add, since you're asking about the Iran 
nuclear agreement, the maintenance of the military option, 
which we are charged with continuing to do. I continue to pay 
personal attention to that. I believe the Chairman does, as 
well. Our efforts to counter Iranian malign influence around 
the region and protect our friends and allies. So, there are a 
lot of dimensions to what we do there.
    All of that, which is our activity, remains unchanged with 
this Iran agreement. All of those things--the military option, 
support to Israel, support to other Gulf countries--that is 
longstanding pursuit of American interests in the Gulf, and 
we're going to keep doing that.
    Senator Blumenthal. I recognize that the policy remains 
unchanged, but the military assets will have to be increased, 
won't they?
    Secretary Carter. We will be doing more with Israel. That's 
one of the reasons--that's one of the subjects of my 
discussions with Defense Minister Moshe Ya'alon, as it was when 
I visited there a couple of months ago and he hosted me the way 
I'll be hosting him over the next couple of days.
    Senator Blumenthal. Can you tell us whether you're 
satisfied with the progress that's been made in those 
discussions?
    Secretary Carter. He and I have a very good relationship, a 
very easy relationship, so these--we--these discussions are 
discussions among friends. We do things with Israel and have a 
closeness there that we have with very few other countries 
around the world. I can't go into all the details here, but we 
can share them separately. But, it's a very close defense--and 
a trusted defense relationship.
    Senator Blumenthal. I would appreciate your sharing those 
details in a different forum. I am very interested in the 
details of the discussions that are underway now, and I want to 
be satisfied that we are fulfilling the commitments that were 
made to myself and my colleagues in the course of our 
discussions before the Iran agreement vote.
    Thank you very much, to you both.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    You know, like Chairman McCain's statement today, General 
Petraeus was here recently, and in his testimony, he also 
emphasized that, in the Middle East, there's no easy answers, 
but that inaction has costs, whether it's others filling the 
vacuum, like we're seeing with Russia in the Middle East and in 
Syria, or whether United States credibility is undermined, 
especially when inaction contradicts policy statements. I think 
this is a--I think most of the members of the committee see 
this as a significant problem, not only in the Middle East, but 
beyond.
    General Dunford, do you believe that inaction has its own 
costs? How does the U.S. military weigh the costs of inaction, 
of doing nothing, when you're presenting options to the 
President for--options on what we should be doing in the 
military--in the Middle East?
    General Dunford. First of all, Senator, you know, I 
absolutely agree that inaction is unacceptable when we talk 
about protecting our national interests. So, there's no 
question about that.
    And with regard to when we provide military options to a 
particular challenge, absolutely I think it's my responsibility 
to clearly articulate both the opportunity costs and the risk 
associated with not taking action against a particular issue.
    Senator Sullivan. Thank you.
    Secretary Carter, you know, many members of the committee 
have been concerned about United States inaction in another 
part of the world, in the South China Sea. A lot of us on this 
committee saw that inaction was raising costs and undermining 
U.S. credibility. There was a number of us who were 
complimentary of your speech at the Shangri-la Dialogue. I was 
going to express concern about that, but just read in the paper 
about the freedom of navigation operation that we evidently 
conducted inside a 12-mile zone of a built-up Chinese island, 
just yesterday. Is that true? Did we do that?
    Secretary Carter. We have made a commitment--and I 
appreciate your support--as part of our rebalance to the Asia-
Pacific, which is so important to America's future. We're doing 
more at sea, we're doing more in the way of presence. Just to 
give a general answer to what you said, we have said, and we 
are acting on the basis of saying, that we will fly, sail, and 
operate wherever international law permits----
    Senator Sullivan. Did we send a destroyer yesterday inside 
the 12-mile zone of one of the----
    Secretary Carter.--to do that. There have been naval 
operations in that region in recent days, and there will be in 
the weeks and months----
    Senator Sullivan. Inside the 12-mile zone of a China----
    Secretary Carter. I don't want to comment----
    Senator Sullivan.--built-up----
    Secretary Carter.--on a particular operation, but----
    Senator Sullivan. You don't want to comment? It's all over 
the press right now.
    Secretary Carter. I'm sure it is, but I--we reserve the 
right to conduct----
    Senator Sullivan. If we do that within a built-up island 
that was undersea submerged rock, is that within--is that 
consistent with international law?
    Secretary Carter. Yes, it is.
    Senator Sullivan. So, should we be doing that on a regular 
basis, in terms of freedom of navigation exercises?
    Secretary Carter. We will fly, sail, and operate wherever 
international law permits and whatever--whenever our 
operational needs require----
    Senator Sullivan. It would be good to know, just for the 
committee's----
    Secretary Carter.--that we will----
    Senator Sullivan.--perspective, whether or not the press 
reports are accurate on what we did.
    Let me ask another question about another area in the world 
where it seems like United States inaction clearly seems to be 
inviting more Russian aggression, where Russian actions are 
changing facts on the ground. Mr. Secretary, in your 
confirmation hearing, you talked about the Arctic is going to 
be a major area of importance to the United States, but--
strategically and economically in the future--but you said it's 
fair to say that we're late to the recognition of that. I think 
it's also fair to say that the Russians are not late to the 
recognition of that. Since your confirmation, the Russians have 
done the following in the Arctic: a new Arctic military 
command, four new Arctic brigade combat teams, 14 new 
operational airfields in the Russian Arctic, announcements of 
up to 50 new airfields in--by 2020, a 30-percent increase of 
Russian special forces in the Arctic, 40 icebreakers--we have 
two, one is broken--huge new land claims in the Arctic, 
increased long-range air patrols with their Bear bombers, the 
most since the Cold War, a major military exercise in March 
that caught the U.S. military completely off guard--45,000 
troops, over 3,000 military vehicles, 41 naval ships, 15 
submarines, 110 military aircraft, numerous elements of 
Russia's western military district and elite airborne troops in 
that exercise. A lot of this concerns the committee. In the 
NDAA, which the President vetoed, we had a unanimous agreement 
here to have--to create an operations plan for the Arctic. 
That's an important step to ensuring we have continued good 
options in the Arctic.
    Can I get your commitment, both of you, to work with this 
committee on a robust--a robust--military Operation-Plan that 
will enable us to check Russia's aggressions in the Arctic, 
keep our options open, and maintain our credibility in that 
important area of the world, given that that's in the NDAA 
right now?
    Secretary Carter. Yeah, you have mine. I appreciate your 
leadership in this regard. The Arctic is an important region 
for the United States, and actually for the entire world. So, 
we need to do more there. I appreciate the fact that you are a 
champion of that and can consider me a supporter. I 
appreciate--and we'll have a chance, actually, to discuss that 
in Alaska later this week----
    Senator Sullivan. Yes, sir. Thank you.
    General Dunford?
    General Dunford. Yes, Senator.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chair.
    Chairman McCain. Mr. Secretary, sometimes here in this 
committee we have a sense of frustration. The news reports, all 
day, are about a U.S. destroyer, naming the destroyer, going 
inside the 12-mile zone around these islands. Why would you not 
confirm or deny that that happened, since all the details and 
the action happened? This is what frustrates members of this 
committee, when it's out there in the media, throughout, 
saturating the media, and you won't even tell us. Is it--what--
maybe you understand our frustration, here, Mr. Secretary. 
That's----
    Secretary Carter. I do understand your frustration, and I'd 
just match it with my own frustration, which is that--these are 
operations that we should be conducting normally, and----
    Chairman McCain. But, the American people should know about 
it. We're their representatives. You refuse to even confirm or 
deny something that is all over the media and confirmed by 
everyone? You come before this committee and say you won't 
comment on it? Why?
    Secretary Carter. Well, I don't--I'm going to not be coy 
with you. I don't like, in general, the idea of talking about 
our military operations. But, what you read in the newspaper is 
accurate. I don't want to say more than that. I don't want to 
say when, whether----
    Chairman McCain. Well, at least----
    Secretary Carter.--and how we operate anywhere in the 
world. One of the things----
    Chairman McCain. I don't that----
    Secretary Carter.--about freedom of navigation----
    Chairman McCain.--that the Senator asked you to tell why, 
when, and how. He just asked you to--whether you could confirm 
it, or not.
    Secretary Carter. I can.
    Chairman McCain. Thank you.
    Mr. Donnelly--Secretary--Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    I just want to get back to Syria and to some of the 
questions the Chairman was asking about safe zones. We seem 
lost. We seem lost and at--confusion about what to do next, 
unable to put any real marker down or have any plan for 
success. The people are voting, and they're voting with their 
feet. They're leaving. There's refugees all over the world now. 
We have the opportunity to set up safe zones. What I hear is, 
we're worried about the Russians, we're worried about the 
Syrians, we're worried about all of these things. I mean, at 
what point do we put a plan together, execute the plan, tell 
them what we're going to do, and say, ``Stay out of the way''?
    Secretary Carter. With respect to a safe--I'd distinguished 
a safe zone from a no-fly zone. A safe zone is a zone on the 
ground. We have analyzed them and discussed them with partners 
in the region. They are principally not in regions where we 
would expect them to be contested so much by Assad as by ISIL 
and al-Nusra. Therefore, they have to be defended against that 
threat, and that's a military undertaking----
    Senator Donnelly. Are we unwilling to----
    Secretary Carter.--people in the region who--we have not 
made that recommendation. The reason----
    Senator Donnelly. At what point--how many people have to 
leave before we make that decision?
    Secretary Carter. Senator, let me go back to--if you create 
a zone like that, then you do have to ask who is going to come 
into the zone. Are there people who have left Syria who are 
going to return to Syria from Turkey or Europe to occupy a zone 
from which they didn't come? Are there people elsewhere in 
Syria who are going to come to that zone? So, you do have to 
ask yourself: For whom would it be attractive to be in such a 
zone? Then, secondly, who is going to defend----
    Senator Donnelly. Probably some of the folks in Germany and 
in other countries who would rather have stayed in their own 
country.
    Secretary Carter. If they wished to return to the part of 
the country for which the zone--in which the zone is created. 
But, again, it would depend on where it was, and it would be 
contested----
    Senator Donnelly. Well, let me ask you----
    Secretary Carter. So, this----
    Senator Donnelly.--in barrel bombs--we've talked this time 
and after time here--why are we unwilling to send a message to 
Assad that if he continues with barrel-bombing, we will stop 
him and crater his runways?
    Secretary Carter. We have not undertaken to engage, as the 
United States military, the Syrian military. We have not taken 
that step----
    Senator Donnelly. So, how do you ever stop the barrel-
bombing?
    Secretary Carter. The way that the civil war in Syria will 
end, just to get back to what we've been saying repeatedly, is 
for Assad to depart and for there to be a political----
    Senator Donnelly. Why would he depart, at this point?
    Secretary Carter. Because the opposition to him is intense, 
and strengthening.
    Senator Donnelly. Well, as far as I can see, he's had three 
or four additional allies come onboard. If anything, the 
calculation for him is, his cards are getting better.
    Secretary Carter. Yeah. Again, our priority has been to 
combat ISIL. We are not, as the United States military, 
undertaking to combat Syrian----
    Senator Donnelly. Well, let me just ask you----
    Secretary Carter. That's not a decision----
    Senator Donnelly.--this. In the process of----
    Secretary Carter.--not a decision----
    Senator Donnelly.--combating ISIL, does the United States 
stand by as another nation barrel-bombs the people we're trying 
to protect?
    Secretary Carter. We have sought now, for some time, and 
continue to do, a political transition in Syria that would end 
the Syrian civil war. We have not pursued a military solution--
--
    Senator Donnelly. Well----
    Secretary Carter.--to that.
    Senator Donnelly.--I would just say, from my perspective--
and I am not an expert like both of you--we seem lost. I have 
extraordinary confidence in the leadership at this table, but 
we seem lost. I would love to see alternate plans that may be 
out there.
    General Dunford, I was in Iraq a few months ago, was with 
the Sunni tribal leaders, and I just want to ask your best 
military judgment. In spending time with them, they said, 
``Look, if you showed an interest in us, if you showed--you 
know, had a helicopter come by every now and then, showed you 
really wanted to provide us with guidance, with logistics, with 
advice, et cetera, that partnership, that friendship we've 
always felt, we'll be there. We'll get the job done.'' Do you 
think they have that capability?
    General Dunford. Senator, I do. There are Sunnis that 
absolutely can take the fight to the enemy, and we've seen that 
in the past.
    Senator Donnelly. So, while we try to continue to hope and 
pray that the Iraqi Security Force gets better, are we sitting 
here with Sunni tribal leaders who have the individuals who can 
actually start to move ISIS out of Ramadi?
    General Dunford. I think if the central government would do 
better at outreach to the Sunni, we absolutely could recruit 
more, train more, equip more, and support more Sunni in the 
fight.
    Senator Donnelly. So, I think it's almost fair to say the 
team is ready to go; they just need to get the signal to go.
    General Dunford. It would take some work, Senator, but 
there are people out there that we could put together to fight 
ISIL.
    Senator Donnelly. That's how we start to move ISIL out, I 
think.
    Thank you, Mr. Chairman.
    Senator Reed [presiding]. Thank you.
    On behalf of Chairman McCain, let me recognize Senator Lee.
    Senator Lee. Thank you.
    Thank you, Secretary Carter and General Dunford, for 
appearing in front of our committee today, and for your service 
to our country.
    The White House has been sending mixed and, at times, 
contradictory messages about what our interests are and what 
threats to our security exist in the Middle East. Many 
Americans are understandably coming to find our current 
strategy somewhat reminiscent of the old Warren Zevon song, 
since the President's reaction to--it seems to be to send in 
lawyers, guns, and money whenever and wherever a crisis breaks 
out.
    The situation in the Middle East is a very complicated 
problem for our current posture, but it's certainly not 
historically aberrational. For more than 100 years, this region 
has been dominated by either external powers or internal 
authoritarians who have destroyed cultural institutions and 
disrupted the natural development of societies. The 
decentralization of power in these states, compounded by 
radical Islamism and ancient sectarian grievances, amounts to a 
time-tested recipe for the kind of conflict and instability 
that we're seeing today and that tends to threaten our 
security.
    We continue to receive mixed contradictory reports about 
the effectiveness of ongoing efforts to retain, train, and 
equip the Iraqi Security Forces. When I ask why we believe it 
will work this time around, I'm usually told by Defense 
officials something like the following, something like, ``Well, 
we have a better political partner in Baghdad now than we did 
before, and we have a partner who will not repeat the mistakes 
of his predecessor.'' Now, this is not encouraging, as we know 
how quickly political institutions--political situations and 
calculations can change in the Middle East, particularly right 
now.
    So, General Dunford, I'm more concerned by what your 
predecessor, General Dempsey, described as the ``will to 
fight'' factor among the ISF. I believe that extends beyond 
simply having a better leader in Baghdad. Do you believe the 
kind of united Iraq that we have seen for the past century--
that is with borders drawn by the British and French, and held 
together either by a Western-backed monarchy or a Ba'athist 
dictator--is something for which the people of Iraq have the 
genuine will to fight, especially when they don't have 
emergency assistance from a coalition like they have right now?
    General Dunford. Senator, I think, for most people in Iraq, 
it's a lot more local than it is national. I do think that if a 
central government, for example, would outreach to the Sunni in 
the Anbar Province and provide basic services, that we would 
get Sunni fighters that would fight on behalf of the 
government. We've seen that in the past.
    Senator Lee. So, I'd like to expand the question a little 
bit more broadly, to places like Syria or Yemen. Do people of 
those countries have the will to fight for united governments 
in places where current territorial lines may have been imposed 
by a foreign force?
    General Dunford. There's no evidence that I would know of 
that would indicate that they would.
    Senator Lee. Unfortunately, I think that we're looking too 
hard for an easy answer--or a simple answer to some of these 
complicated questions. I encourage my colleagues and the 
American people to thoughtfully consider options in the Middle 
East before continuing down paths that I believe may lead to 
mission creep and to an indefinite United States military 
presence to prop up weak and sort of artificially created 
states designated around unsustainable boundaries.
    Now, the Department of Defense's Syria train-and-equip 
program failed. It failed by a longshot. Define and train the 
level of fighters desired under the vetting requirements 
established by Congress and the White House. Congress put these 
requirements in place because we were very concerned about who 
would be using U.S. assistance, and for what purposes they 
would be using it.
    Secretary Carter, does the failure of this program indicate 
to you that the viable ground force we desire for Syria simply 
does not exist within the parameters that the American taxpayer 
may be willing to support?
    Secretary Carter. Well, I was disappointed in it, as well, 
but I don't draw that conclusion. There are forces in Syria 
willing to fight ISIL and capable of fighting ISIL. The--we 
talked about the Kurd--Syrian Kurds as an example of that, the 
so-called Syrian Arab Coalition. In the new train-and-equip 
effort that we described today, we will look to identify and 
then support capable and motivated forces in--on Syrian 
territory that are willing to take on ISIL. We have identified 
some of them already. The new approach is to enable them, train 
them and equip them, rather than trying to create such forces 
anew, which was the previous approach.
    And I do understand why that approach was taken, and, 
you're right, it was authorized by this committee last 
December. And I understand the considerations that went into 
that. I have concluded, and the President concluded, that that 
approach wasn't working the way that it was conceived of a year 
ago, and that's precisely why we've changed the approach.
    So, we have a different approach that we think will allow 
us to gain more momentum and, in particular, to allow us to put 
pressure on the city of Raqqa, which is the self-declared 
capital of the caliphate. So, on the Syrian side of the 
counter-ISIL fight, that is our intent, and we're trying to 
gather momentum in that and several other ways that we 
detailed.
    Senator Lee. Okay. Thank you.
    I see my time's expired, Mr. Chairman.
    Senator Reed. On behalf of Chairman McCain, let me 
recognize Senator McCaskill.
    Senator McCaskill. Yes. Senator Reed--
    Thank you all for being here.
    By the way, let me, just at the beginning of my questions, 
give a mention to Master Sergeant Joshua Wheeler. He is--there 
probably is no better example of someone who has run to danger 
for this country over and over and over again. I believe this 
was his 14th deployment. So, I wanted to mention his name in 
the hearing today. We all mourn his loss and the loss of his 
family, and we support them as they move through this trying 
time.
    Senator Reed asked you about the new Syrian forces in 
northern Syria. Have we provided resupply to those forces?
    General Dunford. We have, Senator.
    Senator McCaskill. Okay. Have they successfully called in 
airstrikes?
    General Dunford. They have, Senator.
    Senator McCaskill. Okay. Can you tell us, for the record, 
how many?
    General Dunford. I cannot, Senator. I can get that 
information for you. I don't know the number.
    [The information referred to follows:]

    Since the NSF were reinserted into Syria, they have facilitated 91 
air strikes against ISIL as of 1 Dec 2015.

    Senator McCaskill. That would be terrific.
    On Iraq train-and-equip--as you all know, I have a tendency 
to read those Inspector General (IG) reports. The one that came 
out September 30th raised several concerns that I'm worried 
about. One is asking us to refurbish the conditions under which 
these Iraqis are training. The DOD IG recommends that the 
coalition work with the Iraqi Minister of Defense to devise and 
implement a plan that clarifies the contributions of Iraq and 
the United States to improve their living conditions. 
Evidently, they are--the IG is saying that we're having 
desertions because they're living in such squalor, in terms of 
the conditions under which they are training. I just think of 
the billions and billions on infrastructure we spend in Iraq, 
and I'm trying to get my arms around: Are we going to go in and 
fix up something that's going to rot when we leave, or is Iraq 
going to step up and do what's necessary to make these 
conditions palatable for our--the recruits?
    General Dunford. Senator, what I would tell you--and this 
is my perspective, and I think this is where we're at right 
now--is that our relationship with Iraq has to be 
transactional, and there has to be certain conditions that they 
would meet before we would provide support. That absolutely is 
the framework within which I'll provide recommendations for any 
support to the Iraqi forces--would be that it would be based on 
their behavior and their willingness to be true partners and 
meet certain conditions that would indicate they'd be heading 
the direction that you described.
    Senator McCaskill. Capital expenditures, you know, just 
really grate, I think, on many of us who have watched the 
amount of money that we wasted on capital expenditures in Iraq. 
On that same line of questioning, the Mine-Resistant Ambush 
Protected Vehicles (MRAPs) that are coming from Afghanistan, 
the same IG report points out that many of them are missing 
parts, and there's a real question whether they have the 
capability of maintaining these MRAPs, going forward. Once 
again, are there discussions about who is going to bear the 
costs of making these MRAPs that we're giving them actually 
operational?
    General Dunford. Senator, are you talking about the MRAPs 
we gave to the Afghan Security Forces?
    Senator McCaskill. I'm talking about the ones--the excess 
ones that we're moving over--United States is providing 250 
MRAPs to the Iraqi Army. They're excess defense items and being 
shipped to Iraq from Afghanistan. Those are the MRAPs I'm 
talking about.
    General Dunford. Yeah. I can't comment on what the 
arrangements are, but I'll get that information for you, 
Senator, in terms of what arrangements were made of giving 
them. Typically, when we provide that equipment, it's in as-is 
condition when we provide it to another country. I assume 
that's the rule----
    [The information referred to follows:]

    The State Department is bearing the cost of the refurbishment and 
sustainment of the excess MRAPs that we transferred to Iraq. The 
contracted logistics vehicle used to pay was the Foreign Military 
Financing Program (Title 22 Grant Assistance).

    Senator McCaskill. I just want to make sure we're not going 
to the expense of sending them something that isn't 
operational, that we don't want to have to spend a lot of money 
to fix up, and, secondly, that they don't have the capability 
of maintaining. You know, sustainability. I mean, Secretary 
Carter knows this has been a refrain from the very beginning. 
It does us no good to give them things if they cannot sustain 
it. Of course, that's one of the reasons that we're having the 
problems in Iraq we have right now, is they were politically 
incapable of sustainability.
    Briefly, on a separate subject, I just want to bring this 
up. I won't go into the details here, but I am desperately 
trying to get at helping the veterans that were subjected to 
mustard gas experiments. I'm having a really difficult time 
with your folks about this. They're saying that even if I have 
the name of a veteran and the privacy waiver, they will not 
give me information out of your mustard gas database without a 
letter from the Chairman. I don't understand why this is so 
hard. Why is everyone not opening up these records and doing 
everything we can to get the word to these people? There are a 
lot of folks out there that were subjected to mustard gas 
experiments. The Department of Veterans Affairs (VA) wants to 
point at you. I'm hitting a wall at DOD on this. I really need 
a commitment from you all today that you will get me the 
information as to why this is--why me trying to help veterans 
who maybe have been exposed to mustard gas--why this should be 
so hard. Would you all be willing to make that commitment, that 
you will work with my office instead of----
    Secretary Carter. Yeah, I----
    Senator McCaskill. They just keep throwing up roadblocks. 
I've been at this for months.
    Secretary Carter. Senator, I'm not familiar with this 
issue, but, as always, I will make sure that we support your 
request. I'll look into it, and we'll--with the Chairman--and 
we'll get back to you, as appropriate.
    [The information referred to follows:]

    The Department of Defense has established a process where 
congressional staff may provide a Privacy Act and Health Insurance 
Portability and Accountability Act (HIPAA) release from each individual 
for whom they desire information, and we will provide a printout of 
information that was contained in the database. I understand that we 
have received and responded to a request from a Congressional office 
and provided information for two individuals. A letter from the 
Chairman is not required if the individual involved has given 
permission for the disclosure. Similarly, an individual may provide the 
Privacy Act and HIPAA release and ask for the information directly from 
the Department.

    Senator McCaskill. And I've been waiting since July for 
evidence to back up your claim that there was justification for 
the $36 million, 64,000 square-foot building in Afghanistan. 
There was a call for discipline for the people who had okayed 
that building. It's sitting empty. I've been asking since July 
as to--you said that you didn't think--Secretary Carter, you 
contested the findings and said that you didn't think 
disciplinary action was appropriate. I've asked what the 
evidence is that would indicate disciplinary action is not 
appropriate. I've been waiting since July. So, if you could get 
that on your To Do List, too, I would really appreciate it.
    Secretary Carter. I will do that.
    Senator McCaskill. You've got an able helper behind you 
there who ought to help with this.
    Thank you very much.
    Senator Reed. On behalf of Chairman McCain, let me 
recognize Senator Sessions.
    Senator Sessions.
    Thank you, Senator.
    Senator Sessions. Thank you very much.
    Senator McCain laid out some serious criticisms of how 
we're being--how we're conducting our policy in the Middle 
East. I share most of those. I don't think they're little 
matters. They're important matters. I think we've made some 
mistakes and struggled in ways that are not well, not good. I 
think it's--so, I'll just leave it at that.
    What I'd like to address today is the need for a strategy, 
long term, in the Middle East. I asked Kenneth Pollack, of the 
Brookings Institution, several months ago--he had mentioned in 
his statement, ``This may take a long time.'' So, I asked him--
the whole problem of extremism in the Middle East, this spasm 
of violence we're seeing throughout the entire region, how 
complex it is and how--and I asked him--and so, I followed up 
with him and said, ``So, you're saying this could last 10, 20, 
50 years.'' I remember very vividly. He looked at me, and he 
gave an answer you don't often get. ``Yes.'' That was his 
answer.
    So, we've--and do we need a strategy--a long-term strategy 
that could deal with that? I've asked that question to Walter 
Russell Mead, and he said he's never seen us, as a Nation, be 
so unfocused in a strategy, the historian that he is.
    The entire panel, I believe, week before last--General 
Jimmy Jones, President Obama's National Security Advisor, 
General Keane, Ambassador, another scholar--all agree that we 
need a strategy, and we really don't have one.
    Then I asked Secretary Gates, last week, and this is what 
he said that I think is relevant. He said, ``My concern is that 
I don't see an overreaching--or overriding strategy on the part 
of the United States with this complex challenge for the next 
20 or 30 years.'' One of the benefits of containment--and there 
are lots of disagreements about how to apply it and how the 
wars we've fought under it, and so on--but, I will always 
believe that critical to our success in the Cold War was that 
we had a broad strategy, called containment, that was practiced 
by nine successive administrations of both political parties. 
It had bipartisan support, the general notion of how to deal 
with this. So, we don't have anything like that with respect to 
the Middle East. I think that is long--and so, we're kind of 
dealing with each of these crises individually rather than 
backing up and saying, ``What's our long-term game plan, here? 
Who are going to be our allies? Who are going to be our 
friends? Where do we contain? Where do we let it burn itself 
out?'' We just haven't really addressed those long-term 
questions, because it seems to me we're thinking strictly in 
the short term of month-to-month.
    What--I know we've got nine points, Secretary Carter, but I 
don't sense anyone in the region or anyone in the Congress 
believes that we have a deeply studied and long-term policy for 
the Middle East that could extend for decades. First of all, do 
you think we need one? Do we have one?
    Secretary Carter. We have a strategy toward the Middle 
East. Many elements of it are, in fact, of longstanding--
decades longstanding. Again, the--our strategy begins with the 
pursuit of American interests, and that involves protecting our 
own country and our people, defending longstanding friends and 
allies, who include the Gulf states and especially Israel, 
which was discussed already, opposing the introduction of 
nuclear weapons to the region, which gets us to the Iran 
circumstance, and, in the current matter of ISIL, protecting 
our people and our friends and allies against ISIL by defeating 
it where it began, which is in Iraq and Syria. We described, 
today, that--the implementation of the strategy in both of 
those places to defeat--degrade and defeat ISIL. So, we're 
doing that.
    So, I--it is a complicated region. I called it 
kaleidoscopic in my statement. But, American interests are not 
unclear. They're clear. We--our strategy is intended to pursue 
those interests, and that is what we're doing. Strengthening 
the pursuit of that strategy is why the Chairman and I have 
been describing to you today the new steps we're taking in Iraq 
and Syria and with respect to unilateral actions.
    Senator Sessions. Well, I know that's the position of the 
administration, but, frankly, our Middle East allies that we 
talk to and come and visit us don't feel confident that they 
know what the long-term goals of the United States are. Were 
they to defend Iraq against ISIL, who we'd shared shoulder-to-
shoulder, General Dunford, for a decade? Are we going to pull 
out all troops? Apparently not, now, in Afghanistan, regardless 
of the situation on the ground. What about red lines in Syria? 
Are we going to honor those?
    Look, you can say that, but I think it's clear that 
confidence in understanding of where we stand and what we're 
going to do for the next 10, 20, 30 years, as any leader of a 
Middle Eastern nation has got to think, and as we should think, 
as a great Nation, I don't think we're there.
    So, I really believe more work needs to be done. I'm 
talking to my colleagues in the Senate. I believe we can reach 
a bipartisan policy. I really do. I don't think it's 
impossible. I'm going to work toward that goal.
    Senator Reed. Thank you.
    Senator Sessions. One more thing. My time is over. But, I 
believe the Defense Department may underestimate the critical 
nature of the refugee crisis. This is not like Iran-Iraq war 
that went on for many, many years. This is impacting Europe 
right now. It is a humanitarian crisis. It's being exploited by 
everyone else in the Middle East that would like to come to 
Europe. Europe is facing what one top diplomat told me was the 
greatest crisis since the--World War II. I think we've got to 
think about this safe haven, these safe zones, and get busy on 
it. If we--and General Petraeus said it might have to have some 
of our people at risk, defensively, to try to protect those 
areas, but we wouldn't take a lot. You and I talked, Secretary 
Carter, about it. Can't we get moving on this? How many more 
millions are going to have to flee and being lined up in areas 
that we don't--before we act? Just morally, my judgment is that 
Europe needs to know there is a place for these refugees to go, 
other than to flee the entire region. That will strengthen 
them. Can we not do that?
    Quickly.
    Secretary Carter. Well, the--insofar as the refugees are 
coming from Syria--they're actually coming to Europe from 
several----
    Senator Sessions. All over.
    Secretary Carter.--places, but, to the extent they're 
coming from Syria, this is why it is so important that the 
Syrian civil war be put to an end. Our approach to that is 
political. It's not military. That's been a persistent subject 
of discussion here. We have not undertaken to achieve that goal 
militarily. Our approach to that is political. We hope that 
that transition occurs and that the civil war in Syria ends. 
That is something that----
    Senator Sessions. What if it takes three years? Can't we 
provide some sort of area there for people who are in danger to 
have safety and not have to leave the entire region?
    Secretary Carter. I'll just--I'd just repeat what I've 
said. We have analyzed it. I'm prepared to have shared with you 
the analysis we've done of safe zones, buffer zones, and no-fly 
zones. We have looked at the advantages and costs of those. The 
President has not taken them off the table, but we have not 
undertaken to create any of those zones at this time. I don't 
rule that out in the future, Senator. We're happy to discuss it 
with you, and discuss, in a different setting, the analysis 
that we have done.
    Senator Reed. On behalf of Chairman McCain, let me 
recognize Senator Ayotte.
    Senator Ayotte. I want to thank the Chair. Also thank 
Senator Donnelly. Appreciate it.
    I wanted to ask Secretary Carter--recently, the Iranians 
have actually tested a long-range missile, in violation of 
existing United Nations (UN) Security Council resolutions. This 
is something that Ambassador Samantha Power has confirmed. In 
fact, if you look at what the Iranians have done post-
agreement, not only have they tested this missile, but, of 
course, they've wrongfully convicted a Washington Post reporter 
in Iran, and they--of course, we've had a lot of discussion 
today about the cooperation between Russia and Iran undermining 
stability in Syria and our interests there.
    So, I've also brought--been brought to my attention 
recently that the Supreme Leader of Iran has actually said, 
about the recent agreement, that, ``Any imposition of sanctions 
at any level under any pretext, including repetitive and 
fabricated pretexts of terrorism and human rights on the part 
of any countries involved in the negotiations, will constitute 
a violation of the JCPOA.''
    So, here's my question to both of you, and primarily to 
you, Secretary Carter. What are we going to do about their 
violation of already existing U.N. resolutions when it comes to 
testing ballistic missiles and long-range missiles? You're the 
one that testified before this committee, the ``I'' in ICBM is 
``intercontinental.'' As I see it, already Iran is violating 
resolutions, with no response from us. Already the Supreme 
Leader is basically saying, ``You impose sanctions on any 
reason, even our support for terrorism or other human rights 
violation, we're going to walk away from the JCPOA.'' So, do 
you not agree that their violation of the missile resolution 
warrants a response from the United States of America? What is 
that response going to be? Because, at this point, I haven't 
seen any response.
    Secretary Carter. I think that it's--it needs to be very 
clear--it's certainly clear to us, in the Department of 
Defense--that the conclusion of the nuclear deal with Iran, 
assuming it gets implemented, which was part of what your 
question gets to you--does not address all of our security 
concerns with respect to----
    Senator Ayotte. But, let me ask you this.
    Secretary Carter.--Iran. And----
    Senator Ayotte. Just yes or no, should we respond to their 
testing of this missile, that violates existing U.N. 
resolutions?
    Secretary Carter. I--I'll describe one response that is in 
our area, and that is our continuing commitment to the 
development of missile defenses. That's one of the reasons why 
we are developing and fielding----
    Senator Ayotte. I understand that we're developing missile 
defenses, but what is our response when they behave badly 
already? Shouldn't there be a response from the United States 
of America? We had, recently, a panel of experts here, and I 
asked each of them--and they came from different perspectives--
if we should respond. They all agreed, ``Yes.''
    Secretary Carter. Well, the--in our area of responsibility, 
I would say this, Senator. I'll let the--Ambassador Power and 
Secretary Kerry address the diplomatic side of it. But, in our 
area of responsibility--and I made this clear right from the 
beginning of the negotiations on the Iranian nuclear deal, that 
that does not end all of our security concerns with respect to 
Iran.
    Senator Ayotte. I mean----
    Secretary Carter. That is why we----
    Senator Ayotte. Mr. Secretary, I'm sorry----
    Secretary Carter.--continue to----
    Senator Ayotte.--I don't have a lot of time, but ending--it 
seems not ending. It seems like it's just beginning, really, as 
we think about this unholy alliance between Russia and Iran, 
undermining our interests in Syria, as we think about them 
testing, in our faces, this long-range missile, as we think 
about what the Supreme Leader has basically said, ``Any 
sanctions, we're going to walk away from the JCPOA.'' I would 
say that it's really just beginning.
    That said, before I leave--I don't have much time, but I 
need to ask question of you, General Dunford. I had the 
privilege of, recently, on Friday, going to the Guantanamo Bay 
Detention Facility (``Gitmo'') and meeting with our men and 
women who serve there. They're doing an excellent job under 
difficult circumstances, as you know. One of the issues that 
was brought to my attention--and I know that you, as a leader 
in our military, one of your jobs, having been a commander and 
serving, obviously, in the highest position in our military, 
understand that taking care of our men and women in uniform is 
so critical. Yet, we have a situation down there where we met 
with women guards who are being prevented from fully performing 
their mission because the five 9/11 attackers, who are charged 
with killing 3,000 Americans, will not allow them to perform 
their duties because they're women. Can you tell me what you 
think about that and whether you think that is right, and how 
we should be addressing that?
    General Dunford. Senator, I can tell you how I feel about 
it. I feel the same way as the Commander, U.S. Southern 
Command, General John Kelly, who describes it as outrageous. 
And I read his weekly report, and have read it for about--
probably the last seven or eight weeks, to include the two or 
three weeks before transition. So, it's outrageous. He's 
identified it. And as you probably know, Senator, that's being 
worked by lawyers. It's an injunction. I don't--I'm not using 
that as an excuse, I'm just sharing with you that's actually 
the--where it's at right now. It's being worked by lawyers. The 
Commander has identified it. I think it ought to be--it is 
outrageous. It ought to be fixed. It hasn't been, to date.
    Senator Ayotte. I'd like to see the administration speak 
out against this. Here we talk about giving women more 
opportunity in combat, but this is a area where these women 
that we met with, by the way, that are serving there, they're 
the very best. And they are not being able to perform the full 
responsibilities of their positions simply because they are 
women, because 9/11 terrorists are manipulating the system to 
say that our women cannot guard them.
    Secretary Carter, I hope you would agree with me that this 
is outrageous. And I would hope that the administration would 
do everything in its power to stand up for our women in the 
military.
    Secretary Carter. I do want to associate myself with what 
the Chairman said. It is outrageous. And what General Kelly 
said, this is the--pursuant to an action of a Federal judge, 
and I understand that. But, if you're--I think it is counter to 
the way we treat servicemembers, including women 
servicemembers, and outrage is a very good word for it.
    Senator Ayotte. Well, I appreciate both of you being here.
    Thank you.
    Chairman McCain [presiding]. Mr. Secretary and General 
Dunford, I've known both of you for many years, and I have 
appreciated very much your outstanding work. I am great 
admirers of both of you. I appreciate your service.
    But, could I, again, caution you, Mr. Secretary. It isn't 
helpful to our relations and members of this committee when 
there's a widely spread story stating the name of the ship, 
where it went, how it went, and then you come and tell us that 
you can't confirm or deny something that is out there in the 
media. So, meaning that somebody has leaked all that 
information to the media and it's out there, but you can't tell 
this--members of this committee, who have the responsibility--
it isn't a privilege, it's a responsibility to exercise 
oversight.
    The second issue I want to mention to you is Guantanamo. I 
understand that the President has said many--on numerous 
occasions, that one of his objections is Guantanamo. You and 
the President's top aide came to my office and said you were 
going to give me a plan. I've always favored closing 
Guantanamo, for a whole variety of reasons. Yet, we still 
haven't got a plan from you. In fact, not only not a plan--
until I asked you about it specifically, there was no 
communication, after coming to my office and saying that you're 
going to give me that plan and I said we needed it before we 
marked up the defense authorization bill. We got nothing. Not 
an update, not a briefing on what was going on. So, we put in 
the language in Guantanamo, and the President then voices his 
strong objection to Guantanamo.
    Finally, this issue of whether we are protecting those 
people who we are asking to fight against Bashar Assad and 
ISIS. Isn't it true that we've dropped munitions, General 
Dunford, to these--to a group of people who we are supporting 
in Syria?
    General Dunford. It is true, Senator.
    Chairman McCain. It is true? Yet, are we going to protect 
them from Russian air attacks?
    General Dunford. Senator, we have the authority, we have 
the capability, and we have options to defend the forces that 
we've----
    Chairman McCain. But, is it true that the Russians are 
already attacking them?
    General Dunford. The ones we have trained, it--they have 
not.
    Chairman McCain. I'm not asking the ones we've trained. The 
ones we dropped munitions to.
    General Dunford. No, the Russians have not attacked the 
ones we've dropped munitions to, Senator.
    Chairman McCain. They have not.
    General Dunford. No, Chairman.
    Chairman McCain. They have not----
    General Dunford. To make sure that you and I are speaking 
of the same group, the group I'm referring to is what's known 
as the Syrian Arab Coalition. They're operating in the 
northeast part of the country, north of Raqqa. We recently 
provided resupply to those individuals--ammunition----
    Chairman McCain. If they're attacked by the Russians, we'll 
defend them.
    General Dunford. Senator, we have the capability to do 
that, and we'd provide options. I can't answer that question.
    Chairman McCain. They'd be interested. They'd be 
interested----
    General Dunford. Yes, sir.
    Chairman McCain.--in knowing, I think, if we're going to 
give them equipment and ask them to fight, and then they're 
going to be--we can't answer to them whether we're going to 
protect them, or not. I don't think--I think it's a degree of 
immorality.
    So, anyway, Chairman, this----
    Secretary Carter. May I--the two parts you raised, just 
take a moment?
    First of all, again, I don't mean to be coy about the ship 
sailing. I know things are in the newspaper. I'm just going to 
tell you where I'm coming from on that. It has nothing to do 
with this particular operation. There are all kinds of things 
in the newspaper that--and it--and that should not be in the 
newspaper. I don't like to talk about military operations 
publicly. You are, of course, entitled to know everything, and 
be briefed on everything. But, talking about things in a public 
setting, I'm, in general, not----
    Chairman McCain. But, what----
    Secretary Carter.--not in favor of.
    Chairman McCain. Why shouldn't----
    Secretary Carter. So, I don't want you to think I'm being 
coy----
    Chairman McCain. But, what is----
    Secretary Carter.--or evasive. I----
    Chairman McCain. But, what is classified about it? What is 
it that you wouldn't want--I mean, it's--in fact, I think 
literally every member of this committee applauds it. So, I'm 
not sure that--what the reason is, why you wouldn't want to 
just state what has already been, from somebody that works for 
you--the name of the ship, where it went, when it went, how it 
went, but yet you won't tell us. That causes frustration, Mr. 
Secretary.
    Secretary Carter. Okay. All right. Well, I don't mean to 
cause you frustration. I just wanted you to know where I'm 
coming from.
    Chairman McCain. Well, I hope you understand our 
frustration.
    Secretary Carter. Yeah, I do. I do. But, I--and maybe my 
hesitation is excessive, but I don't like to talk about 
military operations in public. Perhaps this one should be an 
exception.
    But, let me go on to the other thing you said, about Gitmo. 
I, too, favor, like you, closing Gitmo, if that is at all 
possible. That--because some of the detainees in Gitmo are 
not--cannot be safely transferred to another location, in order 
to close Gitmo, as you know, we would need to find a location 
in the United States, or locations, in which they could 
continue to be detained. What has taken the time, Chairman, is 
that we had to survey a number of sites. We've done that in a 
number of sites around the country. We've completed that--and 
we have--some of those are Department of Defense sites, some of 
those are Bureau of Prisons sites. We needed to have them 
nominated by the Justice Department and then to do the site 
surveys there. All of that took some time.
    Chairman McCain. I understand.
    Secretary Carter. The process is now complete, and I expect 
you'll get your proposal shortly.
    Chairman McCain. All right. I understand, but I would have 
appreciated an update. The cynicism over on this side, at the 
Capitol, is, to my view, somewhat justified, because the law 
was broken when Mr. Bowe Bergdahl was swapped for five people. 
The law required that the President of the United States notify 
the Congress of the United States. He didn't do it, so, 
frankly, there's a credibility gap that is huge, when the 
President acts in direct violation of the law, and using the 
excuse, well, he was afraid there was going to be a leak. Well, 
to me, that's not sufficient reason to violate the law, and so, 
therefore, the cynicism here is immense. To expect--the 
President complains about the NDAA--to expect that this 
committee would act, after the President has violated the law 
and there is no plan, is, of course, something that is not--
neither reasonable nor in keeping with our responsibilities.
    Could I say, again, of my respect. I appreciate the great 
work that both of you do. As I've said, we've known each other 
a long time. But, I also have to tell you, there's a certain 
amount of frustration here because of the lack of 
communication. What we just talked about, of Guantanamo, is 
one. Another one is this policy, or lack of policy, about what 
people we train and equip, and whether we're going to defend 
them, or not. The lack of a strategy to say that we can--have 
to take out Syrian air defenses in order to establish a no-fly 
zone is simply not true. You can ask--I'll ask any military 
expert. That's not true. You don't have to take out Syrian air 
defenses. It's Syrians that can't fly into our places. We've 
had military's--members like General Petraeus and General Keane 
and many others who obviously have a very different view of the 
whole issue of what we're going to do, which, by doing nothing, 
has triggered a flood of millions of refugees, which is a 
problem we're going to be grappling with for many years to 
come. It didn't have to happen.
    Well, I look forward to more conversations with you. I 
appreciate you coming to the committee, I appreciate your 
service.
    This hearing, I'm sure you'll be glad to know, is 
adjourned.
    [Whereupon, at 12:00 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
           military strategy to support political objectives
    1. Senator McCain. Our military efforts are directed at degrading 
and defeating ISIL but seem to ignore Russia, Assad, Iran and Al Qaeda. 
If we successfully defeat ISIL, but Al Nusrah, Assad, and Russia remain 
untouched or grow stronger, how does the resulting situation on the 
ground in Syria favor the interests of the United States?
    Secretary Carter. The United States' military efforts in Syria are 
aimed at defeating the Islamic State in Iraq and the Levant (ISIL) and 
countering other threats to the United States, including the al-Qa'ida 
aligned Khorasan Group. Even with ISIL defeated, the Department of 
Defense recognizes that the situation on the ground in Syria would 
remain extremely complicated. The Administration is working to build 
broad international support that will help to avoid the risk of 
creating a power vacuum in Syria, an outcome that would not be in the 
interests of the United States. To this end, the Defense Department is 
complementing counter-ISIL activities with diplomatic efforts to end 
the conflict in Syria--a political solution with buy-in from all 
parties is the best way to avoid this dynamic. The State Department has 
engaged diplomatically and has strongly supported the Vienna talks, 
which are aimed at organizing a cease-fire, establishing a political 
transition process, and resolving the Syrian conflict peacefully.

    2. Senator McCain. What is your understanding of the political end 
state in Syria that our military efforts are designed to help achieve 
and what specific military conditions on the ground are you trying to 
create using military means that will support the ``political 
solution'' desired by the United States?
    Secretary Carter. The military efforts in Syria are aimed at 
degrading and defeating the Islamic State in Iraq and the Levant (ISIL) 
and countering other terrorist threats to the United States, including 
from the al-Qa'ida-aligned Khorasan Group. ISIL must be degraded, 
dismantled, and ultimately defeated to protect the United States from 
terror attacks, and to set conditions for stability in the region. 
These military efforts complement the Administration's other efforts to 
resolve the conflict in Syria through political negotiations. To that 
end, Secretary Kerry has intensified diplomatic efforts to reach a 
political resolution to the conflict in Syria, including making 
progress last month in Vienna, where major stake-holders in Syria 
agreed to a set of basic principles on resolving the conflict.
    General Dunford. The political end state in Syria that our military 
efforts are designed to achieve has four aspects: 1) the defeat of 
ISIL, 2) resolution of the Syrian civil war, 3) the peaceful transition 
of the Assad regime, and 4) an end to the commiserate humanitarian 
crisis.
    The specific military conditions on the ground that we are trying 
to create towards this are: 1) eventually seizing the ISIL stronghold 
of Raqqah, 2) cutting ISIL's supply lines, 3) degrading its finances, 
4) killing its leaders, and 5) taking back the territory ISIL now 
holds.
                          determining victory
    3. Senator McCain. Beyond tallying up numbers of targets destroyed 
and senior leaders or ISIL fighters eliminated, what specific measures 
are you using to gauge your success against your objective to degrade 
and destroy ISIL?
    General Dunford. In accordance with the 2014 U.S. Government 
Strategy to Counter ISIL, we are utilizing comprehensive military 
coalition campaign assessments to measure progress against military 
objectives nested within the broader U.S. Government and coalition 
strategy to degrade and ultimately defeat ISIL. Measures of success 
include but are not limited to: Defending the homeland by preventing 
and disrupting ISIL's ability to plan and conduct external operations; 
Removing experienced and capable leadership; Dismantling ISIL's 
military capabilities and command and control infrastructure; Denying 
safehaven by reducing terrain held or controlled by ISIL; and 
Developing the capability and capacity of partners who can effectively 
engage ISIL across Syria, Iraq, and wherever they emerge.
    CENTCOM assesses incremental gains in each of these measures and 
several recent developments highlight Coalition progress. These 
include:

    <bullet>  The recent success of Iraqi forces in operations to 
retake and hold Ramadi;
    <bullet>  Coalition successes in targeting the oil infrastructure 
that ISIL relies upon to fund operations;
    <bullet>  The success of ongoing efforts to isolate the key 
population centers of Mosul and Raqqa; and
    <bullet>  Removal of ISIL key leadership from the battlefield in 
Iraq and Syria.

    We are now pressuring ISIL in Iraq and Syria on more fronts than at 
any other point in the campaign, and without question, ISIL is feeling 
the effects of those efforts. We will continue to reinforce success in 
Iraq and Syria while aggressively looking for opportunities to adjust 
the trajectory of the campaign as the region's geopolitical landscape 
evolves.

    4. Senator McCain. How will you know when you have achieved your 
objective? How will you know when we have ``won''?
    Secretary Carter. The Department is committed to degrading and 
ultimately defeating Islamic State of Iraq and the Levant (ISIL), which 
poses a direct threat to the United States, to our regional partners, 
and to our European allies. The objective in Iraq and Syria will be 
achieved when ISIL's ability to conduct external attacks is precluded 
and when local ground forces, supported by coalition air strikes and 
advice, have eliminated ISIL's territorial possessions and its capacity 
to destabilize our partners and allies. The objective in Iraq and Syria 
will be accomplished through a variety of efforts, such as debilitating 
ISIL's freedom of movement, destroying ISIL's command and control 
structure, and undermining its ability to govern. The overarching 
objective is to create conditions that prevent ISIL or other similar 
terrorist organizations from taking advantage of ungoverned spaces and 
vulnerable, disenfranchised populations in order to threaten the United 
States and our allies and partners.
    General Dunford. We win when ISIL no longer poses a threat to the 
U.S., our allies, and our partner nations. We accomplish this as a 
coalition by denying ISIL safe haven from which to plan and coordinate 
external attacks, degrading ISIL command and control by removing key 
leaders from the battlefield, and dismantling the facilitation networks 
that allow ISIL to fund operations and move resources freely in Iraq, 
Syria, and beyond.
    While intensifying our efforts against ISIL in Syria and Iraq, we 
must also aggressively counter ISIL wherever and whenever they emerge. 
ISIL is a transregional threat, and requires a transregional approach.
                           air exclusion zone
    5. Senator McCain. Do you consider the indiscriminate use of barrel 
bombs by Assad against civilians an outrageous atrocity and morally 
repugnant? Is it a violation of the laws of armed conflict?
    Secretary Carter. The Syrian government's indiscriminate use of 
barrel bombs against civilians is certainly an outrageous atrocity, is 
morally repugnant, and is taking a terrible toll on the Syrian people.
    I condemn any intentional targeting of civilians by a party to an 
armed conflict or indiscriminate use of weapons, including bombs, to 
kill civilians. Although the specific facts of any particular case 
would have to be examined, intentionally targeting the peaceful 
civilian population and indiscriminately using weapons, including 
bombs, to kill peaceful civilians would violate the law of war.
    General Dunford. Yes; the intentional or indiscriminate use of any 
weapon against civilians who are not a part of an organized armed group 
or otherwise taking a direct part in hostilities is morally repugnant 
and should be condemned as a violation of the law of war.
    The law of war principle of humanity forbids the infliction of 
suffering, injury, or destruction unnecessary to accomplish a 
legitimate military purpose. The related principle of distinction 
requires parties to a conflict to distinguish between enemy combatants 
and civilians, including when conducting attacks against enemy 
combatants and other military objectives. The use of barrel bombs by 
any party to an armed conflict to deliberately target civilians 
challenges both of these principles, as does the indiscriminate use of 
such munitions in populated areas.

    6. Senator McCain. From a capabilities perspective: if you were 
tasked by the President, upon determination that a barrel bomb attack 
by Assad against civilians had taken place, to target and destroy a 
portion of the aircraft at the Syrian military airfield nearest to the 
site of the barrel bomb attack, do our military forces have the 
capability to do that?
    General Dunford. Yes, we have the capability in theater to respond 
and strike targets precisely. Accordingly, if the President tasked us 
to do so, we could target and destroy a portion of the aircraft at the 
Syrian military airfield nearest to the site of a barrel bomb attack.

    7. Senator McCain. If barrel bombs against Syrian civilians stop, 
would you expect the flow of refugees to increase or decrease?
    Secretary Carter. Ceasing the Syrian government's barrel bombing of 
civilians could be a very important step in lessening the terrible toll 
this conflict is taking on the Syrian people.
    It is unclear, however, what effect stopping the barrel bombing of 
civilians would have on the flow of refugees. The majority of civilian 
deaths in the Syrian conflict are the result of artillery fire, not 
barrel bombs. Ending barrel bombing would be just one step in improving 
security conditions sufficiently to be able to address the Syria 
refugee situation.
    General Dunford. I would expect a halt in barrel bombing of 
civilians would decrease refugee flow, but not stop it. Barrel bombing 
is only one of many factors threatening civilians. Assad's ground 
forces, Russia's indiscriminate air attacks, and ISIL are additional 
factors.

    8. Senator McCain. Do the U.S. Armed Forces possess the capability 
and capacity to establish and enforce a limited air exclusion zone on 
the border--such as the area that is approximately 60 miles by 40 miles 
between the Euphrates river and the area north of Aleppo--to provide 
some degree of protection to the moderate opposition against barrel 
bombs and Assad regime strikes as well as facilitating the flow of 
humanitarian assistance?
    General Dunford. The U.S. Armed Forces possess the capability and 
capacity to establish an air exclusion zone--a ``no-fly'' zone--in 
Syria. An air exclusion zone would protect people on the ground below 
the zone from airborne attacks such as barrel bombs or other air-to-
surface ordnance. Such an exclusion zone; however, would not deny 
surface-to-surface ordnance. As a result, we could not protect people 
within an air exclusion zone from attacks originating on the surface. 
Moreover, humanitarian assistance delivery is dependent upon protection 
from air and surface attack; therefore, an air exclusion zone would not 
facilitate humanitarian assistance flow without additional forces.
                            russia in syria
    9. Senator McCain. Is the bombing by Russia of the moderate 
opposition making them more or less capable and likely of fighting ISIL 
and is it making them more or less likely to join forces with 
extremists?
    General Dunford. Russian bombing of moderate opposition forces 
makes them less capable of fighting ISIL. The bombing of moderate 
opposition forces results in higher casualties, equipment losses, and 
interruption of planned operations.

    10. Senator McCain. In your opinion, where do Russian military 
objectives in Syria conflict with our national security interests? What 
military efforts, if any, are being undertaken to impose costs on the 
Russians for actions in Syria that run counter to U.S. interests?
    Secretary Carter. Russian military objectives in Syria conflict 
with U.S. national security interests where their actions do not match 
their stated intent to combat ISIL or emphasize solely the defense of 
Bashar al-Assad. Russia continues to support the Assad regime by 
conducting indiscriminate strikes that impact moderate Syrian 
opposition groups and cause casualties among Syrian civilians. Russia's 
actions make it more difficult to achieve a successful political 
transition. A political transition will require the participation of 
the moderate opposition forces Moscow is attacking. Consequently, the 
U.S. will not cooperate in efforts that undermine a constructive 
political transition.
    As previously stated before this committee, the Assad regime bears 
overwhelming responsibility for the crisis in Syria, which has 
destabilized the region by displacing more than 12 million people both 
within Syria and as refugees abroad. This regional destabilization 
clearly runs counter to not only U.S. national security interests, but 
the interests of all the coalition's members.
    The Department of Defense maintains a policy of no military to 
military cooperation with Russia and continues to support United States 
sanctions in response to its aggressive actions in Ukraine. In this 
context, cooperation in Syria that ignores Russian activities elsewhere 
would only embolden further pursuit of a losing bet to support the 
Assad regime. The United States will not let Russia determine our 
strategy nor cooperate in efforts that run counter United States 
interests. The Department has an agreement with Russia on air safety 
procedures that solely establish technical protocols to ensure the 
safety of our pilots and our coalition. This does not constitute 
coordination or collaboration with Russia.

    11. Senator McCain. The lack of any meaningful assistance to 
Ukraine allowed Putin to dictate the terms of the frozen conflict in 
Ukraine and then pivot to Syria. Secretary Carter, if we provide 
meaningful military assistance to Ukraine, would Putin have to rethink 
what he is doing in Syria?
    Secretary Carter. The Department has provided substantial security 
assistance to Ukraine, which has been calibrated towards supporting a 
diplomatic solution to the crisis. While not providing lethal 
assistance, the Department has committed more than $265 million in 
equipment and training since the beginning of the crisis to help 
Ukraine better monitor and secure its border, operate more safely and 
effectively, and preserve and enforce its territorial integrity.
    Russia appears to be pursuing public messaging, both domestically 
and internationally, to paint activities in Syria as part of a 
rapprochement with the West. These Russian efforts do seem to be 
motivated in part to counter isolation resulting from broad 
international condemnation of their activities in and around Ukraine. 
Russia's actions in Syria will not take away from my strong 
condemnation of Russian actions in Ukraine, nor change sanctions and 
security support in response to those destabilizing actions. The 
Department views these conflicts as unrelated to the extent that 
specific actions on our part in one theater would change Russia's 
calculus in another. Russian presence in Syria does not change the 
United States objectives in the region, nor will it diminish the United 
States commitment to provide robust security assistance to Ukraine.
    Russia has not refrained from taking definitive steps to further 
its national interests outside its immediate periphery region. I 
welcome the contributions of Congress in supporting a strong North 
Atlantic Treaty Organization Alliance through the European Reassurance 
Initiative and other efforts that assure allies and partners. Such 
efforts form a robust deterrent to Russian activity in and around 
Ukraine, as well as aggressive intervention by Russia in other theaters 
of operations.
                     syria train and equip program
    12. Senator McCain. If the Syria Train and Equip program included 
allowing the moderate opposition to go after the Assad regime, would it 
be more or less successful at recruiting moderate opposition fighters?
    General Dunford. Under current policy, ISIL is our military 
adversary in Syria. The Train and Equip program was specifically 
designed to find, vet, and train moderate opposition fighters to oppose 
ISIL. If U.S. policy were to change to support opposition to the 
regime, I believe the number of moderate opposition fighters available 
for a train and equip program would increase.

    13. Senator McCain. The Pentagon announced at the end of September 
that certain portions of the Syria Train and Equip program were on 
`pause'. Before the program, a coalition effort, was put on pause, were 
Turkey and Jordan consulted and if so what were their inputs? If not, 
how would you characterize their reaction to the pause?
    Secretary Carter. The United States has been clear in 
communications with the Coalition partners about the changes made to 
the Syria Train and Equip Program. Many Coalition partners continue to 
assist the efforts to enable local ground forces to defeat the Islamic 
State of Iraq and the Levant (ISIL) in Syria. I thank those Coalition 
partners who have supported counter-ISIL efforts thus far, and the 
Department will continue to work with them on ways to broaden and 
deepen cooperation.

    14. Senator McCain. Are fighters that were trained under the Syria 
Train and Equip program making a difference on the battlefield, if so 
in what ways?
    General Dunford. Yes, the New Syrian Forces (NSF) that were trained 
under the Syria Train and Equip program are making a difference on the 
battlefield principally by serving as forward observers to identify 
ISIL targets for the Coalition. Since the NSF were reinserted into 
Syria, they have facilitated approximately 100 strikes against ISIL. In 
addition, the NSF have: (1) conducted raids that destroyed ISIL forces 
and infrastructure; (2) contributed to stabilizing the defensive lines 
of moderate opposition forces in northern Syria; and (3) contributed to 
the liberation of ISIL controlled areas and towns.

    15. Senator McCain. How long do you assess the Syria Train and 
Equip program can remain on pause before the option to restart no 
longer exists?
    Secretary Carter. Only the training portion of the Train and Equip 
program has been paused. The Department continues to work with vetted 
leaders of groups that are actively fighting ISIL, and is providing 
equipment and limited air support for their operations. The New Syrian 
Forces currently fighting in Syria have been a valuable asset in the 
efforts to degrade and defeat the Islamic State of Iraq and the Levant 
(ISIL). I could recommend restarting training in the future if and when 
doing so would add strategic momentum to the counter ISIL fight. This 
approach builds on successes that local Syrian forces have achieved 
along Syria's northern border to retake and hold ground from ISIL with 
the help of United States airstrikes. The Department is maintaining the 
training sites in a ``warm status'' for if and when it would make sense 
to train vetted elements of the Syrian opposition. There is not a 
specific timeline under which this option will disappear.

    16. Senator McCain. Prior to the `pause', who made the decisions 
about when to insert trained fighters of the Syrian moderate opposition 
back into Syria after training was complete and who made the decisions 
on whether or not to resupply and support the fighters we have trained 
while they are on the battlefield?
    Secretary Carter. In consultation with leaders at U.S. Central 
Command (CENTCOM) and other locations, the Combined Joint Interagency 
Task Force--Syria Director recommended when to insert fighters trained 
by the Coalition into Syria and whether to resupply the groups trained. 
The concept of operation, as presented by CENTCOM through the 
Department of Defense, was ultimately approved by the National Security 
Council. These decisions were made using the best available assessment 
of the situation on the ground in the area where these groups were 
inserted and were fighting.
                               __________
                               
              Questions Submitted by Senator James Inhofe
                          middle east strategy
    17. Senator Inhofe. In your opinions, are we seeing the collapse of 
the Middle East's geopolitical framework? Why or why not?
    Secretary Carter. The Middle East is in a period of major change as 
the region continues to evolve and adjust to new political and social 
realities following the 2011 ``Arab Spring.'' In addition, Iran's 
malign influence, the rise of the Islamic State of Iraq and the Levant, 
and increased sectarian tensions challenge the stability of the region 
in different ways. The Administration remains committed to advancing 
the United States' enduring interests in this complex region. These 
include preventing the proliferation of weapons of mass destruction, 
maintaining the free flow of energy and commerce, countering terrorism, 
and ensuring the safety and security of U.S. partners. The U.S. will 
continue to maintain steadfast partnerships with key allies and 
partners in the pursuit of a more stable and secure region to protect 
those interests.
    General Dunford. The geopolitical framework of the Middle East 
remains as complex as it has ever been, and there are stresses on 
several nation-states. However, we are not seeing ``collapse'' but 
rather continued tensions. Alliances, coalitions, and partnerships are 
working to address these tensions. The more stable states in the 
region, such as the GCC states, Jordan, and Egypt, are buttressing 
their less stable neighbors. The exception is Iran, which is fomenting 
discord as it continues to export its revolution.

    18. Senator Inhofe. Has the lack of steadfast American leadership 
in the Middle East created a vacuum for which Russia is exploiting as 
an anti-US influence campaign?
    Secretary Carter. No. Unlike Russia, the United States is at the 
core of leading international efforts to degrade and ultimately defeat 
ISIL, which poses a direct threat to the United States and its allies 
and partners. The United States is also supporting a moderate Syrian 
opposition that is essential for reaching a political resolution to the 
current conflict. The U.S. will continue to be the single largest donor 
in addressing the humanitarian disaster in Syria and beyond its 
borders. Unlike Russia, the United States is joined by a coalition of 
some 65 partners in these efforts.
    Instead of assuming a leadership role, Russia is isolating itself 
from the large majority of the countries in the region, including 
Turkey, Saudi Arabia and the Gulf States, Jordan, and others. Russia's 
aims in the Middle East likely go beyond its publicly stated goals in 
Syria. Russia is probably involved in the Middle East because it wants 
to be viewed as a security guarantor for regimes it favors in the 
region and wants to demonstrate that it is a key player in 
international affairs. I believe the Russian strategy is fundamentally 
flawed, and Russia's actions, including devoting strikes overwhelmingly 
to non-Islamic State of Iraq and the Levant (ISIL) targets in Syria, 
cast doubt on Russia's seriousness about reaching a political solution 
to the conflict.
    General Dunford. No. I assess Russian presence to be principally 
driven by a desire to support the Assad regime. Despite its public 
rhetoric, countering ISIL is not a principal concern of Russian forces.
    Since Secretary Carter briefed this committee in July on the 
counter-ISIL strategy:

    <bullet>  Afghanistan's instability has forced the administration 
to maintain a 9,800 troop presence through 2016.
    <bullet>  We continue high risk operations in Iraq; illustrated in 
the recent loss of an American hero from Roland, Oklahoma, Master 
Sergeant Joshua Wheeler, who by his actions saved the lives of 70 
hostages and fellow members of a coalition task force.
    <bullet>  ISIL still controls much of northern and western Iraq 
despite more than a year of United States airstrikes and the loss of 
Ramadi was a significant setback.
    <bullet>  Russia continued its military buildup in Syria and began 
operations to support Assad.
    <bullet>  Iran Quds Forces in Syria have been joined by Iranian 
supported forces from Lebanon's Hezbollah to support the Assad regime, 
all under the command of General Soleimani, who previously directed 
attacks on United States forces in Iraq.
    <bullet>  The Administration scraped its $500 million Syrian rebel 
train-and-equip program.
    <bullet>  And we are now seeing the greatest refugee crisis since 
WWII out of Syria.

    19. Senator Inhofe. What impact do these recent developments and 
activities across Iraq, Afghanistan, Iran and Syria have the ``nine 
lines of effort''? (DOD has lead on #2 and #3: deny ISIL safe haven and 
build partner capacity in Iraq and Syria)?
    Secretary Carter. The United States continues to have the right 
strategy to degrade and ultimately defeat the Islamic State in Iraq and 
the Levant (ISIL). As you note, the Department is the lead on two of 
the nine lines of effort--denying ISIL safe haven and building partner 
capacity in Iraq and Syria. The approach is to degrade and ultimately 
defeat ISIL by working through local partners to enable their success 
on the ground while degrading ISIL through the air. The coalition's 
efforts have made some progress in Iraq and Syria over the past several 
months. For example, in Syria, with United States help, including 79 
airstrikes, a coalition of Syrian Arabs and Kurds recaptured important 
terrain by pushing ISIL out of the town of Al Hawl and 800 square miles 
of surrounding territory in November. In Iraq, supported by coalition 
airstrikes, Iraqi Security Forces retook Tikrit; and United States 
airstrikes have enabled other Iraqi-led operations within Iraq. While 
the nine lines of effort remain valid, I constantly review our progress 
in each and adapt the strategy. As I have said publically, it is 
essential for all nine lines of effort to remain synchronized and I am 
continuously seeking ways to improve inter-agency coordination. I 
acknowledge that the U.S. faces serious challenges and I anticipate 
this will be a multi-year effort.

    20. Senator Inhofe. The Assad regime is being directly supported by 
Russia, Iran and Cuba. Does this mean the U.S. will have to accept the 
fact that the Assad regime is there to stay?
    Secretary Carter. As the Administration has stated previously, the 
conflict in Syria will not end until Assad is gone, as he has lost 
legitimacy to govern Syria. To that end, Secretary Kerry has 
intensified diplomatic efforts for a political resolution, and the 
Administration made progress last month in Vienna in moving the major 
stake-holders in Syria toward agreement on a set of basic principles to 
resolve the conflict.
    Russia and Iran's decision to intervene militarily in Syria was a 
poor one. Russia and Iran are making themselves targets for violent 
extremists, and their efforts to prop up the Syrian government will 
further fuel the conflict.

    21. Senator Inhofe. Have United States airstrikes declined in Syria 
since Russia has initiated military operations?
    Secretary Carter. The Coalition has not altered its operations in 
Syria due to Russia's ill-conceived intervention. Separately, weather 
over Syria has at times restricted the Coalition's ability to confirm 
targets before striking, limiting our ability to ensure our strikes are 
precise enough to reduce the risk of collateral damage and civilian 
casualties. There was also a decline in sorties in Iraq during this 
time period, where Russian aircraft are not operating, due to the same 
weather system. Although limited at times, during this time period, the 
Coalition's strikes against the Islamic State of Iraq and the Levant 
(ISIL) have increased impact on the battlefield. During one particular 
offensive in Syria, a coalition of Syrian Arabs and Kurds, assisted by 
United States airstrikes, recaptured important terrain from ISIL, 
pushing ISIL out of the town of Al Hawl and 800 square miles of 
surrounding territory. Along the Mara line in northwest Syria, 
Coalition strikes have recently enabled moderate Syrian forces--
including forces trained and equipped by the Department of Defense--to 
recapture two towns from ISIL. In addition to limiting the group's 
freedom of movement, the strikes are systematically targeting the ISIL 
oil network and striking critical oil infrastructure--destroying 100's 
of tankers--and degrading the group's ability to fund militant 
operations.

    22. Senator Inhofe. Can the flow of refugees be stopped without 
addressing both the Assad regime and ISIL operations in Syria?
    Secretary Carter. Failure to address the impact of both the Syrian 
government and the Islamic State in the Iraq and the Levant's (ISIL) 
brutal attacks on the Syrian population will only lead to further 
fighting in Syria and to an increase in Syrian refugees. To that end, 
the Coalition is pushing ISIL out of territory in Iraq and Syria 
through a combination of air strikes and support to ground partners. 
Because of these efforts, ISIL can no longer operate freely in 
approximately 20 to 25 percent of populated areas in Iraq and Syria 
that it previously controlled. Secretary Kerry has also intensified 
diplomatic efforts for a political resolution to the Syrian conflict, 
resulting in progress last month in Vienna, where major stake-holders 
in Syria agreed to a set of basic principles on resolving the conflict. 
To address the immediate needs of displaced Syrians, the Department of 
Defense, with Congressional support, is providing approximately $115 
million in humanitarian assistance. This assistance addresses life-
saving needs in the categories of shelter, health and sanitation, and 
water for Syrian refugees and other displaced persons in Lebanon, 
Jordan, Turkey, Iraq, and Syria.
                                  iran
    <bullet>  This administration's strategy, or more specifically a 
lack of across the Middle East created a power vacuum in Iraq, allowing 
the rapid expansion of ISIL as well as the growth of Iranian influence 
in Iraq and across the region.
    <bullet>  Iran Quds Forces in Syria have been joined by Iranian 
supported forces from Lebanon's Hezbollah to support the Assad regime, 
all under the command of General Soleimani, who previously directed 
attacks on United States forces in Iraq.
    <bullet>  They are working with the Russian and Syrians to take 
back territory from Western-backed rebels fighting against Assad.
    <bullet>  On 11 Oct, in violation of a 2010 U.N. Security 
Resolution, Iran tested an intercontinental ballistic missile, which 
could one day carry a nuclear weapon.

    23. Senator Inhofe. How do these actions impact regional stability 
and United States national security interests in the Middle East?
    Secretary Carter. Iran's actions as described above impact regional 
stability and United States national security interests in the Middle 
East by prolonging the Syrian civil war, fueling sectarian tension in 
the region, and increasing the concerns of U.S. regional partners. Iran 
has never tested an intercontinental ballistic missile; however, its 
October 10 test of a medium-range ballistic missile, called ``the 
Emad,'' violated United Nations Security Council Resolution 1929, which 
prohibits Iran from testing missiles inherently capable of delivering a 
nuclear weapon. In response to the October 10 test, the United States, 
in conjunction with France, Germany, and the United Kingdom, submitted 
a joint report to the United Nations Security Council for appropriate 
action. More broadly, the United States continues to address the 
totality of threats posed by Iran to United States interests and to 
regional stability in a myriad of ways, including through the 
Department of Defense's theater security cooperation plans. One key 
area of focus in these plans is the United States' effort to 
strengthen, integrate, and modernize the ballistic missile defense 
capabilities and capacities of partners in the region.
    General Dunford. Iran's malign activities threaten the internal 
security of Iran's neighbors. Iranian support to the Assad regime and 
terrorist groups on the battlefields of Syria has helped to prolong 
that conflict. Iran's influence in Iraq diminishes Baghdad's control 
over its security forces and weakens its effectiveness in prosecuting 
the C-ISIL campaign.
    Iran's continued violations of UNSCRs challenge the global 
nonproliferation institutions that are working to reduce ballistic 
missile threats, and Iran's increasingly-capable ballistic missile 
inventory threatens its neighbors.

    24. Senator Inhofe. Are you concerned about Iran's continued 
ballistic missile development and support to terrorist organizations 
such as Hezbollah and Hamas?
    Secretary Carter. I continue to be gravely concerned about Iran's 
ballistic missile program and its support to terrorist organizations. 
For decades, the Department of Defense (DOD) has prioritized monitoring 
and responding to the totality of threats posed by Iran to United 
States interests in the Middle East. Iran's missile development and 
support to terrorist organizations are not new phenomena. DOD will 
continue posturing forces in the Middle East to deter Iranian 
aggression and will continue to strengthen, modernize, and integrate 
the capabilities and capacities of U.S. partners in the region to 
reduce Iran's ability to coerce them militarily, including 
strengthening our partners capabilities and capacities. Moreover, DOD 
will continue to counter and deter Iranian destabilizing activities 
through military partnerships, force posture, preparations, and plans.
    General Dunford. Yes. Iran's continued violations of UNSCRs related 
to ballistic missiles undermine the global non-proliferation 
institutions that are working to reduce ballistic missile threats. 
Iran's increasingly-capable ballistic missile inventory threatens its 
neighbors.
    I am concerned about Iran's support to terrorist organizations. 
Iran's malign activities in support of Hezbollah have bolstered 
Hezbollah's capabilities. Iranian support to Hezbollah has prolonged 
the conflict in Syria, where Hezbollah fighters fight alongside the 
Assad Regime. Iran's support of Hezbollah's malign activities threatens 
other countries where Hezbollah maintains a presence.
    In Gaza, Iran's renewed support of Hamas increases the volatility 
of an already tense situation.

    25. Senator Inhofe. How do these actions impact DOD's efforts in 
the region?
    Secretary Carter. For decades, the Department of Defense (DOD) has 
prioritized monitoring and responding to the totality of threats posed 
by Iran to United States interests in the Middle East. Iran's October 
10 test of a medium-range ballistic missile, and its support for the 
Lebanese Hezbollah and brutal regime of Syrian dictator Bashar al Assad 
are, unfortunately, not new phenomena. DOD will continue posturing 
forces in the Middle East to deter Iranian aggression and will continue 
to strengthen, modernize, and integrate the capabilities and capacities 
of United States partners in the region to reduce Iran's ability to 
coerce them militarily, including in the area of ballistic missile 
defenses.
    General Dunford. Addressed in QFR 23. Please see response to QFR 
23.
                               __________
                               
                               
              Questions Submitted by Senator Roger Wicker
                          middle east strategy
    Secretary Carter and General Dunford, thanks for joining us this 
morning.
    Chairman McCain called this hearing to discuss our strategy in the 
Middle East. As General Petraeus told our committee on September 22, 
``The Middle East is not a part of the world that plays by Las Vegas 
rules: What happens in the Middle East is not going to stay in the 
Middle East.''
    Our strategy should be bold and comprehensive. Our lack of early 
decisiveness on Syria left a power vacuum that is now being exploited 
by the Russians, a country General Dunford said this summer is the 
greatest threat to United States national security. The stakes are high 
and we cannot afford to take anymore half-measures against ISIS and 
Assad.
    General Petraeus told our committee that ``If there is to be any 
hope of a political settlement [in Syria], a certain military and 
security context is required . . . We and our partners need to 
facilitate it--and over the past four years, we have not done so.''

    26. Senator Wicker. What do you believe is the appropriate United 
States military role to create the military and security context in 
Syria that General Petraeus refers to?
    Secretary Carter. The Department's efforts in Syria are aimed at 
degrading and defeating ISIL. These efforts complement diplomatic 
efforts to achieve a political transition in Syria. There is however no 
military solution to the conflict itself. To that end, Secretary Kerry 
has intensified diplomatic efforts for a political resolution, with 
recent progress in Vienna, where the major stake-holders in Syria 
agreed to a set of basic principles to resolve the conflict.
    Degrading and defeating ISIL is in the United States' interest and 
a key part of our broader strategy in Syria. To accelerate these 
efforts against ISIL, the Department is enhancing its current campaign 
by deploying a limited number of Special Operations Forces to Syria to 
assist counter-ISIL forces, adding additional United States enablers in 
support of Iraqi ground forces and increasing support to neighboring 
countries, such as Jordan. The Department has also ramped up pressure 
on ISIL by providing support to additional ground forces in Syria, such 
as the Syrian Arab Coalition, and increasing air strike capabilities by 
deploying additional assets to Incirlik Air Base in Turkey.
    Russia's strategy, on the other hand, is fundamentally flawed. It 
is clear that Russia is devoting its strikes overwhelmingly to non-ISIL 
targets in Syria, casting doubt on Moscow's seriousness about reaching 
a political solution and contradicting its publically and privately 
stated justifications for its military intervention. Moreover, by its 
actions, Russia is making itself a target for violent extremists in 
Syria, from within Russia, and from other parts of the world. Instead 
of assuming a leadership role, Russia is isolating itself from the 
large majority of the countries in the region--including Turkey; Saudi 
Arabia and the Gulf States; Jordan, and others.
    General Dunford. The United States military role in the Syrian 
conflict is to lead and maintain the Coalition to counter ISIL, help 
create conditions on the ground that will end the Syrian conflict, and 
support the peaceful political transition of Assad from power
    United States leadership and military effort in the Middle East far 
outmatches the relatively small level of Russian involvement in Syria, 
which continues to be directed against Syrian opposition forces rather 
than ISIL.
    Chairman McCain has repeatedly referenced the terror and carnage 
caused by Assad's barrel bombs that are deployed by Syrian aircraft. 
It's the barrel bombs and air attacks that are causing most of the 
civilian casualties in Syria--not ISIS.
    Chairman McCain has repeatedly referenced the terror and carnage 
caused by Assad's barrel bombs that are deployed by Syrian aircraft. 
It's the barrel bombs and air attacks that are causing most of the 
civilian casualties in Syria--not ISIS.

    27. Senator Wicker. Do you agree with General Petraeus that we have 
the capability to take out Assad's air force? How does the presence of 
Russian boots on the ground impact that option?
    General Dunford. Yes, I agree with General Petraeus that the U.S. 
military has the capability to destroy Assad's air force. Attacking 
Assad's air forces would likely result in both Syrian regime and 
Russian casualties, as Russian forces and aircraft are intermingled 
with those of the Assad regime, both on the ground and in the air. 
Sophisticated Russian air defenses also complicate any such mission. 
Such an effort would increase the possibility of miscalculation and 
unintended conflict with Russia, would complicate the situation on the 
ground, and could put the solidarity of the Coalition at risk.

    28. Senator Wicker. Do you believe the U.S. has the capability to 
establish and enforce a no-fly zones over vulnerable Syrian 
populations? How does the presence of Russian boots on the ground 
impact that option?
    General Dunford. Yes, I believe the United States has the 
capability to establish and enforce no-fly zones over vulnerable Syrian 
populations that would protect people on the ground below from airborne 
attacks. However, no-fly zones would not deny surface-to-surface 
ordnance, so we could not protect those people from attacks originating 
on the surface, such as artillery attacks and ground-based assaults. 
The Syrian regime would likely oppose the establishment of no-fly zones 
as a violation of their territorial sovereignty. This opposition in 
turn could cause a major regional conflict that would ultimately 
exacerbate the plight of vulnerable Syrian populations. The presence of 
Russians on the ground, operating in support of the Syrian regime, 
amplifies the complexity and uncertainty in the region and further 
increases the risk of a major regional conflict in Syria.
                                  ndaa
    29. Senator Wicker. Is it correct that military construction 
funding--funding for security upgrades, troop housing, and other 
military facilities--must be both authorized and appropriated?
    Secretary Carter. Yes, it is correct that military construction 
funding must be both authorized and appropriated.

    30. Senator Wicker. Since that is the case, would you want to take 
this opportunity before our committee to revise your prior statements 
that the Defense Authorization Bill is unimportant and ``just a policy 
bill''?
    Secretary Carter. The Defense Authorization Bill is important 
legislation for the national security of the United States. The 
Department needs a Defense Authorization Bill that will provide a 
stable, multi-year budget for sound defense planning. Budget stability 
beyond the 1-year horizon and adequately authorized funding are 
necessary for the Department to make optimal use of its resources. The 
Department also needs a Defense Authorization Bill that will enable 
detainee policies, provide authority for reforms of force structure, 
and modernize military healthcare.
                               __________
                               
                               
                               
              Questions Submitted by Senator Kelly Ayotte
                    tehran's ballistic missile test
    31. Senator Ayotte. Secretary Carter, what is the administration 
going to do about Iran's October 10th ballistic missile test that 
violated U.N. Security Council Resolution 1929?
    Secretary Carter. On October 21, the United States, the United 
Kingdom, France, and Germany submitted a joint report to the United 
Nations (UN) Iran Sanctions Committee on Iran's October 10 medium-range 
ballistic missile launch. The report stated that the launch was a 
violation of UN Security Council Resolution 1929 prohibiting missile 
launches inherently capable of delivering a nuclear warhead and 
requested that the UN Panel of Experts review the report and take 
appropriate action. The Administration will continue to urge the 
Security Council to respond effectively to any future violations of UN 
Security Council resolutions.

    32. Senator Ayotte. Secretary Carter, what specific steps does the 
administration plan to take in order to respond to Iran's ballistic 
missile test and the U.N. Security Council resolution violation?
    Secretary Carter. On October 21, the United States, along with the 
United Kingdom, France, and Germany, submitted a joint report to the 
United Nations (UN) Iran Sanctions Committee on Iran's October 10, 
2015, medium-range ballistic missile launch. The report stated that the 
launch was a violation of UN Security Council Resolution 1929, which 
prohibits missile launches inherently capable of delivering a nuclear 
warhead, and requested that the UN Panel of Experts review the report 
and take appropriate action. In addition, the United States will 
continue to: work with the more than 100 countries that have endorsed 
the Proliferation Security Initiative to help limit Iranian missile-
related imports or exports; urge all countries to implement and enforce 
missile-related exports consistent with Missile Technology Control 
Regime standards; and impose penalties when warranted under United 
States domestic authorities on any additional Iranian entities involved 
in such missile tests. Finally, the United States will continue to 
sustain its missile defense capabilities in the region and bolster the 
capabilities of allies and partners.

    33. Senator Ayotte. Secretary Carter and General Dunford, what 
specific steps are being taken to better protect United States military 
personnel in the region from a ballistic missile attack from Iran?
    Secretary Carter. At the Gulf Cooperation Council (GCC) Camp David 
Summit earlier this year, President Obama re-affirmed our commitment to 
missile defense in the Gulf region.We have taken a number of specific 
steps: First, we have created a robust regional U.S. missile defense 
architecture consisting of ballistic missile intercept, early warning, 
and command and control infrastructures. Second, the United States has 
worked bilaterally with GCC-member States to build up their own 
capacity for self-defense, complementing the U.S. capabilities already 
in the region. The United States is also working in conjunction with 
these bilateral efforts to aid the GCC as a whole in building an 
interoperable multilateral regional defense system. Finally, the United 
States intends to preserve a strong force posture in the Middle East, 
which will include United States missile defense capabilities, to 
protect key resources and augment the range of bilateral and 
multilateral initiatives we continue to pursue.In total, these efforts 
will increase efficiency and effectiveness of limited individual 
resources through expanding the capability as a whole to defend the 
region against the Iranian ballistic missile threat.
    General Dunford. The department takes the Iranian ballistic missile 
threat to United States military personnel very seriously. To counter 
this threat, we've forward deployed AN/TPY-2 radars, Patriot Air 
Defense Systems, and Aegis Ballistic Missile Defense-capable ships 
throughout the CENTCOM and EUCOM regions. We have deliberately chosen a 
forward defense posture, and thus, these systems are deployed to the 
maximum extent of their sustainability. In Europe, the first Aegis 
Ashore site will soon be active as part of the European Phased Adaptive 
Approach Phase 2. This site will not only provide defense to U.S. 
military personnel in Europe, but will also provide the U.S. 
contribution to NATO Ballistic Missile Defense. We will soon start work 
on building the second Aegis Ashore site in Poland. Finally, we are 
working to upgrade our early warning system in both theaters, and are 
increasing passive defense measures to minimize the impact of an attack 
in CENTCOM.

    34. Senator Ayotte. General Dunford, what specific additional steps 
are we taking to work with Israel to improve their ability to defend 
against Iranian ballistic missiles?
    General Dunford. The United States and Israel jointly developed the 
Arrow Weapon System (AWS), which provides Israel with the capability to 
defend itself against imminent and emerging ballistic missile threats, 
while providing the United States with critical data and technology for 
its missile defense programs.
    Overall, ballistic missile defense cooperation constitutes our most 
robust bilateral effort to bolster Israel's defense. In recent years, 
the U.S. has provided over $3 billion in addition to annual FMF to help 
develop intercept systems such as the Iron Dome for short-range 
rockets, the David's Sling for medium range missiles, and the AWS for 
ballistic missiles.

    35. Senator Ayotte. Secretary Carter, if there are no consequences 
for Iran's most recent violation--which is clearly designed to test 
U.S. resolve and see what they can get away with--won't that simply 
exacerbate this consistent Iranian willingness to ignore its 
obligations and flout international law?
    Secretary Carter. Iran's October 10, 2015, test of the ``Emad'' 
Medium Range Ballistic Missile constituted a violation of United 
Nations Security Council Resolution 1929. The United States views this 
as a serious matter. There will be consequences for this violation. The 
United States has already raised this issue at the United Nations (UN) 
Security Council. Together with the United Kingdom, France, and 
Germany, the United States has asked the UN Security Council's Iran 
Sanctions Committee to review the matter and recommend appropriate 
action. The United States will continue to press the UN Security 
Council to respond to any and all future Iranian violations of UN 
Security Council resolutions. Furthermore, the United States will 
continue to support the full range of unilateral and multilateral tools 
available--including the Missile Technology Control Regime, 
Proliferation Security Initiative, and a variety of United States 
domestic authorities--to counter Iran's missile program.
   need for long-term law of war detention and interrogation facility
    36. Senator Ayotte. Secretary Carter, will United States 
interrogators have access to the five ISIS terrorists detained in the 
October 22 joint Iraqi Peshmerga and United States raid.
    Secretary Carter. United States Special Operations Forces have a 
well-established relationship with the Iraqi Peshmerga. The United 
States has arrangements in place with the Iraqi Peshmerga to ensure 
that United States personnel can receive important intelligence from 
captured Islamic State in Iraq and the Levant personnel.

    37. Senator Ayotte. Secretary Carter, if we capture al-Baghdadi or 
Ayman al-Zawahiri, where would we detain them for long term law of war 
detention and interrogation?
    Secretary Carter. The appropriate disposition for a detainee is 
determined on the basis of all the facts and circumstances, including 
the national security interests of the United States and its allies and 
partners, and the conduct the detainee has engaged in, consistent with 
U.S. domestic law and international law. Depending on the 
circumstances, detainees may be prosecuted in the United States, 
detained in their home countries, or detained in a third country. The 
Department makes assessments regarding the appropriate disposition of 
detainees on a case-by-case basis.
                    more effective targeting of isis
    38. Senator Ayotte. General Dunford, according to CENTCOM, since 
October 23 of last year, there have been 60,083 coalition sorties and 
only 8,751 weapons releases. That is about 85% of sorties returning 
without weapons release. What explains that number of sorties not 
engaging the enemy and what can we do to better identify and target 
ISIS?
    General Dunford. A myriad of factors influence both the number of 
sorties flown and weapons dropped; as of the end of 2015, the 
percentage of strike sorties that have gone kinetic (as measured by 
combatant commander airstrike accounting methodology) reached nearly 
60%. Additionally, there is a constant requirement for strike support 
sorties such as ISR, air refueling, and other support flights that 
comprise the total number of sorties flown to date which leads to a 
varying rate of kinetic activity.
                          abadi's performance
    39. Senator Ayotte. General Dunford, what is Iraqi Prime Minster 
Abadi doing to create an inclusive Iraqi government and Iraqi security 
forces?
    General Dunford. While he faces substantial domestic challenges, 
Prime Minister Abadi remains committed to building inclusive governance 
and Iraqi Security Forces. From a military and security standpoint, he 
and his government leaders have made progress in mobilizing Sunnis into 
official security institutions, particularly in Anbar and Ninewa 
Provinces. PM Abadi recognizes the necessity and efficacy of the Iraqi 
tribal mobilization program and has sought ways to keep its members 
paid and equipped. At PM Abadi's directive, the Ministry of Defense 
removed several thousand ``ghost soldiers'' from Iraqi Army payrolls, 
increased the provincial cap for Sunni forces in Anbar, and recalled 
several thousand Sunni police. For greater detail on other Iraqi 
government efforts, I would refer you to the Department of State.

    40. Senator Ayotte. General Dunford, what does Iraqi Prime Minster 
Abadi need to do that he is not, in order to create an inclusive Iraqi 
government and Iraqi security forces?
    General Dunford. Prime Minister Abadi must balance the influence 
and interests of multiple internal and external actors in a difficult, 
fiscally constrained political environment. He also must minimize 
Iranian influence over Shi'a militia and account for the role played by 
the Iraqi Shi'a who rallied to the Iraqi national cause by enrolling in 
the Popular Mobilization Forces. He and other government leaders will 
have to continue their work to remove ``ghost soldiers'' from Iraqi 
Army payrolls, account for the Iraqi Security Forces' equipment, expand 
efforts to mobilize Sunnis into official government security 
institutions, enact institutional reforms, and appoint and empower 
capable subordinate commanders.
                sunni inclusion in iraqi security forces
    41. Senator Ayotte. General Dunford, what is the sectarian makeup 
of both the six Iraqi Army brigades and the 2100 counter-terrorism 
service personnel that CENTCOM reportedly helped train?
    General Dunford. We estimate the ISF units trained by CENTCOM are 
80% Shia, 15% Sunni, and 5% other. This is an overall sectarian makeup 
for all six Iraqi Army Brigades with the understanding that each 
brigade makeup will vary depending on their respective region. In 
addition, we estimate Iraqi Counter-Terrorism Service personnel are 90% 
Shia and 10% other.
                          jordan's perspective
    42. Senator Ayotte. General Dunford, during your recent meeting 
with King Abdullah of Jordan, what were the King's leading concerns?
    General Dunford. The King is clearly concerned how the Counter-ISIL 
campaign might impact Jordan, either through ISIL attacks near Jordan's 
borders with Syria and Iraq or through a threat internal to the 
Kingdom. His Majesty is concerned, in particular, that as the coalition 
achieves military success against ISIL in northern Syria, the ISIL 
threat may move south, which would pose an increased threat to Jordan's 
borders. Similarly, the King is concerned about a sudden refugee influx 
due to military operations against ISIL or other opposition groups. 
Military actions in the south of Syria could displace people who would 
seek safe haven in Jordan.

    43. Senator Ayotte. General Dunford, what was King Abdullah's 
assessment of U.S. policy and strategy in the region?
    General Dunford. The King was appreciative of United States support 
to Jordan. We have worked hard to deliver needed munitions and 
equipment to the Jordanian Armed Forces, to ensure they can continue to 
actively contribute to the counter-ISIL coalition. King Abdullah also 
agrees with our assessment that we are having military success against 
ISIL. He has concerns about ISIL encroaching on Jordan's borders and 
wants more assistance in hardening Jordan's defenses. The Joint Staff 
can provide additional details of our efforts on behalf of Jordan and 
the King's assessment in a classified setting.

    44. Senator Ayotte. General Dunford, what was King Abdullah's 
assessment of the campaign against ISIS?
    General Dunford. King Abdullah shares our assessment that the 
coalition has degraded ISIL's capability. King is concerned that 
military success in northern Syria could push ISIL south, creating 
pressure on the Jordanian-Syrian border. That possibility concerns me 
as well. The Joint Staff can provide additional detail on the King's 
assessment and coalition efforts in support of Jordan in a classified 
setting.
                                  nato
    45. Senator Ayotte. Secretary Carter and General Dunford, in a 
recent hearing, General Jones expressed concern about NATO's future. Do 
you share General Jones' concern that NATO could be in danger?
    Secretary Carter. Although the North Atlantic Treaty Organization 
(NATO) is the most successful and enduring alliance in history, we are 
not taking its future for granted. The United States will continue to 
lead the Alliance as NATO adapts to evolving challenges on its eastern 
and southern flanks. With continued support from Congress, the 
Department will set the conditions for a transition from focusing on 
reassurance to an enhanced rotational deterrence presence on NATO's 
eastern flank.
    On the southern flank of NATO in Europe, we will continue to work 
with both European and Middle Eastern Allies to defeat ISIL, end the 
civil war in Syria, and improve stability throughout the Middle East 
and North Africa. Most of the international community supports these 
efforts. The United States will continue to urge Russia to support 
these efforts as well. Ultimately the future of the Alliance is assured 
by its shared political values of human rights, democratic governance, 
and respect for the rule of law. These values, which stand in stark 
contrast to those of our adversaries, underwrite Alliance solidarity 
and the dedication to the principle that Alliance security is 
indivisible.
    General Dunford. It is my assessment that NATO solidarity and 
commitment remain strong. Alliance engagement in out-of-sector military 
operations for more than ten years has significantly enhanced our 
interoperability and generated valuable lessons that NATO is leveraging 
to combat new and emerging threats emanating from its southern and 
eastern flanks.
    As NATO adapts to its new security environment, U.S. leadership is 
important. On NATO's eastern flank, we are setting conditions for an 
enhanced rotational deterrence presence. On NATO's southern flank, we 
are working with both European and Middle Eastern Allies to enhance 
military capability, defeat ISIL, and improve stability.

    46. Senator Ayotte. Secretary Carter and General Dunford, is the 
Department of Defense re-evaluating U.S. defense posture in Europe?
    Secretary Carter. The Department continuously reviews its overseas 
force posture and looks holistically at how best to balance forward-
stationed forces with those based in the United States that can deploy 
overseas when necessary. Any adjustments to the Department's posture in 
Europe would be informed by the U.S European Command (EUCOM) 
Commander's requests and balanced against the Department's global 
commitments. The Department continues to use the global force 
management process to surge additional forces that are ready to operate 
in response to Combatant Commander requests.
    General Dunford. Yes, we are re-evaluating our defense posture in 
Europe to ensure we can respond in a timely manner to crises and 
contingencies in order to support USEUCOM objectives. Those objectives 
are to assure, deter, and defend against Russian aggression; support 
ongoing and future contingency operations; counter transnational 
threats; and help build our partners' capabilities to help us 
accomplish these missions.
    Leveraging continued Congressional support, funded through the 
European Reassurance Initiative (ERI), we are already increasing 
responsiveness and readiness by pre-positioning ammunition, fuel and 
equipment for use in regional training and exercises, as well as 
improving infrastructure that enhances NATO operations and enables 
Eastern Allies to rapidly receive reinforcements. The ERI also enables 
us to maintain our increased rotational force presence along NATO's 
eastern flank under Operation ATLANTIC RESOLVE (OAR) to demonstrate 
NATO commitment to deter and counter Russian malign influence, 
coercion, and aggression. In 2016, under the auspices of OAR, we will 
preposition additional European Activity Sets, which includes the full 
complement of equipment for one armor brigade combat team. Moving 
forward, we will continually assess what additional steps are required 
to meet the demands of a new and evolving security environment in 
Europe.
                               __________
                               
                               
              Questions Submitted by Senator Joe Donnelly
                            countering iran
    47. Senator Donnelly. Secretary Carter, there is a wide range of 
Iranian activities and threats that the Joint Comprehensive Plan of 
Action (JCPOA) does not address, including the recent ballistic missile 
test, Iran's support for terrorism, the American citizens they continue 
to hold hostage, and their stream of anti-Semitism and hate directed 
toward our allies in Israel, among others. It is critical to both the 
success of the Iran nuclear deal and our broader strategic interests in 
the Middle East that we have a clear, effective strategy to push back 
on Iran in the areas not mentioned or addressed by the nuclear 
agreement. What are we doing today, tomorrow, and next year to step up 
our efforts to counter Iran's influence and activities across the 
Middle East?
    Secretary Carter. The United States will continue to utilize its 
posture, preparations, plans, and partnerships to address the threats 
posed by Iran to United States interests in the Middle East. The 
Department remains keenly aware of Iran's support for militants and 
terrorists, its provocative naval activity, and the threats posed by 
its conventional military forces. The United States will continue to 
support efforts to hold Iran accountable for its destabilizing 
behavior. The United States will continue to work through the United 
Nations to enforce non-nuclear sanctions and will maintain United 
States sanctions against Iran in response to its terrorist activities, 
human rights abuses, and ballistic missile program.
    The United States remains well postured to counter Iranian threats 
through partnerships and preparations in the Middle East. The 
Department will maintain a robust and dynamic regional military 
presence and will reinforce security partnerships throughout the 
region. The Department of Defense will continue to: maintain plans and 
posture to bolster the security of our friends and partners in the 
Middle East, including Israel; defend against Iranian aggression; 
ensure freedom of navigation in the Gulf; and check Iranian malign 
influence. The Department will also ensure that the President has 
options available for any contingency that might arise.

    48. Senator Donnelly. How are our current efforts to counter Iran's 
influence different from what we've done in the past?
    Secretary Carter. Current efforts to counter Iran's influence build 
on and strengthen our previous efforts. Department of Defense (DOD) 
efforts in this regard are part of a whole-of-government strategy. In 
particular, DOD continues to focus its plans, posture, preparations, 
and partnerships on countering the myriad threats posed by Iran and 
remains committed to countering Iranian threats to United States 
interests in the region. This includes deterring Iranian aggression, 
addressing the threats posed by Iran's unconventional and conventional 
military forces, and ensuring that the President has options to address 
any contingency scenario that might arise with respect to Iran. DOD 
will also continue to build upon extensive regional security 
partnerships to challenge any future threats posed by Iran.
    General Dunford. Since the United States and Iran continue to offer 
two very different narratives, DOD's efforts, post-JCPOA, remain 
largely unchanged. The United States attracts allies and supporters 
through policies based on inclusion and freedom, while Iran attracts 
its surrogates and proxies through policies based on exclusion and 
violent revolution. Despite Iran's and the United States' overlapping 
interests of countering ISIL and implementing the JCPOA, DOD continues 
to plan and prepare contingency scenarios for Iran. In response to the 
Camp David Summit, DOD is pursuing new initiatives with our Gulf 
Partners on increasing security cooperation, conducting combined-joint 
exercises, and developing an integrated ballistic missile defense 
system.
                       iranian ballistic missiles
    49. Senator Donnelly. Secretary Carter, Iran has the largest and 
most diverse ballistic missile arsenal in the Middle East. This is a 
serious and bipartisan concern among members of the Armed Services 
Committee. My colleague Sen. Ayotte has diligently highlighted the 
risks posed by Iran's missile program, and Sen. Sessions and I worked 
together this year on the Strategic Forces Subcommittee to fund missile 
defense programs in the United States and Israel. What are your 
priorities in missile defense, whether here at home or through 
partnerships with Israel and the Gulf States, to counter the threats 
posed by Iran?
    Secretary Carter. I share your concern about Iran's ballistic 
missile program. First and foremost, the homeland is already protected 
from limited Iranian and North Korean ballistic missile threats. 
Moreover, the Department places the highest priority on improving the 
reliability of the current Ground-based Midcourse Defense (GMD) system 
to defend the homeland against a North Korean or possible future 
Iranian intercontinental ballistic missile (ICBM) attack. The 
Department is working with industry to redesign the exo-atmospheric 
kill vehicle to address identified reliability issues. The Department 
has also funded a Long-Range Discrimination Radar (LRDR) that is 
currently projected to be operational by 2020 and will improve our 
capability to discern the reentry vehicle in a threat cluster. 
Additionally, as then-Secretary Hagel announced in March 2013, the 
Department is increasing the number of ground-based interceptors to the 
GMD system by 14 to a total of 44 by the end of 2017.
    In Europe, the Department is continuing to implement the European 
Phased Adaptive Approach (EPAA). The Aegis Ashore Missile Defense 
System (AAMDS) in Romania will achieve Technical Capability Declaration 
by the end of this year. By spring 2016, all EPAA Phase 2 elements to 
include the AAMDS in Romania will be operational. Construction on the 
Aegis Ashore Missile Defense System in Redzikowo, Poland, will begin in 
early 2016 with completion expected in the 2018 timeframe.
    The United States has provided $3.69 billion in missile defense 
assistance to Israel since 2001. This investment in Israel's national 
security has supported production of the Iron Dome defense system 
against rockets and mortars as well as co-development of David's Sling 
and Arrow weapon systems that can shoot down longer-range rockets and 
ballistic missiles.
    The objective in the Middle East is to maintain a robust missile 
defense posture to protect deployed forces, and to establish a regional 
missile defense architecture in which all of the Gulf Cooperation 
Council states participate and contribute to the extent practical, 
leading to a layered defense network.
                            syrian safe zone
    50. Senator Donnelly. The safe zone versus ``no-fly'' zone in Syria 
was discussed during the SASC hearing on the United States Strategy in 
the Middle East. We all agree that the crisis in Syria is far from over 
and it is time that the United States and regional partners more 
aggressively address the human suffering there. If we were to establish 
a humanitarian safe zone in Syria, what would the force requirements 
look like--hypothetically?
    Secretary Carter. Establishing a humanitarian safe zone would 
require a significant increase in forces because it would need to 
consist of both a no-fly zone to control airspace and a ground force 
component to clear and hold territory in Syria to create the ``safe'' 
area. Securing a humanitarian safe zone would be exceptionally 
difficult for a number of reasons, including that extremist groups such 
as the Islamic State of Iraq and the Levant (ISIL) and al-Nusra Front 
would attempt to infiltrate such a zone. The Syrian regime, backed by 
Iran and Russia, would also likely contest the establishment of the 
humanitarian safe zone, increasing the cost, complexity, and risk 
associated with it. There is also a significant risk that the 
establishment of safe-zone would fracture the counter-ISIL coalition.
    The Department of Defense estimates that a safe zone would require 
approximately 120 additional aircraft in theater, and approximately 
20,000 military personnel to conduct operations to clear and hold the 
zone in Syria. These estimates can vary depending on the size and 
geographic location of the area as well as the Syrian government's 
response. These numbers do not take into account the additional 
logistics necessary to support such an increased force.
    General Dunford. Establishing a humanitarian safe zone would 
require a significant increase in forces because it would need to 
consist of both a no-fly zone to control airspace and a ground force 
component to clear and hold territory in Syria to create the ``safe'' 
area. Securing a humanitarian safe zone would be exceptionally 
difficult for a number of reasons, not the least of which is that 
extremist groups such as the Islamic State of Iraq and the Levant 
(ISIL) and al-Nusra Front would attempt to infiltrate the zone. The 
conventional U.S. forces required to implement such a zone would likely 
become a magnet for local extremist actors. It is also likely that the 
Syrian regime, with support from Russia and Iran, would militarily 
oppose Coalition occupation of their sovereign territory. Absent an 
international legal basis, such as a United Nations Security Council 
Resolution, there is also significant risk of fracturing the counter-
ISIL Coalition.
    The Department of Defense (DOD) estimates that a safe zone would 
require approximately 120 additional aircraft in theater and 
approximately 20,000 military personnel to conduct operations to clear 
and hold the zone in Syria. These estimates do not take into account 
the additional logistics tail necessary to support such an increased 
force. Those numbers could vary significantly depending upon the size 
and location of the geographic area and the Syrian government response.

    51. Senator Donnelly. What type of commitment would that entail in 
terms of personnel, security, and funding?
    Secretary Carter. Over the past two years, the Department of 
Defense has extensively examined options for a no-fly zone or safe zone 
in Syria based on geographic scope and objective. Both options would be 
a major military undertaking and would likely pull resources away from 
the counter-Islamic State of Iraq and the Levant (ISIL) campaign as 
well as harm readiness to execute other war plans.
    In terms of security in such a safe zone, extremist groups on the 
ground such as ISIL and al-Nusra Front would attempt to infiltrate such 
as zone. The conventional U.S. forces required to implement such a zone 
would also likely become a magnet for local extremist actors. The 
Syrian regime, with support from Russia and Iran, would also militarily 
contest Coalition occupation of its sovereign territory. There is also 
a significant risk that the establishment of safe-zone would fracture 
the counter-ISIL coalition. The costs to establish a safe zone must 
account for both aircraft to enforce a no-fly zone and ground forces in 
Syria to clear and hold territory to create the ``safe'' area.
    The cost for a safe zone would be approximately $400 million 
dollars per month, depending on the location and size of the zone that 
would be implemented as well as the nature of the Syrian government 
response. This estimate does not include deployment costs; all forces 
are assumed to be in theater already. This estimate also does not 
include costs associated with infrastructure construction; all required 
infrastructure is assumed to exist. Finally, this estimate does not 
assume any combat losses.
    In terms of other resources, establishing a humanitarian safe zone 
would require approximately 120 additional aircraft in theater, and 
20,000 military personnel conducting operations to clear and hold the 
zone in Syria. These estimates do not take into account the logistics 
necessary to support such an increased force, and also vary depending 
upon the size and location of the geographic area as well as the nature 
of the Syrian government response. It is also unclear whether Coalition 
partners are prepared to contribute manpower or funding to a safe zone.
    General Dunford. Over the past two years, the Department of Defense 
has extensively examined options for a no-fly zone or safe zone in 
Syria based on geographic scope and objective. In general, the 
commitment in terms of personnel, security, and funding that a Syrian 
safe zone would require are substantial.
    In terms of security in such a safe zone, extremist groups on the 
ground such as the Islamic State in Iraq and the Levant (ISIL) and al-
Nusra Front would attempt to infiltrate such a zone. The conventional 
U.S. forces required to implement such a zone would likely become 
magnets for local extremist actors and targets for asymmetrical 
attacks. The Syrian regime, with support from Russia and Iran, may also 
militarily contest Coalition occupation of its sovereign territory.
    In terms of other resources, establishing a humanitarian safe zone 
would require approximately 120 additional aircraft in theater, and 
20,000 military personnel conducting operations to clear and hold the 
zone in Syria. These estimates do not take into account the logistics 
tail necessary to support such an increased force, and those numbers 
could vary significantly depending upon the size and location of the 
geographic area as well as the nature of the Syrian government 
response. It is also unclear whether Coalition partners are prepared to 
contribute manpower or funding to a safe zone.
    The costs to establish a safe zone must account for both aircraft 
to enforce a no-fly zone and ground forces in Syria to clear and hold 
territory to create the ``safe'' area. The rough fiscal cost for a safe 
zone would be approximately $400 million dollars per month, which might 
vary depending on the location and size of the zone implemented as well 
as the nature of the Syrian government response. This estimate does not 
include deployment costs, as all forces are assumed to be in theater 
already. This estimate also does not include costs associated with 
infrastructure construction, as all required infrastructure is assumed 
to exist. Finally, this estimate does not assume any combat losses to 
personnel or major air and ground equipment.

    52. Senator Donnelly. Are there previous humanitarian operations 
that would provide elements for this type of mission such as Kosovo, 
Turkey, Fukushima, or Pakistan?
    Secretary Carter. Department of Defense (DOD) planners, along with 
interagency counterparts, absolutely consider the lessons from prior 
relevant humanitarian operations as they create options for mitigating 
the Syrian humanitarian crisis. In addition, DOD is currently 
contributing to humanitarian efforts in Syria and the region. DOD is 
providing approximately $115 million worth of humanitarian supplies 
(including transportation costs) to Syrian refugees and other persons 
displaced as the result of the ongoing Syrian crisis and conflict in 
Iraq.
    General Dunford. When planning current operations, we look for 
commonalities with past operations that may provide helpful insight for 
contingency planning; however, every operation contains a unique mix of 
circumstances that drive a tailored response. That said, we are in 
agreement with the humanitarian community, which generally does not 
support ``safe zones,'' as they imply a level of safety that often 
cannot be absolutely guaranteed or enforced.

    53. Senator Donnelly. What type of interagency support would be 
required for a mission such as this?
    Secretary Carter. Establishing a safe zone in Syria would require 
significant interagency support. The participation of the Department of 
Defense, Intelligence Community, the U.S. Agency for International 
Development, the Department of State, and the Department of Homeland 
Security, among others, would all likely be required for such a 
mission, although the exact nature and degree of support would depend 
on the specifics of the zone established.
    General Dunford. While the Interagency (IA) has reviewed the 
viability of safe zones on multiple occasions at the National Security 
Council level, and each time has agreed that establishing such a zone 
is not appropriate or viable, the first requirement for a safe zone 
would be to gain IA concurrence.
    Should the decision to create a safe zone be taken, the IA would 
need to exert diplomatic effort to gain a legal basis for establishing 
the zone. Further diplomatic action would be necessary to garner 
support among allies and regional partners to contribute the forces 
and/or resources required to protect the safe area against attacks by 
both ground and air. This would include sufficient ground forces to 
safeguard the zone from rockets, missiles, artillery, and other 
conventional or terror threats.
    A safe zone mission would then involve coordinating the actions of 
participating humanitarian and Non-Governmental Organizations. IA 
support would be required to establish institutions to help resolve 
inevitable conflicts between the multi-cultural and sectarian 
inhabitants of the zone. The IA would also have a role to play within 
international institutions in maintaining governance accounting for 
differences between those who live in the zone and those who are 
temporarily resettled there.

    54. Senator Donnelly. General Dunford, with all operations, we must 
consider the potential challenges and unintended consequences. Can you 
provide some of those challenges specifically for humanitarian and 
security operations?
    General Dunford. Safe zones are natural targets. The primary 
challenge of establishing a Syrian Safe Zone is providing adequate 
resources to protect and sustain a refugee population. These resources, 
including the type and quantity of joint or multinational forces, 
humanitarian supplies and equipment, and diplomatic and legal 
justifications, are driven by the nature of the threat and the basic 
needs of refugees.
    A safe zone in Syria will have unintended consequences. These may 
include the departure of aid organizations due to security concerns or 
to maintain their neutrality. If the safe zone is not endorsed by the 
UN Security Council, UN organizations may be restricted by policy, 
security, and liability concerns. This could cause NGOs that depend on 
UN funding to also depart the zone. The safe zone may also attract a 
significant number of out-of-state regional refugees seeking protection 
and assistance. Similarly, neighboring countries may coerce refugee 
movement towards the safe zone. Both the push and pull of refugees may 
overwhelm the capacity to provide adequate security and assistance.
    Other challenges associated with the establishment of safe zones in 
such a complicated part of Syria include: (1) Risk of combat against 
Syrian/Russian/Iranian forces, which would cause a much greater 
humanitarian problem; (2) Risk of fracturing the counter-ISIL 
coalition. Absent an international legal basis, many coalition members 
do not support violation of Syrian sovereignty; (3) Risk of significant 
readiness reduction for forces postured against other global 
commitments; and (4) Risk of weakening the counter-ISIL campaign 
because of diversion of resources

    55. Senator Donnelly. Secretary Carter, what type of Department of 
Defense personnel have the expertise for planning and conducting this 
type of operation?
    Secretary Carter. At the planning level, the Department of Defense 
(DOD) has analyzed several safe zone options in Syria for the 
Administration's consideration, but does not recommend any such option 
at this time. Establishment of a safe zone would involve air and ground 
forces to secure the territory and airspace for humanitarian 
operations. Therefore, DOD personnel with expertise in air and ground 
combat operations would be involved in planning and conducting this 
type of operation. DOD personnel would also plan and conduct any such 
operation in coordination with other interagency partners with 
experience in humanitarian operations.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
